<html>
<title> - AN ASSESSMENT OF FEDERAL RECOVERY EFFORTS FROM RECENT DISASTERS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
    AN ASSESSMENT OF FEDERAL RECOVERY EFFORTS FROM RECENT DISASTERS

=======================================================================

                                (116-38)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
             
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            
 


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             
                             ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
41-481 PDF            WASHINGTON : 2020 
                              
                             

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              DANIEL LIPINSKI, Illinois
MARK MEADOWS, North Carolina         STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
ROB WOODALL, Georgia                 HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN KATKO, New York                 Georgia
BRIAN BABIN, Texas                   ANDRE CARSON, Indiana
GARRET GRAVES, Louisiana             DINA TITUS, Nevada
DAVID ROUZER, North Carolina         SEAN PATRICK MALONEY, New York
MIKE BOST, Illinois                  JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           JULIA BROWNLEY, California
DOUG LaMALFA, California             FREDERICA S. WILSON, Florida
BRUCE WESTERMAN, Arkansas            DONALD M. PAYNE, Jr., New Jersey
LLOYD SMUCKER, Pennsylvania          ALAN S. LOWENTHAL, California
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
BRIAN J. MAST, Florida               STACEY E. PLASKETT, Virgin Islands
MIKE GALLAGHER, Wisconsin            STEPHEN F. LYNCH, Massachusetts
GARY J. PALMER, Alabama              SALUD O. CARBAJAL, California, 
BRIAN K. FITZPATRICK, Pennsylvania   Vice Chair
JENNIFFER GONZALEZ-COLON,            ANTHONY G. BROWN, Maryland
  Puerto Rico                        ADRIANO ESPAILLAT, New York
TROY BALDERSON, Ohio                 TOM MALINOWSKI, New Jersey
ROSS SPANO, Florida                  GREG STANTON, Arizona
PETE STAUBER, Minnesota              DEBBIE MUCARSEL-POWELL, Florida
CAROL D. MILLER, West Virginia       LIZZIE FLETCHER, Texas
GREG PENCE, Indiana                  COLIN Z. ALLRED, Texas
                                     SHARICE DAVIDS, Kansas
                                     ABBY FINKENAUER, Iowa
                                     JESUS G. ``CHUY'' GARCIA, Illinois
                                     ANTONIO DELGADO, New York
                                     CHRIS PAPPAS, New Hampshire
                                     ANGIE CRAIG, Minnesota
                                     HARLEY ROUDA, California
                                     Vacancy
                                ------                                

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

     DINA TITUS, Nevada, Chair
MARK MEADOWS, North Carolina         DEBBIE MUCARSEL-POWELL, Florida
GARY J. PALMER, Alabama              SHARICE DAVIDS, Kansas
JENNIFFER GONZALEZ-COLON,            ELEANOR HOLMES NORTON,
  Puerto Rico                          District of Columbia
CAROL D. MILLER, West Virginia       HENRY C. ``HANK'' JOHNSON, Jr., 
GREG PENCE, Indiana                  Georgia
SAM GRAVES, Missouri (Ex Officio)    JOHN GARAMENDI, California
                                     ANTHONY G. BROWN, Maryland
                                     LIZZIE FLETCHER, Texas, Vice Chair
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Dina Titus, a Representative in Congress from the State of 
  Nevada, and Chairwoman, Subcommittee on Economic Development, 
  Public Buildings, and Emergency Management:

    Opening statement............................................     1
    Prepared statement...........................................     2
Hon. Carol D. Miller, a Representative in Congress from the State 
  of West Virginia:

    Opening statement............................................     3
    Prepared statement...........................................     4
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     5
    Prepared statement...........................................     6
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     7
    Prepared statement...........................................     8

                               WITNESSES
                                Panel 1

Jeffrey Byard, Associate Administrator, Office of Response and 
  Recovery, Federal Emergency Management Agency, U.S. Department 
  of Homeland Security:

    Oral statement...............................................     9
    Prepared statement...........................................    11
Dennis Alvord, Deputy Assistant Secretary of Commerce for 
  Economic Development and Chief Operating Officer, Economic 
  Development Administration, U.S. Department of Commerce:

    Oral statement...............................................    14
    Prepared statement...........................................    15
Chris P. Currie, Director, Homeland Security and Justice, U.S. 
  Government Accountability Office:

    Oral statement...............................................    19
    Prepared statement...........................................    21

                                Panel 2

Michael Sprayberry, Director, North Carolina Emergency 
  Management, testifying on behalf of the National Emergency 
  Management Association:

    Oral statement...............................................    66
    Prepared statement...........................................    67
Hon. Fernando Gil-Ensenat, Secretary of the Department of 
  Housing, Commonwealth of Puerto Rico:

    Oral statement...............................................    70
    Prepared statement...........................................    72
Rhonda Wiley, Emergency Management Director, 911 Director, and 
  Flood Plain Administrator, Atchison County, Missouri:

    Oral statement...............................................    76
    Prepared statement...........................................    78
Reese C. May, Chief Strategy and Innovation Officer, St. Bernard 
  Project:

    Oral statement...............................................    82
    Prepared statement...........................................    84

                       SUBMISSIONS FOR THE RECORD

Prepared Statement of the U.S. Department of Housing and Urban 
  Development, Submitted for the Record by Hon. Dina Titus.......    38
Memo of September 17, 2019, to Benjamin Carson, Sr., Secretary, 
  U.S. Department of Housing and Urban Development, from Rae 
  Oliver Davis, Inspector General, U.S. Department of Housing and 
  Urban Development, Submitted for the Record by Hon. Dina Titus.    40
Article from www.al.com, Submitted for the Record by Hon. Gary J. 
  Palmer.........................................................    50
Aerial Images of Missouri Bottom near Rock Port, Submitted by 
  Rhonda Wiley, Emergency Management Director, 911 Director, and 
  Flood Plain Administrator, Atchison County, Missouri...........   101

                                APPENDIX

Questions to Jeffrey Byard, Associate Administrator, Office of 
  Response and Recovery, Federal Emergency Management Agency, 
  U.S. Department of Homeland Security, from:

    Hon. Peter A. DeFazio........................................   121
    Hon. Dina Titus..............................................   125
    Hon. Sam Graves..............................................   140
    Hon. Mark Meadows............................................   141
    Hon. Stacey E. Plaskett......................................   147
    Hon. David Rouzer............................................   149
    Hon. Doug LaMalfa............................................   150
    Hon. Garret Graves...........................................   150
Questions to Dennis Alvord, Deputy Assistant Secretary of 
  Commerce for Economic Development and Chief Operating Officer, 
  Economic Development Administration, U.S. Department of 
  Commerce, from:

    Hon. Dina Titus..............................................   151
    Hon. Mark Meadows............................................   152
    Hon. Stacey E. Plaskett......................................   154
    Hon. David Rouzer............................................   155
Questions to Chris P. Currie, Director, Homeland Security and 
  Justice, U.S. Government Accountability Office, from:

    Hon. Peter A. DeFazio........................................   155
    Hon. Dina Titus..............................................   156
    Hon. Doug LaMalfa............................................   160
Questions to Michael Sprayberry, Director, North Carolina 
  Emergency Management, testifying on behalf of the National 
  Emergency Management Association, from:

    Hon. Dina Titus..............................................   162
    Hon. Mark Meadows............................................   163
Questions from Hon. Dina Titus to Hon. Fernando Gil-Ensenat, 
  Secretary of the Department of Housing, Commonwealth of Puerto 
  Rico...........................................................   164
Questions to Reese C. May, Chief Strategy and Innovation Officer, 
  St. Bernard Project, from:

    Hon. Dina Titus..............................................   166
    Hon. Mark Meadows............................................   168
Questions to David Woll, Principal Deputy Assistant Secretary for 
  Community Planning and Development, Department of Housing and 
  Urban Development, from:

    Hon. Peter A. DeFazio........................................   169
    Hon. Dina Titus, on behalf of Hon. Steve Cohen...............   169
    Hon. Garret Graves...........................................   170
    Hon. Stacey E. Plaskett......................................   171

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                            October 18, 2019

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Economic Development, 
Public Buildings, and Emergency Management
    FROM:  LStaff, Subcommittee on Economic Development, Public 
Buildings, and Emergency Management
    RE:      LSubcommittee Hearing on ``An Assessment of 
Federal Recovery Efforts from Recent Disasters''
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Economic Development, Public Buildings, 
and Emergency Management will meet on Tuesday, October 22, 
2019, at 10:00 a.m. in 2167 Rayburn House Office Building, to 
receive testimony on ``An Assessment of Federal Recovery 
Efforts from Recent Disasters.''
    The Federal government's disaster recovery programs and 
personnel are being stressed and tested like never before, as 
they simultaneously work to help communities recover from 
several of the costliest natural disasters in the Nation's 
history.
    Members will receive testimony from senior officials at the 
Federal Emergency Management Agency (FEMA) and the Economic 
Development Administration (EDA). Additionally, the Government 
Accountability Office (GAO) will testify regarding its findings 
in a comprehensive series of statutorily-mandated examinations 
of recovery efforts required by recent disaster supplemental 
appropriations packages.
    The Subcommittee will also receive testimony from state- 
and local-level emergency managers and officials--from 
Missouri, North Carolina, and Puerto Rico--tasked with near- 
and long-term recovery--regarding their experiences in 
navigating the myriad Federal recovery programs. Finally, a 
representative from a non-profit focused on community-based 
disaster recovery will discuss challenges it and similar 
organizations face in contributing to long-term recovery from 
recent presidentially-declared disasters.
    Additional written testimony has been submitted by the 
Department of Housing and Urban Development (HUD)--another 
Federal entity responsible for significant appropriations tied 
to disaster recovery programs.

                               BACKGROUND

DISASTER LOSSES AND FEDERAL DISASTER SPENDING CONTINUE UPWARD 
                    TRAJECTORY

    The National Centers for Environmental Information (NCEI) 
at the Department of Commerce's National Oceanic and 
Atmospheric Administration (NOAA) is tasked with monitoring and 
assessing the environmental and economic impact of natural 
disasters. NCEI data indicates that this is the fifth 
consecutive year (2015-2019) during which the United States has 
been impacted by ten or more $1 billion-dollar natural disaster 
events. Since 1980--the first full year following the 
establishment of FEMA--the U.S. has experienced nine years with 
ten or more unique billion-dollar natural disaster events: 
1998, 2008, 2011, 2012, 2015, 2016, 2017, 2018, and 2019.\1\
---------------------------------------------------------------------------
    \1\ National Oceanic and Atmospheric Administration, National 
Centers for Environmental Information, ``Billion-Dollar Weather and 
Climate Disasters: Overview''. Available at https://www.ncdc.noaa.gov/
billions/.
---------------------------------------------------------------------------
    According to numerous studies, disaster losses and Federal 
disaster spending have increased significantly over the last 
five decades. Munich Re, the world's largest reinsurance 
company, reported in 2012 that between 1980 and 2011, North 
America suffered $1.06 trillion in total losses, including $510 
billion in insured losses, and an increase in weather-related 
events five-fold over the previous three decades.\2\
---------------------------------------------------------------------------
    \2\ Munich Re (2012). Severe weather in North America--Perils Risk 
Insurance. Munich, Germany: Muchener Ruckversicherungs-Gesellschaft.
---------------------------------------------------------------------------
    More recently, the Congressional Budget Office (CBO) 
reported that for most types of losses to the U.S. economy 
resulting from hurricane winds and storm-related flooding, 
expected annual costs will total roughly $54 billion per year, 
equivalent to 0.3 percent of the Nation's current gross 
domestic product (GDP). Of that $54 billion, $34 billion in 
expected annual economic losses would be borne by the 
residential sector, $9 billion by commercial businesses, and 
$12 billion by the public sector. CBO estimates that a 
combination of private insurance coverage for wind damage, 
Federal flood insurance, and Federal disaster assistance 
programs would cover roughly 50 percent of losses to the 
residential sector and 40 percent of losses to the commercial 
sector.\3\
---------------------------------------------------------------------------
    \3\ Congressional Budget Office, Expected Costs of Damage From 
Hurricane Winds and Storm-Related Flooding. Available at https://
www.cbo.gov/system/files/2019-04/55019-ExpectedCostsFromWindStorm.pdf.
---------------------------------------------------------------------------
    In 2017, FEMA acknowledged the increase in the number of 
extreme disaster events and increased vulnerabilities 
throughout the United States due to shifting demographics, 
aging infrastructure, land use, and construction practices.\4\
---------------------------------------------------------------------------
    \4\ Federal Emergency Management Agency, National Strategy 
Recommendations: Future Disaster Preparedness. September 6, 2013. 
Available at http://www.fema.gov/media-library-data/
bd125e67fb2bd37f8d609cbd71b835ae/
FEMA+National+Strategy+Recommendations+(V4).pdf.
---------------------------------------------------------------------------

DISASTER COSTS BORNE BY THE FEDERAL GOVERNMENT ON THE RISE AND 
                    EXACERBATED BY GROWTH IN FEDERAL RECOVERY PROGRAMS

    When state and local resources are overwhelmed and the 
``disaster is of such severity and magnitude that effective 
response is beyond the capabilities of the state and the 
affected local governments,'' the Governor of the affected 
state may request that the President declare a major 
disaster.\5\
---------------------------------------------------------------------------
    \5\ 42 U.S.C.  5170.
---------------------------------------------------------------------------
    FEMA was established in April 1979 after the Three Mile 
Island nuclear disaster to centralize and better coordinate the 
Federal government's disaster activities, which had been 
scattered across the government and poorly coordinated in 
response to several disasters. Since 1979, numerous other 
agencies have received authorities and appropriations for 
additional Federal activities and programs focused on disaster 
recovery. These programs have differing legal authorities, 
eligibility requirements, and objectives.
    Most recently, the following programs have been 
significantly involved in disaster recovery beyond FEMA's 
Public Assistance (PA) and Individuals and Households (IA) 
programs authorized in the Robert T. Stafford Disaster Relief 
and Emergency Assistance Act (P.L. 100-107) and, as such, 
received supplemental appropriations:

    <bullet> LU.S. Department of Housing and Urban Development 
(HUD) Community Development Block Grant Disaster Recovery Funds 
(CDBG-DR)--Congress can--and has--provided funding for disaster 
recovery through HUD's CDBG Program. Most recently, funds were 
made available to provide non-competitive, nonrecurring 
assistance targeted at low-income areas impacted by disasters 
in Fiscal Years (FY) 2010, 2011, 2012, 2013, 2015, 2016, 2017, 
2018, and 2019. Congress has appropriated CDBG-DR funding in 19 
of the last 27 fiscal years (FYs). Currently, the CDBG-DR grant 
portfolio has 137 active grants with a total of $89.7 billion 
in appropriated funding.\6\
---------------------------------------------------------------------------
    \6\ U.S. Department of Housing and Urban Development, ``CDBG-DR 
Overview'', August 27, 2019. Available at https://
files.hudexchange.info/resources/documents/CDBG-Disaster-Recovery-
Overview.pdf.
---------------------------------------------------------------------------
    <bullet> LU.S. Department of Commerce, Economic Development 
Administration (EDA)--Congress appropriated $1.2 billion in 
additional Economic Adjustment Assistance (EAA) for certain 
Stafford Act events occurring in 2017, 2018, and 2019. Under 
the Bipartisan Budget Act of 2018 (P.L. 115-123), Congress 
appropriated $600 million to EDA for EAA targeted at disaster 
relief and recovery as a result of Hurricanes Harvey, Irma, and 
Maria, wildfires, and other calendar year 2017 natural 
disasters under the Stafford Act. The Additional Supplemental 
Appropriations for Disaster Relief Act, 2019 (P.L. 116-20) 
provided EDA with $600 million in additional EAA funding for 
necessary expenses related to flood mitigation, disaster 
relief, long-term recovery, and restoration of infrastructure 
in areas impacted by Hurricanes Florence, Michael, Lane, 
Typhoons Yutu and Mangkhut, wildfires and other calendar year 
2019 disasters under the Stafford Act, and tornadoes and floods 
in calendar year 2019.\7\
---------------------------------------------------------------------------
    \7\ U.S. Economic Development Administration, ``Disaster 
Supplemental Funding''. Available at https://www.eda.gov/disaster-
recovery/supplemental/.
---------------------------------------------------------------------------
    <bullet> LU.S. Department of Transportation (DOT) Federal 
Transit Administration Emergency Relief Program (ERP)--The 
ERP's purpose is to help states and public transportation 
systems pay for protecting, repairing, or replacing equipment 
and facilities that may suffer or have suffered serious damage 
because of an emergency, including natural disasters. The ERP 
is also intended to improve coordination between DOT and the 
U.S. Department of Homeland Security (DHS) to expedite 
assistance to public transit providers in times of disasters 
and emergencies. The Additional Supplemental Appropriations for 
Disaster Relief Act, 2019 (P.L. 116-20) appropriated $10.542 
million for the FTA ERP, for transit systems affected by major 
declared disasters occurring in calendar year 2018. FTA has yet 
to develop program guidance for this most recent tranche of 
disaster recovery funding.
    <bullet> LU.S. Army Corps of Engineers (Corps)--The Corps 
receives money for the rehabilitation, repair, and construction 
of projects. These funds are available to projects provided 
they reduce future flood risk and support long-term 
sustainability.

READINESS CHALLENGES OF FEMA'S INCIDENT WORKFORCE

    Following the active pace of Federal disaster declarations 
in 2017, FEMA updated its Strategic Plan for 2018-2022, to 
emphasize more focus on Presidentially-declared disasters being 
``Federally Supported, State Managed, and Locally Executed.''
    While there has been a focus following the attacks of 
September 11, 2001, to provide training for state, local, 
tribal, and territorial emergency managers to enhance their 
abilities to manage crises, there continues to be an upward 
trend in the number of Presidentially-declared events under the 
Stafford Act. That said, in 2018, a total of 23,331 events were 
managed by local, tribal, and state governments absent any 
Federal assistance.
    Specific to FEMA's incident management workforce, there 
continue to be multiple limiting factors to full readiness:

    <bullet> LBoth long-standing and recently-announced 
vacancies in key senior leadership roles across FEMA and the 
Department of Homeland Security;
    <bullet> LQuantity of qualified Federal Coordinating 
Officers and Federal Disaster Recovery Coordinators currently 
available for deployment;
    <bullet> LSustained deployments for significant portions of 
qualified personnel in key recovery-focused cadres;
    <bullet> LSustained and increasing high volume of open and 
active disasters and Joint Field Offices across the United 
States and its territories;
    <bullet> LChallenges for existing workforce meeting the 
requirements required by the FEMA Qualification System and 
associated Position Task Books;
    <bullet> LFatigue across workforce as a result of volume 
and intensity of disaster deployments during last several 
years, resulting in retention and recruitment challenges.

    Two years after the 2017 hurricane and wildfire seasons, 
which strained FEMA's workforce more so than other recent 
years, FEMA has taken steps to address several of the 
challenges noted above yet it remains under-resourced to 
respond to multiple simultaneous responses to catastrophic 
disasters while also doing the work necessary to meaningfully 
impact the volume of ongoing recoveries across the Nation.
    Since the start of 2019, FEMA has consistently reported 
significant readiness shortfalls for Federal Coordinating 
Officers (FCOs), as well as deficiencies in capacity for 
multiple response and recovery cadres in its daily operations 
briefings.
    Workforce improvements have been made since the height of 
the 2017 disaster season--including the expansion of the Surge 
Capacity Force to include other Federal agency employees in 
addition to DHS employees--but the Agency still lacks adequate 
personnel to best serve the states it is assisting with 
recoveries.

QUANTIFYING ONGOING FEDERAL RECOVERY EFFORTS

    FEMA works hand in hand with state, local, tribal, and 
territorial partners to provide assistance on a reimbursable 
basis for qualified disaster recovery projects. It is able to 
do this through a combination of permanent, full-time employees 
as well as a significant Incident Management (IM) workforce of 
full-time temporary staff (COREs and Reservists). Based on a 
2019 Incident Management Workforce Review (IMWR), FEMA 
currently projects a need for 17,670 IM personnel, an 8% 
increase in need compared to the 2015 findings of a less data-
driven assessment. Current IM staffing falls short of the need 
and is adversely impacting ongoing recoveries across the 
Nation.
    In 2019, FEMA is administering assistance for 60% more open 
disasters than at the same point in 2018, and doing so in 50% 
more Joint Field Offices, requiring a significant IM 
workforce--including 10 of the costliest disasters on 
record.\8\ As of this week, the Public Assistance cadre of 
FEMA's incident workforce has 11% availability for not-yet-
deployed/assigned staff. Historically, staffing in this cadre 
has been far from full capacity and is a contributing factor in 
processing disaster assistance.
---------------------------------------------------------------------------
    \8\ National Centers for Environmental Information, ``Billion-
Dollar Weather and Climate Disasters: Table of Events''. Available at 
https://www.ncdc.noaa.gov/billions/events.
---------------------------------------------------------------------------
    FEMA funds disaster recovery efforts out of the Disaster 
Relief Fund (DRF), an appropriated account that is funded via a 
calculation that was codified by the Budget Control Act of 2011 
(P.L. 112-25). As of September 30, 2019, the DRF is carrying a 
balance of $28.2 billion in not-yet-obligated dollars for 
disaster response and recovery.\9\
---------------------------------------------------------------------------
    \9\ Federal Emergency Management Agency, ``Disaster Relief Fund: 
Monthly Report as of September 30, 2019''. Available at https://
www.fema.gov/media-library-data/1570634436664-
80c80c86a5708ede9a78cac86dc18be1/Oct2019DisasterReliefFundReport.pdf.
---------------------------------------------------------------------------
    HUD's CDBG-DR program has been activated by congressional 
appropriations with increasing frequency to address long-term 
disaster recovery in communities particularly hard hit by 
disaster. In spite of supplemental appropriations for CDBG-DR 
during 19 of the last 27 years, HUD must develop individual 
program guidance for CDBG-DR for each state for which Congress 
designates appropriations. HUD's Office of Community Planning 
and Development is responsible for administering the CDBG-DR 
program. Due to the non-authorized existence of the program, 
the GAO reported earlier this year about 2017 Stafford Act 
events qualifying for CDBG-DR that: ``HUD did not yet have the 
staff in place to effectively oversee CDBG-DR funds. Without 
strategic workforce planning that determines if the number of 
staff the agency will be able to hire is sufficient to oversee 
the growing number of CDBG-DR grants, identifies the critical 
skills and competencies needed, and includes strategies to 
address any gaps, HUD will not be able to identify the staffing 
resources necessary to oversee CDBG-DR grants.'' \10\ Following 
the 2017 disasters, HUD was authorized via appropriations to 
hire additional staff to administer CDBG-DR; it is still in the 
process of growing from a team of 20 pre-2017-hurricane-season 
to 50.
---------------------------------------------------------------------------
    \10\ U.S. Government Accountability Office, ``GAO-19-232: Disaster 
Recovery: Better Monitoring of Block Grant Funds Is Needed''. Available 
at https://www.gao.gov/assets/700/697827.pdf.
---------------------------------------------------------------------------
    Congress appropriated a total of $1.2 billion for EDA's 
Disaster Recovery program in FY18 and FY19. This funding is 
administered out of the Economic Adjustment Assistance Program 
and by a team of temporary field staff. The team that EDA has 
established to administer these supplemental appropriations and 
assist potential applicants and eventual grantees is currently 
staffed at 50% and there is an ongoing recruitment to fill the 
remaining positions.

                              WITNESS LIST

PANEL I

    <bullet> LMr. Jeffrey Byard, Associate Administrator for 
Response and Recovery, Federal Emergency Management Agency 
(FEMA), U.S. Department of Homeland Security
    <bullet> LMr. Dennis Alvord, Deputy Assistant Secretary for 
Economic Development & Chief Operating Officer, Economic 
Development Administration, U.S. Department of Commerce
    <bullet> LMr. Chris P. Currie, Director, Homeland Security 
and Justice, U.S. Government Accountability Office

PANEL II

    <bullet> LMr. Michael Sprayberry, Director, North Carolina 
Emergency Management & North Carolina Office of Recovery and 
Resiliency, on behalf of the National Emergency Management 
Association
    <bullet> LThe Honorable Fernando Gil-Ensenat, Secretary, 
Departamento de la Vivienda (Department of Housing), 
Commonwealth of Puerto Rico
    <bullet> LMs. Rhonda Wiley, Emergency Management/911 
Director and Floodplain Manager, Atchison County, Missouri
    <bullet> LMr. Reese C. May, Chief Strategy and Innovation 
Officer, SBP

ADDITIONAL WRITTEN TESTIMONY

    <bullet> LOffice of Community Planning and Development, 
U.S. Department of Housing and Urban Development

                       SUPPLEMENTARY INFORMATION

FEMA RESPONSE AND RECOVERY AUTHORITIES

    FEMA is the Federal government's lead agency in preparing 
for, mitigating against, responding to, and recovering from 
disasters and emergencies related to all hazards--whether 
natural or man-made. FEMA's primary authority in carrying out 
these functions stems from the Robert T. Stafford Disaster 
Relief and Emergency Assistance Act (Stafford Act, P.L. 100-
707).
    When state and local resources are overwhelmed, the 
Governor of the affected state may request that the President 
issue a declaration. The Stafford Act authorizes three types of 
declarations: (1) major disaster declarations; (2) emergency 
declarations; and (3) fire management grant (FMAG) 
declarations.
    If the President issues a declaration, Federal resources 
are deployed in support of state and local response efforts. By 
law, the President--acting through FEMA--appoints a Federal 
Coordinating Officer (FCO) to lead the Federal response to 
major disasters and emergencies. FEMA is responsible for 
coordinating Federal agency response and ensuring the necessary 
Federal capabilities are deployed at the appropriate place and 
time. In addition, FEMA provides direct support and financial 
assistance to states, tribes, and local governments and 
individuals as authorized under the Stafford Act. This 
includes, directing any Federal agency, with or without 
reimbursement, to assist state, tribal, and local governments 
and protect life and property.

FEMA DISASTER ASSISTANCE PROGRAMS

    A. Presidentially Declared Major Disaster

    When state and local resources are overwhelmed and the 
``disaster is of such severity and magnitude that effective 
response is beyond the capabilities of the state and the 
affected local governments,'' \11\ the Governor of the affected 
state may request the President to declare a major disaster. 
FEMA's primary Stafford Act programs for disaster response and 
recovery in the aftermath of a major disaster are the Public 
Assistance Program and the Individual Assistance Program. As 
part of each major disaster, FEMA also provides Hazard 
Mitigation Grant Program (HMGP) funds.
---------------------------------------------------------------------------
    \11\ Quoting (in part) 42 U.S.C. 5170(a).
---------------------------------------------------------------------------
    The Public Assistance Program, authorized primarily by 
Sections 403, 406, and 407 of the Stafford Act, reimburses 
state, tribal, and local emergency response costs and provides 
grants to state and local governments, as well as certain 
private non-profits to rebuild facilities. The Public 
Assistance Program generally does not typically provide direct 
services to survivors.
    The Individual Assistance Program, authorized primarily by 
Section 408 of the Stafford Act and also known as the 
Individuals and Households Program, provides assistance to 
families and individuals impacted by disasters, including 
housing assistance. Housing assistance includes money for 
repair, rental assistance, or ``direct assistance,'' such as 
the provision of temporary housing.
    Section 404 of the Stafford Act authorizes the HMGP, which 
provides grants to state and local governments to rebuild after 
a disaster in ways that: (1) are cost effective; and (2) reduce 
the risk of future damage, hardship, and loss from natural 
hazards. HMGP grants are calculated based on a percentage of 
funds spent on Public and Individual Assistance for each 
Presidentially-declared disaster.
    The central purpose of HMGP is to enact practical 
mitigation measures that effectively reduce the risk of loss of 
life and property from future disasters. FEMA provides grants 
to states under HMGP so that they may also assist families in 
reducing the risk to their homes from natural disasters.
    In the case of wildfires, mitigation measures covered by 
HMGP include, but are not limited to: establishing defensible 
space measures around buildings; using fire-resistant building 
materials; and regularly clearing combustibles that could serve 
as fuel for a wildfire. FEMA provides up to 75% of the funds 
for mitigation projects under HMGP and the remaining 25% can 
come from a variety of sources (i.e., a cash payment from the 
state or local government).\12\
---------------------------------------------------------------------------
    \12\ ``Hazard Mitigation Grant Program,'' Federal Emergency 
Management Agency, Fema.gov. (Accessed March 14, 2018).

---------------------------------------------------------------------------
B. Fire Management Assistance Grant

    Section 420 of the Stafford Act authorizes FEMA to provide 
fire management assistance to state, local, and tribal 
governments for the mitigation, management, and control of any 
fires burning on publicly or privately-owned forests or 
grasslands that threatens such destruction as would constitute 
a major disaster. FMAG funding may be used for equipment and 
supplies, labor costs, emergency work, pre-positioning of 
resources, and temporary repair of damage caused by work 
directly related to firefighting activities associated with the 
declared fire.\13\
---------------------------------------------------------------------------
    \13\ ``Fire Management Assistance Grant Program,'' Federal 
Emergency Management Agency, Fema.gov. (Accessed March 14, 2018).
---------------------------------------------------------------------------

T&I COMMITTEE'S LEADERSHIP ON DISASTER POLICY REFORM

    In the 114th and 115th Congress, the Committee led the 
policy discussion on how to lower the devastating losses from 
disasters in terms of lives, property, and costs, how to 
increase disaster resilience, and how to withstand the next 
disaster and recover more quickly from disaster impacts, which 
ultimately resulted in the Disaster Recovery Reform Act of 2018 
(DRRA, Division D of P.L. 115-254). As noted above, Congress 
has passed significant packages of disaster-related policy 
reforms during the previous two decades, with the 
Transportation and Infrastructure Committee playing a vital 
role:

    <bullet> LThe Disaster Mitigation and Cost Reduction Act of 
2000 (DMA2K, P.L. 106-390) is perhaps the first major update to 
the Robert T. Stafford Disaster Relief and Emergency Assistance 
Act of 1988. Congress recognized the benefits of pre-disaster 
mitigation and made reforms and enhancements to Stafford and 
FEMA's response, recovery, and mitigation programs to lessen 
future exposure to risk of the Federal government. DMA2K also 
led to the development of hazard mitigation plans in 
communities across the country.
    <bullet> LThe Post-Katrina Emergency Management Reform Act 
(PKEMRA, P.L. 109-295) followed in the wake of the 2005 
hurricanes Katrina, Rita, and Wilma. It was also informed by 
the 2004 hurricane season, during which Hurricanes Charley, 
Frances, Ivan, and Jeanne criss-crossed Florida in less than 
two months. PKEMRA addressed some of the potential gaps related 
to catastrophic disasters and most of the provisions are 
related to planning and response. PKEMRA provided for 
additional authority for response activities including: 
``accelerated Federal assistance'' which can be provided in the 
absence of a state request in certain situations during the 
response to a major disaster or an emergency; expedited 
payments for debris removal; use of local contractors for 
Federal disaster response contracts; and the rescue, care, and 
shelter for pets and individuals and households with pets.
    <bullet> LThe Sandy Recovery Improvement Act (SRIA, P.L. 
113-2) was enacted to speed up and streamline Hurricane Sandy 
recovery efforts; reduce costs; and improve the effectiveness 
of several disaster assistance programs authorized by the 
Stafford Act, namely the Public Assistance Program, the 
Individual Assistance Program, and the HMGP.
    <bullet> LThe Disaster Recovery Reform Act (DRRA, Division 
D of P.L. 115-254) is the most recent update to the Stafford 
Act and focuses on improving predisaster planning and 
mitigation, response, and recovery, and increasing FEMA 
accountability. While DRRA had been drafted and deliberated 
ahead of the 2017 hurricanes and wildfires, its amendments to 
the Stafford Act are retroactive to major disasters and 
emergencies declared on or after August 1, 2017 to capture the 
response to and recovery from Harvey, Irma, Maria, and the 
devastating western wildfires. Some other new authorities apply 
to major disasters and emergencies declared on or after January 
1, 2016.\14\
---------------------------------------------------------------------------
    \14\ Congressional Research Service ``The Disaster Recovery Reform 
Act: Homeland Security Issues in the 116th Congress'' (IN11055). 
Available at https://www.crs.gov/reports/IN11055.
---------------------------------------------------------------------------

A FEW DISASTERS ACCOUNT FOR MOST COSTS

    The Congressional Research Service (CRS) analyzed data from 
over 1,300 major disasters since 1989, and adjusting for 
inflation, found that FEMA obligated more than $178 billion for 
these disasters.\15\ However, CRS also found that 25% of all 
disasters account for over 92 percent of disaster costs.\16\ 
Therefore, the remaining 75% of smaller disasters constitute 
less than eight percent of FEMA disaster spending.
---------------------------------------------------------------------------
    \15\ CRS Memo Data Analysis for House Transportation and 
Infrastructure Committee, January 14, 2015.
    \16\ Id.
---------------------------------------------------------------------------

KEY PROVISIONS IN DRRA

    DRRA includes more than 50 provisions requiring FEMA to 
make policy or regulatory changes. Some of the more significant 
sections are highlighted below.

      LMitigation:

       LSec. 1204--Wildfire Prevention--States granted Fire 
Management Assistance Grants will now be able to receive Hazard 
Mitigation Grant Program (HMGP) grants. Prior to DRRA, HMGP 
grants were only available for states, tribes, and territories 
that received Major Disaster declarations.

       LSec. 1205--Additional Activities--Expands the allowable 
uses of all FEMA Hazard Mitigation Assistance programs to fund 
a comprehensive set of additional activities to mitigate future 
risk in any area affected by wildfire or windstorm.

       LSec. 1206--Eligibility for Code Implementation and 
Enforcement--Efforts of state and local governments to enforce 
consensus-based building code and floodplain management 
ordinances are now eligible for Hazard Mitigation Assistance. 
Additionally, building code implementation and adopted code 
enforcement activities for the first 180 days following a 
Presidentially-declared major disaster are eligible for 
reimbursement under the Public Assistance Program.

       LSec. 1233--Additional Hazard Mitigation Activities--
Authorizes FEMA to provide assistance for activities to 
mitigate damage in earthquake-prone areas, including for 
earthquake early warning systems. Eligible assistance will be 
coordinated with the U.S. Geological Service.

       LSec. 1234--National Public Infrastructure Predisaster 
Hazard Mitigation--Creates a permanent pre-disaster mitigation 
program. Rather than relying on annual appropriations, the new 
program is funded as a 6% calculation of response and recovery 
efforts under Individual and Public Assistance Programs tied to 
major disaster declarations. Also authorizes redistribution of 
unobligated amounts that remain unobligated seven years post-
disaster declaration.

       LSec. 1235--Additional Mitigation Activities--Authorizes 
FEMA to provide Public Assistance funds to replace and restore 
disaster-damaged infrastructure and facilities to the latest 
published editions of relevant, consensus-based codes and 
standards. Such repair and reconstruction will ensure enhanced 
resilience in communities recovering from disaster.

      LInfrastructure and Public Assistance:

       LSec. 1207--Program Improvements--Modifications to 
Stafford Act sections 406 and 428 to enhance recoveries from 
major disaster declarations.

       LSec. 1209--Guidance on Evacuation Routes--FEMA and the 
Federal Highway Administration shall identify and better 
coordinate on identification of evacuation routes, in the 
interest of eventually issuing guidance to state, local, 
tribal, and territorial governments on design, construction, 
maintenance, and repair of such vital routes.

       LSec. 1210--Duplication of Benefits--Grants Governors 
the ability to request a waiver from the President on 
prohibitions in the Stafford Act regarding duplication of 
Federal benefits if in the public interest and will not result 
in waste, fraud, and abuse; and clarifies that a loan cannot be 
determined to be a duplication of benefits. This section 
applies to declarations between 2016 and 2021, with the U.S. 
Dept. of Housing and Urban Development (HUD)--not FEMA--as the 
primary executive branch entity responsible for implementation. 
Additionally, states may receive HMGP grants from FEMA for 
water resource development projects also under the authority of 
the U.S. Army Corps of Engineers if such projects meet the 
requirements of FEMA's HMGP grants.

       LSec. 1215--Management Costs--Provides additional 
assistance to state and local governments working through 
recovery by expanding the definition of management costs and 
mandating reimbursement of actual costs for up to 12% for 
Public Assistance (7% for recipient and 5% for subrecipient) 
and 15% for HMGP (10% for recipient and 5% for subrecipient).

       LSec. 1220--Unified Federal Environmental and Historic 
Preservation Review--Mandates that the FEMA Administrator 
assess the current state of the Unified Federal Review under 
Stafford Act section 429 and within two years work to issue 
regulations to further streamline the review process, taking 
into consideration categorical exclusions utilized by other 
Federal entities.

      LHousing and Individual Assistance:

       LSec. 1211--State Administration of Assistance for 
Direct Temporary Housing and Permanent Housing Construction--
Grants states and Federally-recognized Indian tribes additional 
authorities and flexibilities in addressing housing needs for 
survivors of disasters and provides for reimbursement if 
housing solutions will result in at least a 50% cost savings 
over comparable FEMA-administered options.

       LSec. 1212--Assistance to Individuals and Households--
Increases authorized amounts of financial assistance for 
disaster survivors for rental and other needs assistance to 
address accessibility-related repairs for individuals with 
disabilities.

       LSec. 1213--Multifamily Lease and Repair Assistance--
Provides additional authorities to FEMA to allow repairs to 
eligible properties above the value of lease agreements and 
expands eligibility to areas impacted by a disaster to maximize 
cost effective housing solutions.

       LSec. 1223--Study to Streamline and Consolidate 
Information Collection--Mandates a FEMA-led study and 
subsequent interagency plan--to include the Small Business 
Administration and HUD--to enhance and improve data collection 
from disaster survivors.

      LOther Key Provisions:

       LSec. 1222--Performance of Services--Authorizes the FEMA 
Administrator to appoint temporary personnel--after serving for 
three continuous years--to positions in the Agency in the same 
manner as competitive service employees. This is a significant 
enhancement that will help the Agency retain skilled incident 
workforce employees who are often recruited away from the 
Agency after it spends a significant amount on training, 
education, and benefits.

       LSecs. 1224-1226--Mandate enhancements to public and 
regular Agency reporting to Congress; prohibits contracting 
with entities that do not allow for full Agency, Comptroller 
General, or Inspector General auditing or reviewing of 
contract; and mandates IG audit of FEMA contracts for tarps and 
plastic sheeting.

       LAlso included in the original version of DRRA--but 
enacted in the Bipartisan Budget Act of 2018 (P.L. 115-123)--
was a provision specifically crafted to incentivize state, 
local, tribal, and territorial governments to undertake 
resilience-building efforts to unlock increased Federal cost-
share for future response and recovery efforts.


    AN ASSESSMENT OF FEDERAL RECOVERY EFFORTS FROM RECENT DISASTERS

                              ----------                              


                       TUESDAY, OCTOBER 22, 2019

                  House of Representatives,
      Subcommittee on Economic Development, Public 
               Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:01 a.m., in 
room 2167, Rayburn House Office Building, Hon. Dina Titus 
(Chairwoman of the subcommittee) presiding.
    Ms. Titus. If any of you are in the wrong room, you know 
that. Today our hearing is an assessment of Federal recovery 
efforts from recent disasters. We thank all of you for being 
here. I'm going to ask unanimous consent that the Chair be 
authorized to declare recesses during today's hearing. Without 
objection, so ordered.
    I also ask unanimous consent that Members not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearings and ask questions. Without objection, so 
ordered.
    We will now proceed with opening statements. I'll go first, 
and Mrs. Miller, you're going to for Mr. Meadows, I understand.
    Well, let me say thank you to our witnesses first for 
joining us today as we look at these Federal disaster recovery 
efforts and the status of them today and some of the problems 
that may have affected them and the challenges that they face.
    I don't have to tell you all that never before has the 
Federal Government had to respond to so many costly disasters 
all at the same time. We've had Hurricanes Irma, Harvey, Maria, 
Michael, and Dorian causing catastrophic damage in the States 
and in the Territories. And then just over this past weekend, 
the Dallas suburbs suffered widespread damage from a major 
tornado and thousands across the South are cleaning up from 
that damage and debris left in the wake of Tropical Storm 
Nestor.
    We're here today because we're very interested in finding 
solutions to hasten and improve disaster recovery. The reality 
is that the Federal Government's resources are being stretched 
thin, some would say even exhausted, during a time when the 
rising cost of disasters shows no sign of abating.
    FEMA continues to experience staffing challenges with most 
of its incident management workforce already deployed across 
the country. The agency, as I understand it, is several 
thousand workers short of its own estimated needs for current 
and future recovery efforts.
    During this time of recovery, focus needs to be on the 
communities struggling to rebuild in the wake of these 
disasters and preparing for what may come in the future. They 
need our help now more than ever. That's why we're here. A 
particular concern are the Territories which have been battered 
by a series of disasters in recent years.
    The GAO published a study in July detailing the challenges 
of implementing the new Public Assistance national delivery 
model in Puerto Rico. So I look forward to hearing from Mr. 
Currie from GAO and from the Secretary of the Department of 
Housing of the Commonwealth of Puerto Rico as to how we can 
address those and other challenges.
    Although additional resources are necessary--we realize 
that--in order to adequately respond to mounting disasters, 
consideration also needs to be given to the responsibilities of 
all levels of Government, Federal, State and local 
stakeholders. With so many levels of Government participating 
in disaster recovery, coordination needs to be streamlined to 
ensure that survivors and communities get the assistance they 
need as quickly and efficiently as possible.
    Fortunately, we have several witnesses here with us today 
who can speak about their experiences with disaster recovery at 
the State and local levels.
    Finally, of particular interest to me, are our most 
vulnerable populations, specifically how our preparation for 
response to, recovery from, and mitigation of disasters can be 
more inclusive of seniors and persons with disabilities. I also 
care about efforts to rescue and provide for animals in 
disasters. If these topics aren't covered by some of your 
testimony, I'll be submitting questions to that effect for the 
record.
    [Ms. Titus' prepared statement follows:]

                                
  Prepared Statement of Hon. Dina Titus, a Representative in Congress 
  from the State of Nevada, and Chairwoman, Subcommittee on Economic 
        Development, Public Buildings, and Emergency Management
    I want to thank our witnesses for joining us today as we take a 
look at the status of Federal disaster recovery efforts.
    Never before has the Federal government had to respond to so many 
costly disasters at the same time. Hurricanes Irma, Harvey, Maria, 
Michael, and Dorian have caused catastrophic damage in the States and 
the territories.
    And just over this past weekend, the Dallas suburbs suffered 
widespread damage from a major tornado, and thousands across the South 
are cleaning up from damage and debris left in the wake of Tropical 
Storm Nestor.
    We are here because we are interested in finding solutions to 
hasten and improve disaster recovery.
    The reality is that the Federal government's resources are being 
exhausted during a time when the rising costs of disasters show no 
signs of slowing.
    FEMA continues to experience staffing challenges, with most of its 
incident management workforce already deployed around the country. The 
agency is several thousand workers short of its own estimated needs for 
current and future recovery efforts.
    During this time of recovery, focus needs to be on the communities 
struggling to rebuild in the wake of these disasters and preparing for 
what may come in the future. They need our help now more than ever.
    Of particular concern are the territories, which have been battered 
by a series of disasters in recent years.
    The Government Accountability Office (GAO) published a study in 
July detailing the challenges of implementing the new Public Assistance 
National Delivery Model in Puerto Rico. I look forward to hearing from 
Mr. Currie from GAO as to how we can address those and other 
challenges.
    We'll also hear testimony from the Housing Secretary from the 
Commonwealth of Puerto Rico which remains extremely vulnerable two 
years after the devastation of hurricanes Irma and Maria.
    Although additional resources are necessary to adequately respond 
to mounting disasters, consideration also needs to be given to the 
responsibilities of Federal, State, and local stakeholders. With so 
many levels of government participating in disaster recovery, 
coordination needs to be streamlined to ensure that survivors get the 
assistance they need as quickly and efficiently as possible.
    Fortunately, we have several witnesses here with us today who can 
speak on their experience with disaster recovery coordination at state 
and local levels.
    With that said, I look forward to hearing testimony from our 
witnesses so we can get started on solutions to address the challenges 
we face going forward.

    Ms. Titus. I now call on the ranking member, Mrs. Miller, 
to give an opening statement.
    Mrs. Miller. Thank you, Chairwoman Titus. Our 
subcommittee's jurisdiction is expansive, covering all areas of 
emergency management. I want to thank the chairwoman today for 
this hearing, because so many communities across this Nation 
are directly impacted by disasters and are recovering from or 
are still dealing with wildfires, flooding, tornadoes and 
hurricanes.
    We have an unprecedented number of open disasters with FEMA 
responding to 60 percent more active disasters than just a year 
ago. We need to continue to ensure our oversight is consistent 
and strong, and where there needs to be reforms, we must be 
willing to quickly act.
    Already this Congress, our committee has acted in 
bipartisan fashion to pass several pieces of important disaster 
reform legislation. I hope that they will be enacted by the end 
of this year. It is critical we ensure our Federal emergency 
management capabilities are as effective and efficient as 
possible.
    A key piece of this is recovery. The longer it takes for 
communities to recover, the longer it impacts people's lives, 
the higher the cost to the taxpayer, and the longer FEMA and 
other Federal partners' resources are spread thin. Our goal 
should be to respond and get disaster assistance out the door 
quickly and support States and local communities in building 
back faster and better in order to mitigate against the next 
disaster.
    As we see more disasters, speed, efficiency and mitigation 
become even more critical. We cannot afford to do this the old 
way, spending years or even decades to recover. We have given 
FEMA the tools to do that through the reforms that we passed 
after Sandy and, more recently, in the Disaster Recovery Reform 
Act. We should be seeing recovery move faster.
    However, at times it seems that the redtape we take out 
somehow gets put back in. We have a duty to ensure disaster 
funding is used and spent appropriately. We also know that 
going back to the old way of doing things, arguing about every 
doorknob, how much it will cost the taxpayer, it will even be 
more money than simply by providing the States and the 
communities more flexibility.
    Let me be clear. I have a lot of respect for the men and 
women of FEMA. They are Americans who put their own lives on 
hold to be spent helping communities respond and recover from 
disasters. The reforms we enacted should help them to do their 
job faster and easier.
    However, despite the improvements needed in FEMA's process, 
an even slower and more bureaucratic program is not represented 
here today. We invited HUD given that it has received more than 
$37 billion since 2017 for its disaster recovery program.
    While I appreciate their written testimony and the briefing 
they provided us, our constituents need to hear publicly from 
them and what steps they are taking to improve their process. 
How do we, as the committee that oversees Federal emergency 
management programs, do our job if one of the largest disaster 
programs is not represented here?
    I appreciate the witnesses that are here with us today, and 
I look forward to hearing from them on where we are in our 
recovery efforts and whether more reforms are needed to ensure 
that we are recovering faster and smarter.
    I yield back my time.
    [Mrs. Miller's prepared statement follows:]

                                 
    Prepared Statement of Hon. Carol D. Miller, a Representative in 
                Congress from the State of West Virginia
    Our Subcommittee's jurisdiction is expansive, covering all areas of 
emergency management. I want to thank the chairwoman for this hearing 
today because so many communities across this Nation are directly 
impacted by disasters and are recovering from, or are still dealing 
with wildfires, flooding, tornadoes and hurricanes. We have an 
unprecedented number of open disasters, with FEMA responding to 60% 
more active disasters than just a year ago.
    We need to continue to ensure our oversight is consistent and 
strong, and where there needs to be reforms, we must be willing to 
quickly act. Already this Congress this Committee has acted in 
bipartisan fashion to pass several pieces of important disaster reform 
legislation I hope will be enacted by the end of the year.
    It is critical we ensure our federal emergency management 
capabilities are as effective and efficient as possible. A key piece of 
this is recovery. The longer it takes for communities to recover, the 
longer the impact on people's lives, the higher the costs to the 
taxpayer and the longer FEMA and other federal partner resources are 
spread thin.
    Our goal should be to respond and get disaster assistance out the 
door quickly and support states and local communities in building back 
faster and better--to mitigate against the next disaster. As we see 
more disasters, speed, efficiency and mitigation become even more 
critical. We cannot afford to do this the old way, spending years or 
even decades to recover. We have given FEMA the tools to do that 
through reforms we passed after Sandy and more recently in the Disaster 
Recovery Reform Act.
    We should be seeing recovery move faster. However, at times, it 
seems the red tape we take out somehow gets put back in.
    We have a duty to ensure disaster funding is used and spent 
appropriately. Yet, we also know that going back to the old way of 
doing things--arguing over every door knob--will cost the taxpayer more 
money than simply providing states and communities more flexibility.
    Let me be clear--I have a lot of respect for the men and women of 
FEMA. They are Americans who put their own lives on hold to be sent to 
help communities respond to and recover from disasters. The reforms we 
enacted should help them do their job faster and easier.
    However, despite the improvements needed in FEMA's process, an even 
slower and more bureaucratic program is not represented here today.
    We invited HUD, given that it has received more than $37 billion 
since 2017 for its disaster recovery program. While I appreciate their 
written testimony and the briefing they provided us, our constituents 
need to hear publicly from them and what steps they are taking to 
improve their process. How do we, as the Committee that oversees 
federal emergency management programs, do our job if one of the largest 
disaster programs is not represented here?
    I appreciate the witnesses who are here with us today. I look 
forward to hearing from them on where we are in our recovery efforts 
and whether more reforms are needed to ensure we are recovering faster 
and smarter.

    Ms. Titus. Thank you. I would just point out that HUD did 
sit down with a briefing with all of us--I don't think you were 
there--just in the recent days to go over some of these 
questions that you mentioned. So we are hearing from them, and 
we appreciate your pointing that out.
    I now recognize Mr. DeFazio, the chairman of the Committee 
on Transportation and Infrastructure.
    Mr. DeFazio. Thanks, Madam Chair. You know, here we are 2 
years after Harvey, Irma, Maria, and that obviously was 
followed by severe wildfires in the West and these things 
continue ongoing.
    I think 80 percent of the members of this committee 
probably wouldn't be unrepresentative of Members of Congress as 
a whole, perhaps slightly lower, represent districts with 
active FEMA recovery efforts underway, including a number of 
counties in my State because of a very extreme and unusual 
winter weather event last year. I can't recall the last time 
that FEMA was working on so many costly recoveries 
simultaneously. Perhaps the Associate Administrator can 
contradict that and say this is normal, but I'm afraid it's the 
new normal and not the way things have been historically.
    The Budget Control Act of 2011 made appropriations for the 
FEMA Disaster Relief Fund more predictable, and we have put up 
a large amount of supplemental resources on top of that. We've 
worked across the aisle. Disasters are not partisan in nature, 
and we have worked on both sides of the aisle to reform 
Stafford, cut redtape, the Post-Katrina Emergency Management 
Reform Act, Sandy Recovery Improvement Act, Disaster Recovery 
Reform Act being the recent bipartisan efforts.
    But there's more that needs to be done, and that's why 
we're here today, to figure out how can we better administer 
these programs for recovery, but also what more can we do for 
resilience, essentially prevention, preventing loss of life, 
preventing loss of infrastructure, saving--so we don't further 
bankrupt the Federal Flood Insurance Fund.
    And then was mentioned earlier, HUD is now one of the 
largest providers of post-disaster recovery with the CDBG-DR--
Community Development Block Grant-Disaster Recovery Program. We 
put tens of billions of dollars in there. It's preferred 
because it's seen as something that can move the money more 
quickly, but it hasn't quite worked out that way.
    And just last week, HUD officials told our colleagues on 
the Appropriations Committee that they had no legitimate reason 
for withholding funds for Puerto Rico, which should have 
started flowing months ago, but perhaps that echoes foreign aid 
to the Ukraine. I'm not sure.
    While I'm glad we have testimony for the record from HUD, 
and they briefed our Members, I hope in the future they'll sit 
at the table alongside their Federal partners and share with us 
future concerns about challenges and hopefully be able to 
report more successes. Glad the EDA is here. They can provide 
insight into administering the first tranche of supplemental 
disaster lending provided in the 2018 Bipartisan Budget Act, as 
well as any steps they're taking differently to approach the 
second tranche of funds.
    And as I've noted, FEMA is stretched thin. I fear it's 
delayed some of these larger recoveries beyond the delays being 
experienced as a slow CDBG-DR process. These disaster-impacted 
communities in Oregon and elsewhere want nothing more than to 
recover, recover quickly. The same goes for disaster survivors.
    And then, of course, the GAO can attest that delays in 
disaster recovery can be devastating for the economic well-
being of communities. Survivors can't work because they're 
tangled in redtape of recovery programs, and they risk losing 
their jobs, not being able to provide for their families. If 
businesses can't open because of workforce challenges or 
depleted customer bases, they close. We just--the Coast Guard 
just awarded hundreds of millions of dollars to a firm 
constructing one of their new ships because of those factors.
    Delays with recovery can spiral out of control, and are yet 
another catastrophe for these communities. So it's vital that 
each of the departments and agencies tasked with recovery have 
the resources and expertise to fulfill missions and for State 
and local governments to have the capacity and wherewithal to 
navigate these recovery programs as well.
    I look forward to hearing today what we can do to further 
decrease existing redtape, see where improvements can be made, 
ensure that we're leveraging the interests of all parties, 
we're being more proactive in terms of resilience and getting 
ahead of these issues, and working between the Government 
nonprofit and private sector to get our disaster-impacted 
communities on a quicker path to recovery.
    With that, Madam Chair, thanks for holding this important 
hearing.
    [Mr. DeFazio's prepared statement follows:]

                               
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    Thank you, Chairwoman Titus.
    It's hard to believe that we're already at the two-year anniversary 
of the devastating series of 2017 Hurricanes--Harvey, Irma, and Maria--
that devastated Florida, Louisiana, Puerto Rico, Texas, and the U.S. 
Virgin Islands. Those incredibly powerful storms were followed very 
quickly by a series of massive wildfires in the West.
    2018 was another year of strong storms, stretching thin an already 
strained disaster workforce. Hurricane Michael leveled areas of the 
Florida panhandle and wildfires continued to lash California 
communities.
    And this year, our nation continues to be battered with storms, 
floods, and earthquakes.
    Right now, just under 80% of the members of the Transportation and 
Infrastructure Committee represent districts with active FEMA recovery 
efforts underway. I'm included in that group, with several counties in 
southwest Oregon being declared earlier this year as a result of severe 
winter storms.
    I'll defer to Associate Administrator Byard to confirm this, but I 
can't recall the last time FEMA was working on so many costly 
recoveries simultaneously.
    While the Budget Control Act in 2011 made appropriations for FEMA's 
Disaster Relief Fund more predictable, Congress has been forced to 
provide significant supplemental resources to fund these recoveries.
    And we've also worked across the aisle several times in the wake of 
disaster to reform the Stafford Act and to cut red tape--the Post-
Katrina Emergency Management Reform Act, the Sandy Recovery Improvement 
Act, and the Disaster Recovery Reform Act being the most recent three 
bipartisan efforts.
    But, given reports from across the country, there's more we can do 
to continue to improve not only how FEMA administers its assistance 
programs, but also how other Federal disaster recovery programs 
function.
    The Department of Housing and Urban Development is responsible for 
administering the Community Development Block Grant-Disaster Recovery 
program, or CDBG-DR.
    Congress has poured tens of billions of dollars into CDBG-DR over 
the last decade alone, intended for long-term recovery efforts.
    However, this money is incredibly slow getting out the door. Just 
last Thursday, HUD officials told our colleagues on the appropriations 
committee that they had no legitimate reason for withholding funds for 
Puerto Rico that should have started flowing months ago.
    While I'm glad we have testimony for the record from HUD and they 
briefed our members on Friday, I hope that in the future they will sit 
at the table alongside their Federal partners and share with us the 
successes and challenges the Department has experienced administering 
CDBG-DR.
    I'm glad the Economic Development Administration is here to provide 
their insight into administering the first tranche of supplemental 
disaster funding provided in the 2018 Bipartisan Budget Act, as well as 
any steps it is taking differently as it approaches the second tranche 
of funds.
    As I noted, FEMA is stretched thin. And I fear it's delayed some of 
these larger recoveries, beyond the delays being experienced as a 
result of a slow CDBG-DR process.
    These disaster-impacted communities--in Oregon and elsewhere--want 
nothing more than to recover, and to recover quickly. The same goes for 
disaster survivors.
    As I'm sure our Government Accountability Office witness can attest 
to, delays in disaster recovery can be devastating for the economic 
well-being of these communities. If survivors can't work because they 
are tangled in the red tape of recovery programs, then they risk losing 
their jobs and not being able to provide for their families. If 
businesses can't open because of workforce challenges or depleted 
customer bases, they close. Delays with recovery can spiral out of 
control and be yet another catastrophe for these communities.
    So, it's vital that each of the departments and agencies tasked 
with recovery have the resources and expertise to fulfill their 
missions. And for state and local governments to have the capacity and 
wherewithal to navigate these recovery programs, as well.
    I am looking forward to today's hearing to see what steps we might 
take next to further detangle existing red tape in the recovery process 
and see where improvements can be made to ensure that we're leveraging 
the interest of all parties--government, non-profit, and private 
sector--to get our disaster-impacted communities on a faster path to 
recovery.

    Ms. Titus. Thank you. I now recognize Mr. Graves, who is 
the ranking member of T&I.
    Mr. Graves of Missouri. Thank you, Madam Chair.
    First I want to thank Rhonda Wiley, who is going to be on 
our second panel here, for being here. She's from my district. 
She's the emergency manager, the 911 director, the flood plain 
manager for Atchison County, Missouri, which is my home county.
    Flooding in my district is making it very difficult for us 
to move to full recovery mode. My district includes all of 
northwest Missouri. It actually runs all the way across to the 
Mississippi River and includes the Mississippi River, too. So 
I've got the Missouri River on the west side and the 
Mississippi River on the east side. What's further complicating 
the efforts, our recovery efforts in northwest Missouri in 
particular, is we have a split declaration for Individual 
Assistance. So if you had flooding in your home in a certain 
period of time, it's covered and there's a 2-week gap in there. 
And then if you had flooding in the second period of time, 
you're covered. And it's completely bizarre. You know, if you 
qualify and if your home was flooded during the selected dates, 
then you're all right. But if you're in the 2-week period, then 
you're in trouble and it's a real problem, and it makes 
absolutely no sense whatsoever given the reforms that we passed 
in the Disaster Recovery Reform Act that directed FEMA to give 
more consideration for localized impact in multiple recent 
disasters. But, despite this, I have to say my constituents are 
very resourceful and very resilient. They've come together to 
pool resources, and they're helping each other. And as Ms. 
Wiley points out in her written testimony, we may have smaller 
populations in the rural areas like we have in my district, but 
our communities are critical to the Nation's food supply and 
other resources. And when even a few people are displaced, it 
does cause significant impact to the local economy. And even 
where the homes and farms of families were not flooded, the 
roads and bridges to access those areas and those homes and 
communities are still under water and even as of today. It's 
hard to comprehend unless you're on the ground in there to 
actually see the extent of the flooding that's taking place.
    I'm pleased that along with FEMA that we have EDA here 
today so we can talk about rebuilding in a way that's also 
going to help with our local economic recovery. Last month, EDA 
announced $2.1 million in grants to communities in Missouri 
that have been hit by the disaster, including Clarksville, 
which is in my district and also Mississippi County, which is 
in the southeast part of the State.
    In Clarksville they're going to be using the money to 
design a movable flood wall that can protect the town from 
future flooding along the Mississippi River. And I hope today 
that we can hear how FEMA and EDA are working together to 
quickly help out communities that are hit by the disaster, how 
we can ensure that rural and farming communities can recover 
faster and better.
    And with that, Madam Chair, I look forward to the testimony 
and I would yield back the balance of my time.
    [Mr. Graves of Missouri's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    First, I want to thank Rhonda Wiley on our second panel for being 
here today. She is the Emergency Manager, 911 Director, and Floodplain 
Manager from Atchison County, Missouri--my home county.
    The flooding in my district is ongoing, making it difficult for us 
to move to full recovery mode. Further complicating our recovery 
efforts is the split declaration for individual assistance. If your 
home was flooded on certain dates, you qualify, and if your home was 
flooded on other dates, you do not. This makes no sense, given reforms 
we passed in the Disaster Recovery Reform Act that directed FEMA to 
give more consideration for localized impact and multiple recent 
disasters. Despite this, my constituents are resourceful and resilient. 
They have come together to pull resources and help each other.
    As Ms. Wiley points out in her written testimony, we may have 
smaller populations in rural areas like my district, but our 
communities are critical to the Nation's supplies of food and other 
resources. When even a few people are displaced, that causes a 
significant impact on the local economy. Even where the homes and farms 
of families were not flooded, roads and bridges to access them washed 
out or are still under water. It is hard to comprehend, unless you are 
on the ground to actually see the extent of the flooding.
    I am pleased that, along with FEMA, we have EDA here today so we 
can talk about rebuilding in a way that will also help with our 
economic recovery. Last month, EDA announced $2.1 million in grants to 
communities in Missouri hit by disaster, including Clarksville in my 
district, and Mississippi County. In Clarksville, they will be using 
this money to design a movable flood wall that could protect the town 
from future flooding along the Mississippi River.
    I hope today we can hear how FEMA and EDA are working to get help 
out quickly to communities hit by disaster and how we can ensure rural 
and farming communities can recover faster and better.

    Ms. Titus. Thank you, Mr. Graves.
    I would now like to welcome our witnesses for the first 
panel. We have Mr. Jeffrey Byard who is the Associate 
Administrator of the Office of Response and Recovery at FEMA; 
Mr. Dennis Alvord, who is the Deputy Assistant Secretary of the 
Economic Development Administration at the U.S. Department of 
Commerce; and Mr. Chris Currie, Director of Homeland Security 
and Justice at the GAO. I want to thank you all for being with 
us today, and we look forward to your testimony.
    Since your testimony has been made a part of the record, 
I'd like to request that you limit your oral testimony to 5 
minutes. And now, without objection, I would ask that their 
full statements be included in the record. Without objection, 
so we'll go ahead and start.
    Thank you very much, Mr. Byard.

TESTIMONY OF JEFFREY BYARD, ASSOCIATE ADMINISTRATOR, OFFICE OF 
  RESPONSE AND RECOVERY, FEDERAL EMERGENCY MANAGEMENT AGENCY, 
  U.S. DEPARTMENT OF HOMELAND SECURITY; DENNIS ALVORD, DEPUTY 
 ASSISTANT SECRETARY OF COMMERCE FOR ECONOMIC DEVELOPMENT AND 
 CHIEF OPERATING OFFICER, ECONOMIC DEVELOPMENT ADMINISTRATION, 
  U.S. DEPARTMENT OF COMMERCE; AND CHRIS P. CURRIE, DIRECTOR, 
 HOMELAND SECURITY AND JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Byard. Chairwoman Titus, Ranking Member Meadows, 
Chairman DeFazio, Ranking Member Graves, and members of the 
committee, good morning.
    As the Associate Administrator of FEMA's Office of Response 
and Recovery, I want to thank you for the opportunity to 
discuss our ongoing recovery efforts and how FEMA is preparing 
for future disasters.
    Over the past 2 years, FEMA has supported disaster 
operations in 47 States and all 6 Territories, to include 
response and ongoing recovery efforts from historic hurricanes, 
floods, and wildfires. In 2019 alone, the President has already 
declared 56 major disasters and 13 emergency declarations. As 
noted, this is an unprecedented level of disaster activity and 
has been costly both in terms of life and property. So, 
Chairwoman, it is not normal, what we've seen in the past 2 
years.
    During this time, FEMA has provided over $9 billion of 
financial assistance to disaster survivors. We have an 
estimated damage to infrastructure for the same time period 
currently at $80 billion. However, FEMA cannot be the only 
solution. Our assistance is not designed to make individuals in 
communities whole after a disaster. Instead, our programs are 
designed to help recovery progress forward and catalyze 
investments and engagement from the whole community.
    Therefore, in the wake of the historic 2017 disasters, FEMA 
developed its strategic plan describing the optimal disaster 
response and recovery as this: State-managed, locally executed, 
and federally supported. In order to effectively carry out our 
mission, implement our strategic plan and to address the range 
of challenges before us, the agency continues to find ways to 
improve and innovate.
    When disasters overwhelm State, local, Tribal, and 
Territorial partners, it is critical that FEMA has the right 
staff to support a timely response. Since 2017, FEMA has made 
significant changes to make sure the appropriate personnel are 
available to support the Federal Government's response and 
recovery, and to provide positive results and outcomes to our 
disaster survivors. Today I want to highlight two of those 
significant changes to FEMA's staffing model.
    First, the 2018 Incident Management Workforce Review works 
to permit FEMA to deploy the right people with the right skills 
to the right place at the right time to help our citizens. FEMA 
is realigning staff and consolidating duties where appropriate. 
We are currently working towards the implementation and the 
findings and look forward to the positive impact this will have 
on how we utilize our current disaster workforce.
    In addition, I also want to thank Congress for the passing 
of the Disaster Recovery Reform Act last year, which amended 
the Stafford Act to authorize FEMA to retain valuable 
knowledge, skills, and experience of our cadre of on-call 
response employees, our disaster workforce.
    In the spirit of innovation, FEMA has implemented the 
Public Assistance Delivery Model nationwide. This simplifies 
the Public Assistance grant application process for our State, 
local, Tribal, and Territorial partners. And section 428 gives 
us the authority provided by Congress in the Sandy Recovery 
Improvement Act, which gives flexibility to applicants and 
expedites the overall project process.
    In addition, Congress has authorized a new pre-disaster 
mitigation program called BRIC, with the goal of investing in 
proactive and research-supported community resilience rather 
than relying on reactive disaster spending which will allow 
FEMA to effectively support our partners to recover from 
disasters. These authorities and initiatives are helping us 
deliver recovery assistance to your communities faster and more 
effectively than we have in the past.
    In the past few years, the disasters were historic and the 
lessons learned continue to shape FEMA and the emergency 
management discipline as a whole. FEMA continues to work 
alongside our partners to provide key resources to the public 
during times of need. We recently released our 2019 Community 
Lifelines Implementation Toolkit for our community partners. 
This kit helps communities focus on the restoration of 
indispensable services, enabling continuous operation of 
critical business and Government functions such as health, 
safety, and a better economic security and economic recovery.
    We will continue to work with our partners to collaborate 
and enhance our overall approach to stabilization of lifelines. 
A unifying effort in the emergency management community will be 
the rapid stabilization of community lifelines. This effort is 
reflected in a recent update of our national response 
framework.
    This update also includes the establishment of Emergency 
Support Function 14, which enforces the importance of the 
private sector and how critical that section is to our economic 
recovery after disasters.
    I am pleased to be here today to represent the dedicated 
men and women of FEMA, in my opinion, the best in the Federal 
Government, and for the opportunity to discuss this important 
mission. I look forward to any questions and all questions you 
may have.
    Thank you, ma'am.
    [Mr. Byard's prepared statement follows:]

                               
Prepared Statement of Jeffrey Byard, Associate Administrator, Office of 
   Response and Recovery, Federal Emergency Management Agency, U.S. 
                    Department of Homeland Security
                              Introduction
    Good afternoon, Chairwoman Titus, Ranking Member Meadows, and 
Members of the Committee. My name is Jeffrey Byard and I am the 
Associate Administrator for the Office of Response and Recovery at the 
Federal Emergency Management Agency (FEMA). On behalf of Acting 
Administrator, Pete Gaynor, I'd like to thank you for the opportunity 
to discuss recovery efforts from recent disasters, in addition to how 
we are preparing to respond to and recover from future disasters.
                         Recent Disaster Years
    As you are aware, the last few years of disasters have been 
historic, challenging, and transformative. In late August of 2017, 
Hurricane Harvey struck Texas. Then Hurricane Irma swept through the 
Caribbean, striking the U.S. Virgin Islands, Puerto Rico, and the 
entire State of Florida. Following this, Hurricane Maria struck a 
devastating blow to the U.S. Virgin Islands and Puerto Rico. These 
disasters--each historic in their own right--put this Agency to the 
test. Meanwhile, devastating wildfires swept through the western United 
States, further stretching the finite resources of FEMA personnel and 
capabilities.
    In 2018, Hurricanes Florence and Michael, as well as Super Typhoon 
Yutu struck and caused significant damage, destruction, and ongoing 
challenges for North Carolina, Florida, and the Northern Mariana 
Islands, respectively. Again, in addition to these devastating 
hurricanes, FEMA also responded to and supported recovery from historic 
wildfires in the western United States.
    In 2019, so far this year, the President has declared over 50 major 
disasters and 14 emergency declarations across 40 states, tribes, and 
territories of our nation, involving flooding, hurricanes, tornados, 
fires, and earthquakes. These numbers do not account for the 13 Fire 
Management Assistance Grant awards that have been made to states who 
have fought or are fighting significant wildfires that threaten such 
destruction as would constitute a major disaster.
    The road to recovery from disasters--large and small--continues 
long after the impacting event. FEMA works with states, tribes, and 
territories to establish joint field offices (JFOs) so that all 
entities working toward recovery are co-located to assist impacted 
disaster survivors, as well as to assist community governments as they 
plan and undertake the work of rebuilding damaged infrastructure. In 
many cases, community recovery from a disaster can take years.
    The 2017 hurricane season put into sharp relief the difficulties in 
sustaining the current model for disaster response and recovery in the 
United States. A series of factors, such as an aging population, 
increasing urbanization, population shifts toward coastal areas, 
increased development in the fire-prone wildland urban interface create 
more vulnerability for the nation. This evolution has led to 
continuously increasing disaster costs as billion-dollar disasters are 
on the rise and has resulted in a system with considerable amounts of 
unmanaged risk.
    FEMA assistance can be seen as a no-limit, no-premium insurance 
policy for infrastructure and property. This injects disincentives 
against self-protection measures that might otherwise be undertaken by 
state, local, tribal, and territorial governments (SLTTs) through means 
such as insurance or mitigation. It also burdens Federal taxpayers 
writ-large with the risk management choices of state and local 
governments over which those taxpayers have little or no influence, 
such as land-use and code and standard decisions are by and large non-
Federal.
    The 2018-2022 FEMA Strategic Plan acknowledges that FEMA is not, 
and cannot be, the Nation's sole or primary emergency management 
entity, and it therefore defines emergency management as a shared 
responsibility in which disaster operations are ideally Federally 
supported, state managed, and locally executed. This is the framework 
of the Robert T. Stafford Disaster Relief and Emergency Assistance Act 
(Stafford Act), which defines the Federal role in emergency management 
as supplementing local efforts to provide disaster assistance.
                      The Importance of Innovation
    Recognizing the challenges that lay before us, FEMA, in 
coordination with state, local, tribal and territorial (SLTT) 
governments, emergency managers, and partners from across the country, 
formulated the Strategic Plan with three strategic goals: 1) Build a 
Culture of Preparedness; 2) Ready the Nation for Catastrophic 
Disasters; and 3) Reduce the Complexity of FEMA. At the heart of the 
Plan is the concept that the optimal response and recovery to disasters 
is state managed, locally executed, and federally supported. In our 
support role at the federal level, for us to be able to keep pace and 
effectively help people before, during, and after disasters, FEMA must 
always find ways to continuously improve. We must innovate.
Disaster Staffing
    With disaster recovery taking place in JFOs across the country, we 
need to make sure that we are managing our workforce in a way to ensure 
we have the right people, in the right places, at the right times. At 
FEMA, we have a variety of employee types to accomplish our unique 
mission, which requires diverse skillsets and expertise. When the 
capacity of Agency personnel is stretched thin and personnel resources 
need augmentation, we call upon employees from the Department of 
Homeland Security and across the federal government who have the skills 
we need in our disaster operations through our Surge Capacity Force 
authority. The Surge Capacity Force has been invaluable to FEMA as it 
provides critically needed personnel augmentation, skill sets, and 
support from across the federal government when they are needed most.
    An additional practice at FEMA is the ``local hires'' effort that 
employs residents, who are often themselves disaster survivors, to help 
their fellow citizens in the recovery process as a supplement for 
disaster operational staffing. This practice of employing disaster 
survivors and others impacted locally adds to the long-term recovery of 
the local community by bringing a special understanding of the problems 
faced by their fellow disaster survivors.
    In addition to taking full advantage of these tools, FEMA needs to 
ensure that we are using our existing workforce effectively and 
strategically. After the 2017 hurricane season, the Agency began the 
2018 Incident Management Workforce Review (IMWR). The goal of the 
review was to ensure FEMA has the ability to deploy the right people 
with the right skills to the right place and at the right time to help 
survivors after a disaster. FEMA is realigning staff and consolidating 
duties where appropriate. We are currently working toward the 
implementation of our findings and look forward to the positive impact 
this will have on how we utilize our workforce.
    As we find ways to innovate, one critical tool that Congress has 
given FEMA is the Disaster Recovery Reform Act (DRRA) of 2018. 
Specifically, Section 1222 amended the Stafford Act to authorize FEMA's 
Cadre of Response and Recovery Employees (CORE), under certain 
conditions, to apply for open positions at the Agency in the same 
manner as competitive service employees. This important authority has 
allowed FEMA to retain the valuable knowledge, skills, and experience 
that this type of employee develops over years of supporting disaster 
work. I want to thank Congress for passing this Act and report to the 
Committee that this section is fully implemented. CORE employees are 
presently applying for new opportunities, and several have already been 
hired as permanent, full-time employees under this authority.
Delivering FEMA Assistance
    We also need to be innovative in how we deliver our programs to 
those we serve. As previously stated, one of FEMA's strategic goals is 
to reduce the complexity of the Agency. As such, significant focus has 
been placed on improving the Agency's largest grant program, Public 
Assistance (PA), to make it more accessible, accurate, efficient, and 
timely for applicants. This has been done through the creation and 
implementation of the National Public Assistance Delivery Model. The 
development of this new program started long before I arrived at the 
Agency; however, the impact of its development and implementation is 
significant for FEMA, our partners, and survivors in disaster-impacted 
communities.
    Beginning in 2014, FEMA conducted an in-depth internal review and 
analysis effort, accompanied by external outreach, that demonstrated 
the need for significant changes in the way PA is implemented. As a 
result, FEMA developed a new business model for PA Program delivery and 
those changes are ongoing. The delivery model has three basic elements, 
which support a simplified and streamlined grant application process: 
1) Simplified roles and responsibilities, and re-trained Federal staff; 
2) Cloud-based customer relationship and program management software 
known as the PA Grants Manager and Grants Portal; and 3) Pooled 
resources in certain locations, known as Consolidated Resource Centers 
(CRCs), so multiple disaster operations can tap into trained experts 
when developing PA projects.
    Over the past several years, we have received positive feedback 
from our SLTT partners on this innovation, to include improved 
transparency and better use of technology. The success of the delivery 
model depends on the strength of internal and external partnerships. A 
key aspect of the model is continuous improvement--monitoring progress, 
receiving feedback, and making on-going adjustments and improvements to 
processes and tools.
    Another innovation that is taking root across disaster recoveries 
and making a significant impact is the Public Assistance Alternative 
Procedures, often referred to as Section 428 authority. This authority, 
provided by the Sandy Recovery Improvement Act of 2013, helps reduce 
federal disaster costs, increases flexibility in the administration of 
disaster assistance, expedites the provision of assistance, and 
provides financial incentives for timely and cost-effective completion 
of projects.
    Additionally, through the DRRA, Congress authorized the creation of 
a new pre-disaster mitigation program funded by a 6 percent set-aside 
from federal post-disaster grant funding. This new grant program, 
Building Resilient Infrastructure and Communities (BRIC), will be 
transformational. It will allow FEMA to support states and communities 
as they undertake new and innovative infrastructure projects that 
reduce the risks they face from disasters. The BRIC program aims to 
categorically shift the federal focus away from reactive disaster 
spending and toward research-supported, proactive investment in 
community resilience. In order to inform the creation of this important 
program, FEMA conducted one of the largest stakeholder engagement 
efforts in the Agency's history. The public will have another 
opportunity to provide input on the BRIC program when the program 
policy is published for comment.
    In the meantime, FEMA is already using the funding set aside for 
BRIC to advance the objective of reducing disaster risk. This 
September, the Agency made $250 million available for pre-disaster 
mitigation under our existing grant program--including $125 million 
specifically for infrastructure projects. This funding included up to 
$12.5 million to help states, localities, territories, and tribes 
develop future mitigation projects. The application period for this 
year's pre-disaster mitigation grant program is currently open for all 
states, tribes, and territories that have FEMA-approved hazard 
mitigation plans. Like the National Public Assistance Delivery Model 
and the Section 428 authorities, we want to get this right because we 
believe this will have a significant impact on our ability to 
effectively support our SLTTs recover from disasters.
              Preparing for the Next Disaster & Conclusion
    In emergency management, we are always mindful that ``every day is 
earthquake season,'' and ``it only takes one hurricane.'' The next 
disaster will not wait for us to rest and recover from the previous 
one. Therefore, FEMA and our partners across the country must ensure we 
are ready for the next disaster--large or small.
    In partnership with Congress, FEMA has developed new ways of doing 
business that are having significantly positive effects on our ability 
to support communities as they work to recover from disasters. While I 
have only highlighted some of these key innovation initiatives today, 
there are many other critical efforts underway by the Agency to help us 
meet the goals identified in our Strategic Plan, as well as our ever-
important mission: helping people before, during, and after disasters.
    I thank the Members of this Subcommittee for your partnership, the 
important role you have as representatives of your constituents, and 
your continued support.
    Thank you for the opportunity to testify, and I look forward to any 
questions you may have.

    Ms. Titus. Thank you.
    Mr. Alvord, I think you need to----
    Mr. Alvord. Thank you. Chairman DeFazio, Ranking Member 
Graves, Chairwoman Titus, Congresswoman Miller on behalf of 
Ranking Member Meadows, and members of the subcommittee, it's a 
pleasure and a privilege to appear to before you today to 
testify on behalf of the Department of Commerce's Economic 
Development Administration.
    I bring greetings on behalf of Assistant Secretary Fleming 
who sends his regards.
    EDA welcomes this hearing as an opportunity to discuss our 
role in post-disaster, long-term recovery efforts in 
communities hard-hit by disasters. Restoring economic 
prosperity to all parts of this great Nation is an important 
priority of the Administration. A strong economy is critical to 
helping communities hit by natural disasters to get back on 
their feet. EDA is presently operating under the Continuing 
Appropriations Act of 2020 while concurrently implementing $1.2 
billion in disaster supplemental funding provided by the 
Bipartisan Budget Act of 2018 and the Disaster Relief Act of 
2019. Shortly after Congress appropriated the first $600 
million in supplemental funds to EDA for disasters occurring in 
calendar year 2017, EDA took a number of proactive steps to 
effectively manage its significant increase in funding. One 
important step was the establishment of four disaster 
supplemental implementation teams to maintain focused, well-
coordinated oversight and administration of the supplemental 
funding. The teams include communications, data and tools, 
coordination and operations, and hiring and training. These 
teams have played a critical role in enabling the agency to 
manage the substantial increase in workload while mitigating 
agency risk. We are currently updating this model with lessons 
learned over the last year and a half making us even more 
effective with the new disaster supplemental Congress provided 
in June of 2019 for calendar year 2018 disasters and 2019 
floods and tornadoes. EDA's role in disaster recovery is to 
facilitate the timely and effective delivery of Federal 
economic development assistance to support long-term community 
economic recovery through planning and project implementation, 
redevelopment and resiliency. EDA coordinates regional disaster 
recovery efforts in partnership with an extensive network of 
392 economic development districts, 52 Tribal partnership 
planning organizations, 64 university centers, and other 
partners in impacted areas.
    In FY 2018, EDA made $587 million available to eligible 
grantees in communities where the President declared a major 
disaster under the Stafford Act as a result of Hurricanes 
Harvey, Irma, Maria, wildfires and other natural disasters in 
2017. Under a notice of funding opportunity published in April 
of 2018, EDA awarded disaster grants through the agency's 
Economic Adjustment Assistance Program. This program is the 
EDA's most flexible tool and allows the agency to make awards 
that support a wide range of construction and nonconstruction 
activities in areas that experience sudden and severe economic 
dislocation as happens with a major disaster. As of September 
30, 2019, EDA has obligated $463 million or 79 percent of its 
$587 million in programmatic FY 2018 disaster supplemental 
funding in 174 awards to communities across the country. EDA is 
also actively evaluating an additional 38 proposals and 
applications, which, if funded, would account for 100 percent 
of EDA's FY 2018 disaster supplemental appropriation.
    EDA, on behalf of the Department of Commerce, also plays a 
critical role as the designated coordinating agency of the 
economic recovery support function under the Federal 
Government's National Disaster Recovery Framework. In this 
capacity, EDA provides leadership and coordination for primary 
and support agencies, which share a role in the provision of 
grants, loans, training and other forms of assistance to 
support economic recovery efforts in disaster-impacted 
communities and regions.
    An important new tool in EDA's disaster recovery toolbox is 
Opportunity Zones. As you know, Opportunity Zones were created 
under the 2017 Tax Cuts and Jobs Act to stimulate economic 
development and job creation by incentivizing long-term 
investments in disadvantaged areas across the country. As the 
agency whose principal role is to make investments in 
economically distressed communities, to create jobs, foster 
resiliency, and accelerate long-term growth, the Opportunity 
Zone initiative fits hand-in-glove with EDA's mission.
    As such, EDA has been working to promote Opportunity Zone 
investments across the country and is making grants in 
Opportunity Zones in communities impacted by natural disasters. 
In furtherance of this new tool, EDA has made public works and 
economic adjustment projects in Opportunity Zones eligible for 
EDA assistance as a special need criteria under its regular 
programs and added Opportunity Zones as one of our five 
investment priorities.
    Members of the subcommittee, thank you for the opportunity 
to address EDA's efforts to enhance global competitiveness of 
America's regions. I'm proud of the agency's long history and 
its critical role in supporting communities needing to make 
long-term investments following natural disasters. I look 
forward to hearing any questions that you may have.
    [Mr. Alvord's prepared statement follows:]

                                 
  Prepared Statement of Dennis Alvord, Deputy Assistant Secretary of 
Commerce for Economic Development and Chief Operating Officer, Economic 
        Development Administration, U.S. Department of Commerce
    Chairwoman Titus, Ranking Member Meadows, and members of the 
Subcommittee, it is a pleasure and a privilege to appear before you 
today to testify on behalf of the Department of Commerce's Economic 
Development Administration (EDA). EDA welcomes this hearing as an 
opportunity to discuss our role in post-disaster, long-term recovery 
efforts in communities hard hit by natural disasters.
    Restoring economic prosperity to all parts of this great nation is 
an important priority to this Administration. A strong economy is 
critical to helping communities hit by natural disasters get back on 
their feet, and the Administration's successes in cutting taxes, 
reducing regulatory burdens, and negotiating free and fair trade 
agreements are helping to ensure that the economic outlook continues to 
improve. EDA is presently operating under the Continuing Appropriations 
Act, 2020, and Health Extenders Act of 2019 (Pub. L. 116-59) for the 
current fiscal year (FY) as well as balances remaining from $1.2 
billion in disaster supplemental funding provided by the Bipartisan 
Budget Act of 2018 (Pub. L. 115-123) and the Additional Supplemental 
Appropriations for Disaster Relief Act of 2019 (Pub. L. 116-20) for 
disaster relief and recovery under the Stafford Act.
    Shortly after Congress appropriated the first $600 million in 
supplemental disaster funds to EDA for disasters occurring in calendar 
year 2017, EDA took a number of proactive steps to effectively manage 
the significant increase in grant-making activity required by this 
infusion of disaster relief funds. One important step was the 
establishment of four Disaster Supplemental Implementation (DSI) 
Working Groups to maintain focused, well-coordinated oversight and 
administration of EDA's disaster supplemental funding. The four DSI 
teams include: (1) Communications; (2) Data and Tools; (3) Coordination 
and Operations; and (4) Hiring and Training. For most of the past year, 
the DSI Working Groups met weekly and reported to EDA leadership on a 
bi-weekly basis.
    These teams have played a critical role in enabling the agency to 
manage the significant increase in funding while mitigating agency 
risk. For example, Hiring and Training devised an internal strategic 
workforce policy and procedure document to efficiently enlist and on-
board temporary disaster mission focused employees. Coordination and 
Operations drafted and promulgated guidance clarifying the requirements 
for documenting metrics and impacts related to disaster supplemental 
projects and promulgated EDA's plan for accountability and internal 
controls for the disaster supplemental funds, as required by law and 
the Office of Management and Budget. Data and Tools implemented a new 
mechanism for tracking and reporting projects funded under the disaster 
supplemental and published a new public-facing dataset of all grants 
made under the disaster supplemental, thereby increasing transparency 
into EDA's disaster funding. Communications has worked to inform the 
public on where EDA's disaster recovery efforts are happening on the 
ground in real time through the use of EDA digital media, monthly 
newsletters, success stories, and senior leader speaking events to show 
the American public and prospective grantees what EDA's role is with 
regard to economic recovery in designated disaster areas.
    EDA is currently updating the DSI model with lessons learned over 
the last year and half, making us even more effective under the new 
disaster supplemental Congress provided in June of 2019 for calendar 
year 2018 disasters as well as floods and tornadoes occurring in 
calendar year 2019.
                    EDA's Role in Disaster Recovery
Grants to communities recovering from natural disasters
    EDA's role in disaster recovery is to facilitate the timely and 
effective delivery of federal economic development assistance to 
support long-term community economic recovery through planning and 
project implementation, redevelopment, and resiliency. EDA coordinates 
regional disaster recovery efforts in partnership with an extensive 
network of 392 Economic Development Districts (EDDs), 52 Tribal 
Partnership Planning organizations, 64 University Centers, institutions 
of higher education, and other partners in impacted areas. In FY 2018, 
under the Bipartisan Budget Act of 2018, EDA made $587 million 
available to eligible grantees in communities where the President 
declared a major disaster under the Stafford Act as a result of 
Hurricanes Harvey, Irma, and Maria, wildfires, and other natural 
disasters in 2017. EDA's Disaster Supplemental Notice of Funding 
Opportunity (NOFO) was published on April 10, 2018. Under this NOFO, 
EDA awarded disaster grants through the agency's Economic Adjustment 
Assistance (EAA) Program. The EAA program is EDA's most flexible tool 
and it allows the agency to make awards that support a wide range of 
construction and non-construction activities in areas that experience 
sudden and prolonged severe economic dislocation, as happens with a 
major natural disaster. It is essential that applications are linked to 
long-term, regionally-oriented, and collaborative economic development 
strategies that foster economic growth and resilience. There are no 
application deadlines and the agency will continue to accept proposals 
on a rolling basis until all funds are obligated.
    As of September 30, 2019, EDA has obligated $463 million or 79 
percent of its $587 million in programmatic FY 2018 disaster 
supplemental funding in 174 awards to communities across the country. 
EDA is also actively evaluating an additional 38 proposals and 
applications, which, if funded, would account for 100 percent of EDA's 
FY 2018 disaster supplemental appropriation.
    Below are representative examples of EDA's concerted effort in 
support of economic recovery from the 2017 disasters under the FY 2018 
Disaster Supplemental:

    <bullet>  Marina Improvements and Marine Sciences Center Facility 
in Port Aransas, TX
     1.  Port Aransas Marina, $5 million. When Hurricane Harvey made 
landfall on August 25, 2017, the eye of the storm passed 10 miles north 
of the City of Port Aransas, inundating the town with storm surge and 
winds exceeding 140 mph. As the town was evacuated, the storm disrupted 
businesses and destroyed essential infrastructure, including the Port 
Aransas Municipal Marina. In the wake of this destruction, City 
residents had to look outside of Port Aransas for work and the revenue 
from the City's marina, usually over $600,000 per year, decreased by 43 
percent. As part of City's overall recovery and resiliency plan, the 
City planned to rebuild and improve the marina, ensuring that it was 
built back stronger and more resilient. EDA provided the City a $5 
million grant in October 2018, to purchase property needed to house 
essential infrastructure and make much needed enhancements to protect 
against future storms, including improvements to floating and fixed 
docks as well as a pavilion and Harbor Master Office. This investment 
will help to restore the local economy quickly in the wake of the 
storm, bringing jobs and revenue that allowed the community to focus on 
other urgent long-term recovery needs.
     2.  Marine Sciences Center, $5 million. The Center for Coastal 
Ocean Science (CCOS) comprises two waterfront buildings on the 
University of Texas Marine Science Institute Port Street campus in Port 
Aransas, that were already in a state of significant disrepair and were 
further damaged by Hurricane Harvey in 2017. On August 1, 2019, EDA 
awarded a $5 million grant to University of Texas to renovate the 
Marine Science Institute Campus to help establish the CCOS. This 
investment focused on diversifying and strengthening the regional 
economy to support the region's recovery and long-term economic growth.

    <bullet>  City of West Orange, TX, Wastewater Treatment Plant 
(Opportunity Zone), $5 Million
        In September 2019, EDA awarded the City of West Orange, TX, $5 
million to support the design and construction of a new wastewater 
treatment plant located in an area impacted by Hurricane Harvey in 
2017. The facility will support new and existing industrial customers 
in the area, as well as improve long-term economic resiliency, 
particularly during disasters.

        EDA's Economic Development Integration efforts factored into 
the development of this project as the Field Coordinators assigned to 
lead the Federal Emergency Management Agency's (FEMA) Economic Recovery 
Support Function (ERSF) for Harvey-impacted communities collaborated 
with other federal, state, and local representatives to discuss 
projects with unmet funding needs. This collaboration led to the 
identification of the wastewater treatment plant project that will add 
capacity to existing infrastructure and support retention of the area's 
existing industry while at the same time allowing for future growth.

    <bullet>  Puerto Rico (Opportunity Zone)
     1.  $33 million for economic resiliency and business growth 
projects. In September 2019, EDA announced nearly $33 million in grant 
investments to assist Puerto Rico with advancing economic resiliency 
and business growth efforts in the wake of the devastating 2017 
hurricane season. The grants will be matched with $4.3 million in local 
funds and are expected to help create or retain 7,635 jobs and generate 
$188 million in private investment. All projects are in Opportunity 
Zones, which I will discuss shortly.
     2.  Capacity Building for Economic Growth and Resilience, 
University Memorandum of Understanding (MOU). On August 8, 2019, the 
University of Puerto Rico (UPR) and the University of the Virgin 
Islands (UVI) signed a historic MOU to strengthen recovery initiatives 
in the Caribbean Region after the devastating impacts of hurricanes 
Irma and Maria in 2017. The MOU was the direct result of the commitment 
EDA has to recovery efforts in Puerto Rico and U.S. Virgin Islands 
(USVI), and our on the ground assistance as coordinator of the ERSF. 
The MOU will enable collaboration between the two institutions on 
research related to economic growth, development, resiliency, and 
sustainability.

    <bullet>  Biomass Bulk Storage Facility, Panama City, FL, $10 
million. In July 2019, EDA awarded a $10 million grant to the Panama 
City Port Authority of Panama City, Florida, to help build a new 
biomass bulk storage facility at the Port. The project, to be matched 
with $3.2 million in state investment, is expected to generate $70 
million in private investment. The facility will be built to withstand 
hurricane force winds and will provide additional storage capacity 
reducing product damage resulting from natural disasters. The project 
will allow for increased flow of biomass exports and prevent job loss 
in an area of Florida affected by Hurricane Irma as well as Michael.

    <bullet>  Recapitalized Revolving Loan Fund, Superior California 
Economic Development District, $880K. In May 2019, EDA awarded $880,000 
to Superior California Economic Development District of Redding, CA to 
recapitalize a Revolving Loan Fund and provide technical assistance to 
potential borrowers in disaster-impacted counties of Modoc, Shasta, 
Siskiyou, and Trinity. This Revolving Loan Fund will provide affordable 
loans to businesses that might not qualify for conventional financing 
to support their recovery and expansion plans. This project capitalizes 
a revolving loan fund in Redding, California to help businesses in the 
impacted counties become more resilient to natural disasters such as 
winter storms, flooding, mudslides, and wildfires that affected the 
area in 2017 and the Carr Fire in 2018.
EDA's Coordination Role
    EDA, on behalf of the Department of Commerce, also plays a crucial 
role as the designated Coordinating Agency of the ERSF under the 
federal government's National Disaster Recovery Framework (NDRF). In 
this capacity, EDA provides leadership and coordination for primary and 
support agencies, which share a role in the provision of grants, loans, 
training, and other forms of assistance to support economic recovery 
efforts in disaster-impacted communities and regions.
    In the disaster recovery framework, EDA coordinates with other 
federal agencies in two areas that vary depending on whether EDA is 
working in the context of the NDRF or under the auspices of a 
supplemental disaster appropriation. First, EDA manages the interagency 
Economic Recovery Support Function (ERSF), which includes the Small 
Business Administration, U.S. Department of Agriculture, FEMA, 
Department of Housing and Urban Development, Environmental Protection 
Agency, Department of Labor, Internal Revenue Service, Department of 
the Treasury, and other Department of Commerce bureaus, to share 
information and to facilitate interagency coordination. Later, in 
disaster locations, whether under the NRSF or acting pursuant to a 
supplemental disaster appropriation, EDA coordinates with other 
agencies at the Joint Field Office (JFO), including inviting federal 
agencies to participate in EDA organized economic recovery workshops 
and assisting communities to navigate multiple federal resources at 
once. EDA initiates individual conversations with federal agencies 
about specific issues of overlapping interest, including complementary 
funding streams and specific projects of mutual interest. EDA also 
plays an active role supporting other NDRF Recovery Support Functions 
that complement and align with the ERSF, including Community Planning 
and Capacity Building, Health and Social Services, Housing, 
Infrastructure Systems, and Natural and Cultural Resources.
    EDA meets regularly with these other federal agencies to ensure a 
coordinated recovery effort. With EDA's support and in the interest of 
transparency, the Recovery Support Function Leadership Group has also 
set up a public-facing website (https://recovery.fema.gov/) to display 
disaster supplemental funding and to highlight our continuing work in 
the field.
Opportunity Zones
    An important new tool in EDA's disaster recovery tool box is 
Opportunity Zones. As you know, Opportunity Zones were created under 
the 2017 Tax Cuts and Jobs Act to stimulate economic development and 
job creation by incentivizing long-term investments in disadvantaged 
areas across the country.
    As the agency whose principal role is to make investments in 
economically distressed communities to generate jobs, foster 
resiliency, and accelerate long-term growth, the Opportunity Zones 
initiative fits hand in glove with EDA's mission.
    As such, EDA has been working to promote Opportunity Zone 
investments across the country, both within the government and in the 
private sector, and is making grants in Opportunity Zones in 
communities impacted by natural disasters.
    As part of the White House Opportunity and Revitalization Council 
(WHORC), EDA's Assistant Secretary John Fleming has provided overviews 
of EDA's role in the initiative at roundtables, conferences, and other 
events that are bringing together local elected officials, business 
leaders, and community groups across the country.
    On the policy front, in FY 2018, EDA issued a NOFO, making public 
works and economic adjustment projects in Opportunity Zones eligible 
for EDA assistance as a special need criteria.
    In June 2019, EDA added Opportunity Zones as one of our five 
Investment Priorities to help significantly increase the number of 
catalytic Opportunity Zone-related projects that communities submit to 
EDA and that EDA subsequently funds.
    Since FY 2018, EDA has invested more than $304 million in 214 
projects in or nearby Opportunity Zones and in Opportunity Zone-related 
projects. This includes over $159.7 million in 42 projects that were 
eligible for and funded via the FY 2018 Disaster Supplemental 
appropriation.
    Our work has not stopped there.
    There are also several tasks EDA is working on as a member of the 
WHORC Policy Coordination Committee, including designating an Economic 
Development Integration point of contact in each of EDA's six regions--
and one at Headquarters--to be a resource on Opportunity Zones.
    EDA is working with our partners to develop a new section in EDA's 
Comprehensive Economic Development Strategy, or CEDS, Content 
Guidelines. As some of you know, CEDS is a strategy-driven plan for 
regional economic development and a cornerstone of EDA programs. It's 
an ideal vehicle that we are enhancing to encourage our Economic 
Development Districts, or EDDs, and our other partners to help better 
integrate Opportunity Zones within their service areas. In a disaster 
recovery context, this addition is anticipated to complement the CEDS 
Content Guidelines existing on-going focus on resiliency.
    We're also working to expand our partnerships with external 
entities to provide them with information on Opportunity Zones, outline 
EDA resources available to them, identify training opportunities, and 
more.
    In addition, we are ramping up an outreach effort to Governors, 
particularly in states impacted by natural disasters, to learn how 
states are supporting Opportunity Zones, where best practices reside, 
what challenges exist, and to further explain EDA's role and how we can 
complement state and local Opportunity Zone initiatives.
                               Conclusion
    Members of the Subcommittee, thank you for the opportunity to 
address EDA's efforts to enhance the global competitiveness of 
America's regions. I am proud of the agency's long history and its 
critical role in supporting communities needing to make long-term 
investments following natural disasters. I look forward to answering 
any questions you may have.

    Ms. Titus. Thank you very much.
    Mr. Currie.
    Mr. Currie. Thank you, Chairmen Titus, DeFazio, Ranking 
Members Miller and Graves. It's an honor to be here today to 
talk about GAO's work on disaster recovery. Over the years at 
GAO, we've looked at almost every aspect of disaster recovery 
across the Government, and what we've seen in the recent years 
is only an increasing amount of support being provided to State 
and local governments and the expectation for disaster 
assistance from the feds increasing.
    Since 2005, the Federal Government has provided almost half 
a trillion dollars in disaster assistance, and a lot of that 
funding goes towards long-term recovery, particularly public 
infrastructure projects at the State and local level. To be 
clear, recovery would not be possible without these Federal 
resources. And in our work across the country, we see the 
dedicated people at FEMA and other Federal agencies trying to 
help State and local communities recover.
    However, as many of the members on the committee know, what 
we also hear is that recovery can often be the slow disaster 
that happens after the disaster. If you've had a Federal 
disaster in your jurisdiction, which I think most everybody 
here has, you know that these programs can be slow, 
complicated, and, frankly, very frustrating to deal with.
    I'd like to talk today just about some of our recent work 
and some of the examples and hopefully some of the solutions 
that we see moving forward.
    In Puerto Rico, specifically, I think this has been a case 
study in some of the complexity and challenges in recovery. So 
far, FEMA told us just last week there are 14 approved large 
public infrastructure projects in Puerto Rico 2 years after 
Maria. The problem with that is there are 9,000 island-wide. 
And so it's not going to get any easier over the next few 
months to a year to try to pin down cost estimates and get 
these projects rolling.
    What we've seen in some of these places is the rollout of 
new programs that have lacked policies and procedures and 
created some confusion on both sides. To be fair, though, it's 
not easy to just instantly after a disaster manage, you know, 
$20 to $30 billion in recovery grants. Puerto Rico and the 
Virgin Islands and places like that have had to build the 
capacity to manage these types of funds since their disasters, 
and that's also led to some of the delays that we have seen.
    HUD's Community Development Block Grant program has also 
been mentioned. There's also been incredible frustration at the 
State/local level with the speed of that program. We found just 
this year it took almost a year or more just to get to a place 
of having a grant agreement between HUD and the State or the 
Territory. And this is just an agreement about how the program 
is going to work. This isn't even about obligating funding or 
spending money.
    Of the almost $40 billion that was mentioned since 2017 
that HUD has received from Congress, about $7 billion has been 
obligated and $112 million out of $40 billion has been actually 
spent on projects. So I think this is not a pace that anybody 
at the Federal level or the State/local level would think is 
ideal.
    Another thing I want to point out that we hear consistently 
at the State and local level is how challenging it is to 
coordinate and synchronize all of these Federal programs. I 
want to make it clear that these Federal programs were never 
designed for recovery to all work together at the same time. 
You have HUD, DOT, FEMA, EDA, all sorts of different Federal 
agencies. All these programs have different rules, they have 
different timeframes, and they have different paperwork 
requirements. So if you're a State and local emergency manager, 
trying to coordinate all of these things at the same time for 
one recovery plan is extremely challenging.
    I'd like to end by also talking about the importance of 
resilience. This is something that's been mentioned here at the 
hearing. I think that the committee and Congress and FEMA and 
other agencies have really moved the ball forward in terms of 
providing the additional funding and the flexibilities that we 
need to allow these programs to get creative and rebuild in a 
resilient way.
    One caution that I would have that we're seeing in our work 
is that it's great that the legislation is there, but these 
things have to sync into the actual programs and have to be 
executed the way you want them to be executed. And what we've 
seen so far is some confusion so far about how these 
flexibilities are going to be able to change existing programs 
that have frankly been run the same way for many, many years. 
And so it's going to require changed management efforts at the 
agencies. It's going to require new training for employees and 
overcoming some challenges to make sure they're doing what you 
want them to do.
    This completes my prepared remarks. I look forward to your 
questions.
    [Mr. Currie's prepared statement follows:]

                                 
Prepared Statement of Chris P. Currie, Director, Homeland Security and 
             Justice, U.S. Government Accountability Office
    Chairwoman Titus, Ranking Member Meadows, and Members of the 
Subcommittee:
    Thank you for the opportunity to discuss our work on the Federal 
Emergency Management Agency's (FEMA) and other federal agencies' 
efforts related to disaster recovery.
    Recent hurricanes, wildfires, and other events have highlighted the 
challenges the federal government faces in responding effectively to 
natural disasters--both in terms of immediate response and long-term 
recovery efforts. According to FEMA's 2017 after action report, the 
2017 hurricanes and wildfires collectively affected 47 million people, 
and hurricanes Harvey, Irma, and Maria all rank among the top five 
costliest hurricanes on record.\1\ The 2018 hurricane season followed 
with hurricanes Florence and Michael, causing nearly $50 billion of 
damage, according to the National Oceanic and Atmospheric 
Administration. Furthermore, the deadly and destructive wildfires 
continued into 2018, including the Camp Fire in northern California, 
which destroyed more than 18,500 buildings and was the costliest and 
deadliest wildfire in the state's history.\2\ In March 2019, the 
Midwest experienced historic flooding that affected millions of acres 
of agriculture, numerous cities and towns, and caused widespread damage 
to public infrastructure. Collectively, these extreme weather events 
have stretched and strained federal response and recovery efforts and 
staff.
---------------------------------------------------------------------------
    \1\ According to the 2017 Hurricane Season FEMA After-Action 
Report, the National Oceanic and Atmospheric Administration identified 
the five costliest hurricanes on record being Hurricane Katrina at $161 
billion, Hurricane Harvey at $125 billion, Hurricane Maria at $90 
billion, Hurricane Sandy at $71 billion, and Hurricane Irma at $50 
billion.
    \2\ National Oceanic and Atmospheric Administration, National 
Centers for Environmental Information U.S. Billion-Dollar Weather and 
Climate Disasters (2019). https://www.ncdc.noaa.gov/billions/.
---------------------------------------------------------------------------
    The rising number of natural disasters and increasing state, local, 
and tribal reliance on federal disaster assistance is a key source of 
federal fiscal exposure--which can come from federal responsibilities, 
programs, and activities, such as national flood insurance, that may 
legally commit or create the expectation for future spending.\3\ Since 
2005, federal funding for disaster assistance is at least $450 
billion,\4\ most recently for catastrophic hurricanes, flooding, 
wildfires, and other losses in 2017 and 2018.\5\ Disaster costs are 
projected to increase as extreme weather events become more frequent 
and intense due to climate change--as observed and projected by the 
U.S. Global Change Research Program and the National Academies of 
Sciences, Engineering, and Medicine.\6\
---------------------------------------------------------------------------
    \3\ GAO, Fiscal Exposures: Improving Cost Recognition in the 
Federal Budget, GAO-14-28 (Washington, D.C.: Oct. 29, 2013).
    \4\ This total includes, for fiscal years 2005 through 2014, $278 
billion that GAO found that the federal government had obligated for 
disaster assistance. See GAO, Federal Disaster Assistance: Federal 
Departments and Agencies Obligated at Least $277.6 Billion during 
Fiscal Years 2005 through 2014, GAO-16-797 (Washington, D.C.: Sept. 22, 
2016). It also includes, for fiscal years 2015 through 2018, $124 
billion in select supplemental appropriations to federal agencies for 
disaster assistance, approximately $7 billion in annual appropriations 
to the Disaster Relief Fund (a total of $28 billion for the 4-year 
period). For fiscal years 2015 through 2018, it does not include other 
annual appropriations to federal agencies for disaster assistance. 
Lastly, on June 6, 2019, the Additional Supplemental Appropriations for 
Disaster Relief Act of 2019 was signed into law, which provides 
approximately $19.1 billion for disaster assistance. See Pub. L. No. 
116-20, 133 Stat. 871 (2019).
    \5\ GAO, High-Risk Series: Substantial Efforts Needed to Achieve 
Greater Progress on High-Risk Areas, GAO-19-157SP (Washington, D.C.: 
Mar. 6, 2019).
    \6\ GAO, Climate Change: Information on Potential Economic Effects 
Could Help Guide Federal Efforts to Reduce Fiscal Exposure, GAO-17-720 
(Washington, D.C.: Sept. 28, 2017). Managing fiscal exposure due to 
climate change has been on our high risk list since 2013, in part, 
because of concerns about the increasing costs of disaster response and 
recovery efforts. See GAO-19-157SP; also http://www.gao.gov/highrisk/
limiting_federal_government_fiscal_exposure/why_did_study.
---------------------------------------------------------------------------
                       hazard mitigation measures
                       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Some examples of hazard mitigation measures are house elevation, metal 
 roofs, and storm shutters. Source: GAO; photos taken by GAO while on 
                     site in Florida. GAO-20-183TT

    One way to save lives, reduce future risk to people and property, 
and minimize federal fiscal exposure from natural disasters is to 
enhance resilience. For example, in September 2018, we reported that 
elevated homes and strengthened building codes in Texas and Florida 
prevented greater damages during the 2017 hurricane season.\7\ Further, 
in October 2018, the Disaster Recovery Reform Act of 2018 (DRRA) was 
enacted, which focuses on improving preparedness, mitigation, response 
and recovery.\8\ Specifically, the DRRA contains provisions that 
address many areas of emergency management, including wildfire 
mitigation, public assistance, and individual assistance, among others. 
Given the importance of planning for the risks and costs of future 
disasters, GAO is developing a disaster resilience framework to support 
analysis of federal opportunities to facilitate and promote resilience 
to natural disasters, and will publish this framework by the end of the 
year.
---------------------------------------------------------------------------
    \7\ GAO, 2017 Hurricanes and Wildfires: Initial Observations on the 
Federal Response and Key Recovery Challenges, GAO-18-472 (Washington, 
D.C.: Sept. 4, 2018).
    \8\ Pub. L. No. 115-254, div. D, 132 Stat. 3186, 3438-70 (2018).
---------------------------------------------------------------------------
    My statement today discusses our prior and ongoing work on federal 
recovery efforts and continued challenges across three key areas: (1) 
disaster resilience and mitigation, (2) managing complex, long-term 
recovery assistance programs, and (3) FEMA workforce management 
challenges. My statement today is based on products we issued from 
September 2012 through October 2019, along with preliminary 
observations from our ongoing reviews on federal recovery related 
issues for a number of congressional committees and subcommittees.
    To perform our prior work, we reviewed federal laws related to 
emergency management, analyzed documentation from FEMA and the 
Department of Housing and Urban Development (HUD), and interviewed 
relevant agency officials. More detailed information on the scope and 
methodology for our prior work can be found in each of the issued 
reports listed in appendix I. For our ongoing work, we reviewed federal 
laws such as the DRRA, and analyzed FEMA documents, including policies, 
procedures, and guidance specific to emergency management. See the list 
of our ongoing reviews in appendix II. We have conducted site visits to 
areas throughout the nation that were affected by disasters in 2017, 
2018, and 2019, including California, Florida, North Carolina, South 
Carolina, Puerto Rico, Texas, and the U.S. Virgin Islands (USVI). 
During these visits, we met with federal, state, territorial, and local 
government and emergency management officials to discuss disaster 
response and recovery efforts for hurricanes Harvey, Irma, and Maria in 
2017, and the California wildfires and hurricanes Florence and Michael 
in 2018. In addition, we regularly followed up with relevant officials 
to solicit updated information on agency actions taken in response to 
our recommendations.
    We conducted the work on which this statement is based in 
accordance with generally accepted government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
FEMA Has Taken Steps to Strengthen Disaster Resilience, but Additional 
        Actions are Needed to Fully Address Remaining Challenges
    We have previously reported on the extent to which FEMA programs 
encourage disaster resilience during recovery efforts and our prior and 
ongoing work also highlight opportunities to improve disaster 
resilience nationwide.\9\ Specifically, we reported on (1) federal 
efforts to strengthen disaster resilience, (2) FEMA's efforts to 
promote hazard mitigation through the Public Assistance program, and 
(3) crafting appropriate federal responses to the effects of climate 
change.
---------------------------------------------------------------------------
    \9\ For example, see GAO, Hurricane Sandy: An Investment Strategy 
Could Help the Federal Government Enhance National Resilience for 
Future Disasters, GAO-15-515 (Washington, D.C.: July 30, 2015); 
Emergency Preparedness: Opportunities Exist to Strengthen Interagency 
Assessments and Accountability for Closing Capability Gaps, GAO-15-20 
(Washington, D.C.: Dec. 4, 2014); and GAO-18-472.
---------------------------------------------------------------------------
    First, in July 2015, we found that states and localities 
experienced challenges when trying to use federal funds to maximize 
resilient rebuilding in the wake of a disaster.\10\ In particular, they 
had difficulty navigating multiple federal grant programs and applying 
federal resources toward their most salient risks because of the 
fragmented and reactive nature of the funding.\11\ In our 2015 report, 
we recommended that the Mitigation Framework Leadership Group--an 
interagency body chaired by FEMA--create a National Mitigation 
Investment Strategy to help federal, state, and local officials plan 
for and prioritize disaster resilience efforts. In August 2019, FEMA 
took action to fully implement our recommendation by publishing this 
strategy.
---------------------------------------------------------------------------
    \10\ GAO-15-515.
    \11\ GAO-15-515. A provision of DRRA also created a grant in the 
Disaster Relief Fund for pre-disaster hazard mitigation. DRRA 
authorized the President to set aside 6 percent of the total grant 
awards for the Individual Assistance and Public Assistance programs 
(each discussed later in this statement) for each declared disaster to 
be used for pre-disaster hazard mitigation. From May 20 through July 
15, 2019, FEMA collected public comments on the implementation of this 
provision through a program it has named the Building Resilient 
Infrastructure and Communities grant. 42 U.S.C.  5133(i).
---------------------------------------------------------------------------
    Second, in November 2017, we found that FEMA had taken some actions 
to better promote hazard mitigation as part of its Public Assistance 
grant program, which provides grant funding for cost-effective hazard 
mitigation measures to reduce or eliminate the long-term risk to people 
and property from future disasters and their effects.\12\ However, we 
also reported that more consistent planning for, and more specific 
performance measures related to, hazard mitigation could help ensure 
that mitigation is incorporated into recovery efforts. We recommended, 
among other things, that FEMA (1) standardize planning efforts for 
hazard mitigation after a disaster and (2) develop performance measures 
for the Public Assistance grant program to better align with FEMA's 
strategic goal for hazard mitigation in the recovery process. The 
Department of Homeland Security (DHS) concurred with our 
recommendations, and officials reported taking steps to increase 
coordination across its Public Assistance, mitigation, and field 
operations to ensure hazard mitigation efforts are standardized and 
integrated into the recovery process. Additionally, FEMA officials 
reported taking actions to begin developing disaster-specific 
mitigation performance measures. However, FEMA has yet to finalize 
these actions, such as by proposing performance measures to FEMA senior 
leadership. As such, we are continuing to monitor FEMA's efforts to 
address these recommendations.
---------------------------------------------------------------------------
    \12\ GAO, Disaster Assistance: Opportunities to Enhance 
Implementation of the Redesigned Public Assistance Grant Program, GAO-
18-30 (Washington, D.C.: Nov. 8, 2017). In addition to rebuilding and 
restoring infrastructure to its pre-disaster state, the Public 
Assistance program, under Section 406 of the Stafford Act, funds 
mitigation measures that will reduce future risk to the infrastructure 
in conjunction with the repair of disaster-damaged facilities. 42 
U.S.C.  5172. For example, a community that had a fire station damaged 
by a disaster could use Public Assistance grant funding to repair the 
facility and incorporate additional measures such as installing 
hurricane shutters over the windows to mitigate the potential for 
future damage.
---------------------------------------------------------------------------
    Third, in September 2017, we reported that the methods used to 
estimate the potential economic effects of climate change in the United 
States--using linked climate science and economics models--could inform 
decision makers about significant potential damages in different U.S. 
sectors or regions, despite the limitations.\13\ For example, for 2020 
through 2039, one study estimated between $4 billion and $6 billion in 
annual coastal property damages from sea level rise and more frequent 
and intense storms. We found that the federal government has not 
undertaken strategic government-wide planning on the potential economic 
effects of climate change to identify significant risks and craft 
appropriate federal responses. As a result, we recommended the 
Executive Office of the President, among others, should use information 
on the potential economic effects of climate change to help identify 
significant climate risks facing the federal government and craft 
appropriate federal responses, such as establishing a strategy to 
identify, prioritize, and guide federal investments to enhance 
resilience against future disasters. However, as of June 2019, 
officials had not yet taken action to address this recommendation.
---------------------------------------------------------------------------
    \13\ GAO-17-720.
---------------------------------------------------------------------------
 Federal Programs Provide Long-Term Disaster Recovery Assistance, but 
         Challenges in Managing Complex Recovery Programs Exist
                    fema's public assistance program
                    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   FEMA's Public Assistance program provides grants to repair public 
 infrastructure such as water storage systems, roads, and power lines. 
 Source: GAO; Photos taken by GAO while on site in Florida. GAO-20-183T

    FEMA and other federal agencies provide multiple forms of disaster 
recovery assistance after a major disaster has been declared, including 
through FEMA's Public Assistance and Individual Assistance programs, 
HUD's Community Development Block Grant Disaster Recovery (CDBG-DR) 
program, and other efforts.\14\ Through these programs, the federal 
government obligates billions of dollars to state, tribal, territorial, 
and local governments, certain nonprofit organizations, and individuals 
that have suffered injury or damages from major disaster or emergency 
incidents, such as hurricanes, tornados, or wildfires. In September 
2016, we reported that, from fiscal years 2005 through 2014, FEMA 
obligated almost $46 billion for the Public Assistance program and over 
$25 billion for the Individual Assistance program.\15\ According to 
FEMA's September 2019 Disaster Relief Fund report, total projected 
obligations through fiscal year 2019 for the Public Assistance and 
Individual Assistance programs since August 1, 2017, are approximately 
$19 billion and $9 billion, respectively.\16\ Further, in March 2019, 
we reported that in response to the 2017 disasters, HUD had awarded 
approximately $32.9 billion in CDBG-DR funds to four grantees as of 
February 2019--$19.9 billion to Puerto Rico, $9.8 billion to Texas, 
$1.9 billion to the USVI, and $1.3 billion to Florida.\17\ As of 
September 2019, much of these awarded funds had been allocated to the 
grantees via Federal Register notices with the exception of Puerto 
Rico.\18\ HUD had not allocated the remaining $10.2 billion it awarded 
to Puerto Rico as of September 10, 2019 due to recent concerns about 
the territory's governance and financial management challenges.\19\ 
Given the high cost of these programs, it is imperative that FEMA and 
HUD continue to make progress on the challenges we have identified in 
our prior and ongoing work regarding recovery efforts.
---------------------------------------------------------------------------
    \14\ In addition, FEMA's Hazard Mitigation Grant Program provides 
additional funds to states to assist communities in implementing long-
term measures to help reduce the potential risk of future damages to 
facilities.
    \15\ GAO-16-797.
    \16\ DHS, FEMA, Disaster Relief Fund: Monthly Report as of August 
30, 2019, (Sept. 13, 2019).
    \17\ The $32.9 billion excludes approximately $2.5 billion awarded 
to states affected by 2017 disasters other than Hurricanes Harvey, 
Irma, and Maria or prior disasters. As of February 2019, HUD had 
allocated via Federal Register notices $17.2 billion of the $32.9 
billion awarded to Puerto Rico, Texas, the USVI, and Florida. See 
Allocations, Common Application, Waivers, and Alternative Requirements 
for 2017 Disaster Community Development Block Grant Disaster Recovery 
Grantees, 83 Fed. Reg. 5844 (Feb. 9, 2018) and Allocations, Common 
Application, Waivers, and Alternative Requirements for Community 
Development Block Grant Disaster Recovery Grantees, 83 Fed. Reg. 40314 
(Aug. 14, 2018). GAO, Disaster Recovery: Better Monitoring of Block 
Grant Funds Is Needed, GAO-19-232 (Washington, D.C.: Mar. 25, 2019).
    \18\ In 2019, HUD allocated CDBG-DR funds via Federal Register 
notices for activities to mitigate disaster risks and reduce future 
losses. Specifically, in August 2019, HUD allocated approximately $633 
million to Florida and approximately $4.3 billion to Texas. See 
Allocations, Common Application, Waivers, and Alternative Requirements 
for Community Development Block Grant Mitigation Grantees, 84 Fed. Reg. 
45838 (Aug. 30, 2019). In September 2019, HUD allocated approximately 
$774 million to the USVI. See Allocations, Common Application, Waivers, 
and Alternative Requirements for Community Development Block Grant 
Mitigation Grantees; U.S. Virgin Islands Allocation, 84 Fed. Reg. 47528 
(Sept. 10, 2019).
    \19\ See 84 Fed. Reg. 45838.
---------------------------------------------------------------------------
FEMA's Public Assistance Program
    FEMA's Public Assistance program provides grants to state, tribal, 
territorial, and local governments, as well as certain types of private 
nonprofit organizations, for debris removal; emergency protective 
measures; and the repair, replacement, or restoration of disaster- 
damaged, publicly owned facilities.\20\ It is a complex and multistep 
program administered through a partnership among FEMA, state, and local 
officials. Prior to implementing the Public Assistance program, FEMA 
determines a state, territorial or tribal government's eligibility for 
the program using primarily the per capita damage indicator.\21\ In our 
September 2018 report on federal response and recovery efforts for the 
2017 hurricanes and wildfires, we reported on FEMA's implementation of 
the Public Assistance program, which has recently undergone significant 
changes as a result of federal legislation and agency initiatives. 
Specifically, we reported on FEMA's use of its redesigned delivery 
model for providing grants under the Public Assistance program, as well 
as the alternative procedures for administering or receiving such grant 
funds that FEMA allows states, territories, and local governments to 
use for their recovery.\22\ Our prior and ongoing work highlight both 
progress and challenges with FEMA's Public Assistance program, 
including the agency's methodology for determining program eligibility, 
the redesigned delivery model, and the program's alternative 
procedures.
---------------------------------------------------------------------------
    \20\ In accordance with the Robert T. Stafford Disaster Relief and 
Emergency Assistance Act (Stafford Act), as amended, the President of 
the United States may declare that a major disaster or emergency exists 
in response to a governor's or tribal chief executive's request if the 
disaster is of such severity and magnitude that effective response is 
beyond the capabilities of a state, tribe, or local government and 
federal assistance is necessary. See 42 U.S.C.  5170-5172.
    \21\ See 44 C.F.R.  206.48. The per capita indicator is a set 
amount of funding, $1.50 per capita in fiscal year 2019, that is 
multiplied by the population of the jurisdiction (for example, state) 
for which the governor is requesting a disaster declaration for Public 
Assistance, to arrive at a threshold amount, which is compared with the 
estimated amount of damage done to public structures.
    \22\ GAO-18-472. The Sandy Recovery Improvement Act of 2013 amended 
the Stafford Act by adding Section 428, which authorized FEMA to 
approve Public Assistance program projects under the alternative 
procedures provided by that section for any presidentially-declared 
major disaster or emergency. This section further authorized FEMA to 
carry out the alternative procedures as a pilot program until FEMA 
promulgates regulations to implement this section. Pub. L. No. 113-2, 
div. B,  1102(2), 127 Stat. 39, amending Pub. L. No. 93-288, tit. IV, 
 428 (codified as amended at 42 U.S.C.  5189f).
---------------------------------------------------------------------------
            Criteria for Determining Public Assistance Eligibility
    In September 2012, we found that FEMA primarily relied on a single 
criterion, the per capita damage indicator, to determine a 
jurisdiction's eligibility for Public Assistance funding.\23\
---------------------------------------------------------------------------
    \23\ GAO, Federal Disaster Assistance: Improved Criteria Needed to 
Assess a Jurisdiction's Capability to Respond and Recover on Its Own, 
GAO-12-838 (Washington, D.C.: Sept. 12, 2012).
---------------------------------------------------------------------------
    However, because FEMA's per capita indicator, set at $1 in 1986, 
does not reflect the rise in (1) per capita personal income since it 
was created in 1986 or (2) inflation from 1986 to 1999, the indicator 
is artificially low. Our analysis of actual and projected obligations 
for 508 disaster declarations in which Public Assistance was awarded 
during fiscal years 2004 through 2011 showed that fewer disasters would 
have met either the personal income-adjusted or the inflation-adjusted 
Public Assistance per capita indicators for the years in which the 
disaster was declared.\24\ Thus, had the indicator been adjusted 
annually since 1986 for personal income or inflation, fewer 
jurisdictions would have met the eligibility criteria that FEMA 
primarily used to determine whether federal assistance should be 
provided, which would have likely resulted in fewer federal disaster 
declarations and lower federal costs.
---------------------------------------------------------------------------
    \24\ Specifically, our analysis showed that 44 percent of the 508 
disaster declarations would not have met the Public Assistance per 
capita indicator if adjusted for the change in per capita personal 
income since 1986. Similarly, our analysis showed that 25 percent of 
the 508 disaster declarations would not have met the Public Assistance 
per capita indicator if adjusted for inflation since 1986.
---------------------------------------------------------------------------
    We recommended, among other things, that FEMA develop and implement 
a methodology that that more comprehensively assesses a jurisdiction's 
capacity to respond to and recover from a disaster without federal 
assistance, including fiscal capacity and consideration of response and 
recovery capabilities. DHS concurred with our recommendation and, in 
January 2016, FEMA was considering establishing a disaster deductible, 
which would have required a predetermined level of financial or other 
commitment before FEMA would have provided assistance under the Public 
Assistance program. In September 2019, FEMA told us that it was 
considering options for alternative methodologies for, among other 
things, assessing a jurisdiction's independent capacity to respond to 
and recover from disasters. In addition, the DRRA includes a provision 
directing the FEMA Administrator to initiate rulemaking to update the 
factors considered when evaluating requests for major disaster 
declarations.\25\ According to FEMA documentation, as of September 
2019, the agency was working to implement this provision through 
rulemaking proposals, including increasing the per capita indicator to 
account for inflation. Until FEMA implements a new methodology, the 
agency will not have an accurate assessment of a jurisdiction's 
capabilities and runs the risk of recommending that the President award 
Public Assistance to jurisdictions that have the capacity to respond 
and recover on their own.
---------------------------------------------------------------------------
    \25\ Pub. L. No. 115-254, div. D,  1239, 132 Stat. at 3466.
---------------------------------------------------------------------------
            Redesigned Public Assistance Delivery Model
    In November 2017, we reported that FEMA redesigned its delivery 
model for providing grants under the Public Assistance program.\26\ As 
part of the redesign effort, FEMA developed a new, web-based case 
management system to address past challenges, such as difficulties in 
sharing grant documentation among FEMA, state, and local officials and 
tracking the status of Public Assistance projects. Both FEMA and state 
officials involved in testing the redesigned delivery model stated that 
the new case management system's capabilities could lead to greater 
transparency and efficiencies in the program. However, we found that 
FEMA had not fully addressed two key information technology management 
controls that are necessary to ensure systems work effectively and meet 
user needs. We recommended, among other things, that FEMA (1) establish 
controls for tracking the development of system requirements, and (2) 
establish system testing criteria, roles and responsibilities, and the 
sequence and schedule for integration of other relevant systems. DHS 
concurred with these recommendations and, as of October 2019, has fully 
implemented both. FEMA's original intention was to implement the 
redesigned delivery model for all future disasters beginning in January 
2018. However, in September 2017, FEMA expedited full implementation of 
the redesigned model shortly after Hurricane Harvey made landfall. In 
September 2018, we reported that local officials continued to 
experience challenges with using the new Public Assistance web-based, 
case management system following the 2017 disasters, such as not having 
sufficient guidance on how to use the new system and delays with FEMA's 
processing of their projects.\27\
---------------------------------------------------------------------------
    \26\ GAO-18-30.
    \27\ GAO-18-472.
---------------------------------------------------------------------------
            Public Assistance Alternative Procedures in the U.S Virgin 
                    Islands and Puerto Rico
    Our prior and ongoing work highlight the challenges with 
implementing the Public Assistance program, including the alternative 
procedures, in Puerto Rico and the USVI.\28\ In particular, our work 
has identified challenges related to (1) developing fixed-cost 
estimates and (2) implementing flexibilities provided by the Bipartisan 
Budget Act of 2018.\29\ This Act allows FEMA, the USVI, and Puerto Rico 
to repair and rebuild critical services infrastructure--such as medical 
and education facilities--so it meets industry standards without regard 
to pre-disaster condition (see fig. 1).
---------------------------------------------------------------------------
    \28\ Under the standard Public Assistance program, FEMA will fund 
the actual cost of a project. However, the Public Assistance 
alternative procedures allow recipient governments to choose to receive 
awards for permanent work projects based on fixed-cost estimates, which 
can provide financial incentives for the timely and cost-effective 
completion of work. GAO, U.S. Virgin Islands Recovery: Status of FEMA 
Public Assistance Funding and Implementation, GAO-19-253 (Washington, 
D.C.: Feb. 25, 2019) and GAO, Puerto Rico Hurricanes: Status of FEMA 
Funding, Oversight, and Recovery Challenges, GAO-19-256 (Washington, 
D.C.: Mar. 14, 2019).
    \29\ The Bipartisan Budget Act of 2018 authorized FEMA, when using 
the Public Assistance alternative procedures, to provide assistance to 
fund the replacement or restoration of disaster-damaged infrastructure 
that provide critical services to industry standards without regard to 
pre-disaster condition. Pub. L. No. 115-123,  20601(1), 132 Stat. 64 
(2018). Critical services include public infrastructure in the 
following sectors: power, water, sewer, wastewater treatment, 
communications, education, and emergency medical care. See 42 U.S.C.  
5172(a)(3)(B). Section 20601 applies only to assistance provided 
through the Public Assistance alternative procedures program for the 
duration of the recovery for the major disasters declared in Puerto 
Rico and the USVI following hurricanes Irma and Maria. Further, the 
Additional Supplemental Appropriations for Disaster Relief Act of 2019, 
which was signed into law on June 6, 2019, provides additional 
direction to FEMA in the implementation of section 20601. Pub. L. No. 
116-20, tit. VI,  601, 133 Stat. 871, 882 (2019). For the purposes of 
our report, discussion of the Bipartisan Budget Act of 2018 refers 
specifically to section 20601.
---------------------------------------------------------------------------
figure 1: hurricane damage to a hospital in the u.s. virgin islands and 
                         school in puerto rico
                         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Unlike in the standard Public Assistance program where FEMA will 
fund the actual cost of a project, the Public Assistance alternative 
procedures allow awards for permanent work projects to be made on the 
basis of fixed-cost estimates to provide financial incentives for the 
timely and cost-effective completion of work. FEMA officials in Puerto 
Rico and the USVI stated that the development of a ``cost factor'' for 
use in the fixed-cost estimating process had slowed the pace of FEMA 
obligations for permanent work projects. Specifically, these factors 
are intended to ensure that the costs associated with implementing 
projects in Puerto Rico and the USVI are sufficiently captured when 
developing the fixed-cost estimates for alternative procedures 
projects. Since incorporating the cost factor into the fixed-cost 
estimating process will increase the amount of funding obligated for 
any given permanent work project, FEMA officials explained that Puerto 
Rico and the USVI had an incentive to delay the obligation of 
individual projects until this factor was finalized. For example, FEMA 
officials in the USVI told us in May 2019 that obligations for 
permanent work projects in the territory had been mostly on hold since 
October 2018 while an independent contractor worked to develop the 
USVI-specific cost factor.
    FEMA officials told us that USVI officials disagreed with the 
initial USVI-specific cost factors the independent contractor proposed. 
USVI officials contended that the cost factors were insufficient in 
accurately capturing the unique circumstances that influence 
construction costs in the territory, such as the limited availability 
of local resources and the need to import materials and labor. In May 
2019, the contractor proposed a new cost factor, which FEMA approved on 
an interim basis pending further analysis.\30\ In July 2019, FEMA 
officials told us that while additional analyses are required to ensure 
its final process for developing fixed-cost estimates in the USVI 
accurately captures construction costs, using this interim cost factor 
in the meantime allows FEMA and USVI officials to move forward with the 
development and final approval of alternative procedures projects.\31\ 
In August 2019, a senior USVI official told us the territory plans to 
begin using the interim cost factor, where appropriate, to keep 
projects progressing forward. However, this official stated that the 
USVI questioned whether the interim cost factor did, in fact, 
sufficiently capture the actual costs of construction in the USVI.\32\ 
Given the uncertainty around these fixed-cost estimates, USVI officials 
told us the territory will need to balance the potential flexibilities 
provided by the alternative procedures program with the financial risk 
posed by cost overruns when deciding whether to use the alternative 
procedures or the standard Public Assistance program for any given 
permanent work project. Specifically, these officials stated that the 
USVI plans to pursue alternative procedures projects that do not 
include high levels of complexity or uncertainty to reduce the risk of 
cost overruns, especially given its already difficult financial 
situation.\33\
---------------------------------------------------------------------------
    \30\ FEMA approved an interim cost factor of 1.51 until additional 
analysis can be completed. To develop a fixed-cost estimate using this 
interim cost factor, FEMA first uses the agency's standard cost 
estimating process to determine the initial estimate for any given 
permanent work project. Next, FEMA multiplies this estimate by the 
USVI-specific cost factor of 1.51 to determine the fixed-cost estimate 
for the alternative procedures project. For example, if FEMA determined 
through its cost estimating process that a project would cost $1 
million, applying the interim cost factor would result in a final 
fixed-cost estimate of $1.51 million for this alternative procedures 
project.
    \31\ According to agency documentation, these additional analyses 
include the development of a specific ``future price factor'' to 
capture the potential variances in the cost of construction over time. 
This factor is to be incorporated into FEMA's process for developing 
fixed-cost estimates and is to be applied based on the anticipated 
construction schedule for any given project.
    \32\ Further, according to this official, the USVI requested that 
FEMA retroactively amend all fixed-cost estimates using the interim 
factor once FEMA's process for developing these estimates in the USVI 
was finalized.
    \33\ Under the standard Public Assistance program, FEMA will 
reimburse the USVI for the actual cost of completed work for any given 
project.
---------------------------------------------------------------------------
    In addition, according to FEMA guidance, the Puerto Rico-specific 
cost factor was developed by a third-party center of excellence 
comprising personnel selected by FEMA and Puerto Rico.\34\ Through our 
ongoing work we learned that FEMA convened a panel of FEMA engineers to 
assess the cost factor methodologies proposed by the center of 
excellence. In July 2019, FEMA approved the use of a cost factor 
designed to account for location-specific construction costs in Puerto 
Rico to ensure that fixed-cost estimates for alternative procedures 
projects are accurate. This cost factor consists of cost indices to 
apply to urban, rural, and insular (the islands of Vieques and Culebra) 
areas of Puerto Rico. According to FEMA officials, these cost indices 
will compile location-specific construction costs for each of these 
three areas. We are currently assessing FEMA's process for developing 
cost estimates for projects under both the standard and alternative 
procedures programs, and plan to report our results in early 2020.
---------------------------------------------------------------------------
    \34\ According to FEMA guidance, as part of the alternative 
procedures process in Puerto Rico, FEMA and Puerto Rico must agree on a 
group of personnel with cost estimation expertise who will serve as 
part of a center of excellence.
---------------------------------------------------------------------------
    As of September 2019, FEMA officials told us the agency had 
obligated funding for 14 alternative procedures projects in Puerto Rico 
out of approximately 9,000 projects FEMA and Puerto Rico are working to 
develop for inclusion in the program. According to FEMA guidance, 
Puerto Rico must use the alternative procedures for all large permanent 
work projects and its deadline for finalizing the fixed-cost estimates 
for these projects was October 11, 2019.\35\ However, on October 8, 
2019, Puerto Rico requested that FEMA extend this deadline. In 
response, FEMA acknowledged that Puerto Rico and FEMA have significant 
work remaining to develop and finalize the fixed-cost estimates for 
alternative procedures projects. As a result, FEMA authorized all 
parties to continue developing these projects while FEMA works to 
establish a new deadline for finalizing fixed-cost estimates in Puerto 
Rico.
---------------------------------------------------------------------------
    \35\ FEMA, Public Assistance Alternative Procedures (Section 428) 
Guide for Permanent Work FEMA-4339-DR-PR, (April, 2018).
---------------------------------------------------------------------------
    Unlike Puerto Rico, the USVI has the flexibility to pursue either 
the alternative procedures or the standard procedures on a project-by-
project basis. As of September 2019, FEMA had obligated funding for two 
alternative procedures projects in the USVI. As the USVI's deadline for 
finalizing these projects is in March 2020, it is too early gauge the 
extent to which the alternative procedures will play a role in the 
USVI's long-term recovery strategy.
    In addition, our preliminary observations indicate that FEMA, USVI, 
and Puerto Rico officials have reported challenges with the 
implementation of the flexibilities authorized by section 20601 of the 
Bipartisan Budget Act. This section of the Act allows for the provision 
of assistance under the Public Assistance alternative procedures to 
restore disaster-damaged facilities or systems that provide critical 
services to an industry standard without regard to pre-disaster 
condition. Officials from Puerto Rico's central government stated that 
they disagreed with FEMA's interpretation of the types of damages 
covered by section 20601 of the Bipartisan Budget Act of 2018. In 
response, FEMA officials in Puerto Rico stated they held several 
briefings with Puerto Rico's central recovery office to explain FEMA's 
interpretation of the section.\36\ Further, FEMA officials in the USVI 
told us that initially, they had difficulty obtaining clarification 
from FEMA headquarters regarding how to implement key components of 
section 20601 of the Act. In June 2019, the Additional Supplemental 
Appropriations for Disaster Relief Act of 2019 was signed into law and 
provides additional direction to FEMA regarding the implementation of 
section 20601.\37\ Among other things, this legislation includes a 
provision directing FEMA to change its process for determining whether 
a disaster-damaged facility is eligible for repair or replacement.\38\ 
FEMA evaluated this and other provisions of the Act and, in September 
2019, issued an updated policy to provide clear guidance moving 
forward, according to agency officials.\39\ We will continue to 
evaluate these identified challenges and any efforts to address them, 
as well as other aspects of recovery efforts in the USVI and Puerto 
Rico, and plan to report our findings in November 2019 and January 
2020, respectively.
---------------------------------------------------------------------------
    \36\ In September 2018, FEMA issued guidance for implementing 
section 20601 of the 2018 Bipartisan Budget Act of 2018 through the 
Public Assistance alternative procedures program.
    \37\ See Pub. L. No. 116-20, tit. VI,  601, 133 Stat. at 882.
    \38\ This legislation directs FEMA to ``include the costs 
associated with addressing pre-disaster condition, undamaged 
components, codes and standards, and industry standards in the cost of 
repair'' when calculating the 50 percent rule to determine whether a 
facility should be repaired or replaced.
    \39\ FEMA Recovery Policy FP 104-009-5 Version 2, Implementing 
Section 20601 of the 2018 Bipartisan Budget Act through the Public 
Assistance Program.
---------------------------------------------------------------------------
FEMA's Individual Assistance Program
    The Individual Assistance program provides financial and direct 
assistance to disaster victims for expenses and needs that cannot be 
met through other means, such as insurance. In May 2019, we reported on 
FEMA's efforts to provide disaster assistance under the Individual 
Assistance program to older adults and people with disabilities 
following the 2017 hurricanes.\40\ We found that aspects of the 
application process for FEMA assistance were challenging for older 
individuals and those with disabilities. Further, according to 
stakeholders and FEMA officials, disability-related questions in the 
Individual Assistance registration materials were confusing and easily 
misinterpreted. While FEMA had made some efforts to help registrants 
interpret the questions, we recommended, among other things, that FEMA 
(1) implement new registration-intake questions that improve FEMA's 
ability to identify and address survivors' disability-related 
needs,\41\ and (2) improve communication of registrants' disability-
related information across FEMA programs. DHS concurred with the first 
recommendation, and officials reported that in May 2019 the agency 
updated the questions to directly ask individuals if they have a 
disability. The agency has taken actions to fully implement this 
recommendation and, according to FEMA's analysis of applications for 
assistance following recent disasters--which used the updated 
questions--the percentage of registrants who reported having a 
disability increased.
---------------------------------------------------------------------------
    \40\ GAO, Disaster Assistance: FEMA Action Needed to Better Support 
Individuals Who Are Older or Have Disabilities, GAO-19-318 (Washington, 
D.C.: May 14, 2019).
    \41\ For the purposes of this report, we used the term 
``disability-related needs'' broadly to include all needs individuals 
may have that are related to a disability or access or functional need. 
For example, this may include replacement of a damaged wheelchair or 
other durable medical equipment, fixing an accessible ramp to a house, 
or any needed assistance to perform daily activities--such as 
showering, getting dressed, walking, and eating.
---------------------------------------------------------------------------
    However, DHS did not concur with the second recommendation, noting 
that it lacks specific funding to augment its legacy data systems. FEMA 
officials stated that they began a long-term data management 
improvement initiative in April 2017, which they expect will ease 
efforts to share and flag specific disability-related data. While we 
acknowledge FEMA's concerns about changing legacy systems when it has 
existing plans to replace those systems, we continue to believe there 
are other cost-effective ways that are likely to improve communication 
of registrants' disability-related information prior to implementing 
the system upgrades. For example, FEMA could revise its guidance to 
remind program officials to review the survivor case file notes to 
identify whether there is a record of any disability-related needs.
    We also have work underway to assess FEMA's Individuals and 
Households Program, a component program of Individual Assistance. 
Through this program, as of April 2019, FEMA had awarded roughly $4.7 
billion in assistance to almost 1.8 million individuals and households 
for federally-declared disasters occurring in 2017 and 2018. 
Specifically, we are analyzing Individuals and Households Program 
expenditures and registration data for recent years; reviewing FEMA's 
processes, policies, and procedures for making eligibility and award 
determinations; and examining survivors' reported experiences with this 
program, including any challenges, for major disaster declarations 
occurring in recent years. We plan to report our findings in early 
2020.
               fema's individuals and households program
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  FEMA's Individuals and Households Program provides individuals with 
financial assistance, such as grants to help repair or replace damaged 
 homes, and temporary direct housing assistance, such as recreational 
vehicles. Source: GAO; photos taken by GAO while on site in California 
                 (top) and Florida (below). GAO-20-183T

HUD Community Development Block Grant Disaster Recovery Funds
    HUD CDBG-DR grants provide funding that disaster-affected 
communities may use to address unmet needs for housing, infrastructure, 
and economic revitalization. In March 2019, we reported on the status 
of CDBG-DR grants following the 2017 disasters, plans for monitoring 
the program, and challenges HUD and grantees faced in administering 
these grants.\42\ We found that HUD lacked adequate guidance for staff 
reviewing key information, such as the quality of grantees' financial 
processes and procedures and assessments of grantees' capacity and 
unmet needs. Further, we found HUD had not completed monitoring or 
workforce plans that identify key risk factors and critical skills and 
competencies required for program implementation, among other things. 
In addition, we found that Congress has not established permanent 
statutory authority for CDBG-DR but rather has used supplemental 
appropriation legislation to authorize HUD to establish requirements 
via Federal Register notices.\43\ Without such permanent statutory 
authority, HUD must customize grantee requirements for each disaster. 
The ad hoc nature of CDBG-DR has created challenges for CDBG-DR 
grantees, such as lags in accessing funding and coordinating these 
funds with other disaster recovery programs. For example, it took 154 
days (or 5 months) for HUD to issue the requisite Federal Register 
notice after the first appropriation for the 2017 hurricanes. According 
to HUD officials, they delayed issuance of the first notice for the 
2017 hurricanes because they expected a second appropriation and wanted 
to allocate those funds in the same notice. However, because the second 
appropriation took longer than HUD expected, the first notice allocated 
only the first appropriation.
---------------------------------------------------------------------------
    \42\ GAO-19-232.
    \43\ See, e.g., Pub. L. No. 155-56, 131 Stat. 1129 (2017); Pub. L. 
No. 115-123, 132 Stat. 64; 83 Fed. Reg. 5844 (Sept. 8, 2017); 83 Fed. 
Reg. 40,314-01 (Aug. 14, 2018).
---------------------------------------------------------------------------
    We recommended that Congress consider permanently authorizing a 
disaster assistance program to address unmet needs in a timely manner. 
In addition, we made five recommendations to HUD. Specifically, we made 
two recommendations to HUD regarding developing additional guidance for 
staff to use when reviewing grantees' planning documentation. HUD 
partially agreed with these two recommendations, stating that some of 
this guidance was already in place. Because HUD acknowledged that 
providing additional guidance would improve its review process, we 
revised these two recommendations accordingly to reflect the need for 
additional guidance. We also made three additional recommendations to 
HUD, including that the agency should develop a monitoring plan for 
grants and conduct workforce training. HUD generally agreed with these 
recommendations and indicated it planned to develop monitoring 
strategies. HUD also stated that it had developed a staffing plan, but 
we noted the agency still needed to conduct workforce planning to 
determine if the number of staff the agency planned to hire was 
sufficient. We are continuing to monitor HUD's efforts to address these 
recommendations.
Additional Challenges in Federal Response and Recovery Efforts
    In addition to those described above, we reported on challenges 
FEMA faced in (1) providing mass care to disaster survivors, (2) 
assisting jurisdictions affected by wildfires, and (3) supporting 
electricity grid recovery efforts in Puerto Rico.
            Mass Care
    In September 2019, we reported on FEMA's and the American Red 
Cross' efforts to coordinate mass care--which includes sheltering, 
feeding, and distributing emergency supplies--following the 2017 
hurricanes.\44\ We found that some needs related to mass care were 
unmet. For example, local officials in Texas said flooded roads 
prevented trucks from delivering supplies. Further, mass care providers 
encountered challenges in part because state and local agreements with 
voluntary organizations that help to provide mass care to disaster 
survivors did not always clearly detail what services these 
organizations were capable of providing. Among other things, we also 
found that while state, territorial, and local grantees of federal 
disaster preparedness grants are required to regularly submit 
information on their capabilities to FEMA, the mass care information 
some grantees provided to FEMA was not specific enough to aid its 
response in 2017. Moreover, as FEMA does not require grantees to 
specify the organizations providing mass care services in their 
capabilities assessments, grantees and FEMA may not be collecting 
reliable information on capabilities.
---------------------------------------------------------------------------
    \44\ GAO, Disaster Response: FEMA and the American Red Cross Need 
to Ensure Key Mass Care Organizations are Included in Coordination and 
Planning, GAO-19-526 (Washington, D.C.: Sept. 19, 2019).
---------------------------------------------------------------------------
    As a result of our findings in this report, we made one 
recommendation to DHS, four recommendations to FEMA, and one 
recommendation to the American Red Cross.\45\ Specifically, among other 
things, we recommended that FEMA should emphasize the importance of 
defining roles and responsibilities in its guidance to grantees in 
states and localities and require them to solicit key capabilities 
information from mass care providers. DHS concurred with four 
recommendations, but did not concur with our recommendation requiring 
grantees to solicit key information from organizations providing mass 
care services and to specify these organizations in capability 
assessments. Specifically, DHS and FEMA stated that requiring grantees 
to include this information is not the most effective approach and 
would increase their burden. We modified our recommendation to address 
this concern and continue to believe that grantees should make an 
effort to include mass care providers in assessing capabilities. We 
will continue to monitor FEMA's progress in fully addressing these 
recommendations.
---------------------------------------------------------------------------
    \45\ We recommended that the American Red Cross develop mechanisms 
for itself and its partners to leverage local community groups, such as 
conducting regular outreach and information sharing.
---------------------------------------------------------------------------
            Wildfire Recovery
    Further, in October 2019, we reported on the assistance FEMA 
provided to jurisdictions in response to major disaster declarations 
stemming from wildfires from 2015 through 2018 (see fig. 2).\46\ We 
found that FEMA helped state and local officials obtain and coordinate 
federal resources to provide for the needs of wildfire survivors and 
provided more than $2.4 billion in federal assistance. However, state 
and county officials also described challenges in responding to 
wildfire disasters. For example, onerous documentation requirements for 
FEMA's Public Assistance grant program, a shortage of temporary housing 
for survivors, and the unique challenge of removing wildfire debris led 
to over-excavation on some homeowners' lots and lengthened the 
rebuilding process. We also found that while FEMA had developed an 
after-action report identifying lessons learned from the October and 
December 2017 wildfires, the agency could still benefit from a more 
comprehensive assessment of its operations to determine if any changes 
are needed to better respond to the threat posed by increased wildfire 
activity.
---------------------------------------------------------------------------
    \46\ GAO,Wildfire Disasters: FEMA Could Take Additional Actions to 
Address Unique Response and Recovery Challenges, GAO-20-5 (Washington, 
D.C.: Oct. 9, 2019).
---------------------------------------------------------------------------
    We recommended that FEMA assess operations to identify any 
additional updates to its management controls--such as policies, 
procedures, or training--that could enhance future response and 
recovery from large-scale and severe wildfires. DHS agreed with our 
recommendation and described a number of ongoing and planned actions it 
would take to address it, including supporting states' efforts to house 
disaster survivors, developing guidance for housing grants authorized 
by the DRRA, and taking steps to identify areas of innovation in 
response to wildfire disasters. DHS anticipates that these efforts will 
be put into effect by December 2020 and we will continue to monitor DHS 
and FEMA's progress in addressing this recommendation.
  figure 2: aerial photograph of damage from tubbs fire, santa rosa, 
                      california, october 11, 2017
                      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               Source: Department of Defense. GAO-20-183T

            Puerto Rico Electricity Grid Recovery
    In October 2019, we reported on federal efforts to support 
electricity grid recovery in Puerto Rico.\47\ We found that FEMA and 
other federal agencies can support long-term electricity grid recovery 
efforts and incorporate resilience through three primary roles--
providing funding and technical assistance and coordinating among local 
and federal agencies. However, we found that zero permanent, long-term 
grid recovery projects in Puerto Rico had received funding as of July 
2019 as Puerto Rico was still establishing priorities for permanent 
work. Further, we found that certain challenges are hindering progress 
on electricity grid recovery efforts in Puerto Rico, including 
uncertainty about the kinds of projects that may be eligible for 
federal funding, local capacity constraints, uncertainty about 
available federal funding, and the need for coordination among local 
and federal stakeholders.
---------------------------------------------------------------------------
    \47\ GAO, Puerto Rico Electricity Grid Recovery: Better Information 
and Enhanced Coordination is Needed to Address Challenges, GAO-20-141 
(Washington, D.C.: Oct. 8, 2019).
---------------------------------------------------------------------------
    As a result of our findings, we made three recommendations to FEMA 
and one recommendation to HUD. Specifically, we recommended that FEMA 
should provide clear written policies, guidance, or regulations to 
clarify its plans for implementing new authorities provided by the 
Bipartisan Budget Act of 2018 and take steps to enhance coordination 
among local and federal entities. DHS concurred with these 
recommendations and stated it is working to address them. In addition, 
we recommended that HUD establish timeframes and a plan for publication 
of the grant process and requirements specifically for CDBG-DR funding 
for improvements to Puerto Rico's electricity grid. In its response to 
this recommendation, HUD stated that it is closely working with its 
federal partners on the requirements for this funding in Puerto Rico, 
but did not specifically state whether it would establish the 
timeframes and a plan for publication of the grant process and 
requirements as we recommended. We continue to believe that this action 
is needed since without this information, local entities will continue 
to be uncertain regarding what is eligible for CDBG-DR funding. We will 
continue to monitor FEMA's and HUD's progress in addressing these 
recommendations.
Longstanding Workforce Management Challenges Exacerbate Key Issues with 
                    Response and Recovery Operations
    FEMA's experiences during the 2017 disasters highlight the 
importance of continuing to make progress on addressing the long-
standing workforce management challenges we have previously reported on 
and continue to observe in our ongoing work. In particular, our work 
has identified challenges related to (1) recruiting, maintaining, and 
deploying a trained workforce, (2) the Incident Management Assistance 
Team program, (3) Public Assistance program staffing, (4) contracting 
workforce shortages, (5) assistance to older adults and people with 
disabilities, and (6) workforce capacity and training.
    Recruiting, Maintaining, and Deploying a Trained Workforce. In 
September 2018, we reported that the 2017 disasters--hurricanes Harvey, 
Irma, and Maria, as well as the California wildfires--resulted in 
unprecedented FEMA workforce management challenges, including 
recruiting, maintaining, and deploying a sufficient and adequately-
trained FEMA disaster workforce.\48\ FEMA's available workforce was 
overwhelmed by the response needs caused by the sequential and 
overlapping timing of the three hurricanes. For example, at the height 
of FEMA workforce deployments in October 2017, 54 percent of staff were 
serving in a capacity in which they did not hold the title of 
``Qualified''--according to FEMA's qualification system standards--a 
past challenge we identified. FEMA officials noted that staff shortages 
and lack of trained personnel with program expertise led to 
complications in its response efforts, particularly after Hurricane 
Maria.
---------------------------------------------------------------------------
    \48\ GAO-18-472.
---------------------------------------------------------------------------
    FEMA's Incident Management Assistance Team Program. In February 
2016, we reported on, among other things, FEMA's efforts to implement, 
assess, and improve its Incident Management Assistance Team 
program.\49\ We found that while FEMA used some leading practices in 
managing the program, it lacked a standardized plan to ensure that all 
national and regional Incident Management Assistance Team members 
received required training. Further, we found that the program had 
experienced high attrition since its implementation in fiscal year 
2013. We recommended, among other things, that FEMA develop (1) a plan 
to ensure that Incident Management Assistance Teams receive required 
training, and (2) a workforce strategy for retaining Incident 
Management Assistance Team staff. DHS concurred with the 
recommendations. FEMA implemented our first recommendation by 
developing an Incident Management Assistance Team Training and 
Readiness Manual and providing a training schedule for fiscal year 
2017. In response to the second recommendation, FEMA officials stated 
in July 2018 that they plan to develop policies that will provide 
guidance on a new workforce structure, incentives for Incident 
Management Assistance Team personnel, and pay-for-performance and all 
other human resource actions. We are continuing to monitor FEMA's 
efforts to address this recommendation.
---------------------------------------------------------------------------
    \49\ The three national and 13 regional Incident Management 
Assistance Teams are comprised of FEMA emergency management staff in 
areas such as operations, logistics, planning, and finance and 
administration. These teams are among the first FEMA officials to 
arrive at the affected jurisdiction and provide leadership to identify 
what federal support may be required to respond to the incident, among 
other things. GAO, Disaster Response: FEMA Has Made Progress 
Implementing Key Programs, but Opportunities for Improvement Exist, 
GAO-16-87, (Washington, D.C.: Feb. 5, 2016).
---------------------------------------------------------------------------
    Public Assistance Program Staffing. In November and December 2017, 
we reported on staffing challenges in FEMA's Public Assistance program. 
In November 2017, we reported on FEMA's efforts to address past 
workforce management challenges through its redesigned Public 
Assistance delivery model.\50\ As part of the redesign effort, FEMA 
created consolidated resource centers to standardize and centralize 
Public Assistance staff responsible for managing grant applications, 
and new specialized positions to ensure more consistent guidance to 
applicants. However, we found that FEMA had not assessed the workforce 
needed to fully implement the redesigned model, such as the number of 
staff needed to fill certain new positions, or to achieve staffing 
goals. Further, in December 2017, we reported on FEMA's management of 
its Public Assistance appeals process, including that FEMA increased 
staffing levels for the appeals process from 2015 to 2017.\51\ However, 
we found that FEMA continued to face a number of workforce challenges, 
such as staff vacancies, turnover, and delays in training, which 
contributed to processing delays.
---------------------------------------------------------------------------
    \50\ GAO-18-30
    \51\ GAO,Disaster Recovery: Additional Actions Would Improve Data 
Quality and Timeliness of FEMA's Public Assistance Appeals Processing, 
GAO-18-143, (Washington, D.C.: Dec. 15, 2018).
---------------------------------------------------------------------------
    Based on our findings from our November and December 2017 reports, 
we recommended, among other things, that FEMA (1) complete workforce 
staffing assessments that identify the appropriate number of staff 
needed to implement the redesigned Public Assistance delivery model, 
and (2) document steps for hiring, training, and retaining key appeals 
staff, and address staff transitions resulting from deployments to 
disasters. DHS concurred with our recommendations to address workforce 
management challenges in the Public Assistance program and have 
reported taking some actions in response. For example, to address the 
first recommendation, FEMA officials have developed preliminary models 
and estimates of staffing needs across various programs, including 
Public Assistance. However, as of October 2019, the agency has not yet 
taken actions to implement this recommendation. To address the second 
recommendation, FEMA has collected information on the amount of time 
regional appeals analysts spend on appeals, and the inventory and 
timeliness of different types of appeals. FEMA officials stated in 
September 2018 that they plan to assess this information to prepare a 
detailed regional workforce plan. In May 2019, FEMA sent us additional 
information and documentation involving their analysis of appeal 
inventory and timeliness. As of October 2019, we are evaluating the 
information provided by FEMA to determine if they have addressed this 
recommendation.
    Contracting Workforce Shortages. In April 2019, we reported on the 
federal government's contracting efforts for preparedness, response, 
and recovery efforts related to the 2017 hurricanes and California 
wildfires.\52\ We found, among other things, that contracting workforce 
shortages continue to be a challenge for disaster response and 
recovery. Further, although FEMA's 2017 after-action report recommended 
increasing contract support capacities, it did not provide a specific 
plan to do so. We also found that while FEMA evaluated its contracting 
workforce needs in a 2014 workforce analysis, it did not specifically 
consider contracting workforce needs in the regional offices or address 
Disaster Acquisition Response Team employees.\53\ In our April 2019 
report, we recommended, among other things, that FEMA assess its 
workforce needs--including staffing levels, mission needs, and skill 
gaps--for contracting staff, to include regional offices and Disaster 
Acquisition Response Teams, and develop a plan, including timelines, to 
address any gaps. DHS concurred with this recommendation and estimates 
that it plans to implement it in the fall of 2019.
---------------------------------------------------------------------------
    \52\ GAO-19-281
    \53\ The primary purpose of Disaster Acquisition Response Team 
employees is to support contract administration for disasters.
---------------------------------------------------------------------------
    Assistance to Older Adults and People with Disabilities. In our May 
2019 report on FEMA disaster assistance to older adults and people with 
disabilities following the 2017 hurricanes, we found that FEMA began 
implementing a new approach to assist individuals with disabilities in 
June 2018, which shifted the responsibility for directly assisting 
individuals with disabilities from Disability Integration Advisors--
which are staff FEMA deploys specifically to identify and recommend 
actions needed to support survivors with disabilities--to all FEMA 
staff.\54\ To implement this new approach, FEMA planned to train all of 
the agency's deployable staff and staff in programmatic offices on 
disability issues during response and recovery deployments. According 
to FEMA, a number of Disability Integration Advisors would also deploy 
to advise FEMA leadership in the field during disaster response and 
recovery. We found that while FEMA has taken some initial steps to 
provide training on the changes, it had not established a plan for 
delivering comprehensive disability-related training to all staff who 
will be directly interacting with individuals with disabilities. We 
recommended, among other things, that FEMA develop a plan for 
delivering training to FEMA staff that promotes competency in 
disability awareness and includes milestones and performance measures, 
and outlines how performance will be monitored. DHS concurred with this 
recommendation and reported plans to update FEMA's position task books 
for all deployable staff with information that promotes competency in 
disability awareness. In July 2019, officials told us FEMA plans to 
hire new staff to focus on integrating the disability competency FEMA-
wide and work with FEMA's training components to ensure that 
disability-related training is consistent with the content of the 
position task books. We will continue to monitor FEMA's efforts to 
address our recommendation.\55\
---------------------------------------------------------------------------
    \54\ GAO-19-318.
    \55\ We continue to believe that FEMA should develop a plan that 
includes how it will deliver training to promote competency in 
disability awareness among its staff. The plan for delivering such 
training should include milestones, performance measures, and how 
performance will be monitored.
---------------------------------------------------------------------------
    FEMA's Workforce Capacity and Training. In addition to our prior 
work on FEMA's workforce management challenges related to specific 
programs and functions, we are continuing to evaluate FEMA's workforce 
capacity and training efforts during the 2017 and 2018 disaster 
seasons. Our preliminary observations indicate that there were 
challenges in FEMA's ability to deploy staff with the right kinds of 
skills and training at the right time to best meet the needs of various 
disaster events. For example, according to FEMA field leadership we 
interviewed, for some of the functions FEMA performs in the field, FEMA 
had too few staff with the right technical skills to perform their 
missions--such as inspections of damaged properties--efficiently and 
effectively. For other functions, these managers also reported that 
they had too many staff in the early stages of the disaster, which 
created challenges with assigning duties and providing on-the-job 
training. For example, some managers reported that they were allocated 
more staff than needed in the initial phases of the disaster, but many 
lacked experience and were without someone to provide direction and 
mentoring to ensure they used their time efficiently and gained 
competence more quickly. In focus group discussions and interviews with 
field managers, FEMA officials told us that difficulties deploying the 
right mix of staff with the right skills led to challenges such as 
delays in making purchases to support FEMA operations, problems with 
properly registering applicants for FEMA programs, or poor 
communication with nonfederal partners. Nonetheless, FEMA staff have 
noted that, despite any suboptimal circumstances during disaster 
response, they aimed to and have been able to find a way to deliver the 
mission.
    As part of this ongoing work, FEMA field leadership and managers 
also reported challenges using agency systems to ensure the 
availability of the right staff with the right skills in the right 
place and time. FEMA uses a system called the Deployment Tracking 
System to, among other things, help identify staff available to be 
deployed and activate and track deployments. To help gauge the 
experience level and training needs of its staff, the agency 
established the FEMA Qualification System (FQS), which is a set of 
processes and criteria to monitor staff experience in competently 
performing tasks and completing training that correspond to their job 
titles. According to the FQS guidance, staff who have been able to 
demonstrate proficient performance of all the relevant tasks and 
complete required training receive the designation ``qualified,'' and 
are expected to be ready and able to competently fulfill their 
responsibilities. Those who have not, receive the designation 
``trainee,'' and can be expected to need additional guidance and on-
the-job training. FQS designations feed into the Deployment Tracking 
System as one key variable in how the tracking system deploys staff. 
Among other challenges with FEMA's Deployment Tracking System and 
Qualification System, FEMA managers and staff in the field told us in 
focus group discussions that an employee's recorded qualification 
status was not a reliable indicator of the level at which deployed 
personnel would be capable of performing specific duties and 
responsibilities or their general proficiency in their positions, 
making it more difficult for managers to know the specialized skills or 
experience of staff and effectively build teams. We are continuing to 
assess these and other reported workforce challenges and plan to report 
our findings in spring 2020.
    Thank you, Chairwoman Titus, Ranking Member Meadows, and Members of 
the Subcommittee. This concludes my prepared statement. I would be 
happy to respond to any questions you may have at this time.

    Ms. Titus. Thank you very much. That was helpful.
    I'd like to ask unanimous consent to enter into the record 
a statement from the Department of Housing and Urban 
Development as well as a memo dated September 17, 2019, from 
the HUD inspector general to the HUD Secretary. All right, 
without objection, we'll enter that into the record.
    [The information follows:]

                                 
    Prepared Statement of the U.S. Department of Housing and Urban 
        Development, Submitted for the Record by Hon. Dina Titus
                              Introduction
    Chairman Titus, Ranking Member Meadows, and members of the 
subcommittee, the Department of Housing and Urban Development (HUD) 
appreciates the opportunity to provide a statement for the record on 
the HUD Community Development Block Grant-Disaster Recovery (CDBG-DR) 
program.
    HUD is currently administering a disaster recovery portfolio of $55 
billion in active grants, with projects dating back to the terrorist 
attacks on September 11, 2001. Over the three-year period from 2017-
2019, $40 billion has been appropriated, with half of that amount, $20 
billion, for Puerto Rico alone. That exceeds the entire amount 
appropriated for Hurricanes Katrina, Rita and Wilma.
                         Grant Funding Process
    Contrary to popular belief, HUD is not in the immediate disaster 
response business, except when it comes to ascertaining the whereabouts 
of HUD employees and the impact on HUD-assisted properties and their 
residents. HUD is not the first federal agency on the ground to broadly 
assist survivors when disaster strikes. HUD is not even the second. 
That work is performed by the Federal Emergency Management Agency 
(FEMA) and the Small Business Administration (SBA), respectively.
    HUD is also the coordinating agency for the Housing Recovery 
Support Function and meets regularly with FEMA and other federal 
agencies of the Recovery Support Function Leadership Group (RSFLG).
    But HUD's main role has been in the long-term recovery business.
    That recovery process begins when you and your colleagues in 
Congress appropriate CDBG-DR funds. Based on unmet needs assessed from 
FEMA and SBA data for Presidentially-declared major disasters, HUD 
allocates those funds to the most impacted and distressed areas. 
Following the public announcement of allocations, HUD publishes a 
Federal Register notice outlining the framework of program 
requirements. Grantees then develop stakeholder-informed Action Plans 
within this framework and certify their capacity to manage the funds. 
HUD reviews and approves these plans and certifications and monitors 
the grantees for compliance.
    The Department partners with grantees every step of the way, 
providing technical assistance and expertise to help ensure success. As 
a result, our job is to help fill unmet housing, economic development, 
and infrastructure needs after communities and our Federal partners 
have had an opportunity to fully assess damages and identify the gaps 
that will not be filled by other public or private sources of funding.
                              Unmet Needs
    The group of 2017 disaster grantees consisted of California, 
Florida, Georgia, Missouri, Texas, the U.S. Virgin Islands (USVI) and 
Puerto Rico. To address their unmet needs, Congress appropriated a 
total of $19.4 billion in two separate tranches of funding. The first 
supplemental appropriations bill contained $7.4 billion and was 
allocated to Florida, Puerto Rico, Texas and the U.S. Virgin Islands. 
That tranche is fully available to those grantees, which, to date, have 
spent a combined total of $135 million, or just 2 percent. Florida, at 
3 percent, has spent the largest amount. Texas has spent 2 percent, and 
both Puerto Rico and the USVI have spent less than 1 percent.
    The second supplemental appropriation for the unmet needs of the 
2017 group totaled $12 billion. Of that amount, a combined total of $1 
billion is currently available to grantees in California, Florida, 
Georgia, Missouri and Texas; Action Plans covering $8.2 billion and 
$779 million, for Puerto Rico and the USVI, respectively, have been 
approved by HUD and funds will be released to these grantees pending 
execution of grant agreements; and $2 billion was appropriated by 
Congress specifically to rebuild the electrical grids of Puerto Rico 
and the USVI.
                               Allocation
    HUD's calculation of unmet needs in most impacted and distressed 
areas uses data from FEMA and SBA on serious housing and business 
damage not likely to be covered by other resources--such as insurance, 
FEMA grants, and SBA loans--as well as the local match requirement for 
FEMA Public Assistance permanent repairs (categories C to G).
    Hurricane Maria disasters were allocated a larger amount of funding 
relative to the unmet needs of the other disasters between 2015 and 
2019 because of Congressional language requiring a minimum of $11 
billion be allocated toward their unmet needs. Because of this 
requirement, Puerto Rico received $3.385 billion more than the 
traditional unmet need estimate at the time allocations were made. The 
USVI received $316 million more. Because mitigation awards were a 
function of how much was allocated for unmet needs, Puerto Rico and the 
USVI also received relatively larger mitigation grants. Moreover, in 
June, Congress appropriated and directed HUD to allocate yet another 
$331 million in excess funds for Hurricane Maria grantees.
                            Mitigation Funds
    In 2017, for the first time in the history of HUD's administration 
of disaster recovery appropriations, Congress provided mitigation funds 
as part of a CDBG-DR appropriation. Mitigation funds were appropriated 
not only for the 2017 grantees, but also for grantees receiving funds 
from disasters in 2015 and 2016, based on the proportion of unmet needs 
funds. While these funds create unprecedented opportunities for 
grantees, they also raise significant challenges for HUD.
    HUD has never before administered a stand-alone mitigation program. 
In contrast to restoring what was lost, mitigation is a less naturally 
constrained endeavor. Designing a mitigation program has required a 
great deal of planning and coordination across the Administration, 
including HUD, FEMA, and other Federal partners. This has taken time, 
but HUD believes it is time well-spent, given the size of the 
appropriation and the fact that every grantee awaiting mitigation funds 
already has access to funding for unmet needs.
                               Conclusion
    HUD's commitment remains strong to the recovery of all Americans 
whose homes and communities were devastated by natural disasters. And 
HUD is steadfast in our stewardship of the funding entrusted to us by 
you and by your colleagues in Congress.
    Thank you for the opportunity to update the subcommittee on HUD's 
disaster recovery work.

                                
 Memo of September 17, 2019, to Benjamin Carson, Sr., Secretary, U.S. 
  Department of Housing and Urban Development, from Rae Oliver Davis, 
 Inspector General, U.S. Department of Housing and Urban Development, 
              Submitted for the Record by Hon. Dina Titus
                      OFFICE OF INSPECTOR GENERAL
            u.s. department of housing and urban development
                           September 17, 2019
Memorandum

TO:          Benjamin Carson, Sr.
             Secretary, S

FROM:      Rae Oliver Davis
             Inspector General, G

SUBJECT:  Capacity Review of Vivienda

    I am writing to express my concern that Department officials 
provided inaccurate information to congressional committee staff about 
my communications to you regarding the Office of Inspector General's 
(OIG) review of Vivienda's capacity to administer CBDG-DR funds 
appropriated for disaster relief in Puerto Rico.
    Your staff incorrectly stated to congressional committee staff that 
I told you the OIG capacity review of Vivienda would have serious or 
significant findings. I never made such a statement. I also did not 
recommend that the Department take any specific actions with respect to 
Vivienda, including withholding funds from Vivienda, delaying 
finalization of grant agreements with Vivienda, or delaying publishing 
Federal Register notices related to CDBG-DR funds designated for 
mitigation in Puerto Rico.
    My staff did inform Department leadership that we have an ongoing 
audit of Vivienda's capacity to administer CBDG-DR funds appropriated 
for disaster relief in Puerto Rico. My staff also stated explicitly to 
Department leadership that the OIG audit team had not yet prepared 
draft findings to share with Vivienda or the Department, and therefore, 
we were not able to share any specific information about the capacity 
review with them at that time.
    I am always available to provide updates to you about the status of 
our work, and I will continue to raise to your attention important 
developments in our oversight activities.

    Ms. Titus. Now we're going to move onto Member questions. 
Each Member will be recognized for 5 minutes, and I'll start by 
recognizing myself.
    I know that some of the Members have specific disasters in 
their areas that they're going to want to ask about where 
things are and what the problems are. So I'm going to limit 
some of my questions to the kind of general, overall themes 
that you all have brought up.
    Mr. Currie, what you said about needing to change is always 
a criticism of bureaucracy, and it just gets kind of hide-
bound, and it's difficult to change that, do you have any 
specific recommendations about perhaps consolidating some of 
these programs, bringing the HUD grant program under FEMA? 
You've outlined the problem, but do you have any solutions for 
us?
    Mr. Currie. Yes, ma'am. I think certainly it's not GAO's 
place to make those kind of policy decisions. It's up to 
Congress to decide the different oversight committees. If you 
want to consolidate the programs, it's definitely an option. 
But until that happens, I think there are other options to help 
address this issue.
    For example, we know that in these large disasters, we know 
the programs that are used in recovery, and we know how they've 
operated in the past, and you can make changes to those 
programs so they're better synchronized to work together 
instead of just being surprised after the disaster.
    So in the case of HUD, for example, we recommended recently 
that Congress permanently authorize the program. That's been a 
challenge each time Congress appropriates money to HUD. HUD 
basically has to recreate the program in a Federal Register 
notice. Which you all probably know Federal rulemaking is not 
the easiest process. So every time that happens, that has to 
occur.
    So whether that is authorized in HUD or another program, I 
think we need to have a permanently authorized program so we 
don't have to create this from scratch each time.
    Ms. Titus. Thank you.
    Mr. Byard, I know that a problem that seems to come up over 
and over again are the workforce shortfalls. People are hired 
temporarily, they go work on a disaster, then they go home or 
go back to wherever they're from. We're 1,000 people short. You 
have to gear up every time something happens. Do you have any 
recommendations for how we might address that shortage?
    Mr. Byard. Yes, ma'am. It's a definite challenge, as you've 
pointed out. I do think it's important to note, though, that 
staffing challenges are primarily, or really fully, on the 
recovery in that. We have the staff necessary, and the way we 
do our business from a response standpoint, all the available 
staff is ready to respond, and it's also important to note 
that, you know, FEMA is a coordinating element. So we have just 
tremendous partnerships throughout the Federal Government to 
effectively respond to any disaster the Nation faces. So we do 
have shortfalls, but I want to make sure that we understand 
from a response standpoint to that immediate lifesaving ability 
FEMA is prepared to do that and will continue to prepare to do 
that.
    The type of individuals and staff that you highlighted are 
disaster reservists. And I must say, ma'am, they are the 
backbone of what we do. They do tremendous work in all of your 
communities. So one of the areas that we're looking at to 
increase that is looking at a regional reservist cadre. So you 
have certain individuals that definitely want to do great work 
for the American people that we do. But they may not want to 
travel all the way across the country.
    So, for example, in our hurricane-prone regions, we're 
looking at how do we bring on retired engineers, for example, 
that understand bridges and roads that want to work just in 
that area. That's one area that we're doing. We're also working 
through Congress, increasing our recovery staffing. We're 
bringing on about 1,000 a year right now.
    But we've also got to look at our retention. You know, 
bringing new staff on is just one thing, and we've made a 
concerted effort. The Acting Administrator as well as myself 
have challenged our leadership to find out why our staff may be 
leaving and how do we increase and keep that staff here.
    Ms. Titus. What about the possibility of legislation that 
would guarantee if somebody left a job, say, working in the 
Montana wildlife division to go fight a fire in California, 
that they are guaranteed they'll have that job when they come 
back?
    Mr. Byard. You know, ma'am, that's not for me to----
    Ms. Titus. No, but you can say if that might work or not.
    Mr. Byard. There's a lot of complexities in it. I guess 
what you're laying out is similar to what our Department of 
Defense does with the National Guard and so forth.
    Ms. Titus. Right.
    Mr. Byard. You know, I would have to know a little more 
about that before I commented one way or the other. But I do 
think that as we look at certain jobs programs and especially 
one of the innovative measures we may want to look at is with 
our 2-year universities, our trade schools, of really teaching 
Public Assistance program. This is--these are well-paying jobs 
that are out there and we've got plenty of work to go around.
    So I think there may some other avenues to look at, because 
we want to not only retain--or build our reservist cadre, but 
we need to retain that knowledge for future disasters.
    Ms. Titus. I think maybe we need to look at veterans, too, 
more closely and how we put some veterans in these positions. 
You know, but----
    Mr. Byard. I agree. As a veteran, I agree, ma'am.
    Ms. Titus. Just briefly, we're spending nearly $300 million 
to renovate and consolidate DHS headquarters, yet we don't have 
a Secretary, a Deputy Secretary, a General Counsel, or an Under 
Secretary. I just worry that without leadership at the top, 
some of these recommendations that you're making or that we're 
considering may just fall through the cracks.
    Mr. Byard. Ma'am----
    Ms. Titus. That's all right. I'm out of time.
    Mr. Byard. Yes, ma'am.
    Ms. Titus. But think about that.
    I'll now recognize Mrs. Miller.
    Mrs. Miller. Thank you, Chairwoman Titus, for holding this 
hearing today. And thank you all for being here.
    I recently came back from my district work period where I 
held a roundtable in Greenbrier County, West Virginia. The 
purpose of the roundtable was to discuss the dissemination of 
flood recovery funding. In 2016, three schools in Nicholas 
County, West Virginia, were destroyed due to flood damage. 
During the storms, hundreds of people were displaced from their 
homes, and 26 people died.
    The reality is that we have people who have been in 
temporary housing since 2016, and we have schools that need to 
be rebuilt. It is inexcusable that it has taken 3 years to put 
people back into their homes and rebuilding our schools. I 
understand that the community recovery is a long process. 
However, we all have people in our districts that need help. We 
owe it to our constituents to be efficient and to make sure 
that they are receiving the funding that they need.
    Mr. Byard, how can the Federal Government incentivize 
States to encourage the State to spend money in a timely manner 
and to ensure that the money is given to the people who have 
suffered from the disaster?
    Mr. Byard. Ma'am, I want to make sure I can answer your 
question correctly. So from the FEMA aspect and perspective, 
the authorities that we have to help individuals is our 
Individual Assistance Program, which we do direct financial 
assistance and other assistance directly to the disaster 
survivors.
    As far as what the State may do over and above that, I'm 
not familiar with that State to State. Also I know and I 
believe that there was a CDBG-DR allocation for West Virginia 
that was for the purposes of housing. And, again, I would have 
to yield to HUD for the specifics in the State for the 
specifics on that.
    I do and am familiar with the schools that you referenced, 
and I know our regional administrator, MaryAnn Tierney, has 
been there multiple times. She is a fantastic representative of 
FEMA, and we're working through that now. Some of that had to 
do with some environmental studies and surveys. So I know we're 
making progress on the schools, but I don't want to overspeak 
on the exact housing question that you had, because I know we 
do direct grants to individuals based on the eligibility 
requirements of each citizen.
    Mrs. Miller. Thank you. And I will say that Ms. Tierney has 
been very helpful and has met with us several times.
    Mr. Byard. Yes, ma'am.
    Mrs. Miller. How are you working to ensure that entities 
recuperate and rebuild after severe natural disasters that 
destroy things like the broadband and water and sewer, the 
utilities that, in my mind, are really essential?
    Mr. Byard. Yes, ma'am, I would--you know, you heard my--on 
my opening talk about stabilization of community lifelines. 
There's seven community lifelines that, regardless if you're 
the District of Columbia or smalltown Alabama, smalltown West 
Virginia that have to happen. The infrastructure is one of 
those. I would submit that utilizing the authorities of 
Congress and looking at our BRIC initiative, the mitigation 
before a storm hits, we should harden this infrastructure 
before a disaster hits. There's ways to do that.
    We've got 250 million additional dollars this year within 
that program. That will hopefully grow. So I think that we 
first need to look at what are we doing before a storm hits to 
harden this infrastructure. Quite frankly, if the power and the 
water can stay on, that's 90 percent of FEMA or a State 
emergency manager or a local emergency manager's problems are 
solved then.
    Mrs. Miller. Thank you.
    Mr. Byard. Yes, ma'am.
    Mr. Alvord, can you discuss how the Opportunity Zone 
initiative will generate long-term impact?
    Mr. Alvord. Thank you, Congresswoman. Yes, we, as you may 
know, have long held private investment as one of our key 
criteria for successful economic development. And, you know, 
the two primary focuses of EDA's traditional grantmaking 
programs are in generating private investment and creating jobs 
in economically distressed areas and regions.
    In the case of Opportunity Zones, with the additional tax 
incentives that are available and the qualified opportunity 
funds that are being formed, we see an opportunity to 
exponentially leverage that private investment.
    So we anticipate that EDA will be able to make strategic 
grant investments in Opportunity Zone areas that will create 
the conditions that are conducive to that investment by 
qualified opportunity funds. And rather than receiving a small 
amount of additional private investment, we could see 5, 10, 25 
times or more in additional private investment flowing into 
those areas.
    Mrs. Miller. Have you run into any challenges when trying 
to expand Opportunity Zones in rural parts of the country like 
West Virginia?
    Mr. Alvord. So the Opportunity Zone initiative is a 
relatively new initiative. And there's actually still a process 
underway to clarify all the regulations and requirements that 
accompany the incentive. As a result, we're seeing a lot of the 
early activity is flowing into areas where there are 
investments that are ripe and ready to move, many of those in 
urban areas. However, we do anticipate that as the initiative 
continues to mature, more and more funding will flow into other 
outlying areas as well.
    Mrs. Miller. Thank you. I yield back my time.
    Ms. Titus. Thank you.
    Now, Mr. Garamendi.
    Mr. Garamendi. I thought the gentlelady from West Virginia 
might say ``like California.'' Yes, all things are local.
    Just a couple of questions. This will be for Mr. Byard. 
Thank you.
    Mr. Byard. Byard. Yes, sir.
    Mr. Garamendi. Thank you. I want to discuss how Federal 
disaster recovery funds flow from FEMA to local recipients. 
Under current practice, as local communities are often required 
to use their own limited funds following a disaster to front 
the money for disaster recovery efforts in projects before they 
can then seek Federal reimbursement for those costs.
    The fact is--let me just cite Butte County, the Camp Fire. 
The small rural communities simply lack the cash necessary to 
front the local funds while they wait months, years in many 
cases, for reimbursement from FEMA.
    So, first, I assume you're aware of this situation. Is that 
correct?
    Mr. Byard. Yes, sir. I am.
    Mr. Garamendi. Good. Then what are you doing about it?
    Mr. Byard. So first let me say that's one of the most 
devastating disasters in 17 years that I've been to. I went and 
visited with the leadership out there. I'm familiar with this 
primarily putting my State hat on of, again, 17 years. Fourteen 
years of that I was with State emergency management. So I 
understand the question very, very well.
    It's important, first, to know that under the Stafford Act, 
FEMA's a reimbursement agency. We reimburse local and State 
governments----
    Mr. Garamendi. I'm aware of that. But my question is: So 
what do you propose be done about it if the law doesn't allow 
it? Are you suggesting a change of law? Change in regulations? 
What would you suggest we do about it?
    Mr. Byard. Well, you know, I don't know what that change 
would be, sir, how we would frontload dollars into a local 
community to pay for their response.
    Mr. Garamendi. Well, let me give you an example. You're 
building a house. You hire a contractor. You've got a bank 
that's financing the construction loan, right? Yes, that's how 
it's done. The construction loan, when the contractor signs the 
contract, there's 10 percent. OK? When the foundation is 
poured, there's another 10, 15 percent. When the framing is 
done, another amount of money. Is it possible that we develop 
something that would allow the local community on signing a 
contract get upfront money? They sign a contract with the 
contractor that's going to repair the bridge. Does that make 
sense?
    Mr. Byard. Sir, I would definitely look at that. I think 
that you're--there's one element of the puzzle that's missing 
here that's very vital in anything emergency management, and 
that's the State. So I would say what could a State do to help 
a local community in that situation. I know in certain States 
they do do that. In certain States, they don't. And that's 
depending on the State.
    Mr. Garamendi. So you don't believe there's a role for the 
Federal Government to do it, but it's a State responsibility?
    Mr. Byard. Sir, I believe that we all have a responsibility 
in emergency management. The Federal supported, State-managed, 
and locally executed works. I would be happy to sit down with 
you and your staff to see where we could do that. Nobody--look, 
the two things that hit a local community hardest in any 
disaster is overtime. They don't budget for that. They can 
delay contractors, but they don't budget for overtime, so I'm 
definitely----
    Mr. Garamendi. Well, you're down into the weeds. The fact 
of the matter is it could be possible for FEMA to frontload it 
if they had the authority and the authority comes from us. So 
we should consider that for certainly the smaller communities 
that do not have funds to address that.
    Also, there's been a major effort to try to do pre-disaster 
mitigation. Six percent of the total funds are available. The--
and this is really a question for Mr. Currie. How's it going?
    Mr. Currie. So that program--so the Congress--you 
authorized that in the DRRA. And so basically FEMA has gone to 
work trying to implement that program, but it has to be done 
through a Federal rulemaking, a Federal regulation, which, as I 
mentioned at the beginning, is not an easy and short process. 
So they are in the middle of that, which, as you know, has 
multiple phases. And so the program hasn't been implemented 
yet, because it hasn't fully gone through the rulemaking 
process.
    Mr. Garamendi. Have you had a chance to analyze the 
proposal?
    Mr. Currie. So I haven't seen or analyzed the proposal. We 
haven't reported on it. I mean, in general, we think that the 
set-aside of the additional funding for pre-disaster mitigation 
is a fantastic idea, because it allows us to more strategically 
spend money around the country instead of letting Mother Nature 
dictate where we spend it.
    Mr. Garamendi. There's an ancillary to that, and that is in 
the recovery effort--I should say public recovery effort--can 
the agency build our resiliency, or must they only build for 
what was there prior to the----
    Mr. Currie. Well, that's been the biggest problem with 
recovery over the years is that the way the programs used to be 
structured is you could only build back exactly the way it was 
before. That has been changed now through recent legislation. 
So--but, however, as I said upfront, you know, it's going to 
take a little while for that to get down into the programs and 
to the employees to make sure that's actually happening so, as 
someone else mentioned, we're not fighting over doorknobs.
    Mr. Garamendi. We should turn our attention to that as a 
committee. Thank you very much. I yield back.
    Ms. Titus. Thank you. We'll now recognize Mr. Graves.
    Mr. Graves of Missouri. Thank you, Madam Chair.
    My question is for Mr. Byard. Are you familiar with the gap 
in Missouri that we have that I mentioned in my opening 
statement?
    Mr. Byard. Yes, sir.
    Mr. Graves of Missouri. Are we working to rectify that? Can 
you give me a little bit of background on that? And just for--I 
might explain it again, too, for the committee's awareness. So 
we have a gap between April 16th and April 29th. And our first 
flooding incident occurred in March, but we have two different 
disaster declarations. And our second event occurred later on. 
We had houses that were flooded in that gap.
    We also--and I also want you to address--we have people 
that have applied for assistance, have received it, and then 
somebody's come back around then and said, ``No, you're going 
to have to give that back,'' which is creating a lot of 
problems as well, in fact a lot of problems. That gets my 
office involved, which is a complete waste of resources when we 
shouldn't have to deal with that. But can you give me a little 
bit of background on what's going on with that? Can we get that 
fixed? Can we move past it, something?
    Mr. Byard. Yes, sir. So when the Governor requests for a 
declaration, it's there for a specific weather event. When 
there's a situation like Missouri, the State generally looks at 
what the National Weather Service has provided from 
meteorological data of was it the same event, was it a separate 
event.
    You know, sometimes in this position, there are things that 
are in the law, but in your case, a citizen's flooded, they're 
flooded. So I'm not going to--but that's how we look at it. We 
look at it as a separate system. Therefore it has to meet in 
standalone criteria for assistance.
    As far as the recoupment, now that's the first I've heard 
of that. Ranking Member, I've made a note of that. I am going 
to figure out what's going on with that as soon as I get out of 
here.
    Mr. Graves of Missouri. So we have--you know, and when it 
comes to a particular weather event, when it rains and the 
water comes up--in fact, when it rains north of Gavins Point or 
it rains--we had the big weather event out across the Platte 
River Valley in Nebraska--it takes a long time for that water 
to get to us.
    Then when you couple that with the Corps of Engineers 
releasing more and more water through the reservoirs coming 
down, the rain may have passed and it may be clear, blue skies 
out there, but the water's coming up, and it's coming up fast, 
and it breaks the levees, and it floods people out.
    So it's very frustrating to me when we're dictating or 
putting out these dates based on this weather event and that 
weather event when we have people that flooded.
    And I know specific examples that flooded into that 
timeframe, and, you know, you take the town of Craig, Missouri, 
one of the communities that flooded in my district, and the 
water's coming up, and it continues to come up. It kept coming 
up right on through that date range and flooded a lot of people 
out. Yet they're not eligible for assistance.
    And so we put these arbitrary dates out there in an event 
like this, and it's creating a lot of problems. A lot of 
problems.
    You know, and what's frustrating to a lot of those people, 
too, is folks north of them, that's the State of Missouri. You 
know, in Iowa and Nebraska that are getting the same water, the 
same rain events and everything, and they're not dealing with 
that. And Missouri was slow to do their disaster declaration 
which didn't help any at all, but it still shouldn't be a 
problem for folks.
    And I definitely--we do have people, though, getting back 
to the other point, people being asked to return dollars 
because, for whatever reason, FEMA's come in and said, ``No, 
your house flooded in this date range. We made a mistake in 
giving you funds.'' And that's--I mean it's--this is bad. It 
really is. And it's affecting the lives of a lot of people out 
there. And, you know, we need to be a little bit more aware of 
that.
    You know, and even the attitude with some of the folks that 
are coming out and doing the assessments. And I might ask you 
about that, too.
    Have your folks on the ground, the folks that are out there 
doing the assessments, are they having problems with that? I 
know we still have water standing since March, some of those 
areas, and they can't even get in there to do the assessments. 
But it's starting to go down. Are they having any better luck 
getting assessments done?
    Mr. Byard. Sir, I will check with our Federal coordinating 
officer there in Missouri and see where we are on that. When we 
look at flooding in that magnitude, the incident period, 
however, even though, you know, you mentioned two separate 
incidents or two separate weather events, but for a declared 
flood of that magnitude, we do leave that incident period open, 
sometimes 3, 4, 5 months so that that water can go down and we 
know where it is. But the two get-backs I have for you is the 
recoupment--I want to find out about why we're recouping 
dollars from citizens--and then what is our ability to assess 
still-flooded areas of that--of your part of the State. Is 
that----
    Mr. Graves of Missouri. I wanted--and I want to 
specifically address, too, this gap. And I'd encourage you, 
too, to talk to the folks from Atchison County and get a better 
understanding, because they are absolutely on the ground and 
dealing with it every single day. And--but I definitely want 
you to--they're here today.
    Thank you, Madam Chairman.
    Ms. Titus. Ms. Mucarsel-Powell.
    Ms. Mucarsel-Powell. Yes, good morning. Thank you, Madam 
Chair, for holding such an important hearing. It's been 
mentioned several times most of us here are really representing 
areas that are affected by stronger and stronger storms and 
disasters.
    And the first thing I want to say, Mr. Byard, which you 
probably don't hear that much, is thank you. Because in May we 
had another hearing, and it was Mr. Kaniewski who testified 
before our subcommittee, and I was stressing the importance of 
getting these FEMA reimbursements after Hurricane Irma. It's 
been over 2 years, and very promptly we started seeing those 
reimbursements flow.
    Unfortunately, we are still owed over $100 million in 
Miami-Dade County alone. And I'm just very concerned, because 
it's been 2 years. We were very fortunate to dodge Hurricane 
Dorian, and we've incurred costs because of that, but I don't 
want us to lose sight of the fact that we're still waiting and 
FEMA is still holding over $100 million just from Miami-Dade 
County alone.
    So my first quick question: If you could please assure me 
that you'll go back to your team and try to expedite those 
remaining reimbursements, I would greatly appreciate that.
    Mr. Byard. Yes, ma'am.
    Ms. Mucarsel-Powell. Thank you. And may I also bring up the 
fact that Keys Energy, which is the public power utility in the 
lower Florida Keys, was owed over $43 million from FEMA, and, 
in May, FEMA had obligated about $15 million. But we've only 
gotten $2 million paid to Keys Energy. It's now October, and 
they're still waiting.
    FEMA's sitting on $28 million, and this is highly costly 
because they've had to take out loans to make up for this 
difference. Without this money, we are in even greater danger 
if we--we're still in hurricane season, believe it or not, in 
Florida.
    So I know that in your testimony you talked about the ways 
that FEMA has been simplifying and streamlining its grant 
application process. But I have to be honest with you. It's not 
working for everyone. I know that you are trying to have a 
better response, a timely response, but we're not seeing that 
in Florida. The FEMA team responsible for working directly with 
Keys Energy has changed a number of times.
    Just imagine over the past year, since October 28, 2017, 
we've had seven different project development grant managers, 
which, Mr. Currie, you were talking about how costly and how 
complicated the process of overseeing disaster recovery efforts 
is.
    Well, it doesn't help when you have changes like this. 
Seven different staff members in FEMA overseeing this project. 
Every single time, every time there's a new person, we have to 
start all over again. So FEMA has Keys Energy walk them through 
the audits, walk them through the project worksheets, 
everything.
    Thankfully, they've had a consistent team since May, so I'm 
hoping that there's consistency there and that we can see 
improvement in the streamlining process. But I think that you--
my suggestion is that we need to figure out a way to have staff 
be even present during storms, someone that has the authority 
to make those decisions for approval, which I think would cut 
the timeliness of getting those reimbursements and the approval 
process of all the audits that FEMA requests.
    So, Mr. Byard, can you also please assure me that you can 
help with the Keys Energy reimbursements 2 years later?
    Mr. Byard. Yes, ma'am. I will.
    Ms. Mucarsel-Powell. Thank you. Now, I just heard yesterday 
that even though there has been $15 million that has been 
obligated, FEMA has directed the Florida Division of Emergency 
Management to hold the money until the payments are reviewed 
further. Can you explain why this is happening?
    Mr. Byard. Ma'am, I will have to get with our region 4 
partners. You know, we obligate to the State. The State then 
does that reimbursement to an outfit like Key Power. We are 
doing validate-as-you-go. That may have something to do with 
it, but that doesn't sound like it where we're--and what that 
process is, as I alluded to, it's a reimbursement program, so 
Key Power would show where they had eligible work. They would 
show that those costs were eligible. The reimbursement would 
go.
    The beauty of that is when the project's done, there's no 
more waiting for closeout. It's closed there. But to your point 
I would need to get with our region 4, and I will do that.
    Ms. Mucarsel-Powell. Thank you. Thank you.
    Mr. Byard. So definitely Miami-Dade County and Keys Power, 
several issues with Keys Power.
    Ms. Mucarsel-Powell. Thank you. So one quick question, and 
you can all answer and give me your ideas here, but what is it 
that we need to do to better streamline this process. You 
talked about the States, but it is the responsibility of these 
Federal agencies to respond in a timely manner. I've been to 
Puerto Rico, and I've seen the delay in response there as well. 
So what is it that we need to do? And I would love to hear from 
each one of you briefly if that's possible. Thank you.
    Mr. Currie. From my perspective, what we've seen on the 
response side, meaning leading up right to the disaster and the 
days after the disaster, we've seen huge improvements since 
Hurricane Katrina in terms of FEMA being there on the ground. I 
think it's really the recovery programs that are still causing 
a lot of challenges, and it's what I said in my opening 
statement. I think there are so many different Federal programs 
that come together with different rules, requirements and 
regulations, and it's extremely difficult for State and local 
emergency managers to figure out how to synchronize and manage 
all those programs.
    Ms. Titus. Thank you. I think your time is out. You all 
might talk later about that if you want to add something to it.
    Now, Mr. Palmer.
    Mr. Palmer. Thank you, Madam Chairman. I've got some 
questions for you, Mr. Byard, about FEMA and the debris 
removal. Alabama was hit by a swarm of tornadoes in April of 
2011, massive damage statewide, the worst outbreak in the 
history of the State. And then the aftermath, and the debris 
removal, I think FEMA typically contracts out the debris 
removal to the Corps of Engineers. Is that correct?
    Mr. Byard. Well, sir, not necessarily. But I can--I'll be 
happy to kind of high-level talk you through how that goes.
    Mr. Palmer. Well, I have a pretty good idea of how it goes, 
and that's what I want to talk about is that in Alabama, the 
debris removal cost was being handled through the Corps of 
Engineers. They were contracting it out to look like a single-
bid contractor. And it was about $40 per cubic yard.
    Fortunately, there were some county engineers and others in 
the State that were not willing to do that, and what would have 
happened there is even at that price, when the final tally came 
in, that the State would have had to reimburse FEMA for 
anywhere from 10 to 25 percent of the removal cost.
    In a couple of cases--and I've got an article here, Madam 
Chairman, that I'd like to enter into the record if I may, that 
details this.
    Ms. Titus. Without objection, so ordered.
    [The information follows:]

                                 
   Article from www.al.com, Submitted for the Record by Hon. Gary J. 
                                 Palmer
 U.S. Army Corps of Engineers is most expensive tornado debris removal 
                option, but clients cite fewer headaches
By Robin DeMonia--The Birmingham News
https://www.al.com/spotnews/2011/07/us_army_corps_of_engineers_is.html

Updated Jan 14, 2019; Posted Jul 31, 2011

    Some counties and cities that hired private contractors to cart off 
debris from April's tornadoes paid significantly less for the work than 
those local governments relying on the U.S. Army Corps of Engineers.
    The Corps of Engineers, which in the past has refused to disclose 
its rates even to some local officials using its services, confirmed 
this past week its cost for removing debris in the state. It has 
averaged $46 a cubic yard, said Nelson Sanchez, the commander of the 
recovery field office.
    That's almost two times the rate the city of Birmingham reported 
paying private contractors and consultants during the first 30 days of 
its storm cleanup. The Corps' price is more than three times the rate 
paid in Jefferson County and in Fultondale, more than four times the 
rate paid in Calhoun County, and more than five times the rate paid by 
the city of Hanceville.
    ``We've saved the taxpayers millions of dollars,'' said Hanceville 
Mayor Kenneth Nail, whose city hired a North Carolina construction firm 
to remove storm debris, hired temporary workers to monitor the cleanup 
and ended up after 30 days with costs below $8.50 a cubic yard.
    The Federal Emergency Management Agency, which will pay the bulk of 
the cleanup costs in all jurisdictions, said the price comparisons can 
be deceptive. The Corps' rates cover expenses such as auditing that are 
not included in contracts with private firms, and the private contracts 
can carry costs that go beyond dollars, agency officials say.
    ``There are intangibles here, like the cost of the time and effort 
for local government bodies to manage a debris contract, to (award) it, 
to put it out to bid, to make sure it's being done, and then to be 
ready for the audit that will come,'' said Michael Byrne, who is the 
coordinator of the Alabama disaster for FEMA.
    Those that hired private debris-removal contractors don't dispute 
the headaches. They had to pay full costs upfront and grapple with FEMA 
to get reimbursed, while those that used the Corps will pay just their 
share after the work is complete. Also, most of those using private 
contractors had to hire consultants to manage or monitor the debris 
work.
    Still, the price beat the Corps' by far. Calhoun County paid less 
than $11 per cubic yard during the first 30 days of debris removal, 
even though it hired three contractors to do the work or to monitor and 
manage it. Calhoun County Administrator Ken Joiner gives much of the 
credit to one of the contractors, Lee Helms, a former director of the 
Alabama Emergency Management Agency, who oversaw the Calhoun County 
cleanup.
    Even with Helms' careful management and the low prices, however, it 
was a serious strain on the county to front the cost and wait for 
reimbursement, Joiner said. ``We're not the federal government with big 
purse strings,'' he said. ``We're having to dig into what we have, and 
that's not much.''
    Nail said Hanceville at one point ran out of money, and it has 
found FEMA fickle about its terms for reimbursement. ``Today, it's `do 
it this way'; tomorrow, it's 'let's do it that way,' '' he said. ``I 
have to jump through hoops, dance around, tippy-toe, sing, and I've 
done a little bit of all of that.''
    He doesn't blame the FEMA officials he deals with. ``They are like 
the waitress who has to deal with the customer when the chef cooks a 
bad steak.''
    But the ultimate price should matter, Nail said. Even with FEMA 
reimbursing the bulk of the cost, local governments have to chip in a 
small portion. ``I'd a lot rather pay 5 percent on $1.3 million than 5 
percent on $3.3 million,'' he said. ``That's a big difference in a 
little town.''
                            washing machines
    Debris has been a huge issue across Alabama since April 27, when 
more than 60 tornadoes left the state littered with uprooted trees, 
crumpled homes, twisted cars and other wreckage.
    Officials measure the debris by the cubic yard, which is roughly 
the size of a washing machine. If the rubble across the state were 
piled up, it would be the size of 10 million washing machines--and that 
estimate includes just the pieces that landed on or could be pushed to 
public roadsides.
    Getting rid of the debris will be the biggest expense in the 
disaster, Byrne said. FEMA will pay either 90 percent or 75 percent of 
the expense, depending on when and where the work took place. The state 
picked up the portion not covered by the federal government for the 
first 30 days of the cleanup. But beyond that, the state and local 
governments are splitting the nonfederal portion. Currently, the state 
and local governments are paying 12.5 percent each.
    The rates charged by the Corps of Engineers, which is handling 
about half of the debris work in the state, will be a significant 
factor in the final cost.
    Cullman Mayor Max Townson said he is guessing the Corps' rate in 
his city will be $50 per cubic yard. That puts the total expense so far 
at greater than $7 million and leaves Townson with serious concerns 
about what the city's portion of that will be. ``The storm is taking a 
bite out of our budget,'' he said.
    The state's share--which has been estimated at $50 million--will be 
larger than all the local governments combined, said Jeff Byard, who is 
the executive officer at the Alabama Emergency Management Agency and 
the state coordinating officer for the disaster.
    The state didn't know the rates when it asked for the Corps' help 
in the storm cleanup, Byard said. But cost wasn't the state's chief 
concern, he said, and he is convinced the Corps was a good option.
    ``We're very aware, very cognizant that our local governments are 
very tight on money. We all are, to include the federal government,'' 
he said. ``But having said that, at the end of the day, you're going to 
have to get the debris up, and we're going to have to do it the best 
way we can.''
    Some local governments, including Jefferson County, Birmingham and 
Fultondale, chose not to use the Corps and hired private contractors 
instead. Their officials said a key concern was uncertainty about the 
Corps' costs.
    ``We're not going to buy a car if we don't know the price,'' said 
Jefferson County Commissioner Joe Knight.
    ``The question for me,'' Birmingham Mayor William Bell said, ``was 
did I want to be a passenger in the back seat of the car and not know 
where I'm going or did I want to be in the driver's seat?''
    But debris work is a prime candidate for an audit after the storm, 
said Byrne, the top FEMA official in Alabama. With private contractors, 
cities and counties are at risk of making mistakes that result in 
having to pay back the federal government, Byard said. If FEMA's 
reimbursement process appears cumbersome and slow, it's an effort to 
prevent those situations, he said.
    The scenario helps to explain why some hard-hit jurisdictions such 
as Tuscaloosa, Cullman, St. Clair, Marion, Lawrence and DeKalb counties 
chose the Corps.
    The city of Tuscaloosa's estimated tab for the Corps' work had 
reached $730,000 this week, with 70 percent of the cleanup done, said 
Mayor Walt Maddox. But the city would have had to borrow money and 
divert resources from other critical needs if it had hired a private 
contractor to do the work, he said.
    Instead, Maddox said, ``We put it in the hands of the largest 
engineering firm in the world. It was the only decision to be made.''
                           speed costs money
    The Corps of Engineers said one factor raising its costs is that it 
keeps private contractors on standby for any disasters that strike. For 
Alabama, the prime standby contractor is Tennessee-based Phillips & 
Jordan, and it went to work after the tornado outbreak. The Corps said 
the rate it pays Phillips & Jordan is proprietary and not public 
information.
    But the prices tend to be high because the contractor ``has to bid 
his prices based on a lot of unknowns and variables,'' said Steve 
Philben, the Corps' emergency support team leader at the Birmingham 
office serving as the disaster response headquarters.
    ``You're paying management people that know how to do this stuff a 
premium to go out and do a job right for you and get on the ground 
quickly,'' Philben said. ``The reason for bringing us in is speed and 
speed costs money.''
    The Corps said its rates may get lower as the cleanup continues, 
while local governments with private contractors say their expenses may 
rise. But if past disasters are a guide, the gap isn't likely to close. 
After Hurricane Katrina, a congressional report titled ``A Failure of 
Initiative'' touched briefly on the Corps' debris work. ``Local 
governments have been able to get the job done more quickly and 
cheaply,'' the report said.
    Trying to compare local governments' costs, however, is not easy.
    The contracts in Birmingham, Jefferson County and other locations 
show that a company's unit prices may be low in one area and higher in 
others, and sometimes, what might seem to be the same service is not.
    Next to some other jurisdictions, the city of Birmingham's average 
looks high. But it also reflects mostly construction debris, which 
tends to be more costly than vegetation. Calhoun County's price is 
lower, but it was able to save money by burning vegetative debris, 
which wasn't possible in Jefferson County because of air quality 
issues.
    Whether a price is reasonable and eligible for reimbursement is 
ultimately up to FEMA to decide.
    The Disaster Recovery Contractors Association, a national trade 
group, takes no position on what should constitute a reasonable rate 
for debris.
    ``DRCA's membership believes that debris removal contracts should 
be competed at the local government level to ensure fair competition, 
reasonable rates and local community control of the disaster,'' said 
Casey Long, a former FEMA official who is the trade group's managing 
director.
    The group also advocates for equal FEMA reimbursements for debris 
work whether it's performed by the Corps or private contractors. That 
was initially a concern in Alabama, but the cost share now is the same 
for both.
    Private debris contractors in general are quiet about their costs 
compared to the Corps'. Many of them also do work for the Corps. Ceres 
Environmental Services, which won the Jefferson County contract for 
debris removal, has a standing contract with the Corps in other states 
for debris work, a spokeswoman said. DRC Emergency Services, which got 
the contract in Birmingham, Fultondale and Calhoun County, is currently 
working for the Corps in Joplin, Mo.
    Byard, the state's coordinating officer for the disaster, said 
there's no reason pit pivate contractors against the Corps.
    ``By using a mix of both, we're at 9 million cubic yards removed on 
the 90th day after the storm,'' he said. ``What that does for our 
citizens you cannot put a price tag on. Mentally and emotionally, it is 
a return to normalcy.''

    Mr. Palmer. Thank you, ma'am.
    They went out and got their own bids and in one case it was 
$10 per cubic yard county--and this was a small county. It had 
about 600,000 cubic yards of debris, $10 a cubic yard, that's a 
savings of about $15 million. And I'm not really going after 
FEMA. I mean ultimately we want to get the debris removed and 
people back to normal as quick as possible.
    But when you're talking about a small county and $15 
million, it's not only a massive savings for the Federal 
Government, because Federal Government would have paid a big 
part of that, but it's a major savings for counties. And these 
small counties have really struggled. One was a city in Cullman 
County, they wouldn't have had the money to pay their share.
    So my question to you, sir, is when this occurs where the 
county or the local government contracts it out themselves and 
handles that themselves, then FEMA--they have to submit an 
invoice to FEMA for FEMA to pay them back. When it takes FEMA 
months to reimburse these cities, it's really a hardship on 
them. Is there any way we could expedite this? Because it's 
beneficial to the Federal Government as well as it is to these 
localities.
    Mr. Byard. Yes, sir. And I was actually the State 
coordinating officer for Alabama in 2011. We lost 250 
Alabamians in 1 day over 50 counties declared.
    Mr. Palmer. I was there. I had damage at my place.
    Mr. Byard. Exactly.
    Mr. Palmer. With trees down in the yard.
    Mr. Byard. At that point, the State--I--you know, blame me.
    Mr. Palmer. I'm not blaming anybody.
    Mr. Byard. Based on Governor Bentley requested the Corps do 
the debris removal in many, many counties. Some of that is 
those counties did not have to do any upfront costs. They did 
not have to do the reimbursement. What Alabama did since then I 
think is very proactive, is we divided the State up in 
districts and have pre-event, already vetted through FEMA 
contracts. I was a part of that as we worked with FEMA region 
4.
    So counties and cities within that county were able to, if 
declared, working through the County Commissioners Association, 
we had contracts in place that went through the proper bid 
procedures and so forth. So that's one area that will 
definitely increase the reimbursement piece of that. One of the 
biggest issues we see in debris removal is the procurement of 
that contract post-storm.
    So anything that can be done before an event that we can 
sit down with the FEMA legal team, the State legal team and 
make sure it fits that procurement procedure is a good 
practice.
    Mr. Palmer. Well, I think it's in the best interest of all 
of us if FEMA could streamline the reimbursement to these 
localities that can't afford to do that because the savings are 
enormous.
    I'd also like to ask about--just a quick question: Do you 
have any idea how much of the disaster relief money for the 
Sandy Recovery's still unspent?
    Mr. Byard. No, sir. I can get you a balance of that. I do 
not have that in front of me.
    Mr. Palmer. If you would, I would appreciate that very 
much.
    Mr. Byard. Yes, sir.
    Mr. Palmer. Madam Chairman, I had other questions, but my 
time is fast evaporating. I yield back.
    Ms. Titus. Mrs. Fletcher.
    Mrs. Fletcher. Thank you, Chairwoman Titus. This hearing 
today is incredibly important to myself, to the people I 
represent, and to all of my colleagues here. And, like them, I 
also represent an area that's been devastated by several 
disasters and appreciate the work that FEMA has done to help 
our community recovery.
    I represent Texas' Seventh Congressional District in 
Houston. And so we are still recovering not only from Hurricane 
Harvey, but from the Tax Day Flood, the Memorial Day Flood. We 
now have damage from Imelda. So we're continuing to see these 
challenges. And one consistent theme that I hear from my 
constituents is that we want to figure out how to do this 
faster. We continue to have similar storms. No storm is the 
same. But how can we streamline and improve the process?
    And so that's something I want to put to everyone on the 
panel. But I also want to start with an observation. We have 
just now, 2 years later, gotten several projects approved from 
FEMA, and so I appreciate that. I know that the North Canal 
Project as well as the Inwood Golf Course Project and the Lake 
Houston Dam Project are all going to move forward.
    That said, it's been 2 years, more than 2 years, since 
Harvey and since these projects were proposed. And there is a 
common frustration throughout our community, because these 
projects cannot go forward until they've been approved by FEMA, 
or we'll jeopardize the matching funds. We have some 
legislation that's passed this committee to try to streamline 
some of that process, but it's for a limited number of 
projects.
    And so I guess what I would love to hear from you all is 
what can be done to improve the timeline for Federal 
consideration of these hazard mitigation projects. Because for 
many people who spend the money to repair their homes, but the 
hazard mitigation project can't come in, so they're concerned 
and I can tell you every time it rains, people in my district 
are concerned their house is going to flood again because we 
haven't been able to build the additional detention or do other 
projects that could help change the outcome.
    So can you talk a little bit about that? What can we do to 
improve this timeline?
    Mr. Byard, maybe I'll start with you.
    Mr. Byard. Yes, ma'am. So as it relates to the Hazard 
Mitigation Grant Program, which I believe is what you're 
referring to, as a post-disaster grant program, a lot of the 
time constraints that that program hits deals with 
environmental process, the environmental assessments that need 
to be done.
    I can definitely check on where we are on those specific 
projects as it relates to Houston. However, with the BRIC 
program, that is one of the goals, is to get more funding 
upfront so that we can do these projects, you know, when it's 
not already destroyed so to speak. So it's better to do it 
upfront, save money, and then have a less recovery.
    But I can definitely check on the specifics of where we are 
on those projects for Houston, but it--if I had to--not having 
it in front of me, it's probably somewhere in the environmental 
review process.
    Mrs. Fletcher. Well, that's helpful. I appreciate that. And 
I think it's not just for my own district, but for all of us, 
think what are the things that we can do legislatively. What 
are the ways that we can be helpful in streamlining some of the 
challenges that cause the review process to take so long? If 
there are legislative opportunities, I think it would be 
helpful for all of us to know them, so we can try to move them 
through this committee.
    Mr. Byard. Yes, ma'am.
    Mrs. Fletcher. Anyone else want to weigh in on that?
    Mr. Alvord. Yeah. I'd offer a quick observation I think. 
And I'll draw a quick distinction between response and 
recovery. Because I think you're dealing with two different 
scenarios. And EDA is most involved in the economic recovery 
portion of disasters, and I think we've seen some great 
opportunities in the context of the National Disaster Recovery 
Framework and the economic recovery support function in those 
instances where we have been activated to deploy to a joint 
field office and Federal agencies are working hand-in-glove 
together to try to differentiate one another's assistance and 
provide clear guidance to our stakeholders about which agency 
can best meet their needs on the ground.
    And this not only helps us to move in a more timely fashion 
to get the assistance to those that need it, but it also 
ultimately results in a more efficient and effective disaster 
recovery response, because we're guarding against duplication 
and overlap. If we know that one need is most cleanly met by a 
certain agency, that agency can then tackle that problem and we 
can move onto the next challenge.
    Mrs. Fletcher. I appreciate that. I would like to sort of 
put out for you all to consider and maybe help us come up with 
a solution here, because I agree that what my constituents see 
and find very frustrating is that different agencies can help 
with different things.
    And so if we look at this from a sort of victim-centric 
focus instead of having to call FEMA, oh, you should call SBA. 
Well, that's going to come through the city, or that's going to 
come through the State or the county. There are so many 
different programs. And I think for someone in the immediate 
aftermath of a disaster or in long-term recovery, that process 
can be very confusing.
    And so I think suggestions that you all would have for us 
that we could implement that would make it easier for the 
victims of these disasters to navigate that process would be 
extremely helpful.
    I see that I've gone over my time, so I appreciate your 
being here this morning, and I yield back.
    Ms. Titus. Thank you.
    Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Madam Chair. I appreciate sitting 
in on the committee today.
    The issue in northern California has been pretty tough the 
last couple years, starting with the Oroville Dam, the State 
water project spillway, and FEMA and the administration 
responded very quickly on that. And as well then we had the 
2018 Carr Fire in West Redding--230,000 acres burned, 1,600 
buildings lost, 8 deaths after the Carr Fire. And then finally 
capped last November, we're coming up on the anniversary of the 
Camp Fire in Paradise, California--150,000 acres burned, 18,000 
buildings destroyed and 86 lives lost all told in that. 
Humongous tragedy.
    Of course, a big part of my job and my office and my team 
at home has been working really hard on this in helping the 
town of Paradise and surrounding areas in Magalia, Concow, 
Yankee Hill, others to recover on that as well as finishing up 
on the Carr Fire where people are recovering there.
    The town of Paradise, for example, people have been very 
patient and very resilient on this issue. Even the Paradise 
High School football team has outscored their opponents 362 to 
40 and is undefeated right now. So everybody's really hanging 
in. They're strong with resilience.
    And FEMA, I commend you, Mr. Byard, on, again, the 
immediacy of getting resources and the support on the Camp Fire 
for removing the toxic material on each footprint where a home 
or a building has burned down and seeing the need on that 
watershed to just get that out and get it moved to approved 
waste areas.
    And so tens of thousands of truck trips later, it's pretty 
much complete up there and a lot of building permits, home 
permits are being let, and recovery is happening. So great work 
on that, working with Cal OES, Office of Emergency Services, 
and local governments on that. So there's always people that 
are going to--there's always an impatience with resources don't 
get there as fast as people want and untangling issues and 
redtape.
    And so let's talk just real quick about the concept of 
temporary housing for folks that have been displaced. And, 
again, we're thankful, thankful for all this. But there was 
some issues in setting up temporary housing sites for people to 
dwell. They were scattered, you know, all over. Many in the 
town of Chico; maybe half of the 27,000 displaced, which has 
caused Chico issues of crowding and traffic, but temporary 
housing versus looking at how do we narrow that timeline? Six 
months to identify a site and 10 months to start moving people 
in, you know, and I know it is the circumstance, but how can we 
narrow that, and is there efficiency maybe with funding 
permanent homes instead of the temporary homes? Is there a way 
we can hopscotch that and find opportunities to put our focus 
towards permanent buildings?
    So, could you touch on that, please?
    Mr. Byard. Yes, sir. So, you know, housing is a difficult 
mission, even in the best of times. For the example of 
Paradise, normally, in a lot of cases, we are able to put a 
temporary housing unit, or a manufactured housing unit, on an 
individual's lot. As you well know, due to the toxic 
environment that the debris caused, we cannot do that in 
Paradise, so we actually had to find group sites, which then 
relies on local governments as far as, ``Where can we put 
those?''
    The Federal Government and FEMA, we do a good job of 
reimbursement, but the land has to be granted or given or 
permitted for us to do that. Then, we have to come in and 
basically build a neighborhood, from sewer, power, and so forth 
in certain areas. We try to find where we can, like at 
campsites that are already built like that, something like 
that, and a lot of times, that works. My friend, we did that--
--
    Mr. LaMalfa. Yeah, my time is going to be short on this. I 
am sorry. So, just kind of getting to the crux here. How can we 
narrow that timeline? I know it has been tough to identify some 
of these areas, and we had to do a lot of things with 
campgrounds and parks and others.
    Mr. Byard. Right.
    Ms. Titus. But what can we focus on to narrow that 
timeline?
    Mr. Byard. I would look at, again, how do our State and 
local partners, you know, can they identify lands that could be 
used for a group site in the event they need that? Then, we can 
come in in a lot more efficient fashion and do that.
    Mr. LaMalfa. OK.
    Mr. Byard. If we----
    Mr. LaMalfa. And now, I have got another issue, too. I am 
sorry, but----
    Mr. Byard. It is all right.
    Mr. LaMalfa. Orphan roads, they call them. They are 
basically kind of like public roads, kind of like private, 
mostly? Or seen as private, but they are used by everybody. 
Emergency services, utilities, others, and there are folks 
really concerned up there that removal of debris along these 
roads.
    We still have a million trees up there that have got to be 
removed, and I know FEMA is looking at trees being part of the 
problem up there of not only along the roadways, but a little 
farther inland, and so, we need more attention on that, and I 
know you are working in that direction, but we have to remember 
that these dead trees that are out there are going to continue 
to be a problem.
    That kind of gets back to forestry management in general, 
where somebody was talking about preset disaster planning. The 
forestry in the West is a disaster. Pre-disaster, a lot of it, 
so I would appreciate, keep paying attention on how we can 
remove these trees that are already burned and dead and in 
place and should be seen as part of the cleanup.
    So, and then, I will just leave a quick note. You did a 
great job on clearing land in the Whiskeytown area and the Carr 
Fire on a private clearing, but also there was parkland nearby 
where you didn't have the jurisdiction to clean up a toxic 
building that burned down on parkland. So, national parkland. 
So, we have got to be able to look at what would be sensible. 
When you are there to do work, can you also do it on the 
national parkland, and is there a regulation?
    Let me ask you on that. Is there----
    Ms. Titus. Mr. LaMalfa----
    Mr. LaMalfa [continuing]. A regulation that could change? 
Please get back to my office.
    Thank you, Madam. I am sorry. I yield back.
    Ms. Titus. Thank you.
    I would like to follow up on something just for the record 
that Mr. Garamendi brought up about helping local communities 
that have difficulty paying for their recovery work up front. 
According to the Cash Management Improvement Act, FEMA can 
currently pay local governments on the basis of invoices before 
locals have to pay their vendors. Can you address why you 
aren't using that, or what the problem might be?
    Mr. Byard. There are certain situations when we can do 
that. To be specific on the gentleman's question, I don't have 
the background on that, and I definitely will look at it. You 
know, FEMA's goal is to expedite recovery in the most, you 
know, and the quickest we can. We do have to do that 
understanding that eligible reimbursements are the key or even 
that upfront money.
    We also have an immediate needs funding process where we 
can do upfront grants. The State of Florida took advantage of 
that in Hurricane Michael. So, you know, I will definitely look 
at that. As far as the specifics of what the gentleman was 
asking, I don't have the projects in front of me.
    Ms. Titus. Well, that might be one of the reforms we could 
make. If you look at those programs that allow upfront funding 
to see if there is something we can do to streamline that or 
make it work better, that would be helpful.
    Mr. Byard. Yes, ma'am.
    Ms. Titus. Thank you. Now, Ms. Norton?
    Ms. Norton. Thank you very much, Madam Chair.
    Underlying the local matters that you have heard, Mr. 
Byard, is the overarching issue of climate change. In the last 
5 years, FEMA has had to face $5 billion natural disasters, and 
not until this year has there been, and the House has passed 
some legislation.
    I would be most interested to know whether climate change, 
Mr. Byard, is even on your agenda, and if so, what specific 
steps is FEMA taking to help States and local jurisdictions 
prepare for these redundant and increasingly costly climate 
change events?
    Mr. Byard. Yes, ma'am.
    You know, FEMA's mission is very clear. We want to help 
people before, during, and after disasters. That is actually 
our mission statement. It is a pretty simple mission statement. 
What we are doing as far as individual communities is, that is 
a decision of that community. We fund eligible mitigation 
projects to push----
    Ms. Norton. But I am asking, there is an over--you are not 
responding to my question. Communities have not faced what 
everyone, the world understands to be climate change. Different 
and more repetitive, more serious events. I am asking, is that 
on your agenda? I know what you do every day----
    Mr. Byard. Right.
    Ms. Norton [continuing]. When there is a disaster. Is 
climate change on FEMA's agenda? And if so, what are you doing 
with respect to climate change?
    Mr. Byard. Yes, ma'am, and again, you know, FEMA doesn't 
guide what a local mitigation plan or a State's mitigation plan 
is. It is based on the risk of that individual State or that 
individual community.
    Ms. Norton. So, you have no guidance whatsoever to offer?
    Mr. Byard. No, ma'am. We have mitigation guidance, we have 
planning guidance, we have various amounts of tools and 
resources for that.
    Ms. Norton. Has that planning and mitigation guidance 
changed since these natural disasters, billion-dollar 
disasters, have confronted FEMA and since climate change has 
been a problem for the United States?
    Mr. Byard. I can look back and see what changes, ma'am, 
have occurred, but you know, flooding, and different 
communities are faced with different threats. So, again, that 
is part of the locally executed, State-managed, and federally 
supported program that works best.
    Ms. Norton. I really thank you very much, but I take it 
from your answer that there is no national focus on climate 
change. Your answer does not assure me that we are preparing 
for these increasingly expensive events or that we even 
understand them to flow from climate change. This is very 
serious, and I do hope that this committee will in fact 
instruct FEMA to notice and engage in increasingly important 
preparation beyond the usual preparation for these increasingly 
costly events so that the Nation does have climate change on 
its agenda.
    Now, I do have another question. FEMA, we have heard over 
and over again from you and from Members, is stretched thin. 
Sometimes, you call upon employees from other agencies like the 
Department of Homeland Security. I am not sure these other 
agencies have much background or the skills that are necessary. 
How do you deal with these employees that you have to borrow 
from other agencies, and I would also like to know whether 
FEMA's new headquarters plan for Department of Homeland 
Security will help to fill in these gaps and assist FEMA and 
the staff when you are stretched thin like this.
    Mr. Byard. Yes, ma'am. I would have to say, you know, the 
program you are referring to is our service capacity ability to 
do that, which was granted to the agency through legislation. 
It is tremendous. Let me say that.
    When you have Federal partners that we can surge in first 
through the Department and then outside of the Department, they 
can do vital work like man our call centers for our survivors; 
the IRS does a great job when we call upon them to do that, to 
help with our Disaster Survival Assistance Teams to go out and 
actually face-to-face with the disaster survivors. Some of the 
feedback we get out of that is that it is some of the most 
rewarding work that our Federal partners get to do, so that is 
a tremendous benefit to FEMA for that short term.
    As far as the FEMA headquarters, ma'am, I don't know. You 
know, we are on 500 C Street. It is my understanding that we 
are staying on 500 C Street Southwest.
    Ms. Norton. Thank you very much.
    Ms. Titus. Thank you, Ms. Norton. I think you make a good 
point. I don't see how you can possibly talk about resilience 
in mitigation without considering climate change.
    We will now go to Mr. Graves of Louisiana.
    Mr. Graves of Louisiana. Thank you, Madam Chair. Madam 
Chair, I want to thank you very much for having this hearing, 
and I wish that HUD were sitting here as well because they are 
very topical to this. I think it is awful that they refused to 
attend today, and afraid to attend, to be held to the standard, 
to be held accountable for their performance over the last 
several years.
    I want to very quickly address FEMA. In the initial drafts 
of the Disaster Recovery Reform Act, we had a provision in 
there that incentivized State and local governments to carry 
out resilience activities, and in return, they would get a 
lower cost share from the 75/25 cost share on Individual and 
Public Assistance Programs.
    That was moved and it was enacted. We extracted it out of 
that bill and put it in the BBA 18, the Bipartisan Budget Act 
of 2018. It is my understanding that FEMA has not taken any 
action in terms of implementing that program. Along the lines 
of what Ms. Holmes Norton was just discussing, this 
incentivizes State and local communities to be more resilient; 
to adapt to changes in our climate and other flood risk and 
disaster risk challenges.
    I want to urge you, and I would like for you to come back 
to this committee and let us know your implementation timeline. 
I have even heard some folks at FEMA secondhand say that they 
may not be implementing it. I am not sure that when you read 
the law it really gives you any discretion to do so.
    Number two, there is a provision in the Disaster Recovery 
Reform Act that says that schools are to be, they are 
deductible. Schools in the aftermath of a disaster are to be 
adjusted. We are waiting on that, and it is to the tune of 
about $40 million to schools in Louisiana. We have schools that 
aren't opening. We have kids that are challenged as a result of 
this, and I want to urge you to please expedite that, and 
please tell the committee when you are going to do that.
    Thirdly and most importantly. In the GAO report that is 
largely topical to this hearing, GAO-19-232, page 47, you say 
in here that, in a previous report, ``we found that different 
Federal disaster response programs are initiated at different 
times, making it challenging for State and local officials to 
determine how to use Federal funds in a comprehensive manner.''
    It goes on to say, ``In response to a survey that we 
conducted for the report, 12 of 13 States and cities reported 
that navigating the multiple funding streams and various 
regulations was a challenge that affected their ability to 
maximize disaster resilience opportunities.''
    So, here you have in the immediate aftermath of a disaster, 
FEMA comes in and you start providing assistance. Then, SBA 
comes in. Then, HUD comes in with the CDBG-DR grants. We had 
FEMA shutting down housing options in terms of hotels and 
mobile homes, yet HUD wasn't anywhere near their ability to 
come in and deliver the long-term recovery funds.
    So, you had people sitting there in a gap for a year or 
more. It doesn't make sense. We look like a circus. We look 
like a bunch of clowns. This is all the same Federal 
Government. Now, the GAO report goes on in its conclusion, and 
it does not--it does not conclude that we need to take the 
Community Development Block Grant and Disaster Recovery Program 
and memorialize it. It doesn't say that.
    To the contrary, what it actually says is, ``Congress 
should consider legislation establishing permanent statutory 
authority for a disaster assistance program administered by HUD 
or another agency that responds to unmet needs in a timely 
manner and directing the applicable agency to issue 
implementing regulations.''
    And this report largely goes in and says that HUD comes in 
each time, and they issue different, or they issue regulations. 
And in terms of the BBA 18, it took HUD 18 months--18 months to 
issue regulations on how to tap the funds. Eighteen months to 
issue regulations. These are disaster victims, and I don't 
think I have heard anybody talk about. These are disaster 
victims that have lost everything in many cases.
    We are the United States. This is ridiculous what we do to 
people. Our own Federal Government revictimizes people. There 
should be seamless transitions. You know what? There is 
potentially going to be a bill next week on the House floor 
that is going to memorialize this Community Development Block 
Grant program into law. It is the stupidest thing we could 
possibly do.
    Let's take a look at the data. You just heard Mr. Alvord 
say 79 percent of their grants are out the door. Seventy-nine 
percent. Is that what you said? Seventy-nine percent. You can 
look at this same report, page 77. You can look in here. You 
looked at grants. You looked at grants from 2013--2012 and 
2013. Do you know that one-half of the 50 grants, one-half of 
them from grants from 2012 and 2013 have hit the 79-percent 
mark, and we are going to memorialize this program?
    We have this program in Louisiana. We had a 1,000-year 
flood in 2016. We were given $1.7 billion. Of that, $1.2 
billion is going to disaster victims. We had to pay a 
contractor $350 million to administer the program because of 
all the stupidity in the compliance and certification. That is 
$350 million that should be going to disaster victims.
    This is so stupid, what we are doing. We are wasting 
money--$1.7 trillion is what we have spent on disasters since 
1980, just the top disasters. Congresswoman Plaskett and I have 
a bill, Congresswoman Fletcher and I have worked on this issue 
trying to get this money out the door to disaster victims.
    We need to be very thoughtful with the clear evidence, the 
clear evidence of how stupid it would be for us to go this HUD 
route. HUD is refusing to be here because they know they can't 
stand up to scrutiny. They would be embarrassed sitting in this 
room right now.
    We have got to go in a different path and learn from these 
clear lessons that were in the GAO report that screams it all 
over and over again. There is no reason it should take 18 
months. These disasters and regulations are nearly identical 
every time they issue them. This is embarrassing what we are 
doing to people. It is costing taxpayers money. It is 
unaffordable, and I will say it again. We are revictimizing 
disaster victims.
    Madam Chair, thank you.
    Ms. Titus. Thank you, Mr. Graves.
    Just to follow up on that, Mr. Currie, I asked you this 
earlier about the community grants and kind of where that 
program belongs, to stay in HUD. Should it go to FEMA? Do they 
have the resources to handle it?
    Mr. Currie. Mr. Graves is absolutely right. The reason we 
didn't suggest it go to HUD is because it is Congress' decision 
how you want to fund the disaster grant. What we looked at was 
the problem, and the problem is is that each time Congress 
appropriates money to HUD, it basically has to recreate the 
program and go through the Federal regulation process, which is 
just not efficient.
    Ms. Titus. Mr. Byard, does FEMA have the resources to take 
on this problem?
    Mr. Byard. Well, ma'am, as many of you have alluded to 
today, we are stretched thin. You know, we have got two major 
statutory programs that we administer, based on all the Public 
Assistance, Individual Assistance Program.
    What the congressman pointed out, there is no argument he 
is going to get from me. Our program ends in 18 months. Any 
assistance to eligible survivors for housing should overlap 
that because we have to start pulling out, but for FEMA to take 
on additional grant funding, I would say, I would love to work 
with the committee about expanding our authorities to do a 
different means of housing, but not to take on other agencies' 
responsibilities or grants.
    Mr. Graves of Louisiana. Madam Chair, can I just have 10 
seconds? Just one thing.
    Ms. Titus. Sure.
    Mr. Graves of Louisiana. Madam Chair, $350 million to 
administer this. We have got to look at the value added from 
the regulations from all of this scrutiny. This whole process 
assumes the fact that the States are going to spend the money 
stupidly and that they are going to be guilty and break the 
law. We have got to look at the value of that $350 million in 
our case and make sure that it is actually returning value to 
taxpayers. If we go from a 2-percent error rate to a 5-percent 
error rate by doing more of a block grant type scenario, OK. I 
will take it all day long, because we are going to get the 
money to disaster victims faster.
    Ms. Titus. Thank you, Mr. Graves.
    Ms. Plaskett, do you want to add to this?
    Ms. Plaskett. Thank you, I do want to add to this, and I 
want to ask you, sir. You said that FEMA is stretched thin, but 
if Congress not only gave you the authority, but also gave you 
the resources to do this, wouldn't this be a much more cohesive 
mechanism to be able to get--not just do the recovery, but the 
long-term rebuilding so that you are not duplicating efforts?
    Mr. Byard. Ma'am, again, I would happily sit down with the 
committee and look at all of the aspects of it. I don't want to 
speak in terms of what one solution may be because sometimes, 
it is just not more people. It is a training aspect that is 
involved in that. It is other areas that are involved in that. 
Is FEMA a long-term agency? You know, I would make a case that 
we are a response agency and a short-term----
    Ms. Plaskett. Well, that is not entirely what Congress has 
said that you are supposed to be, when we changed the Stafford 
Act.
    For the U.S. Virgin Islands and for Puerto Rico, one of the 
things we said is that mitigation is necessary.
    Mr. Byard. Mm-hmm.
    Ms. Plaskett. And that we are doing your job better if we 
assist these areas to mitigate the damages so that when you 
come back in, the next time, it is not just at the same level 
that you have had before. So, we are looking at pre-
positioning, right, for FEMA because we know in the Virgin 
Islands, unfortunately, you know, every year we say a hurricane 
prayer. It is part of our culture, because we know that that is 
going to happen. And so, these are things that we need to put 
in place.
    Now, I am not knocking HUD whatsoever. But what I am saying 
is that when we begin one process, end it, and then have to 
move to a different agency and begin again, then we have 
issues. For one, one of the things I wanted to bring up was you 
had talked about capacity issues and cost estimates, right? Can 
you tell me how many cost estimates have been completed for the 
Virgin Islands, and how many need to be completed for the fixed 
cost estimates that are--we have a March 20, 2020, deadline? Do 
you know?
    Mr. Byard. Ma'am, I will get you the numbers. I know what 
we are focused on in the Virgin Islands--or, I am sorry. Was it 
Chris, or were you--?
    Ms. Plaskett. No, I am going to ask both of you.
    Mr. Byard. OK.
    Ms. Plaskett. What is your thought?
    Mr. Byard. What we are focused on on the fixed cost 
estimate----
    Ms. Plaskett. Mm-hmm----
    Mr. Byard [continuing]. Of those that apply with the 
Bipartisan Budget Act, and the beauty of that is as well, as 
you know, is it allows us not to look at the preexisting 
disaster conditions of that infrastructure----
    Ms. Plaskett. Right, but how many of those cost estimates 
have you done?
    Mr. Byard. I can get you those numbers back.
    Ms. Plaskett. Mr. Currie, are you aware of how many have 
been done and how many are still needed to be done, or a 
percentage?
    Mr. Currie. So, what we reported in our testimony is that 
there were two alternative procedures, long-term infrastructure 
cost estimates completed so far on the Virgin Islands. That 
doesn't mean that there has only been two projects, but----
    Ms. Plaskett. I know----
    Mr. Currie. Yeah.
    Ms. Plaskett. And out of how many, do you know, that they 
have said they are going to be doing?
    Mr. Currie. I don't think the universe is actually known. I 
haven't seen an estimate on that.
    Ms. Plaskett. OK, and the data is--we have the estimate due 
by March 2020, right?
    Mr. Currie. Right.
    Ms. Plaskett. March 20, 2020, is a deadline, which is a 
concern to me because we have issues in which FEMA resources on 
the ground are, one, unfamiliar with building technologies and 
construction processes in the Virgin Islands. There are changes 
in personnel that occur on a regular basis, and those 
individuals need to be brought back up to speed as to what the 
last individuals who were in the Virgin Islands need to do.
    I mean, I am not insensitive to the challenges of FEMA with 
multiple disasters around the country, but I do, of course, 
have to be concerned with the Virgin Islands, where September 
2017 was the hurricane. We lost a hospital in the Virgin 
Islands on the Island of St. Croix. The only hospital. We still 
do not have a mobile unit for that hospital. We have one 
operating room. It is just deplorable, when we talk about what 
individuals have to live through in dealing with this process, 
and the need to streamline it.
    And so, that is why I am asking you about these cost 
estimates. Do you know if FEMA will be willing to devote more 
resources and personnel to site visits, and more expeditious 
completion of the work it deems necessary? I know that you have 
a lot on the ground, but I don't think that you are at full 
capacity yet, are you?
    Mr. Byard. We are looking at how do we bring more local 
hires on board to help with that effort, because we know it is 
going to be a long-term effort. I understand where the deadline 
is, but I am committed, we are committed to working with the 
Territory to make sure that we get the fixed cost estimates 
done and the work moving.
    I think you hit on something, though. You know, we 
understand that we have to have generators on the island pre-
storm. We have done that, now.
    Ms. Plaskett. Mm-hmm.
    Mr. Byard. We have learned a lot since 2017 about what are 
those critical things that we need on the Virgin Islands and in 
Puerto Rico and all of our----
    Ms. Plaskett. Right.
    Mr. Byard [continuing]. Territories, for that matter. Yes, 
ma'am. I will commit to that. I will speak with Jackie, who is 
running the operational----
    Ms. Plaskett. She has been fantastic.
    Mr. Byard. Yes, ma'am.
    Ms. Plaskett. And the people that you have on the ground 
are really committed, and we are grateful for them being there. 
We just need more of them.
    Mr. Byard. Yes, ma'am.
    Ms. Plaskett. We need more people, and the other thing I 
wanted to mention, just quickly wanted to get a question and 
answer on, is duplication of benefits.
    So, in the immediate aftermath of the hurricane, you have 
individuals that take out SBA loans, right? They need their 
homes repaired. They need it fixed, and so under the Disaster 
Recovery Reform Act, we know that Governors have the ability to 
request a waiver of the Stafford Act prohibition regarding 
duplication of Federal benefits.
    So, that is the question I am asking, is that are you in 
favor and with the new provisions and Federal law? So, those 
who have taken out SBA loans right after a major disaster, some 
out of desperation, others in need to begin rebuilding right 
away. For most of us, you know, the storms continued. 
Hurricanes and rains continued for several months after that 
initial hurricane. Will they be able to use Community 
Development Block Grant funds they receive to repay SBA loans? 
Will you allow our Governors to be able to do that and request 
the waiver?
    Anyone?
    Mr. Currie. Ma'am, I am not familiar with the situation.
    Ms. Plaskett. You are not familiar how individuals take SBA 
loans?
    Mr. Currie. Oh, no. I am familiar with that, and actually, 
we have heard similar things. It is very confusing right after 
a disaster of----
    Ms. Plaskett. Right.
    Mr. Currie [continuing]. If they are actually getting a 
loan versus direct assistance. I am just----
    Ms. Plaskett. Right.
    Mr. Currie [continuing]. I am not familiar with how that 
would work under that scenario with CDBG HUD grants.
    Ms. Titus. Mr. Byard, could you answer that quickly, and 
then we will move on? Thank you.
    Mr. Byard. Ma'am, very similar to Chris, you know, that 
would be a HUD SBA question, ma'am. And I don't----
    Ms. Titus. Well, I mean, somebody can get us--we will look 
into it and get it back for the record.
    Just--we have heard a lot about FEMA staffing. What about 
Economic Development Administration staffing? Do you have 
enough people out in the field helping folks to go through the 
applications and grant process?
    Mr. Alvord. Thank you, Madam Chair.
    Yes, unquestionably, you know, the implementation of nearly 
three times of our regular appropriation has put a strain on 
staffing at EDA, and we have worked hard to fill that gap, but 
have had challenges doing so, and I think those challenges have 
come on multiple fronts.
    One, with a very strong economy, we are competing with not 
just other Federal agencies, but the private sector for the key 
positions that we need, particularly credentialed positions 
related to civil engineers and environmental compliance 
specialists, and others. So, we have worked hard to get those 
folks on board, but in many cases, we have fallen victim to 
them going into the private sector.
    We have also encountered some friction in regards to just 
the traditional administrative processes. Sometimes, it takes 
longer than we would hope to get people through the Federal 
hiring process. I guess I would note in that regard that unlike 
some of our sister Federal agencies involved in disaster 
response and recovery, EDA has no special authorities related 
to hiring and bringing on staff to help with disaster response. 
So, we are working through the traditional process.
    At this time, we have brought on board approximately 50 
percent of the temporary hires that we have identified that we 
will need to deploy the disaster recovery assistance.
    Ms. Titus. Well thank you, gentlemen. I think you can see 
some of the frustration of the members of this committee, and 
we are anxious to look at some reforms that we may do 
streamlining the process, reorganizing possibly how to help 
with the personnel issues. So, we ask you to continue to work 
with us as we move forward with some of these reforms.
    Are there any further questions from the committee?
    Mrs. Miller. Madam Chairwoman?
    Ms. Titus. Mm-hmm, Mrs. Miller?
    Mrs. Miller. I strongly suggest that FEMA stay to hear the 
witnesses from the second panel. I think it would be very 
helpful.
    Ms. Titus. Thank you, Mrs. Miller. At this point, then, we 
will say thank you and ask the second panel to come forward.
    [Pause.]
    Mrs. Fletcher [presiding]. Thank you all. I would now like 
to welcome our next panel of witnesses.
    Mr. Mike Sprayberry, director of emergency management at 
the North Carolina Department of Public Safety, testifying on 
behalf of the National Emergency Management Association.
    The Honorable Fernando Gil-Ensenat, Secretary of the 
Department of Housing for the Commonwealth of Puerto Rico.
    Ms. Rhonda Wiley, administrator of emergency management, 
911, and flood plains for Atchison County, Missouri.
    And Mr. Reese C. May, chief strategy and innovation officer 
at the St. Bernard Project.
    Thank you all for being here today. I look forward to your 
testimony.
    Without objection, our witnesses' full statements will be 
included in the record. As with the previous panel, since your 
written testimony has been made a part of the record, the 
subcommittee requests that you limit your oral testimony to 5 
minutes, and Mr. Sprayberry, we will begin with you.

   TESTIMONY OF MICHAEL SPRAYBERRY, DIRECTOR, NORTH CAROLINA 
  EMERGENCY MANAGEMENT, TESTIFYING ON BEHALF OF THE NATIONAL 
 EMERGENCY MANAGEMENT ASSOCIATION; HON. FERNANDO GIL-ENSENAT, 
SECRETARY OF THE DEPARTMENT OF HOUSING, COMMONWEALTH OF PUERTO 
    RICO; RHONDA WILEY, EMERGENCY MANAGEMENT DIRECTOR, 911 
   DIRECTOR, AND FLOOD PLAIN ADMINISTRATOR, ATCHISON COUNTY, 
   MISSOURI; AND REESE C. MAY, CHIEF STRATEGY AND INNOVATION 
                  OFFICER, ST. BERNARD PROJECT

    Mr. Sprayberry. Chairwoman Fletcher and distinguished 
members of the subcommittee, thank you for your kind 
introduction, for holding this hearing, and allowing me to 
testify representing the National Emergency Management 
Association in the State of North Carolina.
    Since the devastation of Hurricane Matthew in 2016, North 
Carolina has experienced multiple hurricanes, tropical storms, 
and other disasters. The damage from Hurricane Florence alone 
totaled more than Hurricane Matthew and Hurricane Floyd 
combined. We are also the only State where Hurricane Dorian 
made landfall earlier this year.
    Citizens across the country, as well as political 
leadership must understand the roles and responsibilities in 
responding to and recovering from disasters. FEMA is not a 
first responder, and the Governor maintains ultimate authority 
over managing the disaster. The three levels of disaster 
response, Federal, State, and local, must all support one 
another.
    Our locals have a tough job. Many of them are only holding 
part-time positions, and few have all the necessary resources 
to respond to major events. To lead the State's efforts to 
rebuild smarter and stronger in the wake of Hurricane Florence, 
Governor Cooper established the North Carolina Office of 
Recovery and Resiliency, or NCORR.
    The office provides many recovery functions, including 
managing CDBG-DR. With NCORR up and running, North Carolina is 
now on the road to recovery with a team of State, Federal, and 
volunteer partners dedicated to helping communities rebuild to 
be more resilient and better prepared to weather future storms.
    One of the largest capability gaps currently is in the 
coordination of Federal programs. In the wake of any disaster, 
State and local emergency managers may have to navigate more 
than 90 programs across 17 Federal agencies. In my written 
statement, I go into detail about some of the challenges with 
disaster case management and crisis counseling programs at 
FEMA. Awards for these grants typically see significant delays. 
These delays lead to an inability to properly plan for 
assistance, maintain personnel, and commit resources to 
disaster survivors.
    FEMA recently announced the termination of the Sheltering 
and Temporary Essential Power, or STEP program, which enables 
residents to more quickly return to their homes. With the 
termination of the program, FEMA must work to leverage other 
existing programs for emergency sheltering and housing 
assistance to meet the needs of survivors.
    The continued debate over the National Flood Insurance 
Program and delays in implementing provisions of the Disaster 
Recovery Reform Act also prevent the bold moves we must take as 
a Nation to be more resilient.
    No discussion of long-term recovery would be complete 
without addressing the CDBG-DR program at HUD. We appreciate 
the support of Congress in appropriating funds to CDBG-DR, and 
HUD has been a great partner to North Carolina in administering 
the program. However, the program remains bifurcated from other 
Federal recovery programs, and the lack of a regular 
authorization leaves States waiting months, if not years, for 
funding.
    I know many options to this program are being discussed 
here in Congress, but one reform which would immediately 
improve CDBG-DR is creating a method by which information from 
disaster survivors could be shared across various Federal 
agencies. Typically known as a universal application, this 
improvement would allow survivors to complete one application 
for use by HUD, FEMA, and the Small Business Administration.
    On behalf of the State emergency managers, thank you again 
for holding this hearing and drawing attention to the needs of 
the emergency management community. In North Carolina, we are 
acutely aware of the need to build upon the momentum of last 
year's Disaster Recovery Reform Act to further improve disaster 
recovery efforts and ensure we support our communities in their 
time of need.
    Thank you, ma'am.
    [Mr. Sprayberry's prepared statement follows:]

                                
  Prepared Statement of Michael Sprayberry, Director, North Carolina 
 Emergency Management, testifying on behalf of the National Emergency 
                         Management Association
    Thank you, Chairman Titus, Ranking Member Meadows, and 
distinguished members of the Committee for allowing me to testify 
before you today.
    I am proud to testify today as a Past President of the National 
Emergency Management Association (NEMA) and Director of North Carolina 
Emergency Management (NCEM). NEMA represents the state emergency 
management directors of all 50 states, territories, and the District of 
Columbia. On behalf of my colleagues in state emergency management, we 
thank you for holding this discussion on federal recovery efforts from 
recent disasters.
                   Ongoing Recovery in North Carolina
    Since the devastation of Hurricane Matthew in 2016, North Carolina 
has experienced multiple hurricanes, tropical storms, and other 
disasters. Damage from Hurricane Florence alone totaled more than the 
cost we experienced during Hurricane Matthew and Hurricane Floyd 
combined, and we were the only state where Hurricane Dorian made 
landfall earlier this year. While North Carolina is famed for its 
hurricanes, in the past few years we have also received major disaster 
declarations for tornados and severe storms, as well as two fire 
management assistance declarations. As a state which experiences a 
broad spectrum of natural hazards occurring across North America, we 
are attuned to the needs of our residents in disaster recovery and 
focused on a more resilient path forward.
    Citizens across the country as well as political leadership must 
understand the roles and responsibilities in responding to and 
recovering from disasters. The Federal Emergency Management Agency 
(FEMA) is not a first responder, and the Governor maintains ultimate 
authority over managing the disaster, but without robust local 
emergency management, the execution of programs and projects will 
falter.
    To lead the state's efforts to rebuild smarter and stronger the 
wake of Hurricane Florence, Governor Cooper established the North 
Carolina Office of Recovery and Resiliency, or NCORR. The office 
provides disaster recovery coordination with services that include 
oversight of recovery funding, processing of program applications, 
construction and vendor management, and public outreach and education, 
among many other responsibilities. With NCORR up and running, North 
Carolina is now on the road to recovery with a team of state, federal 
and volunteer partners dedicated to helping communities rebuild to be 
more resilient and better prepared to weather future storms.
    NCORR oversees the Community Development Block Grant-Disaster 
Recovery (CDBG-DR) program for the state, managing the disbursement of 
funds that will total in the hundreds of millions when the next tranche 
is disbursed. In keeping with the CDBG-DR mandate to prioritize the 
program's recovery spending in low-income areas, our CDBG-DR Housing 
Recovery Programs tackle the statewide shortage of affordable housing 
in coordination with partners at the state and local levels. We seek to 
instill resiliency in our recovery projects, which enhances 
coordination across all of our emergency management efforts, including 
our recovery support functions and the statewide disaster recovery task 
force.
            Understanding the Landscape of Federal Programs
    In September 2016, the Government Accountability Office (GAO) 
published GAO-16-797 and found that ``During fiscal years 2005 through 
2014, the federal government obligated at least $277.6 billion across 
17 federal departments and agencies for disaster assistance programs 
and activities.'' GAO since revised that number to more than $400 
billion including the years since. Across these 17 agencies, state and 
local governments and disaster survivors must navigate more than 90 
federal programs. While the size and scope of all these programs exceed 
the capabilities of this hearing, I would like to explore a couple of 
key programs:
Disaster Case Management Program
    The Disaster Case Management Program (DCMP) is a 24-month FEMA 
grant, which assists survivors with developing and facilitating 
personal recovery plans. In its most effective form, this process 
begins immediately after the event so that the survivor's recovery 
needs can be addressed before they compound to create other needs such 
as employment, health care, or childcare transportation.
    For Matthew, NCEM began the DCMP grant application process at the 
time the storm hit and after two months received a 6-month grant for 
effectively 4 months of operational grant funding. We continue working 
with FEMA to facilitate the remaining portion of the 24-month grant but 
continue to operate under short, temporary extensions. The delay in the 
award makes it harder for us to address survivors' needs and creates 
difficulties in case management planning, training, and personnel 
retention. The uncertainty also affects our coordination with local 
long-term recovery groups and their ability to provide resources to 
survivors.
Crisis Counseling Program
    The design of the Crisis Counseling Program (CCP) allows states to 
provide immediate crisis counseling and address behavioral health 
challenges for 60 days after the disaster event and thereafter up to 
nine months through the anniversary of the event. The grant is 
comprised of a two-month Immediate Services Program (ISP) and a nine-
month Regular Services Program (RSP). FEMA approved the State's funding 
request for the RSP but due to delays within FEMA Region IV, which 
holds the decision-making authority for these FEMA grants to southern 
states including North Carolina, the state has not received a Notice of 
Grant Award (NOGA) from the Substance Abuse and Mental Health Services 
Administration (SAMHSA). The lack of a NOGA required seven 30-day 
extensions to the ISP, two with additional funding for continuation of 
services to survivors.
    The delay in the long-term award negatively affects survivors and 
makes programmatic planning as well as training and retention of crisis 
counselors more difficult. FEMA must work with states in implementing 
the CCP with more speed, transparency, and efficiency to better address 
the needs of survivors.
Disaster Housing Programs
    One of the most sensitive issues post-disaster is managing housing 
programs. In 2017 we saw states such as Texas take bold steps in 
managing their own housing programs. Through this process, we learned 
of some opportunities for better performance overall in the hierarchy 
of national housing programs and sheltering. Even if the programs are 
found to be satisfactory, we must consider how best to communicate and 
manage the relocation of thousands of citizens, and carefully explain 
the intent of assistance programs which aim for ultimate repatriation. 
In recent years, FEMA made intimations of deferring management of the 
housing mission to states through a block grant, citing regulatory and 
compliance difficulties. If fundamental problems exist within the 
housing programs, we should err on the side of make appropriate 
adjustments, not arbitrarily shifting responsibility to the states 
which every Governor may not want.
    One program receiving attention as of late, mainly due to FEMA 
announcing the termination of the program, is the Sheltering and 
Temporary Essential Power (STEP) Program. The STEP program enabled 
residents to return to or remain in their homes, as a form of shelter 
while permanent repairs are completed, thereby reducing the number of 
individuals in congregate shelters or in the Transitional Shelter 
Assistance (TSA).
    Now that the program will no longer be authorized, I would be 
remiss if I did not stress the importance of leveraging other existing 
programs for emergency sheltering and housing assistance to meet the 
needs of vdisaster survivors. FEMA should prioritize programs that 
enable residents to return to or remain in their homes, as a form of 
shelter, while permanent repairs are completed. The program should also 
utilize the partnership between federal, state, and locals to help 
identify appropriate applicants for the programs. There should be more 
consideration of the practical expectations in meeting emergency 
housing needs to the States and the survivors that details how to sign 
up for the program; timelines of completion; and guidance on what is 
acceptable. Enabling residents to go back to their homes provides the 
quick recovery they crave to get back to life as usual.
Disaster Recovery Block Grants
    No discussion of long-term recovery would be complete without 
addressing the CDBG-DR program at the Department of Housing and Urban 
Development (HUD). We always appreciate the support of Congress in 
appropriating funds to CDBG-DR, and HUD has been a great partner to 
North Carolina in administering the program. However, the program 
remains bifurcated from other federal recovery programs and the lack of 
a regular authorization leaves states waiting months, if not years for 
HUD to publish Federal Register notices for funding.
    One reform which would immediately improve the CDBG-DR process is 
creating a method by which information from disaster survivors could be 
shared across various federal agencies. Typically known as a 
``universal application,'' this improvement would allow survivors to 
complete one application for use by FEMA, HUD, and the Small Business 
Administration. As recently stated in a letter to Congressional 
leadership over the signature of seven bipartisan governors, including 
my own, combining the universal application ``with this seamless 
interagency data sharing would enable significantly better 
communication and coordination, as well as faster disbursement of funds 
and improved oversight and accountability.''
    In the aftermath of a disaster, the last thing that a disaster 
survivor needs is to spend significant time navigating federal 
bureaucracy. Reforming this process signals our commitment at all 
levels of government to the needs of disaster survivors nationwide in 
their most critical moments.
         Collaboration at the Federal, State, and Local Levels
    The cacophony of federal grants programs is confusing to even the 
most experienced emergency manager. When created in 1978, the charge to 
FEMA was to coordinate the federal government's role in preparing for, 
preventing, mitigating the effects of, responding to, and recovering 
from all domestic disasters. Over time, the number of FEMA-specific 
programs grew and the agency is challenged to help states and locals 
cross-cut the labyrinth of the federal bureaucracy.
    For example, states and communities have access to a variety of 
programs across the federal government, many of which maintain the 
overarching goal of helping grantees become more resilient and better 
prepared for future disasters. The specific authorities and purposes of 
such programs usually vary, however, and FEMA may not have authority to 
allow grantees to co-mingle funds or shift the priorities of specific 
grant dollars.
    In the case of CDBG-DR, FEMA's Predisaster Mitigation Program, and 
their new Building Resilient Infrastructure and Communities (BRIC) 
program, FEMA and HUD could and should do the following:

    <bullet>  Work across the federal interagency and with Congress to 
obtain the necessary authorities to allow grantees to blend projects 
with support from other mitigation programs available within FEMA and 
across the federal government.
    <bullet>  Allow for collaboration, convergence, and promotion of 
projects that enhance the level of protection of people and property 
across various programs regardless of the funding sources and legal 
requirements.
    <bullet>  Anticipate future conditions by broadening allowable 
project types which meet hazard impacts.
                  Ensuring the Public Shares the Risk
    Governments cannot be solely responsible for managing the response 
to and recovery from a disaster. Many programs already exist which 
allows the public to share in this endeavor, but the political and 
practical will to make necessary changes and drive for success must 
come from all of us. In order to gauge our success, we must continually 
review and reform programs such as the National Flood Insurance Program 
(NFIP).
    Just as we reviewed policies and programs after Hurricanes Katrina, 
Sandy, and the 2017 disaster season, so too must we review the programs 
and policies that we use today. The measure of success related to 
disaster response and recovery lies in the overarching programs which 
help guide our policies.
    Much attention has been paid to the NFIP over the last several 
years, and rightly so. Reforms have been implemented that are designed 
to stabilize the program, but the desired outcome remains elusive. In 
the meantime, however, we as a nation are still grossly under-insured 
against the threat posed by flooding, our most prevalent hazard. Time 
after time we watch as our communities flood, only to hear from 
residents that they did not have the appropriate coverage. In the 
absence of insurance, they rely upon a patchwork of their own fiscal 
ability, the generosity of the charitable organizations, and federal 
and state aid that is not designed to make them whole. Such situations 
delay the recovery of a community and threaten its very existence. We 
as a nation must redouble our efforts to design a system that helps 
people evaluate their individual risk and plan accordingly while 
simultaneously reducing our collective risk.
    The lack of appropriate coverage is not limited to flood; too few 
Americans truly understand their vulnerability to earthquakes and 
landslides. The Cascadia Subduction Zone (CSZ) ``megathrust'' fault is 
a long dipping fault that stretches from Northern Vancouver Island to 
Cape Mendocino, California. This area creates the largest earthquakes 
in the world and previously produced magnitude 9.0 or greater 
earthquakes. This will undoubtedly occur again in the future. New 
research using land deposits found at the bottom of the ocean points to 
a one in three chance of a major earthquake in the Pacific Northwest in 
the next 50 years. Recovering from a large-scale earthquake in this 
area would be complicated tremendously by the lack of appropriate 
insurance coverage and would result in tremendous costs to government 
at all levels.
                               Conclusion
    On behalf of the state emergency managers, thank you again for 
holding this hearing and drawing attention to the needs of the 
emergency management community. In North Carolina, we are acutely aware 
of the need to build upon the momentum of last year's Disaster Recovery 
Reform Act to further improve disaster recovery efforts and ensure we 
support our communities in their time of need. As you consider the 
topics of this hearing, please remember specifically that federal 
programs such as CDBG-DR are always capable of improvement, but make 
real differences in the lives of those impacted by disasters when 
properly coordinated with other disaster programs at the federal, 
state, and local levels.

    Mrs. Fletcher. Thank you, Mr. Sprayberry. Mr. Gil-Ensenat. 
I think you need to turn on your microphone. Just push that.
    Mr. Gil-Ensenat. Sorry for that. I appreciate that.
    Mr. Gil-Ensenat. Thank you, Mrs. Chairman, Mrs. Chairman 
Fletcher, and Mr. Graves, and on behalf of Governor Wanda 
Vazquez and Mr. Ottmar Chavez, who is the head of the Puerto 
Rico Recovery, Reconstruction, and Resiliency Center, from now 
on COR3, and myself, I would like to thank you for the 
opportunity to appear here before you today.
    I would also like to thank Governor Vazquez for the trust 
she has placed in all of us and our team, and especially for 
the outstanding leadership she has put on for our recovery 
forward.
    So, last but not least, I would like to recognize the 
coordinated effort of my coworkers at the Puerto Rico 
Department of Housing, the COR3, and the Government of Puerto 
Rico in general. Also, our partners in HUD and FEMA who have 
worked tirelessly for all the Puerto Ricans.
    As you are aware, in September 2017, devastating landfall 
of Hurricanes Irma and Maria caused unprecedented damage to 
Puerto Rico housing stock, the economy, and our infrastructure, 
destroying the landscape of the islands for decades to come. 
So, from this devastation and due to the great work of this 
Congress and Resident Commissioner Gonzalez-Colon, who I once 
again thank for all her work, funds were appropriated, granting 
Puerto Rico the resources it needed to recover itself from the 
devastation and to follow a path to the economic development it 
deserved. Our Governor's vision for a successful recovery 
relies on the synergies that the COR3 and the Puerto Rico 
Department of Housing can create working alongside each other 
in this complicated process.
    As primary prosecutor and attorney general, Governor 
Vazquez has committed all to the most transparent recovery in 
the Nation and to ensure that American taxpayers' dollars are 
properly used and compliant with every rule and regulation. 
Puerto Rico's primary focus is to work alongside FEMA to 
responsibly manage the permanent reconstruction work and the 
stream of Federal funding while the Department of Housing is a 
grantee, a main point of contact for HUD, and manage the CDBG-
DR funding.
    First, I will address the progress in the CDBG-DR programs 
and as you are aware, HUD is the Federal oversight agency of 
these dollars, and Congress has provided almost $20 billion in 
CDBG-DR funding. Nonetheless, since the September 2017 
appropriation, Congress made $1.5 billion available to Puerto 
Rico in February 2018. Unfortunately, we have only begun access 
to that initial $1.5 billion, and so far, we are waiting for 
almost 2 years after these critical funds have been 
appropriated.
    Importantly, to this day, we have obligated almost $1 
billion, and the response to our housing program has been 
predictively massive. We soon had applicants work through their 
eligibility process to exceed our initial $2.2 billion budget, 
and the notion that we are spending $1.5 billion slowly is 
simply inaccurate.
    Specifically, we are still waiting for the grant agreement 
for $8.2 billion of critical funding, and we are also waiting 
for the $8.3 billion mitigation notice, as well as the $1.9 
billion for electrical grid purposes. Again, Congress has 
appropriated these dollars, but so far, the administration has 
been slow to provide the funding.
    Nonetheless, our priorities for these are actually that we 
have to execute that grant agreement of $8.2 billion that was 
previously announced in our action plan. We have to initiate 
the program design for the $8.3 billion of mitigation, 
understanding that the development of that mitigation needs 
assessment, and the CDBG mitigation action plan requires public 
participation and it takes time.
    And number three, we have to continue the close partnership 
with fellow partners and increase our expenditure ratio to 
ensure the lines of communication remain open and 
collaborative.
    Now, on behalf of Governor Vazquez and Ottmar Chavez, the 
FEMA--in Puerto Rico, it has been like that. From the $42.8 
billion that were appropriated, only $20 billion has been 
obligated and $14.1 billion disbursed in all the jurisdictions. 
From that, $8.4 billion has been obligated in Puerto Rico, and 
$6.2 billion has been disbursed for PA and IA.
    Nonetheless, since Governor Vazquez came into office, we 
have been able to lift OMB form 270 in 45 days, and the small 
projects that are under $123,000, we have been looking for 
mechanisms to expedite these things.
    At the same time, we are awaiting communication from FEMA 
on the second version of the recovery policy implementation of 
section 20601 of the BBA Act of 2018. This section will allow 
the section 406 of the PA procedures to work easily through the 
mainstreams of recovery.
    From that scene, from the five sectors that we have 
developed into our priorities, three priorities are to:
    Identify and then mitigate areas of risk for the 
appropriate management and compliance of Federal funds.
    We have a priority to identify bottlenecks in this process.
    The third priority is to identify solutions to enable much 
delayed recovery and a meaningful beginning, starting with the 
rollout of the reorganization programs. We have made 
significant progress in these past 60 days, and from those 
three priorities that we developed. Nonetheless, since Harvey 
in 2017, permanent work or PWs of 15,221 have been made in all 
jurisdictions. Only 161 have been made in Puerto Rico.
    Let me say, Mrs. Chairman, that there are many challenges. 
Our Puerto Rican fellows, citizens, and U.S. citizens are 
optimistic. We are determined, and our island that is also your 
island in the Atlantic, gentlemen, is full of potential.
    So, on behalf of the 3.2 million Puerto Ricans who live on 
the island, I would like to thank you for this opportunity. 
Thanks.
    [Mr. Gil-Ensenat's prepared statement follows:]

                                
   Prepared Statement of Hon. Fernando Gil-Ensenat, Secretary of the 
           Department of Housing, Commonwealth of Puerto Rico
    Chairman DeFazio, Ranking Member Graves, Chairwoman Titus, and 
Ranking Member Meadows, thank you for the opportunity to speak before 
you today.
    I come to you not only as the Secretary of the Puerto Rico 
Department of Housing (PRDOH), but as one of the 3.2 million American 
citizens who have suffered one of the greatest natural disasters in 
United States history.
    In September of 2017, the devastating landfall of Hurricanes Irma 
and Mar!a caused unprecedented damage to Puerto Rico's housing stock, 
the economy, and our infrastructure; destroying the landscape of the 
Island for decades to come. From this devastation, and due in large 
part to the work of this Congress, Puerto Rico has been promised the 
resources it needs to recover and thrive. As the Secretary of the 
Puerto Rico Department of Housing, along with Ottmar Chavez, the 
director of the Central Office of Recovery, Reconstruction and 
Resilience, known as COR3, my partner in recovery, it is our job to 
manage this recovery and ensure the resources appropriated by this 
Congress are used to rebuild our communities.
    The Puerto Rico Department of Housing, PRDOH, is the agency 
appointed by the government of Puerto Rico as the grantee for 
administration of the Community Development Block Grant-Disaster 
Recovery (CDBG-DR) funds. COR3's primary focus is on the FEMA and other 
streams of funding. Because of the very different and distinct 
regulatory requirements involved with CDBG-DR and FEMA dollars, the 
responsibility for the administration of these funds has been divided. 
Having said that, Mr. Chavez and I work very closely to coordinate our 
efforts. I think my fellow panelist Mr. Sprayberry can attest to how 
distinct these monies are and how difficult they are to spend. So, 
again, on behalf of Mr. Chavez and myself, thank you so much for the 
invitation to attend today. I am pleased to come before you to discuss 
our joint efforts.
    First, let me address our progress with CDBG-DR funding. As you are 
aware, the U.S. Department of Housing and Urban Development (HUD) is 
the federal oversight agency for these funds, which are intended to 
provide financial assistance to address unmet needs that arise and are 
not covered by other sources of financial aid. Through the Supplemental 
Appropriations for Disaster Relief Requirements Act, 2017, signed into 
law September 8, 2017 (Pub. L. 115-56), Congress made available $1.5 
billion in CDBG-DR funds for necessary expenses related to disaster 
relief, long-term recovery, restoration of infrastructure and housing, 
and economic revitalization, followed by the second tranche of $8.2 
billion announced through Federal Register 83 FR 40314, $8.3 billion 
for mitigation and approximately $1.9 billion for the electrical grid. 
Only the initial $1.5 billion has been released to Puerto Rico. I will 
speak to you today regarding the progress of the CDBG-DR program, in 
conjunction with the Federal Emergency Management Agency (FEMA) 
activities overseen by COR3.
    Since execution of the Grant Agreement with HUD for the first $1.5 
billion a little more than one year ago \1\, the PRDOH has:
---------------------------------------------------------------------------
    \1\ Although the grant agreement was executed on September 20, 
2018, access to the first portion of the line of credit in DRGR for the 
$1.5 billion CDBG-DR Action Plan was granted by HUD on January 30, 
2019, with 80% of the housing funds held in restricted balance until 
released by HUD on February 4, 2019.

    <bullet>  Created a division with the sole purpose of managing the 
CDBG-DR grant, with eighty-five (85) employees on board and more under 
hire;
    <bullet>  Developed detailed policies, standard operating 
procedures, and workflows, including HUD-approved procurement policies;
    <bullet>  Developed automated systems for applicant intake and 
eligibility using highly specialized software and mobile applications, 
allowing us to receive almost 20,539 homeowner housing applications to 
date;
    <bullet>  Put into place an electronic accounting system with 
enhanced internal controls, built on the same platform that is used by 
many other jurisdictions, as well as HUD;
    <bullet>  Launched the first cohort of programs, including: The 
Home Repair, Reconstruction, or Relocation Program (R3), Title 
Clearance Program, Housing Counseling Program, Low-Income Housing Tax 
Credit (LIHTC) Program, Municipal Recovery Planning Program (MRP), and 
the Whole Community Resilience Program (WCR);
    <bullet>  Started disbursements and obligated and procured over one 
billion dollars in critical recovery efforts, putting us on pace to be 
fully obligated to our current funds in the near future.

    The PRDOH dedicates itself to delivering unparalleled service to 
our communities, and our employees have been working hard to meet the 
goal set, respond to our fellow citizens, and provide them with the 
assistance they need and be the government agency they deserve.
    Now, on behalf of Ottmar Chavez, let me discuss the progress we are 
making with regard to FEMA and other funding. While the total of FEMA's 
commitment to Puerto Rico has been an issue of debate, the President 
continues to use a number of $91B. We certainly take him at his word 
and appreciate his commitment of those dollars. The federal government 
has obligated $16,36B to date (not inclusive of CDBG). Of that 
$6,291,349,836 has been disbursed in PA and IA dollars to assist in 
Puerto Rico's recovery. In addition, Congress and the Administration 
have provided, and clarified, additional authorities for FEMA to more 
effectively fund our recovery. Both the Additional Supplemental 
Appropriations for Disaster Relief Act, H.R. 2157, P.L. 116-20, as well 
as the Bipartisan Budget Act (BBA) of 2018, P.L. 115-123, provide for 
the administration of much needed relief and enable a more thorough 
recovery for Puerto Rico.
    Let me pause here to thank the incredible professionals at FEMA. 
They have worked closely with us from day one. And let me add a special 
thank you to the current FEMA leadership on the island: Mr. Alex Amparo 
and Nick Russo. To expedite the current pace of recovery, the COR3 has 
prioritized strengthening Puerto Rico's working relationship with FEMA 
and these gentlemen have been incredibly fair parties to deal with. 
They certainly see things from the FEMA perspective which we don't 
always agree with, but they are outstanding professionals who we enjoy 
working with. In fact, in the first 45 days of Governor V zquez 
Garced's administration, we have seen the progress that can be made by 
collaborating closely with our federal partners. With the help and 
support of Congress and FEMA, we have lifted the Manual Drawdown 
Process (OMB's Standard Form 270) requirement for the second time and 
received approval to begin work on small projects using traditional 
Public Assistance rules.

    <bullet>  Removal of 270: Since taking office in August, the 
Administration has taken necessary steps to implement fiscal controls, 
accounting procedures, and project administration procedures at the 
recipient and sub-recipient levels. These measures demonstrate that the 
Government of Puerto Rico's (GPR) new leaders are ready, willing, and 
able to assume the responsibility and access to the Federal grant 
funds, including the execution of all phases of the GPR's grants 
management process. As a result, FEMA has communicated that they will 
formally remove the Manual Drawdown Process, releasing important 
projects from additional administrative burdens.
    <bullet>  Small Projects: For the first two years of recovery, FEMA 
made no distinction in the project development process between small 
projects and large projects, further delaying recovery progress under 
Section 428 Public Assistance (PA) Alternative Procedures. Pending 
official communication from FEMA, Version 2 of FEMA Recovery Policy FP 
104-009-5, Implementing Section 20601 of the 2018 Bipartisan Budget 
Act, will allow us to begin permanent work on small projects under 
Section 406 standard PA procedures. Small projects (defined by the FEMA 
Public Assistance Program Policy Guide as projects with an estimated 
cost of less than $123,000) are not required to meet the same 
application requirements before approval for reimbursement, reducing 
the initial administrative burdens and allowing projects to start 
sooner. This revision to FEMA's Recovery Policy will allow Puerto Rico 
to begin work on 5,000 small projects that were previously stagnated.

    As we look to build on these successes, we recognize that the 
Island's past remains a weight on our recovery. Long before the 2017 
Hurricanes, Puerto Rico was struggling from decades of fiscal 
mismanagement, economic distress, and demographic challenges, all of 
which resulted in fiscal and economic crisis. With over $72 billion in 
public debts and $50 billion in unfunded pension liabilities, any hope 
for restoring financial stability and providing a future for the people 
of Puerto Rico requires that disaster recovery be inextricably tied to 
recovering the financial stability of our Island. While FEMA has 
committed to provide the funds required to rebuild infrastructure and 
facilities, sustaining recovery and establishing an economic future for 
our Island requires that we are ultimately able to access bond markets 
and secure investment in our future. Additionally, the release of the 
remainder of CDBG-DR funds will be critical to ensuring that recovery 
can take place in a holistic manner with limited breaks in service.
    One of the first acts of the new administration was to direct the 
development of a 45-day plan for recovery on the Island, focused on 
three priorities:

    <bullet>  Priority 1: Identify and mitigate areas of risk for the 
responsible management of federal funds. We remain keenly aware that 
the cornerstone of a successful recovery process is in the careful 
disbursement of federal funding. The Government of Puerto Rico is 
determined to be a good steward of the investment that the Federal 
Government and our fellow United States citizens have made to rebuild 
our Island.
    <bullet>  Priority 2: Identify bottlenecks in the process. 
Understanding where and why the many thousands of projects are stalled 
will allow us to develop a strategy to more efficiently move them 
through the various stages required to begin the actual work of 
rebuilding the Island.
    <bullet>  Priority 3: Identify solutions to enable our much-delayed 
recovery to meaningfully begin--starting with the rollout of a Grid-
Modernization plan recognizing the centrality of a reliable and 
resilient power grid as the foundation of our recovery and economic 
future.

    We have made significant progress in these past 45-days on these 
three priorities. COR3 has successfully led efforts to process projects 
through FEMA's workflow, resulting in $3.73M in obligated funding, with 
an additional $42.82M requested, and $41.66M drawn-down towards 
Categories A-B (``Emergency Work''). Critical to ``building back 
better,'' we have focused on driving progress in Categories C-G 
(``Permanent Work''), and in response FEMA has obligated $3.37M and 
COR3 has requested an additional $0.21M, and drawn down $0.24M. Figure 
1 is a graphical representation of the funds obligated, requested, and 
drawn down by project category. For reference, since Hurricane Maria 
struck in September 2017, a total of $3,68B have been drawn down for 
emergency work and $38.73M have been drawn down for permanent work.
Figure 1: Funds obligated, requested [Request for Reimbursement (RFR)], 
        and drawn down by project category since 08/05/2019
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

    The progress we have achieved is, in large part, the result of our 
attention to Priority 2--identifying and removing bottlenecks in the 
project workflow. Priority 2 has positioned COR3 to accelerate the 
movement of projects through the project workflow. It has been a data-
driven and data-enabled approach. By focusing on resolving bottlenecks, 
COR3 has successfully initiated 407 new projects, 665 Damage 
Description and Dimensions (DDD), 285 Project Worksheets (PW), and 44 
Fixed Cost Estimates (FCE) in only 45 days. Figure 2 demonstrates the 
progress made in 45 days compared to the cumulative amount from the 
baseline of when the recovery efforts began. Moving projects through 
the project workflow will continue to be a top priority for Puerto 
Rico.
Figure 2: Progress towards Priority 2 (moving projects through the 
        project workflow)

----------------------------------------------------------------------------------------------------------------
                                                                                Current-State     Our Progress
                       Process Step                         Baseline  As of:    As of: 09/23/    Current-State--
                                                               08/14/2019           2019            Baseline
----------------------------------------------------------------------------------------------------------------
Total Projects............................................            8,947             9,354             + 407
Damage, Descriptions, and Dimensions (DDD)................            1,362             2,027             + 665
Statement of Work (SOW)...................................              417               702             + 285
Fixed Cost Estimates (FCE)................................              105               149              + 44
----------------------------------------------------------------------------------------------------------------

    There are some bottlenecks, however, that are beyond the control of 
Puerto Rico, and even local FEMA personnel. Since the critical passage 
of the Disaster Recovery Reform Act, very little guidance has been 
published by FEMA for its implementation. This tremendous roadblock 
continues to delay the cost estimates across the Island.
    Despite this delay, Puerto Rico's three strategic priorities 
support the objectives of the Recovery Plan, as demonstrated through 
progress in our five priority sectors: Water, Energy, Transportation, 
Education, and Health and Social. Services. Four [4] of these five [5] 
sectors, Water, Energy, Education, and Health and Social Services, are 
appropriately considered critical services both by the GPR and the 
Federal Government. Although Transportation is not defined as a 
critical service by the Federal Government, the GPR has established it 
to be the fifth priority of recovery. In the first month and a half of 
this Administration, COR3 has continued to execute on the Recovery Plan 
with these five priority sectors at the forefront.
    In the past 45 days alone, the Island has seen promising progress 
towards recovery, but many obstacles remain. As part of Priority 3 we 
have identified solutions that we have proposed to the FEMA 
Administrator in a recent letter. The extension of FCE deadlines are 
still under review by FEMA, introducing uncertainty in advancing our 
recovery. Given that industry standards have not yet been determined by 
FEMA, the ability to move forward on FCEs remains at a standstill and, 
as such, a blanket extension approved by FEMA before the October 11, 
2019 deadline is a crucial and time-sensitive need.
    To work towards this resolution, Puerto Rico will continue to work 
in close coordination with our federal partners. Our recent visit to 
Washington, D.C. was instrumental in securing the removal of the 270 
requirement and the approval to move forward with small projects, and 
with a continued spirit of collaboration and mutual support we can 
similarly overcome the hurdles that still lie ahead.
    FEMA has informed us that a new FEMA-State Agreement (FSA) must be 
negotiated as a result of the transition of leadership on the Island 
and the circumstances which led to it. To that end, we have requested 
that FEMA identify a federal representative to work with the Governor's 
Appointed Representative and COR3 to amend the FSA. In developing the 
new FSA, COR3 and FEMA's representative can chart a path forward to 
find a productive solution to the implementation of Section 428, the 
FCE challenge, and any other roadblocks we may encounter as we progress 
down the road to recovery together. We are also hopeful that the FEMA 
Administrator will have approved our recent requests and we can 
incorporate those approvals into this new FSA.
    In order to provide adequate time and space for negotiating this 
new FSA, we are requesting that FEMA provide a blanket extension to the 
FCE deadline of six months. Key to our discussion will be identifying a 
way forward regarding the utilization of Section 428 Alternative 
Procedures. We recognize that application of Section 428 will be 
necessary in many areas of our recovery. However, Section 428 remains a 
pilot program without an established and consistent regulatory 
framework and the process has been slowed by unforeseen difficulties 
with the large-scale rollout of a still maturing policy. Further, 
despite the combined efforts of COR3 and FEMA, permanent repairs have 
been stalled under the constraints of this pilot program. The use of 
Section 428 Alternative Procedures does enable the undertaking of 
essential capital-intensive recovery projects that would not be 
attainable under traditional PA, such as the reconstruction of schools, 
rebuilding safer hospitals and medical centers, and the modernization 
of the electrical grid. However, to move forward with vital recovery 
efforts, COR3 and FEMA must work together to adjust the blanket state-
wide use of Section 428 Alternative Procedures and allow more projects 
to move forward using the standard Section 406 PA process so that long 
awaited permanent recovery work can begin.
    The FEMA recovery projects and the CDBG-DR activities go hand-in-
hand. My priorities for the CDBG-DR program include:

    <bullet>  Priority 1: Executing the grant agreement for the $8.2 
billion announced through Federal Register 83 FR 40314. The activities 
for this allocation have already been prescribed in the CDBG-DR Action 
Plan for Disaster Recovery amendment approved by HUD on February 28, 
2019. Puerto Rico cannot initiate program activities for which funds 
are not available, so continued delay of these funds hinders the 
provision of critical recovery programs which are poised for 
implementation.
    <bullet>  Priority 2: Initiate program design related to the $8.3 
billion for mitigation. Understanding that developing a mitigation 
needs assessment and CDBG-DR Mitigation Action Plan take time and 
require public participation, we need to build our mitigation approach 
within the context of the regulatory guidance and allowable activities 
for those funds. This will enable us to build a compliant, well-
grounded approach to address pressing mitigation and resilience needs. 
Unfortunately, this work is further delayed by the fact that HUD has 
not yet completed their work on this notice more than 20 months after 
the Congress appropriated these funds.
    <bullet>  Priority 3: Continue our close partnership with federal 
partners to increase our expenditure ratio and ensure our lines of 
communication remain open and collaborative. We have and will continue 
to work closely with HUD and other oversight agencies to ensure 
compliance with regulations while we remain focused on delivering much-
needed recovery programs in a timely fashion.

    Despite our many challenges, Puerto Rico is optimistic, determined, 
and full of potential. On behalf of the American citizens who make 
Puerto Rico their home, I once again thank you for your support. I look 
forward to our continued engagement on these important issues and will 
provide another update to you through the Congressional Report Puerto 
Rico provides every six months to Congress.

    Mrs. Fletcher. Thank you very much.
    Mr. Gil-Ensenat. Thank you for having me.
    Mrs. Fletcher. Ms. Wiley.
    Ms. Wiley. Thank you for this opportunity to be here today 
and share with you all some of the difficulties of disaster 
recovery in rural America when we as a Nation take a blanket 
approach to how we respond to disasters.
    Flooding such as what we are experiencing along the 
Missouri River is historic and totally out of the box. Not all 
the disasters are the same, and we should be flexible in our 
responses to them as well. Putting arbitrary dates on a long-
term flood actually jeopardizes a community's recovery from the 
disaster.
    We are still experiencing flood waters in some areas 
through northwest Missouri, and it is impossible to put an 
ending date on a disaster that has not ended. March 16th was 
the first water rescue date, and the last was September 30th. 
However, FEMA's event dates for our disaster do not reflect 
this. It is the same flood, and we should be helping people 
with recovery, not trying to penny pinch by adding end dates to 
a flood that has not ended.
    How we approach mitigation also needs to change. U.S. 
Highway 136 was devastated by the flood of 2011, and so was 
U.S. Highway 159. Both have been under water several times, and 
repairs have been made twice on U.S. 159 just this year. It is 
currently under water again. This is a continuous cycle of 
destruction, repair, destruction, repair.
    These U.S. highways are vital roadways to our communities 
and incurred damage in the same areas in 1993, 2011, and now in 
2019. Why are we not leveraging mitigation programs to rebuild 
these roads with proper underflow and elevations that will 
prevent repetitive damage?
    We need FEMA to provide field staff that are empowered to 
help us find solutions and implement them. Simply placing a 
fact sheet on a website does not cut it. If we do not change 
how we respond to disasters such as long-term flooding, we will 
continue to watch taxpayer dollars wash away.
    Another example. The Corps of Engineers has spent 
approximately $22 million to temporarily repair two inlet 
breaches. While these breaches were very large, they could be 
measured in yards, not miles. The cost to build a whole new 
levee system in the area north of U.S. 136 is $35 million 
according to the estimates I have received from our levee 
sponsors.
    Let me say this again: $22 million for a few hundred yards 
on a temporary repair, or $35 million on 7 miles that would 
strengthen the resilience of our county's critical 
transportation routes. Our levee sponsors and the Corps of 
Engineers both agree that setting the levee back and building a 
whole new system could be cheaper than repairs and would also 
protect lives and properties in Atchison County.
    For this to occur, it will take partnerships from various 
agencies at the Federal, State, and local level to sort out the 
details, such as financing the purchase of ground to construct 
the new levee system. What I am saying is if we use common 
sense, we can actually protect lives, property, and save 
taxpayer money.
    As a flood plains administrator, it is my job to ensure 
that the citizens of our county are adhering to local flood 
plains ordinance. If their home is damaged greater than 50 
percent, they cannot just go in, make the repairs back to what 
it was before the flood, and wait for the next flood to hit. As 
homeowners, they must mitigate according to NFIP rules, and 
yet, as public agencies, we do not adhere to this tried and 
true methodology of mitigation. I have to tell our citizens to 
do as we say and not as we do.
    Public agencies are wasting taxpayer money by building back 
as it was and waiting for the next round of floodwaters to 
inundate. We do not allow our citizens to do this with their 
personal properties. Why are we, as Government agencies, not 
holding ourselves to the same standards.
    Again, I want to thank you all for this opportunity to be 
here today, and I will be happy to answer your questions as 
openly and honestly as I can.
    [Ms. Wiley's prepared statement follows:]

                                 
Prepared Statement of Rhonda Wiley, Emergency Management Director, 911 
   Director, and Flood Plain Administrator, Atchison County, Missouri
                             What occurred:
    March 15, 2019 the Missouri River Flood that had been affecting 
Iowa and Nebraska made it to Northwest Missouri. The first levee to 
begin to over top in Holt County followed shortly by other levees in 
both Atchison and Holt Counties. The Missouri River Flood of 2011 had 
so many of us thinking we had experienced the worst, and nothing would 
ever compare to that flood. We were wrong. 2011 was a practice run for 
what we are now experiencing in 2019. The flood of 2011 lasted around 
90 days before waters receded and recovery could begin in full force. 
It took years to rebuild from that flood. Today we are into month 7 of 
this flood . . . 228 days of response to a flood . . . 228 days of 
communities wanting to recover, trying to find the new normal, waiting 
for highways to be rebuilt, rejoicing when water recedes for a couple 
weeks in areas we were unable to access, only experience the pain of 
loosing it again when the river again takes those areas back. A 
disaster than spans over multiple states, such as this disaster, and 
lasts for weeks, months, even quite possibly over a year, must be 
responded to differently than other natural disasters. A historic 
disaster requires a historic recovery.
    I am not here to debate the how's and why's of flooding. That is 
not my job. My role in this disaster is response and recovery. I am 
here to portray the challenges of recovery when the disaster is 
ongoing. Disasters normally hit an area, cause damage, then flooding 
moves down stream, tornadoes dissipate, fires burn out, winter 
blizzards and ice storms are replaced with spring flowers and warmer 
temperatures. These flood waters are not receding. We have 14 breaks in 
Atchison County Federal Levees. Those levees protect 166 homes, 1295 
agricultural buildings, 14 businesses, and 74,314 acres of farm ground, 
that produce corn, soybeans, and beef cattle. They also protect 
infrastructure which includes 121.3 miles of county roadways, 8 state 
highways and 3 US Highways as well as Interstate 29. Again, this is in 
Atchison County. Holt county levees are considered non-federal 
(supported 80% federal funding and 20% local funding). They incurred 27 
breaks which meant their levee system too is totally destroyed by this 
historic event. Those levees protected 406 homes, 95,000 acres of 
farmland, 30 businesses, 115 miles of county roads, 6 State Highways, 
as well as Interstate 29.
    Both communities have suffered economic impact never before known. 
The loss of revenue due to the closure of I-29 when it was destroyed by 
water, (just north of the Missouri/Iowa border), was devastating to 
small businesses. I-29 was closed from March 15th to May 8th, and then 
again May 29th to June 18th. The months it took to rebuild and then 
open the interstate caused loss of revenue to local businesses, which 
in turn caused layoffs and loss of sales tax to already hurting small 
rural county governments and cities. Population for Atchison County is 
roughly 5000 persons (550 square miles). Holt County is roughly 4500 
persons (470 square miles). This corner of Missouri is a perfect 
example of rural America. Sparsely populated area, that produces large 
numbers of our Nation's supply of yellow corn, soybeans and white corn 
(food grade for products such as corn chips). We even produce popcorn! 
We are truly the beating heart of the heartland.
                                Impact:
    Individual Assistance was granted to residents who experienced 
flooding after April 29th. Those who were affected from March 15th to 
April 29th only received assistance if they still had water in their 
homes on or after April 29th. This has been detrimental to our small 
rural communities. Individual assistance is granted on the basis of 
number of homes destroyed or majorly damaged. When the flood actually 
started on March 15th, not enough homes were majorly damaged or 
destroyed for these communities to qualify for Individual Assistance. 
On and After April 29th Missouri suffered more floods and was struck by 
tornadoes and therefore anyonewho still had water in their homes on 
April 29th or after qualified. Those who did not have waterin their 
home, (even though they had not been able to move back in due to flood 
waters), did not qualify.
    I'd like to share an example of a community who ``mitigated'' 
themselves out of individual assistance and now may never recover from 
this flood. Craig, MO. Population 248 (census data 2010) small town 
with a booming mom and pop cafe, convenience store, post office, bank, 
a school, a couple churches, an ethanol plant, seed and fertilizer 
company and of course a grain elevator. In 2011 they were able to 
construct a dirt levee derived from fields around the town and protect 
it. This spring when the threat of a flood came, they once again 
mitigated by constructing a dirt levee around their town. The City of 
Craig could not afford such emergency measures, so the local farmers 
and agricultural workers came with tractors, trucks, back hoes and 
track hoes, bulldozers and their own fuel and time. They constructed 
the levee and give this community hope that they will once again 
survive another historical flood. The temporary levee gave way and 
homes were majorly damaged and the entire town was flooded. As soon as 
waters began to recede Craig began to clean up and organize their 
recovery. They began hauling away the corn stalks stacked four feet 
high in some areas, tearing out the sheet rock of their homes and 
business and putting things back as best they could. Most homeowners 
weren't able to go back to their homes because of the amount of 
destruction. Their homes had water under, around, or in their basements 
for weeks. The local school relocated 14 miles south of Craig to a 
church that was willing to become a school for grades K-12 Monday-
Friday until the school building could be cleaned, repaired, and safe 
again. River of Hope Fellowship was Craig RIII School District from 
mid-March through mid-May. Now let's fast forward to the 3rd week of 
May. Once again the forecast for the Missouri River was increasing and 
also once again the Citizens of Craig, Mo decided to beef up their levy 
around their town in order to protect it from further damage . . . to 
mitigate . . . to do for themselves . . . to reduce further damage.
    When the flood waters began to inundate again, the levees held, and 
the town was able to successfully mitigate further damage from 
occurring. Even though this town had not recovered by May, they wanted 
to protect what they had left. By doing this, their citizens now are 
suffering through this disaster with little to no outside assistance. 
They were told they had to be under water on April 29th to qualify for 
individual assistance. It didn't matter they were not living in their 
homes because their homes were not repaired from the first inundation 
of the flood, all that mattered was the dates. Anything before April 
29th did not qualify. My point is this. You cannot apply rules from one 
disaster to the next and expect it to cover the impact. Historical 
flooding does not inundate and then just go away a couple days later. 
This historical flood of 2019 is now on day 228, tomorrow will 229, 
next March 15th will be a year and we expect to still be experiencing 
historic flooding. Should Craig tear down their levee so that their 
citizens can be impacted by flood waters again in hopes that they will 
receive assistance to recover? No, that's not what rural communities 
do. Craig will rebuild, Watson will rebuild, Big Lake, Fortescue, 
Forrest City, all these small towns will find a new normal and somehow 
survive. But it isn't easy, they don't expect it to be. They aren't 
afraid of the hard work that comes with recovery, they just don't 
understand the whys of why won't FEMA help us like they help other 
areas? Why are there two separate dates for the same flood that started 
in March and is seemingly never ending. As an emergency manager, flood 
plains administrator it is so very difficult for me to explain why 
people that are flooded from a hurricane or flash flood receive help 
and yet our communities are damaged from a historical flood that is 
ongoing and they are receiving little to no assistance. Believe it or 
not, because of the date issues, FEMA has now asked some residence to 
refund what was given to them because they mistakenly gave them 
assistance and they do not qualify due to the April 29 date 
discrepancy.
    Unfortunately, the program guidelines established for Individual 
Assistance, which is vital to the recovery of our small communities has 
been denied to many of the residence who are trying to rebuild after 
the flood. Again, we are sparsely populated, so very few numbers but 
yet in rural America every number does count. When your population is 
5000 or 4500 and you have 50-100 persons that cannot recover and must 
relocate due to their economic situation, this is a huge economic 
impact on small rural communities that are already suffering from 
population loss with every census! Over 60 miles of devastation from 
the Iowa State Line (Atchison County) to southern portion of Holt 
County. If a disaster affects a 5-mile area of a densely populated 
urban area they qualify for Individual Assistance because of the number 
of homes that have been majorly damaged or destroyed. In rural America, 
communities suffer through their losses alone, with little to no 
assistance for recovery because they choose to live a quiet life in 
small agricultural communities. Agricultural communities are the ``meat 
and potatoes'' (and corn chips) of our nation. Without sparely 
populated areas, there would be no space that supports and produces our 
nations supply of corn, soybeans, and popcorn. When a few of our 
citizens have to relocate because of a flood disaster that seemingly 
won't end, the economic recovery of our communities is greatly 
affected. Atchison County had 166 homes impacted by this flood. Holt 
County had 406 homes. How we as a nation respond to disasters should be 
determined by the impact of the disaster and the area, not by a general 
blanket set of rules applied to every disaster in every area. Rural and 
Urban communities are not the same and require different responses in 
order to economically recovery after a disaster.
    Another economic impact that has greatly affected Atchison and Holt 
Counties is the loss of US Highways 159 and 136. Both of these highways 
provide travel to and from Nebraska/Kansas. Our communities as well as 
Nebraska and Kansas Communities rely on these roadways to travel to and 
from their jobs. Because both roadways have been damaged in the flood 
and have been closed for months, the persons who work across the river 
in Nebraska and Kansas have incurred huge economic impact to their 
lives. In order to get to and from work they now have to drive 2.5-3 
hours where before they were driving 20-30 minutes. Some families have 
picked up and relocated across the river. Some families are living 
separately because one parent works on the Missouri side of the river 
and the other parent works on the Nebraska/Kansas side of the river. 
They now have house payments/rent in two different states and their 
families are torn by this flood both emotionally and financially, yet 
they have never had flood waters in their homes. They have suffered 
enormous loss and will receive no assistance, yet the impact has been 
as difficult for them as it has to those who had four feet of water in 
their homes. They cannot recover until the roads open and then it could 
be years before they are able to recover financially. Some of these 
families have left our communities permanently and this will also add 
to the economic impact on our little corner in rural America.
    We have 24 businesses in Atchison County that have had direct 
economic impact from the flood. Some are recovering, some are not. Some 
will never recover and have closed their doors forever. A business 
along the I-29 corridor suffered economic injury for weeks while it was 
closed. A few businesses also suffered due to the closures of Highways 
136 and 159. They had several employees living across in Nebraska and 
Kansas and they were unable to continue their employment. These small 
businesses are very important to local public entities who rely on 
sales tax to stay afloat. For example, both Atchison and Holt counties 
rely on a half cent sales tax to run their 911 Public Safety Answering 
Point. There is no Wal-Mart in either county. Without these small 
businesses along the I-29 corridor these counties could not survive 
economically.
    Another impact that has greatly affected not only us here in 
Northwest Missouri but also the nation as a whole is the Burlington 
Northern Santa Fe Railway (BNSF). The Federal and Non-Federal levees 
protect the railroad tracks. The BNSF system travels through our flood 
plains and carries interstate commerce all over our great nation. Such 
commerce includes coal to both the east coast and to the west coast, is 
my understanding, and the BNSF Railroad has been rebuilding, repairing, 
moving, raising, and working to reestablish their route since shortly 
after the floodwaters began rising. They have literally been determined 
to fix it come hell or highwater. The contractor has pushed water only 
to watch it wash out in another location. They have reconstructed it 
higher and higher trying to get their trains back on the track. We need 
the railroad in our area. They transport our grain products to the 
nation. We want those trains back on the tracks taking care of commerce 
throughout our nation. However, we also need them to abide by rules 
laid out that protect, prevent, and mitigate damage to life and 
properties within the flood plains. An individual is not allowed to 
construct a new piece of property without a flood plain permit. They 
are also not allowed to repair damages to a structure that has been 
greater than 50% damaged in a disaster. When you have a railroad 
building a railroad track higher and stronger and they do not include 
proper under flow this creates a levee that causes water to hold at 
higher levels. Higher levels cause homes and businesses that have never 
before seen flood water to now flood. When the water backs up to the 
tracks or beyond and is trapped on the outside water is then pushed 
over on the properties of private citizens. This poses a huge risk to 
properties and life safety. BNSF Railway should have to at least make 
an attempt to be a good neighbor. They should follow local ordinances 
and federal guidelines laid out by the National Flood Insurance Program 
(NFIP) just like other individuals and businesses have to. In order to 
have good neighbors you must be a good neighbor. BNSF needs to be a 
good neighbor and ensure their railway is built up with proper under 
flow as to not cause damage to their neighbors in ALL flooded counties 
in multiple states that their railway spans throughout the flood plains 
of the United States.
                            Moving Forward:
    Missouri Counties have had such great support from our State and 
Federal Partners. Both have been supportive in our response and 
recovery. Where the gap lies is in the fact that this disaster is very 
different from other disasters and the recovery process must be 
adjusted to fit the disaster. March 16th was our first water rescue 
this year due to flooding and the last water rescue thus far was 
September 30th. Six and a half months of periodic water rescues in 
areas that are normally fields of corn and soybeans is a perfect 
example of the challenges of recovery when we are stuck in response 
mode. With disasters, recovery should begin when response ends. That is 
how it is supposed to be right? We plan for a disaster, we mitigate in 
order to prevent losses that can be prevented, then we respond when a 
disaster hits, and finally we build back. We pick up, clean up, and 
build back. This normal process is not occurring in Missouri and in 
some parts of Iowa and Nebraska where flooding isn't going away. We are 
continuing to receive waves of inundation over and over again. The 
threat of flooding is continuing because of high river levels and 
because of the amount of destruction to the levee systems from north of 
Omaha, Nebraska and reaching as far south as northern Andrew County in 
Missouri. These levee systems have been utterly destroyed which is 
historic. The levee system was built in the 50's and although there 
have been a few compromises over the years, nothing compares to the 14 
breaks in Atchison County and the 27 breaks in Holt County. All levees 
in Atchison are Federal Levees which means the local (tax supported) 
levee districts maintain them. However, they must follow the rules laid 
out by the Corp of Engineers (COE) and the COE pays 100% of the major 
repairs when a federal disaster has been declared due to flooding. Holt 
County levees are in the 80/20 program which is a cost sharing program 
with the COE when a federal declaration has been declared. In Atchison 
County the COE contracted with a company that has hired local skilled 
farmers and skilled farm workers to run the heavy equipment. They have 
constructed temporary sand levees in the two northern inlet breaches of 
the L550 levee. Hiring local skilled workers was a win-win for both the 
contractor and also the local communities whose farmers could not plant 
due to the flood waters. Because these repairs are constructed of the 
sand washed into the area fields and with some rock, they are 
considered temporary and may or may not hold. These levee repairs thus 
far have amounted to around $22 million. We are greatly appreciative of 
the COE's quick response to close these major inlets and stop enough of 
the flow of the river in our county to begin repairs on US Highway 136. 
US Highway 159 has been under water several times. Repairs were made to 
re-open only to be inundated once more by floodwaters and the repairs 
to once again be made. Repairs have been made twice on US 159 (which 
provides access to a bridge to Nebraska). Now it is currently under 
water again and when those water recede repairs will no doubt be made 
again. This is a continuous cycle of destruction/repair/destruction/
repair. Why are we not mitigating? US 136 is scheduled to be opened on 
Friday the 18th. It has had huge holes repaired, shoulder drop offs up 
to five feet deep, bridge repairs, and road resurfacing. Why are we not 
mitigating? Building it back better? Building it back with proper under 
flow and elevations that will prevent flooding from destroying it 
again? I can tell you why. In order for the repairs to be covered by 
federal disaster dollars it has to be repaired back to how it was 
before the flood. If the Missouri Department of Transportation were to 
mitigate this segment of highway from Rock Port to the Missouri River 
from further damage, there would be no federal support. Therefore, we 
continue to build it back just as we did in 2011. We will continue to 
build it back and watch as the flood waters wash it away again probably 
next year. If we do not change how we respond to disasters such as 
flooding along the Missouri River and others, we will continue to watch 
taxpayer dollars wash away. The COE has spent approximately $22 million 
to temporarily repair two inlet breaches. While these breeches were 
very large, they could be measured in yards, not miles. The cost to 
build a whole new levee system north of US 136 is $35 million according 
to estimates I've received from our levee sponsors. Our levee sponsors 
and the COE both agree that setting the levee's back and building a 
whole new system could actually be cheaper than repairs and would also 
better protect the lives and properties in Atchison County. They are 
working together to decide if and when this can happen. For this to 
occur it will take partnerships from various agencies coming together 
to sort out the details which must include finances for purchasing the 
ground to construct the new levee system. What I am saying is if we use 
common sense and mitigate, we can actually protect lives, property, AND 
save taxpayer money. As a floodplains administrator it is my job to see 
to it the citizens of our county are adhering to our local flood plains 
ordinance which requires anyone whose home is substantially damaged by 
a flood to either elevate (two feet above base flood elevation or 
higher), pick up their home and move it out of the flood plains, OR 
tear it down. If their home is damaged greater than 50%, they cannot 
just go in, make the repairs back to what it was before the flood and 
wait for the next flood to hit. As homeowners they MUST mitigate to 
protect from further damage. And yet as public agencies we do not 
adhere to this tried and true methodology of mitigation. As the 
Atchison County Flood Plains Administrator, I have to tell our citizens 
to do as we say not as we do. Public agencies are wasting taxpayer 
money by building back as it was and waiting for the next round of 
flood water inundation. We do not allow our citizens to do this with 
their personal properties, WHY are we as government agencies not 
holding ourselves to the same standards?
    I want to thank you for this opportunity to be here today in order 
to share. I will be happy to answer your questions as best I can.

    Mrs. Fletcher. Thank you.
    Mr. May?
    Mr. May. Good afternoon, Representative Fletcher, 
Representative Gonzalez-Colon, Ranking Member Graves, and other 
members of the committee. I appreciate this opportunity to 
share some of the struggles that are facing vulnerable American 
communities who are still struggling to recover from disasters.
    My name is Reese May, and I'm the chief strategy and 
innovation officer for SBP. The last years I've had the 
privilege of helping to build and lead an organization that's 
focused on the cessation of unnecessary human suffering 
wherever disasters occur. My organization is a nonprofit 
disaster preparedness and recovery group with the mission of 
reducing the time between disaster and recovery. We achieve 
that mission in a variety of ways. We prepare communities ahead 
of disasters, we build homes for survivors who are unable to 
afford market-rate contractors, we share our best practices and 
resources with other organizations who serve the same, we 
advise State and local community leaders on the most efficient 
and effective practices in long-term recovery, and we advocate 
for Federal policy changes that can positively impact 
recoveries around the country.
    Underlying all this work is a deep desire to prevent 
needless human suffering and fortify survivors against their 
breaking point. This notion is central to our work. We all have 
a breaking point. It's different for every individual. And 
after a disaster, the survivor's breaking point is driven by 
three critical factors.
    First is time, simply how long does it take for a survivor 
to make a full recovery. Second is predictability, do survivors 
have a clear path forward, or are they staring into an abyss of 
uncertainty. Third is access to resources, can survivors access 
the resources they need, public or private, to make a full 
recovery and to survive while doing so.
    Beyond the breaking point, individuals lose their ability 
to focus on work, care for their families, be present for their 
lives. Families simply lose hope. Over the last 8 years in 
communities across the country, I've personally seen this 
hopelessness manifest as domestic violence, drug and alcohol 
abuse.
    I've seen hardworking Americans who achieved the dream of 
home ownership lose it all because they were unable to suffer 
the delay and unpredictability that is seemingly built into 
America's system for disaster recovery. Impacted Americans on 
SBP's waiting list have died in wait for Federal assistance 
that simply didn't make it in time.
    At this point, I've spent as much time working on U.S. 
disaster recovery as I spent as a United States Marine. I am 
not certain of many things, but one is this. The successful 
reform of our Nation's framework for disaster recovery is more 
important to America and to Americans than anything I did on 
either of my tours in Iraq. The written testimony I've 
submitted shares much more about our organization and the human 
stories that animate our work each day.
    I'd be happy to answer any questions that you may have. 
However, in my remaining time, I'd like to make three specific 
recommendations about how we can improve disaster recovery in 
America.
    First, as Mr. Sprayberry mentioned, we can create a single 
application for Federal assistance. Presently, disaster 
survivors must fill out a FEMA application where they're 
sometimes denied and referred to SBA for a loan that they may 
or may not be eligible for. Few understand that one must apply 
for the loan and be rejected in order to receive additional 
assistance from FEMA.
    Many families are dejected after denials and simply give 
up, potentially affecting their eligibility for HUD assistance 
that will arrive years later. The solution is to create a 
single application for Federal assistance such that homeowners 
apply once and can be qualified for all forms of assistance.
    Second, FEMA must approve its damage assessment methods. 
Presently, FEMA's primary means of assessing damage to homes is 
to send individual inspectors to houses one at a time with 
paper and pen or tablet devices to adjust damages. This method 
is slow, inconsistent, often inaccurate, and it's subject to 
human error and human bias.
    Meanwhile, the insurance industry and other private actors 
use drones, satellite imagery, traditional flyovers, and 
predictive analytics to adjust and pay claims far more quickly.
    In Florida, after Hurricane Michael, SBP conducted analysis 
using FEMA Individual Assistance data and aerial imagery 
obtained from a third-party source to compare individual awards 
to the level of actual home damages that we could see in the 
images. Local officials in one community convinced FEMA to 
reassess seven homes. Five of those received additional 
assistance of more than $3,000 on appeal, and one increased 
from $1,100 to $34,000. Of the 2,400 properties we reviewed, we 
believe that another 200 Floridians are in a similar position. 
Imagine the impact of this technology at scale in disaster-
impacted areas across the country.
    And, finally, though I will run over my time, we must form 
public and private partnerships to accelerate recovery efforts. 
As it stands, though, I tend to agree with Representative 
Graves. HUD CDBG-DR assistance is the greatest potential source 
of funds for low- and moderate-income families who need to make 
a full or long-term recovery. But these funds are neither 
prompt, nor predictable.
    Congress appropriates, then HUD publishes a Federal 
Register outlining the rules for use. State and local 
governments write action plans and submit to HUD for review and 
eventual approval. Only then are disbursements made to State 
and local governments who begin a procurement and contracting 
process to hire contract teams who take still more time to ramp 
up and achieve scale.
    The end result is that programs often take 6 years or more 
to reach the majority of applicants, leaving aside those 
eligible applicants who fall through the cracks or those who 
simply walk away from the program because they can't deal with 
any more delay or despair.
    I'd ask this committee to think of your constituents, 
families who are current on their mortgage, they pay their 
taxes, they didn't live in a flood zone, and so weren't 
required to have flood insurance now need to fund by themselves 
a $35,000 or more home repair and suffer a 6-year delay being 
reimbursed by the Federal Government. These are the families 
that SBP helps every day. They're eligible for assistance, and 
they desperately need it. They simply cannot wait.
    I believe that we can build something like the Recovery 
Acceleration Fund, a public-private partnership where 
charitable funds and social impact capital can be used to 
rebuild homes for qualified applicants quickly and for less 
cost after disasters. Those funds can be reimbursed later when 
HUD funds eventually make it to communities.
    If you pair this with Opportunity Zones, the possibilities 
are truly endless. These are a few of the ideas that we believe 
could create more resources and make recovery faster and more 
predictable, ensuring that fewer Americans are pushed beyond 
their breaking point. These improvements could bring recovery 
outcomes in line with American values and prevent significant 
human suffering in the process.
    I appreciate the opportunity to be here today and to share 
some of these ideas with you. Thank you.
    [Mr. May's prepared statement follows:]

                                 
   Prepared Statement of Reese C. May, Chief Strategy and Innovation 
                      Officer, St. Bernard Project
    Good Morning. I would like to thank Chairwoman Titus, Ranking 
Member Meadows and other members of the committee for the opportunity 
to testify today and to share some of the challenges that Americans 
face when recovering from disasters. My name is Reese May, and I am the 
Chief Strategy and Innovation Officer for SBP.
    Today I will break my testimony in to three main parts. First, I 
will provide background and historical information about our 
organization and the abject human suffering that first inspired and 
continues to drive our work. Secondly, I will share a brief overview of 
SBP's expansion over the last thirteen years. The conditions we've 
witnessed will give context to the bright spots and areas for 
improvement I will share in the third section.
    I've spent as much time working in US disaster recovery as I spent 
as a US Marine. I am often thanked for my military service, but I know 
well that the reform of disaster recovery in America is far more 
important to America and to Americans than either of my tours in Iraq. 
America's system for disaster recovery is slow and unpredictable and 
routinely fails to meet the challenges of devastated communities and 
survivors with no hope. Indeed, disaster survivors have died while 
still on waiting lists for housing assistance that simply failed to 
reach them in time. I appreciate this opportunity to share these 
experiences with you on behalf of those still waiting in communities 
around the country.
                     Part I--History and Background
    SBP is a nonprofit disaster preparedness and recovery organization 
with the mission of reducing the time between disaster and recovery. We 
serve low-to-moderate income homeowners who are at-risk or have 
recently been impacted by natural disasters. We achieve this mission 
via five strategic interventions that I will explain in a few moments. 
But first, I'd like to start with our genesis and our mission.
    SBP began six months after Hurricane Katrina when our founders, 
Zack Rosenburg and Liz McCartney, a DC-based criminal defense lawyer 
and educator, visited New Orleans to volunteer and were shocked by the 
lack of recovery progress. Homes were not yet being rebuilt at scale 
and families were losing hope. There were few resources and almost no 
organization and, as a result, disaster survivors were experiencing 
unnecessary suffering and being pushed beyond their breaking point.
    Survivors like Mr. Andre, a proud American WWII veteran who owned 
his home before Katrina. For months he lived out of the back of his 
Ford Ranger pickup truck, eating community meals served from a tent in 
St. Bernard Parish. He applied repeatedly for assistance quietly, 
driving each morning and night to a remote government lot to ask for a 
FEMA trailer. He repeated the process every day for months and was 
repeatedly denied assistance. Eventually he broke down to his fellow 
survivors over dinner at the food tent--ashamed that he needed help, 
that he could not continue on his own. Eventually, eight months after 
the storm, Mr. Andre got a FEMA trailer which was delivered to his 
property without a key. He still had no truly secure place to lay his 
head or keep his belongings. Nightmares like this one play out in 
disaster-impacted communities all over the country causing needless 
human suffering and pushing survivors beyond their breaking point.
    This notion of the breaking point is central to SBP's work. While 
different for every individual, we all have one. After disasters, an 
individual's breaking point is determined by three critical factors:
    Time--the amount of time it takes to make a full recovery. 
Predictability--does a survivor have a clear path to recovery or are 
they staring into an abyss of uncertainty? Access to Resources--Are 
survivors able to access the resources they need to fully recover and 
to survive while they do so?
    Imagine for a moment constituents in your district: hardworking 
families who achieved the American dream of home ownership until a 
tornado, flood, or hurricane erase it all in an instant. It's not hard 
to imagine, it's happened in almost all of your home states within the 
last two years. For some of you, it is happening right now. How many of 
your most vulnerable families could survive a two year wait for HUD 
funds? How many could handle the unpredictability of applying 
separately to three different federal agencies for assistance, only to 
apply again to state and local programs years later? How many families 
in your district, who pay their taxes, who are current on their 
mortgage, could self-fund a $35,000+ flood repair because they didn't 
live in a mandatory flood zone and so were not required to have flood 
insurance? These are the families SBP serves. When disaster recovery is 
protracted and unpredictable, and when families are unable to access 
resources, they are at increased risk of being pushed beyond their 
breaking point.
    Beyond the breaking point we lose hope. We lose our ability to be 
productive members of our community. We lose the ability to focus on 
our work and care for our families. In communities across the country I 
have seen this hopelessness manifest in the form of domestic violence, 
drug and alcohol abuse, and worse. SBP's mission is to reduce the time 
between disaster and recovery because in doing so we can prevent 
needless human suffering and fortify our fellow Americans against their 
breaking point.
    In New Orleans in 2006 SBP began rebuilding homes one or two at a 
time. We partnered with local and national businesses, schools and 
churches to bring additional resources and volunteers. We later 
partnered Toyota to help make our building model more efficient and to 
great effect. We reduced our construction time by 48%, cutting in half 
the amount of time it took us to return families to their homes. To 
keep costs low and reach even more families we partnered with 
AmeriCorps to enlist service-minded individuals to help recruit and 
lead volunteers on construction sites conducting high-quality, low cost 
home repairs for families unable to afford market rate contractors. I 
began with SBP as an AmeriCorps member in New Orleans. After completing 
two tours in Iraq as a U.S. Marine, disaster recovery became my new 
mission.
                  Part II--Expansion and Interventions
    In 2011, after an EF-5 tornado devastated Joplin, MO, community 
leaders contacted SBP to ask if we could share what we had learned. A 
partnership was formed and SBP began work in Joplin. In late 2012, 
Hurricane Sandy impacted New York and New Jersey and SBP began 
partnership and direct service operations in New York City and along 
the Jersey shore. We continued our expansion to South Carolina, Texas, 
Florida, Puerto Rico and other impacted communities to help begin 
rebuilding more quickly and to mitigate human suffering however 
possible.
    Our operational expansion was not only geographic. It did not take 
long to recognize that while each disaster and community are unique; 
the ways that disasters affect communities are often the same. If we 
really wanted to speed the time between disaster and recovery, and 
fortify humanity against the breaking point, we would need to do more 
than rebuild homes and so we crafted our five strategic interventions 
aimed at increasing the efficacy of the disaster recovery ``industry''.
    Today we build homes quickly, efficiently, and affordably using 
volunteer labor and Toyota Production System-inspired workflows and 
processes. We share our model and our resources with other 
organizations to increase the capacity of partners and raise the 
capacity of other groups. We help communities and individuals prepare 
for disasters through a variety of trainings and guides. We advise 
state and local disaster leaders on the most effective tactics, 
techniques, and procedures for administering federally funded long-term 
recovery programs. Finally we advocate for changes to federal policy 
and regulation that will positively impact the lived experience of 
millions of disaster impacted Americans each year. These strategic 
interventions are aimed at reducing time, increasing predictability, 
and making resources more widely and easily accessible thereby ensuring 
that fewer Americans are pushed beyond their breaking point
                   Part III--Successes and Challenges
    My first person experience in more than a dozen communities has 
given me a clear look at long-term recovery efforts around the country. 
I have had the great privilege to meet some of the most thoughtful and 
deeply dedicated government employees from FEMA, HUD, SBA, and others 
as well as hundreds of servant-leaders in state and local governments 
who rise to the needs of their community. I have met thousands of 
volunteers who cannot be categorized in any way other than profoundly 
American. They do not seek to help survivors of any specific political 
party, race, or religion. They simply give freely of themselves, their 
time, their energy, their expertise, and their dollars to help their 
fellow citizens in need. I say the following in the spirit of 
continuous improvement: America's system for disaster recovery does not 
currently match the immediacy, the heart, or the will of our citizen 
volunteers.
    For an example of typical delay and lack of predictability consider 
long-term recovery CDBG-DR funds that flow from HUD to impacted 
communities. When disasters occur, Congress must first appropriate 
funds, then HUD must issue a federal register outlining the regulations 
for the use of those funds, then state and local governments must 
produce action plans, then HUD must approve these plans, and only then 
are disbursements made to state and local governments. The state and 
local governments then begin long and complicated procurement and 
contracting procedures to hire contract teams that take still more time 
to scale up and reach capacity. The result is that it routinely takes 
two years for substantial long-term recovery assistance to reach the 
first eligible families. It can take six years or more to reach the 
majority of eligible applicants and, all too often, not all eligible 
applicants are served as many fall through the cracks of local 
programs. Others self select out before receiving assistance because 
they are unable to deal with the uncertainty and delay. America built 
the transatlantic railroad in six years but somehow we struggle to 
deliver long term housing assistance to our most vulnerable citizens 
whose lives have been upended by natural disasters.
    But change is not impossible. Indeed, the changes made by the 
Disaster Recovery Reform Act with leadership from this committee and 
from FEMA are a promising start. FEMA and Puerto Rico's forward 
thinking and creative approach to STEP programs and difficult ownership 
verification are bright spots that show how innovation can drive better 
outcomes and results for survivors, taxpayers, and government at every 
level. South Carolina's HUD-funded disaster recovery office has led one 
of the most efficient and productive housing recoveries in the last 
twenty years. CDBG-DR funds made it to citizens in month thirteen and 
services have been provided effectively, efficiently, and predictably 
throughout. It is rightly held up as a model for other state and local 
governments to replicate.
    Today, I'd like to offer three recommendations that could further 
improve disaster recovery and prevent more Americans from passing their 
breaking point.
               Single Application for Disaster Assistance
    Disaster survivors are often required to complete duplicative 
applications with multiple federal, state, and local agencies, many of 
which require identical information that is often already in the hands 
of other government agencies. A survivor is expected to know that they 
must apply to FEMA and that they can appeal FEMA's initial decision if 
they disagree. Survivors are expected to know that if FEMA refers them 
to SBA the attendant loan application is something they need to fill 
out regardless of their ability to repay--because denial from SBA may 
make them eligible for additional assistance from FEMA and is an 
important factor in determining an individual's eligibility for long 
term assistance from HUD. They'll also need to apply again to a state 
or local program years later when HUD funds arrive. I've been looking 
at this process for years and I still don't understand the logic. Think 
of the proud, hard working citizens, in your district. Folks who 
identify as givers and are loath to ask for help. How can we expect 
them to navigate this labyrinth in their most difficult days? A single 
application for assistance can simplify this process help reduce the 
burden of application for those most in need.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                 FEMA Damage Assessment and Technology
    Following large-scale disasters FEMA currently deploys teams of 
individual inspectors to assess damage to homes one at a time using 
paper and pen or tablet devices. After Hurricane Michael in Florida, 
SBP worked with FEMA Individual Assistance Data and aerial imagery 
provided by the National Insurance Crime Bureau to compare individual 
assistance awards amounts to visible destruction in the images. Based 
on a very small sample of that data in one community, local officials 
asked and FEMA reinspected seven properties where all but one received 
additional assistance and one award went from $1100 to $34,000. Imagine 
the impact of this at scale. When actual damages are underestimated, 
families are deprived of much needed assistance, and required to 
navigate the complicated appeals processes I've described in the 
flowchart and paragraph above. Meanwhile, private sector actors are 
deploying modern drone, AI and other technologies to develop more 
accurate and timely damage assessments. FEMA should pilot the use of 
this technology and analysis with private industry, NGOs, and state and 
local governments to improve the speed, accuracy, and consistency of 
its damage assessment capabilities.
                       Recovery Acceleration Fund
    Across the Hurricane Harvey impacted areas in Texas, thousands of 
homes have already been rebuilt by nongovernmental organizations and 
volunteers while HUD funds are just beginning to reach survivors 
through state and local government programs. According to the Texas 
General Land Office's latest report construction has been completed on 
fewer than 200 homes more than two years after Hurricane Harvey made 
landfall though more than 13,000 have applied for assistance. The real 
limiting factor here is available, usable funding.
    Under today's post-disaster federal funding model, non-FEMA 
federally authorized funds take at least 24 months to reach affected 
communities. However, eligibility for these funds is knowable as soon 
as HUD publishes the federal register. HUD and state governments should 
work together with NGOs and investors to create a marketplace where 
private and social impact capital can be deployed to quickly repair 
homes for qualified low to moderate-income survivors. Private funds can 
be reimbursed with CDBG-DR funds when they ultimately reach the 
affected community. This `reimbursement' pathway is common in state and 
local action plans for survivors who can self-fund repairs, but no such 
mechanism exists for low to moderate-income families using private or 
charitable assistance.
    Such a mechanism would effectively transfer delay and suffering 
from vulnerable families to investors' balance sheets. Families like 
Ms. Benjamin in Houston, TX who is 81 years young and disabled. Her 
daughter and granddaughter live with her in the family house. Before 
Harvey, with a household income just under 80% of the area median 
income, they had enough income to get them by and they were living a 
happy, normal life. After Harvey, they have struggled to recover. She 
used FEMA funds and savings to make repairs but there is still more 
than $6,000 worth of work left to do. Though she is eligible for CDBG-
DR assistance, her family--like so many others--cannot afford to wait 
any longer on local programs to deliver assistance. If the Recovery 
Acceleration Fund were implemented today nonprofit organizations could 
scale up their assistance efforts and more funding would be available 
immediately. Overall repair costs would be reduced because houses 
wouldn't sit untouched falling into further disrepair. Most importantly 
thousands of fewer American citizens would be pushed beyond their 
breaking point.
    These ideas could drastically reduce the time between disaster and 
recovery preventing unnecessary suffering in the process. These 
improvements could also bring recovery outcomes in line with American 
values and the efforts of those leaders at every agency and level of 
government who selflessly serve impacted communities each day.
    Thank you again for your time and for this opportunity.

    Mrs. Fletcher. Thank you, Mr. May. And thanks to all of you 
for your testimony this morning. I look forward to hearing your 
answers to the questions from the Members. And we're now going 
to move on to the Member questions. Each Member will be 
recognized for 5 minutes.
    And I will start by recognizing myself. I appreciate that 
you all were here during the first panel and heard some of the 
questions, and I think this is a nice transition to talk about 
your experiences in dealing with so many different agencies.
    I know, Mr. Sprayberry, that you addressed the challenge of 
dealing with so many agencies at once in facing all the other 
challenges during a disaster. And so I'm interested to hear 
more about your perspective on guiding your State through the 
FEMA recovery and then transitioning to the HUD process in the 
CDBG-DR funds. And if you could talk about I guess where you 
see room for improvement and whether that process is seamless 
as has been suggested, or whether we should be rethinking how 
we do that.
    Mr. Sprayberry. Thank you, Madam Chair, and I would just 
first say that the process is not seamless. And I will say that 
the new PA process that FEMA has rolled out has begun to 
mature. Our project worksheets are starting to move faster. We 
send them to Denton, Texas, where they have a consolidated 
resource center. That's working pretty well.
    Individual Assistance is working pretty well, too. We are 
concerned about the STEP program being taken out of the 
inventory because that allows families to stay in their own 
homes while they look forward to more permanent repairs. I will 
say that CDBG-DR has proven to be problematic for us. It was a 
challenge because we didn't have any experience since the early 
2000s, and then at a much lower amount of funding.
    Our first allocation was $236.5 million. We are now finally 
on pace, but the real problem is--I think is that, you know, 
it's not authorized. And you have to wait, you know, every time 
that there's an appropriation made in Congress, and then 
there's a press release which heightens the expectations of 
everybody in the State, we're going to be getting this money, 
and it's going to be quick. And then we wait. It goes silent 
until we get the Federal Register.
    And I think what's happening with the folks up at HUD, 
you've got folks that are--I think Congressman Graves said 
earlier that it doesn't change that much, the Federal Register. 
So what they're doing is they're spending an inordinate amount 
of time writing these Federal Registers when they could just 
put them on out there and let's take a look at the rules for 
State action plans, too.
    So we need to compress the timeframe. I don't think that we 
need to move it to another agency. I think HUD's the right 
place for it. There are a lot of other housing programs there 
that they can leverage, and I also think that if we think 
moving it to someplace like FEMA, who is still developing 
policies for the Disaster Recovery Reform Act, they're a year 
out from that and still haven't gotten all those policies out, 
which are laws, you know there are some issues there.
    So a lot of room for improvements for CDBG-DR. What's 
helped us out is we created an office that can handle all that 
called North Carolina Office of Recovery and Resiliency.
    Mrs. Fletcher. Thank you, Mr. Sprayberry. And I think all 
of you can probably talk to this. Certainly, Mr. May, I think 
your comments touched on it as well as all of the witnesses. 
But as I mentioned in the last hearing, what I hear from my 
constituents who waited for 2 years for the publication of the 
rules following Hurricane Harvey and the 2018 appropriations is 
a real frustration for the individuals going through the 
recovery, dealing with all these different agencies, 
understanding the rules.
    So what suggestions do you have on how we can turn this 
into a more sort of victim-centric focus? We talk a lot in 
healthcare about having patient-centered care. That is the 
center of the universe.
    So do you have ideas or suggestions for us of things we can 
do to streamline that process both at the level for the 
agencies for the State and local authorities, but also for the 
individuals? I'd love to hear your thoughts on that in the time 
we have left.
    Mr. May. One of the things that my organization does is 
encourage folks who are in risky areas to understand what may 
be required of them if they are affected. And so what we've 
heard from a lot of our clients is that the collection and 
documentation issues around proving home ownership and damage 
to their home is something that they often struggle with.
    My organization has put together a ton of training and 
preparedness materials that can help homeowners understand what 
steps they should take in advance of disasters to be better 
prepared and to more forcefully advocate for themselves through 
these various application processes after disasters occur.
    Mrs. Fletcher. Thank you.
    Ms. Wiley, you want to weigh in?
    Ms. Wiley. I agree with Mr. May. The application process is 
so extensive and our victims sometimes just get lost in this 
redtape. And if we could eliminate that and make a one-
application process, as he spoke of, for all the Federal 
agencies in order to find what they actually qualify for, it 
would actually be a huge improvement, and I believe less people 
would be lost in the cracks.
    Mrs. Fletcher. Thank you very much. I have gone over my 
time, but I anticipate there will be a lot of other great 
questions, and for the next round of questions, I'd like to 
recognize Ranking Member Graves.
    Mr. Graves of Missouri. Thank you, Madam Chair. I mentioned 
in my opening statement the--and my questions for Ms. Wiley, I 
mentioned the resilience and the attitude that we have seen, 
you know, with people just picking themselves up and trying to 
move on as best they can. And if you could, can you talk to me 
or talk to the committee just a little bit about, you know, I 
guess if there is a win out of this, it's watching what people 
are capable of and what they've had to go through.
    Ms. Wiley. Absolutely. Our biggest win is that nobody's 
died from this horrific flood. We have been able to get 
everybody out early through the evacuation process and in areas 
that have never evacuated before. People have always refused to 
evacuate. They've stayed there in previous floods. So this time 
we were able to get everybody out. And when nobody has died, to 
me that is the biggest win of all.
    Another win would be our disaster recovery fairs. As you 
guys know, because of the difficulties associated with 
preliminary damage assessments, we are unable to bring in 
assistance such as the multiagency resource centers and 
disaster recovery centers because you can't do preliminary 
damage assessments if these areas are still under water. As Mr. 
May had mentioned in his testimonies about utilizing resources, 
modern technology such as drones would be very helpful.
    But what we did with that, because we had so many 
individuals that needed assistance now, they had questions that 
needed answers, we spun up our long-term disaster recovery team 
and we called them the short-term disaster recovery team and 
put them to work. And we organized our own disaster recovery 
fairs and had bo-ads and co-ads and everybody show up just like 
they would at a multiagency resource center or for the disaster 
recovery centers, too. And it worked very well.
    Our first one had over 200 families that showed up and 
serviced in Atchison County. Our second one we did was in Holt 
County because our long-term disaster recovery teams consist of 
two counties. And so our second one we had in Holt County, and 
it was also a win and we had over 100 families show up to that. 
In such small populated areas, those are huge wins.
    Mr. Graves of Missouri. Thank you, Madam Chair. I yield 
back.
    Mrs. Fletcher. Thank you. I'll now recognize Miss Gonzalez-
Colon.
    Miss Gonzalez-Colon. Thank you, Madam Chair. I want to 
thank also the ranking member, Mr. Graves, and the other Mr. 
Graves for helping in many of the issues regarding Puerto Rico 
during the last 2 years and the visit of Mr. Graves to Puerto 
Rico to discuss this issue. I want to thank all the witnesses 
for coming here, and I truly understand the hardships. We 
managed to get the Federal funds being approved by Congress, 
but sometimes the redtape in some agencies and the bureaucracy 
just deflect the sense of urgency that our communities need to 
solve these issues.
    And this is something that not just this committee, but 
also several other committees are discussing them. The reason 
I'm just right here right now, we were in the Natural Resources 
Committee having this kind of the same discussion with the 
fiscal situation on the island and the PROMESA board with 
several witnesses in different committees. So sorry about it 
being at the same time, but being the only Member representing 
Puerto Rico in Congress, representing 3.2 million American 
citizens--instead of having four Members and two Senators--
makes a difference when issues regarding our island are 
discussed.
    Having said that, I do have questions for Mr. Gil-Ensenat, 
who is our Secretary of Housing in Puerto Rico. And one of the 
main issues we've been seeing during the last 2 years, our 
Congress approved more Federal funding to Puerto Rico than any 
other administration ever before. Never before has Puerto Rico 
received so much funding from FEMA, from HUD and many other 
Federal agencies, and it was approved in the House, approved in 
the Senate, and the President signed all those bills. But 
sometimes you feel that the publication of the guidelines in 
the Federal Register is not being done in time.
    Actually, the HUD administration admitted to Congress in 
several committees that they missed the deadline of October to 
actually make that publication available. If we don't have the 
publication available, you can't manage and propose a plan to 
use the CDBG-DR funds. So having said that, my main question 
will be to you is: What is needed--what is the delay and how 
can we overcome the delay for signing a public partnership 
agreement between HUD and the local Housing Department for the 
$8 billion in CDBG-DR funds?
    Mr. Graves of Missouri. Real quick, Madam Chair, I might 
point out, too, that the gentlelady represents Puerto Rico, 
which is no stranger to disasters.
    Mr. Gil-Ensenat. Thank you, Congresswoman Gonzalez-Colon. 
But on our behalf and on the things that we can control at the 
State level or on the island level is that to put all the 
action plans in place, to put like every guideline in place and 
that like obviously hard to approve the same or not approve it. 
In that regard, HUD has approved two plans totaling $9.7 
billion. The second part or the $8.2 billion plan that was 
approved were pending the grant agreement for it has been 
already almost 200 days or more since the approval of that 
plan, taking into consideration the first plan----
    Miss Gonzalez-Colon. What is the justification for the 
delay?
    Mr. Gil-Ensenat. In all honesty, we don't know. I mean it's 
something HUD hasn't provided like the grant agreement for us 
to sign----
    Miss Gonzalez-Colon. Do you have a timeline on when----
    Mr. Gil-Ensenat. We don't. They haven't expressed the same, 
and we actually don't know like specifics----
    Miss Gonzalez-Colon. So if you don't have that plan 
approved or signed by the HUD administration, what are the 
programs, what are the services that are put on hold on the 
island, one, two, three?
    Mr. Gil-Ensenat. Right now, we are serving like and we're 
taking applications from the housing program. And if we don't 
receive that funding, a lot of the people that have already 
been submitting their application, maybe they cannot be done 
because obviously we don't have the money for it. So that 
tranche of $8.2 billion and the signature is really important 
to continue our services.
    Miss Gonzalez-Colon. One of the issues is that the first 
tranche of funds from HUD was approved and disbursed to the 
island. It was $1.5 billion. So some people said that the 
Government of Puerto Rico has not spent that money yet, and 
that's the reason they're holding money. I mean you agree on 
that?
    Mr. Gil-Ensenat. Well, technically it's a misconception in 
the sense of we have already made an obligation of $1 billion 
almost. And in that regard, it takes time to spend it. 
Nonetheless, we have spent that--$1.3 billion, for example, on 
our STEP program where we manage--where basically repaired more 
than 108,000 homes.
    And we have the capacity to, and I mean like we have 
augmented our--to more than 85 people plus the consultants that 
we have that they're all on a performance-based contract and 
must base on it. So giving that capacity to our people, and in 
that regard, I mean like it's just a matter of us putting the 
work that we're putting in, but we need the cooperation from 
HUD to basically do their part and give us the grant agreement.
    Miss Gonzalez-Colon. The September 4 deadline for this 
imbursement of mitigation funds under CDBG-DR program was 
missed several times by HUD. At the same time, how long will it 
take you to prepare and publish the required action plan once 
the guidelines are published? How long will it take?
    Mr. Gil-Ensenat. Well, they usually provide 90 days, and 
then they have like 40 days to revise the same and approve the 
same. So basically we're expecting a 90-day preparation time 
for it. And we're just codependent on the notice and basically 
the framework for us to prepare that action plan.
    Miss Gonzalez-Colon. I know my time has expired, but I want 
to say thank you to all the witnesses, because I do have 
several questions to all of you. I will submit them for the 
record as well. But in our case, having the funds being 
approved, not disbursed, has created the biggest hardship for 
many Puerto Ricans on the island and to the whole recovery 
process. I mean how can we expedite that, not just in the funds 
in Vivienda, HUD, the CDBG-DRs and how a Federal manager to HUD 
in Puerto Rico to Vivienda in Puerto Rico is going to work. 
That's some of the questions that will remain unanswered. Thank 
you. And I yield back.
    Mrs. Fletcher. Thank you. I'd now like to recognize Mr. 
Rouzer for 5 minutes.
    Mr. Rouzer. Thank you, Madam Chairman. And great to see our 
witnesses here today. I appreciate you being here.
    Dr. Sprayberry, you and I know each other real well. We've 
been through a number of storms together, and it seems like 
every year it's a new storm, a new day, which leads me to 
comment. I think you mentioned the press releases, and I've 
seen the press releases, of course, in Congress and have been 
part of some of those press releases when Congress appropriates 
money, and I can tell you that those of us who sign our names 
to those had no expectation whatsoever that it would take 3 
years in some cases to get this money out the door and to the 
recipients.
    Can you talk just briefly about how that hinders the 
recovery effort, particularly in years when you have successive 
storms. For example, you know, we had Florence in 2018, a year 
ago. We were looking at Dorian coming right on through and 
really socking us in the nose as well this year. Thankfully, it 
stayed off the coast.
    And one of the thoughts I had, you know, you've got all 
those homes, all those people that are still out of their 
homes, dislocated, not enough contractors to go around and 
repair the roofs and just imagine what a category 5 is going to 
do to somebody that doesn't have their roof repaired completely 
because they can't find a contractor. Well, that storm comes 
through and it does that much more damage.
    Can you talk about the residual effect, the compounding 
effect of the lack of disaster funding that you need?
    Mr. Sprayberry. Thank you for that question, sir. And good 
to see you as well. I would say that, as you know, when we 
first got the funding for Hurricane Matthew, we didn't have the 
capacity, and we had to build from scratch. And we have since 
remedied that with our NCORR office. I would tell you that the 
directives that I give the team at NCORR is that we stop work 
whenever the storm's actually happening. But as soon as the 
storm blows out, we continue to march.
    And so the idea is that no matter if you have successive 
storms that are affecting additional households, we're 
continuing to be decisively engaged with the funding that we 
have for Hurricane Matthew. As you know, sir, we're still 
waiting for the mitigation funding. There's been an FR for 
that.
    We intend to turn in our State action plan to HUD in 
December, and then we're still waiting for the $336.5 million 
for Florence and then whatever we're going to get in the 
disaster supplemental bill later on after that. What I'm 
telling you here, sir, is we've got a structure now that's--
where we can drop the funding into the structure and it 
continues to move. We're not slowing down at all. We've got 
contractors on the ground. We're building.
    As you know, we've added a couple of counties, Bladen and 
Columbus County, and so we have six most impacted and 
distressed from Matthew. We think we know which ones are going 
to be the mid-counties for Florence. So I would also like to 
say that we've got the opportunity working with our hazard 
mitigation section.
    In the NCORR section, we're able to crosswalk all the 
different projects for all the homeowners and decide which 
buyout is best for which program. And so we're able to reach 
and help more folks. We've got about 3,000 households right now 
that we're working with on buyouts, elevations, demolition 
rebuilds.
    So we're able to leverage that and leverage those 
efficiencies between the two sections. And so that's kind of 
where we are right now. We have a chief resilience officer 
that's making sure that as we rebuild and recover, that 
everything has a core or resiliency as we don't want to rebuild 
the same old way and get hit the same old way.
    Mr. Rouzer. In my remaining time here, the 40 seconds I 
have left, let me ask you this hypothetical. Suppose we did a 
block grant to the State, whether it's through HUD, through 
FEMA or whatever. What are three points of guidance that would 
be helpful to you? Forget about what we have now, because 
there's a bunch of us that are highly frustrated with the 
system we have now.
    Give me--and you may want to think about it some and come 
back to me later--each of you. But give me three points of 
guidance that you would need in order to make that work. We 
block grant the money. You handle it. Obviously got to have a 
little accountability. What are three things that would help 
you?
    Mr. Sprayberry. So we'd like to have more flexibility on 
duplication of benefit. We'd like to have a universal 
application, and let me think about a third one, sir.
    Mr. Gil-Ensenat. A single point of inspection instead of 
doing multiple inspections for damage in the house. I mean like 
they run like probably two or three with different sets of 
regulations for it instead of being one inspection.
    Mr. Rouzer. Thank you. Madam Chair, I yield back.
    Mrs. Fletcher. Thank you, Mr. Rouzer.
    I have a quick followup question, and then I'm going to 
open it up in case any of the Members still present have any 
further questions.
    But very briefly, Mr. May, in your testimony you mentioned 
the idea of a public-private partnership model to possibly 
accelerate disaster recovery efforts. Can you both explain how 
you think that could work and also whether there's anything 
preventing that from working now?
    Mr. May. Thank you for that question. So the way we imagine 
it working is that you could take charitable funding from major 
foundations who have sort of mission obligation to give after 
major disasters. You could pair that with social impact capital 
and private funds that investors may contribute to a fund.
    You would then qualify homeowners per the guidance that HUD 
uses to qualify families for CDBG-DR assistance in disasters 
for the last 30 years, so folks who own their home, they don't 
own other homes, they can't afford market-rate contractors, 
they want to stay in their community and make 80 to 120 percent 
of AMI or less. You then use this private funding to rebuild 
their homes more quickly.
    We think this will certainly reduce human suffering in 
getting folks back into their houses more quickly, not staying 
in hotels for 30 days at a time and wondering if their 
temporary housing assistance will be reupped in the 11th hour.
    But, secondly, we think it will be a reduction in total 
taxpayer expense. You don't have to look very far in North 
Carolina to find the dilapidation that occurs when homes aren't 
repaired quickly. And that's not just a knock on North 
Carolina, Mike. Look at Mississippi, Louisiana; Mrs. Fletcher, 
in your district. When homes aren't repaired quickly, it 
becomes more costly to repair them in the long term.
    So presently to the second part of your question, do we 
think there's anything that prevents it now. The short answer 
is no. Perhaps a little regulatory clarification that would 
help us attract additional investment and that would sort of 
warm the marketplace for clients who may be hesitant or 
unwilling to engage in a lending relationship with a nonprofit 
organization like ours.
    But presently, after disasters, those who can afford to 
self-fund their own repairs using their money or family money, 
there exists reimbursement pathways both in the city of Houston 
and through the General Land Office in Texas for those expenses 
to be reimbursed. The trick is when low- and moderate-income 
families who don't have liquidity need to obtain that funding 
from somewhere else, the reimbursement pathway doesn't work for 
them.
    And so we think that with a bit of regulatory clarification 
and perhaps a few well-placed questions to HUD, we could clear 
that up and begin to do this at scale in disaster-impacted 
communities right now. Thank you.
    Mrs. Fletcher. Thank you, Mr. May.
    Miss Gonzalez-Colon, did you have an additional question?
    Miss Gonzalez-Colon. I definitely have additional 
questions. And that would be we do have a lot of vendors on the 
island that are--and this is for Mr. Gil-Ensenat. We do have a 
lot of vendors on the island that have been working in the 
recovery process. But if you can't pay them, some of them will 
not be available to finish major projects. So that's one of the 
concerns. The second would be in terms of HUD administration 
has consequently stated that they've got a good relationship--
working relationship with you, but naming a Federal monitor, 
how that may affect or delay receiving the funds. Some 
municipalities are used to working with CDBG funds, regular 
CDBG funds in the past. Actually, they are certified to work 
with them. But at this time they're not certified to have 
direct--the receivers directly from HUD department about those 
funds. So my question at this time would be that announcement 
of the appointment of a Federal monitor to oversee the 
disbursement of funds, CDBG-DR, and Vivienda. Will that help? 
Will that delay the funds? What's the excuse for that?
    Mr. Gil-Ensenat. Congresswoman, in all honesty, we haven't 
seen any type of draft framework or type of regulation that 
we'll use for that monitor. We hope that it helps, but we don't 
know if it's more bureaucracy on it that will delay the 
funding. And until we know that, I cannot give you an honest 
answer about it.
    Nonetheless, we are ready. We're able to basically comply 
with everything. We have a robust set of rules, guidelines, 
SOPs in order to handle these moneys. And I know for--in terms 
of the payments for municipality, COR3 has already paid almost 
$100 million in the last 18 months to those vendors, and I 
think at the end of the year, another $200 million will be 
done.
    Nonetheless, if we go into what the permanent work has been 
delivered, we only see $34 million from that deliverance and 
basically from the $6.2 billion that have been paid in IA and 
PA. We're paying $300 million at the end of the year.
    Miss Gonzalez-Colon. What are the roadblocks for the lack 
of guidance from HUD in terms of for you to actually disburse 
the funds and invest those?
    Mr. Gil-Ensenat. Well, we go along the lines after the--
obviously after the appropriations of those moneys and 
regulations have said it becomes a little bit arbitrary on 
behalf of HUD saying which can go and which cannot. I believe 
on the framework and our base law and a law that basically 
provides that framework for you to go on and speed up, and it 
will help us actually in the future also to--if we have off-
the-shelf housing programs for every disaster--in every 
disaster we have obviously a housing problem. So we can have 
off-the-shelf programs that basically can regulate that. But 
since from disaster to disaster, the notice changes, the rules 
change. It's really complicated to pinpoint any specific into 
it.
    Miss Gonzalez-Colon. Just before yielding, you make a 
difference between the small projects and the big projects. We 
do share that vision with you. I mean having a lot more than 
100,000 small projects going out directly when they are from 
$100,000 or less. How can we improve that? Can you make a 
recommendation? Maybe not now, but write an opinion to the 
committee on how to expedite those small projects to go out 
when they should not be complying with the same requirements of 
the big projects on the island.
    Mr. Gil-Ensenat. And that's basically what happened in 
Puerto Rico for more than a year after we had adopted the 428 
process in which basically all the projects and the small 
projects of $123,000 or less being treated at the same level as 
$20 or $30 million projects. Obviously that creates a 
bottleneck. In the future, we have to basically let our 
authorized professionals also to do a damage assessment, to 
expedite those damage assessments, for FEMA actually to 
recognize them and basically honor them, and that will expedite 
the whole process on it.
    Miss Gonzalez-Colon. With that, I'll yield back.
    Mrs. Fletcher. Thank you.
    Mr. Rouzer, you have an additional question?
    Mr. Rouzer. Yes. I want to go back to my last question. The 
clock was running down and ran out of time there, and each of 
you lit up in your own way when I asked that. So I wanted to 
give you an opportunity to address it further if any of you had 
any additional comments. And basically that was this. If we do 
a block grant, whether it's through HUD or through FEMA, forget 
about what we have in place now, what are three points of 
guidance that would be really important to you. I got the notes 
of what a few of you said, but some of you seemed to have some 
additional thoughts, and I wanted to give you time.
    Mr. May. Yes, sir. Thank you for an opportunity to comment. 
I would add and build upon the point I was making earlier, that 
I think--you know, Mr. Sprayberry mentioned flexibility around 
duplication of benefits. I think that matters. A simplified 
application that qualifies disaster survivors for every form of 
available assistance is crucial. And building on my earlier 
point, the ability to repay self-funded repairs.
    We have hardworking American families out there that do the 
right thing. They fix their homes right after disasters. They 
liquidate assets. They create cash in order to do this. And to 
the extent that they're eligible for the block funding that you 
have hypothetically put out there, I think an ability to repay 
those families who made the right decision or who found a way 
to materialize resources to make those repairs I think is 
crucial. Thank you.
    Mr. Gil-Ensenat. Well, I'll add like the inspection part of 
it, but also the flexibility in the expenditures, and the 
flexibility also in a preapproval or pregiven procurement 
policy into it. Seventy percent of Federal money is wasted on 
procurement. So we standardize that and we standardize for all 
the jurisdictions. That will take away basically 70 percent out 
of waste. So that, plus what Mr. Sprayberry said on unification 
of all the information and being able to gather that from it.
    Mrs. Fletcher. Anyone else?
    Mr. Rouzer. Additional----
    Mrs. Fletcher. OK.
    Mr. Rouzer. Mr. Sprayberry, you had----
    Mr. Sprayberry. Allow the feds to delegate certain 
approvals to the State as well so we can request certain things 
and there's some flexibility there.
    Mr. Rouzer. Let me ask this as my final question. Through 
the process with the current system, list for me anything 
that--and for the committee as well--anything that you thought 
to yourself, you know, this really--other than what you've just 
outlined, anything that you thought, you know, this really does 
not make a whole lot of sense. Or we've done this one gazillion 
times, like when you go in the emergency room, and they have 
you fill out all this paperwork in this room, that room and 
that room, and you think, well, my gosh, I just filled this 
out, why do I have to do it again. List things of that nature 
so that I can learn more.
    Mr. Sprayberry. Well, sir, you know, as I mentioned, the 
Federal Registers come out. They don't--with the exception of 
the new one that we have for CDBG MIT, they don't change 
dramatically. I'm pretty sure they can figure out which 
counties are most impacted and distressed I mean like pretty 
quick because they have the data.
    So what is--what's--what is the problem? Why does it take 
so long to have--I mean these Federal Registers, they take so 
long, and then, you know, and then we're given--it's like a 
slow dance or something. It takes a long time for them to get 
out. Then you do your State action plan, and it's back and 
forth.
    And so that really just needs to--we need to compress the 
timeline. I mean it's--that's what's happening. That's why 
there's a gap in housing for folks that are getting the 
Individual Assistance. We know that CDBG-DR is the last grant 
for people, for disaster survivors, but being the last grant 
shouldn't mean 2 years down the road. It should be a lot 
quicker.
    We know 18 months is what we have IA, Individual 
Assistance, for. So that's--getting that done, reducing 
requirements for State action plan.
    We've talked about environmental assessments before. We use 
one environmental assessment for all Federal agencies that 
should really--they should hold to that and start implementing 
some of the plans.
    I think that they should do that, and we can start--HUD is 
the place. I don't want to say that if we're going to still 
keep it with a Federal agency, but you're talking about 
something different which would be a block grant that would go 
direct to the State. Is that correct, sir?
    Mr. Rouzer. That's--in my perfect world, that's how I would 
do it, yes, but I'm trying to understand the whole scope here. 
Thank you.
    Mr. Sprayberry. Right.
    Mr. Rouzer. My time's expired.
    Mr. Sprayberry. Thank you, sir.
    Mrs. Fletcher. Thank you all. And now I will recognize Mr. 
Palmer for 5 minutes.
    Mr. Palmer. Thank you, Madam Chairman.
    Mr. Sprayberry, as of 2 years after Hurricane Matthew, and 
I think we're now right at 3 years after Hurricane Matthew, one 
of the issues there was that there were millions of dollars of 
relief funding that had not gotten to residents in North 
Carolina. Is that still the case?
    Mr. Sprayberry. Sir, we're now on pace. We've drawn down 
$27.3 million and have $142.8 million committed. So we've made 
some significant progress. It's not where we want to be. We 
want to have all that money out to disaster survivors.
    Mr. Palmer. That's $27 million out of over $150 million?
    Mr. Sprayberry. $236.5 million, yes, sir.
    Mr. Palmer. And how much do you still have to----
    Mr. Sprayberry. So I would say----
    Mr. Palmer. I mean the simple math would be $27 million 
from $236 million--so it would be $209 million 3 years after a 
disaster. I don't know about my colleague from North Carolina, 
but I can't understand why 3 years after a disaster we're still 
sitting on over $200 million when there are people in desperate 
need for it.
    Mr. Sprayberry. That's a great point, sir. And I would tell 
you that when the money was awarded to us, we didn't have the 
capacity to basically execute the grant. We didn't have anybody 
that was trained and that knew how to do it. We changed that 
now with the standup of the new North Carolina Office of 
Recovery and Resiliency with 45 highly trained individuals and 
we're able to manage the grant more efficiently and get the 
money out the door to disaster survivors.
    Mr. Palmer. You've had another storm since then, not nearly 
the impact with Matthew, but, again, you just told me you're 
sitting on $209 million. What's the timeline? I mean and I'd 
love to know what the holdup is, because if the money's under 
control of the State of North Carolina, I mean are there still 
Federal regulations that are tying your hands?
    Mr. Sprayberry. We're--no. I would say that we are working 
with all the projects to get them out and making sure that 
we're fully meeting all the eligibility criteria. We've been 
hit by Matthew, which was our storm of record, then by 
Florence, which is our new storm of record to be followed by 
Michael and now Dorian. So a lot of different funding pots and 
a lot of money going out there.
    We haven't received $168 million in mitigation yet. We 
haven't received the $336 million in Florence money. So we're 
still working with the Matthew money. And so we're totally 
focused on that and totally focused on not only just assisting 
with reconstructions and rehabilitations, but also expanding 
our portfolio of affordable housing.
    Mr. Palmer. Has any of that money been spent on anything 
other than relief for Hurricane Matthew?
    Mr. Sprayberry. It's Hurricane Matthew only, sir.
    Mr. Palmer. OK. But you're waiting on funding for these 
other hurricanes, Florence, Michael, and Dorian, and are--this 
is--Madam Chairman, this is something that really bothers me, 
is that we fund these projects, the money doesn't get spent, 
another storm hits, we appropriate more money, and we don't 
know yet what's been done to mitigate and provide relief from 
the previous storms. And it sounds like we're piling money on 
top of money.
    I think this might be something we want to take a deeper 
dive into a little bit later on. I'm not satisfied with the 
answers that I'm getting. I mean 3 years after a storm, and 
there's still over $200 million that hasn't been spent and 
there's requests for more money. And this is not just a North 
Carolina problem. This is going on in other places as well. On 
that, Madam Chairman, I'll yield back.
    Mrs. Fletcher. Thank you. It's now time to close the 
hearing. And so I want to take a minute to thank each of the 
witnesses for coming and testifying today. Your testimony has 
been incredibly helpful to us as we work on the issues that 
we've been discussing. So it's very informative and helpful. I 
thank you.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may be submitted to them in 
writing and unanimous consent that the record remain open for 
15 days for additional comments and information submitted by 
Members or witnesses to be included in the record of today's 
hearing. Without objection, so ordered.
    If no other Members have anything to add, the subcommittee 
stands adjourned.
    [Whereupon, at 12:47 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


 Aerial Images of Missouri Bottom near Rock Port, Submitted by Rhonda 
  Wiley, Emergency Management Director, 911 Director, and Flood Plain 
                Administrator, Atchison County, Missouri
                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                Appendix

                              ----------                              


   Questions from Hon. Peter A. DeFazio to Jeffrey Byard, Associate 
   Administrator, Office of Response and Recovery, Federal Emergency 
        Management Agency, U.S. Department of Homeland Security

Incident Workforce Challenges

    Question 1. While there have been significant enhancements to 
delivery of the public assistance program, I am worried that FEMA is a 
catastrophe away from a catastrophe, based on your testimony and that 
of Mr. Currie.
    You also say that ``every day is earthquake season,'' which is a 
belief that you and I share.
    The district I represent in southwest Oregon will be impacted by a 
seismic event along the Cascadia Subduction Zone, a likely catastrophic 
event that will impact the greater Pacific Northwest.
    Your recent Incident Workforce Management Review indicates that the 
Agency needs more than 17,000 personnel to successfully manage and 
execute the current pace of recovery work along with potential future 
disasters.
    What is the current staffing level of FEMA's Incident Workforce? I 
realize that filling this staffing gap is not unique to this 
Administration, but what is the Agency currently doing to recruit more 
Americans to these roles?
    Answer. As of December 5, the Federal Emergency Management Agency 
(FEMA) has 13,692 personnel assigned with primary Incident Management 
(IM) titles, including Reservists and other full-time disaster 
personnel, as well as additional staff from FEMA's headquarters and 
regional offices. Of these, more than 5,300 personnel are deployed 
managing 65 open disaster and emergency declarations across 26 field 
offices, spanning Saipan to the Caribbean. Beyond these deployed 
personnel, 4,100 staff are listed as available for future deployment in 
FEMA's Deployment Tracking System for immediate activation when 
required. The remaining members of the IM workforce are unavailable for 
deployments (due to participation in training requirements, scheduled 
leave or unavailability, or steady-state work requirements). In the 
event of a catastrophic incident, FEMA would also work to make 
unavailable staff ready for deployments (by cancelling training, 
removing unavailability restrictions, etc.), to mobilize FEMA's 
additional internal surge workforce, and activate the U.S. Department 
of Homeland Security (DHS) Surge Capacity Force (SCF) to deploy in 
support of the IM workforce.
    FEMA maintains a large and diverse workforce of IM staff capable of 
fulfilling critical roles in a disaster or emergency. FEMA is always 
seeking talented individuals eager to help people before, during, and 
after disasters for intermittent and full-time career opportunities and 
we are currently hiring. Due to FEMA's dedicated hiring efforts, FEMA 
has grown the nationally-available IM Workforce by 70% since May 2015, 
adding more than 1,000 net personnel each year (accounting for 
attrition.)
    FEMA is taking all available steps to accelerate this growth to 
match the unprecedented level of disaster activity over the past three 
years. Each month, FEMA's recruitment branch meets with highly 
interested prospective candidates at career fairs and hiring events to 
promote career opportunities. FEMA also continues to expedite and 
streamline the hiring, orientation and training process for IM staff, 
onboarding and training new staff every two weeks.

Housing Disaster Survivors

    Question 2. As you know, several recent major disasters have 
resulted in the loss of a great many homes. This is a challenging 
situation for survivors, communities, and federal agencies.
    What steps can FEMA take to ensure that disaster survivor housing 
needs continue to be met, particularly in areas where traditional post 
disaster housing options like trailers are not feasible, especially in 
light of the Agency's announcement last week that it is eliminating the 
STEP program?
    Answer. FEMA continually strives to address the growing needs and 
complexities of post-disaster housing and provide effective housing 
resources to survivors. In coordination with state, territorial, and 
tribal (STTs) governments, FEMA continually assesses the needs of 
disaster survivors and works to develop cost-effective solutions.
    When the President declares a disaster that is designated for 
Individual Assistance, a Federal Coordinating Officer or Regional 
Administrator may request a Sheltering and Housing Field Team to 
support developing a Sheltering & Housing Strategy. An effective 
Sheltering Strategy describes how FEMA will support the STTs and 
voluntary agencies to deploy a streamlined needs-based suite of housing 
solutions and case management services to promote timely and effective 
housing-related outcomes. FEMA will continue to review alternative 
housing solutions through the private sector or other means, to assess 
the feasibility of options at FEMA's disposal.
    Through the Individuals and Households Program, FEMA may provide 
either Financial or Direct Housing Assistance to applicants with a 
disaster-caused housing need. The Disaster Recovery Reform Act (DRRA) 
amended section 408(f) of the Stafford Act authorizing FEMA to issue 
grants to STTs to administer Direct Housing Assistance.
    FEMA may provide Financial Housing Assistance through funds paid 
directly to eligible individuals and households. Financial Housing 
Assistance may include the following types of assistance:

    <bullet>  Lodging Expense Reimbursement--Financial assistance to 
reimburse for hotels, motels, or other short-term lodging while an 
applicant is displaced from his or her primary residence.
    <bullet>  Rental Assistance--Financial assistance to rent alternate 
housing accommodations while an applicant is displaced from his or her 
primary residence.
    <bullet>  Repair--Financial assistance to repair an owner-occupied 
primary residence, utilities, and residential infrastructure, including 
privately-owned access routes (i.e., driveways, roads, or bridges) to a 
safe and sanitary living or functioning condition.
    <bullet>  Replacement--Financial assistance to help replace an 
owner-occupied primary residence when the residence is destroyed.

    FEMA may provide Direct Housing Assistance when applicants are 
unable to use Rental Assistance due to a lack of available housing 
resources and may include:

    <bullet>  Multi-Family Lease and Repair--This program allows FEMA 
to enter into lease agreements with owners of multi-family rental 
property located in disaster areas and make repairs or improvements to 
provide temporary housing to applicants.
    <bullet>  Transportable Temporary Housing Unit--A readily 
fabricated dwelling (i.e., a Recreational Vehicle or a Manufactured 
Housing Unit), purchased or leased by FEMA and provided to eligible 
applicants for use as temporary housing for a limited period of time.
    <bullet>  Direct Lease--Existing ready-for-occupancy residential 
property leased and, if necessary, modified or improved to provide a 
reasonable accommodation for an eligible applicant with a disability 
and others with access and functional needs for use as temporary 
housing for eligible applicants.
    <bullet>  Permanent Housing Construction--Home repair and/or 
construction services provided in insular areas outside the continental 
U.S. and in other locations where no alternative housing resources are 
available; and where types of housing assistance FEMA normally 
provides, such as Rental Assistance or other forms of direct 
assistance, are unavailable, infeasible, or not cost-effective.

    In response to the authorities provided by Section 1211 of the 
DRRA, FEMA is developing a State-Administered Direct Housing Grant 
Guide (SADHGG). The SADHGG will provide guidance to STTs, and FEMA 
personnel, about the necessary capabilities, processes, and 
coordination requirements for requesting and receiving State-
Administered Direct Housing Grant funds to administer a direct housing 
mission on FEMA's behalf.

    <bullet>  STTs are afforded an opportunity to play a greater role 
in their disaster recovery and achieve desired outcomes and solutions 
based on their communities' needs. STTs have better proximity to 
survivors and expertise on local post-disaster recovery resources, 
which allows each STT to understand the needs, context, and 
characteristics of their constituents while building capacity for 
future housing missions.
    <bullet>  STTs can integrate their existing housing programs and 
other federal resources (e.g., Disaster Case Management, Hazard 
Mitigation Grant Program, Community Development Block Grant Disaster 
Recovery) to bolster FEMA direct housing grant funding to efficiently 
meet the needs of disaster survivors and enhance response and recovery 
from future incidents.
    <bullet>  STTs may identify Alternative Temporary Housing Units 
other than the manufactured homes and recreational vehicle FEMA 
typically provides that are cost effective and have sufficient capacity 
to address post-disaster housing requirements in a timely manner.

Mitigation

    Question 3. The latest National Institute for Building Sciences 
report found that overall, hazard mitigation saves $6 for every $1 
invested. Organizations like GAO and the National Academies have noted 
that building disaster resilience is key to addressing the toll that 
increasing disaster losses take on the nation and the risks those 
losses represent to the Federal budget. Similarly, Goal 1 of FEMA's 
Strategic Plan calls for FEMA to play a role in helping the nation 
reduce its future disaster risk.
    <bullet>  What actions should FEMA prioritize to help the nation 
achieve greater disaster resilience?
    Answer. There are several initiatives and efforts that FEMA has 
undertaken and continues to prioritize to help the nation achieve 
greater disaster resilience:

    <bullet>  The National Mitigation Framework (https://www.fema.gov/
national-mitigation-framework) identifies actions that can be taken by 
FEMA as well as all levels of government--Federal, State, and local, 
other entities (private sector, private-non-profits), and individuals.
    <bullet>  The FEMA Strategic Plan (https://www.fema.gov/media-
library-data/1533052524696-b5137201a4614ade5e0129ef01cbf661/
strat_plan.pdf) provides an overview of initiatives FEMA continues to 
emphasize to in order to promote disaster resilience.
    <bullet>  The National Mitigation Investment Strategy (https://
www.fema.gov/media-library/assets/documents/181812) considers and 
recommends actions reflecting input and involvement from, and benefits 
for, all national stakeholders involved in disaster resilience, 
including federal, state, tribal, territorial, local and private 
organizations, and the public.
    <bullet>  FEMA continues to work directly with state, local, 
territorial, and tribal governments (SLTT) and non-governmental 
partners to advocate for the adoption and enforcement of modern 
building and property codes. In addition to promoting adoption of 
higher codes and standards, FEMA makes use of certain disaster 
resistant standards a pre-condition of grant funding.
    <bullet>  Emphasizing the value of hazard mitigation planning and 
coordination with State and local land use, environmental, and economic 
development planning efforts. In large part, local land use planning, 
zoning, building codes and similar regulatory authorities vested with 
local governments, is what drives resilience and the ability to 
withstand natural hazard events. Where a given community builds, and 
how ``strong'' the building codes are, can have an enormous impact on 
overall disaster resilience.
    <bullet>  Continuing to provide assistance to SLTTs for mitigation 
projects. FEMA's three Hazard Mitigation Assistance (HMA) grant 
programs: (1) Pre-Disaster Mitigation (PDM); (2) Flood Mitigation 
Assistance (FMA); and (3) Hazard Mitigation Grant Program (HMGP) share 
a common mission of preventing loss of life and property damage from 
natural hazards and reducing the risks from future disasters. Over the 
30-year period from 1989 to 2019, FEMA has provided approximately $15 
billion in Hazard Mitigation Assistance grants nationwide. The bulk of 
this funding has been done under the HMGP, a post-disaster grant. With 
increasing emphasis on pre-disaster mitigation, it is expected that 
resilience efforts will be more effective overall.
    <bullet>  Transforming its existing pre-disaster mitigation 
program. FEMA will soon replace PDM with a new Building Resilient 
Infrastructure and Communities (BRIC) program (https://www.fema.gov/
drra-bric) as a result of amendments to its authorities provided in the 
recent DRRA. BRIC will be funded with a 6 percent set aside from major 
disaster funding and provide a robust and vigorous means of mitigating 
the increased risk from natural hazards. One feature of the developing 
BRIC program is to help build local capability and capacity for a 
variety of mitigation activities such as mitigation planning and 
technical engineering expertise to develop mitigation projects.
    <bullet>  Providing SLTTs assistance to plan for and develop grant 
projects and applications. FEMA offers Advance Assistance under its 
HMGP to assist state and local communities. The purpose of Advance 
Assistance is to provide States and federally-recognized tribes, or 
territories with resources to develop mitigation strategies and obtain 
data to prioritize, select, and develop complete grant applications in 
a timely and manner. This thoughtful and comprehensive approach will 
result in more resilient communities.
    <bullet>  Continuing efforts to promote the purchase of flood 
insurance. FEMA's role is to help people understand their risk and the 
available options to best manage those risks. Insurance is an effective 
tool to transfer risks away from disaster survivors and enable rapid 
recovery. Experience has shown repeatedly that individuals, 
communities, and businesses that manage risk through insurance recover 
faster and more fully after a disaster.

    Q:  What opportunities exist for federal agencies, especially those 
that routinely partner with or fund activities of states and localities 
to integrate disaster resilience into all their missions and 
initiatives--and not just post disaster recovery?
    Answer:
        <bullet>  Promotion of Disaster Resistant Building Codes and 
Standards--FEMA continues to promote use of disaster resistant building 
codes and standards at every opportunity (https://www.fema.gov/
building-code-resources). FEMA has issued policies in recent years on 
utilization of disaster resistant building codes and standards for FEMA 
funded activities both pre and post disaster. Such policies will likely 
be refined and expanded in the future.
        <bullet>  BRIC--BRIC is expanding the concepts of pre-disaster 
mitigation by prioritizing the building of resilient infrastructure to 
make communities better prepared to withstand the next disaster, ahead 
of the disaster occurring and increasing community capacity. It will 
encourage states to identify their most pressing hazards and develop 
innovative solutions for building a culture of preparedness at all 
levels. Overall, this is part of a greater recognition that we must do 
more than just respond and recover from disasters, but rather focus on 
mitigation given the reality of more frequent and severe disasters.
        <bullet>  Requiring use of Disaster Resistant Building Codes 
and Standards as a pre-condition to receiving federal funding. All FEMA 
HMA grants (both pre and post disaster grants) require the use of 
disaster resistant codes and standards as a condition of funding for 
certain project types. FEMA will investigate the feasibility of 
expanding implementation of using codes and standards not only for 
buildings but a variety of infrastructure and mitigation projects that 
directly reduce risk to Community Lifelines.

    Q:  What actions should FEMA (HUD, and Army Corps) take to help 
ensure that they and their nonfederal partners maximize disaster 
resilience opportunities when using federal funds to recover?
    Answer:
        <bullet>  Use of higher codes and standards as a pre-condition 
to receiving federal funds for mitigation and recovery activities.
        <bullet>  Also, provisions in the recently enacted DRRA further 
require and promote the use of disaster resistant codes and standards:

          <bullet>  Sec. 1235(b) Consensus Based Codes and Standards--
As amended by Section 1235(b) of the DRRA, Stafford Act Section 406(e) 
requires FEMA to fund repair, restoration, reconstruction, or 
replacement in conformity with the latest published editions of 
relevant consensus-based codes, specifications, and standards that 
incorporate the latest hazard-resistant design and establish minimum 
acceptable criteria for the design, construction, and maintenance of 
residential structures and facilities that may be eligible for 
assistance under this Act for the purposes of protecting the health, 
safety, and general welfare of a facility's users against disasters.
        <bullet>  Emphasize and promote utilization of funding of 
mitigation activities in disaster recovery both under the HMGP (Sec. 
404 of Stafford Act) and Public Assistance (Sec. 406 of Stafford Act).
    FEMA, U.S. Department of Housing and Urban Development (HUD), and 
USACE continue to promote mitigation activities and partner on such 
activities where it makes sense and is appropriate to do so. While FEMA 
is one of the primary federal funding sources for hazard mitigation 
activities, there are several other federal agencies involved in 
various facets of mitigation. Most notably would be agencies such as 
HUD, USACE, U.S. Department of Agriculture's (USDA) Natural Resources 
Conservation Service, U.S. Geological Service, the Environmental 
Protection Agency (EPA), National Oceanic and Atmospheric 
Administration (NOAA), U.S. Small Business Administration (SBA) and 
other federal agencies. Federal regulations prohibit FEMA grant funds 
from being used on projects where another federal agency may have 
primary authority and funding for a mitigation activity, therefore 
projects where federal agencies combine funding streams are somewhat 
limited. There are instances however, where more than one federal 
agency may be involved with funding when they are done in such a way to 
avoid ``duplication of programs.'' Probably the most common instance 
where different agency funding streams are combined is with FEMA's HMGP 
and HUD's Community Development Block Grant (CDBG) program where CDBG 
funds are often used by communities for their local match for 
mitigation grants.
    Resource links are provided here with information on other federal 
agencies undertaking hazard mitigation activities. The first resource 
link provides a comprehensive list of federal agencies.

Federal Mitigation Programs, Activities, and Initiatives (FEMA and 
Earthquake Engineering Research Institute publication):
    http://mitigation.eeri.org/files/resources-for-success/00028.pdf

Mitigation funding for water and wastewater utilities from FEMA, EPA, 
USDA, HUD, SBA:
    https://www.epa.gov/fedfunds/hazard-mitigation-assistance-programs-
available-water-and-wastewater-utilities

Seismic Mitigation funding through FEMA and various non-profits:
    https://www.fema.gov/earthquake-grants

USACE--Flood Mitigation Programs:
    https://www.iwr.usace.army.mil/Missions/Flood-Risk-Management/
Flood-Risk-Management-Program/

Federal Disaster Assistance--Response & Recovery--Congressional 
Research Service, 06/2018 (non-mitigation programs):
    https://fas.org/sgp/crs/homesec/RL31734.pdf

      Questions from Hon. Dina Titus to Jeffrey Byard, Associate 
   Administrator, Office of Response and Recovery, Federal Emergency 
        Management Agency, U.S. Department of Homeland Security

Puerto Rico and U.S. Virgin Islands Recovery

    Question 1. According to earlier FEMA guidance, FEMA and the 
government of Puerto Rico have a deadline of October 2019 for 
completing fixed-cost estimates for Public Assistance program projects. 
However, FEMA recently acknowledged that significant work remains to 
complete these fixed-cost estimates and authorized all parties to 
continue developing alternative procedures projects while it works to 
establish a new deadline.
    What effect will this extension have on recovery projects in Puerto 
Rico? What steps can FEMA, Puerto Rico, or others take to ensure that 
recovery projects in Puerto Rico are funded and completed as quickly as 
possible?
    Answer. The original October 2019 deadline did not anticipate the 
time needed to finalize cost adjustment factors for Puerto Rico nor the 
implementation of new authorities provided by the 2018 Bipartisan 
Budget Act (BBA). In September 2019, FEMA finalized the 3-Zone City 
Cost Index (CCI) to better reflect labor, equipment, and material unit 
costs in urban, rural, and island areas in Puerto Rico. In addition, 
FEMA authorized adjustments to the Cost Estimating Format in September 
2019. In October 2019, FEMA finalized the Future Price Forecast (FPF) 
multipliers, which will be used until the FPF curve is developed. FEMA 
expects RAND to finalize the FPF curve in early 2020. The FPF curve is 
intended to reflect cost escalation over time in Puerto Rico. FEMA 
continues to work with COR3 to identify additional costs not considered 
in the authorized cost adjustments but believes cost estimates now more 
accurately reflect market conditions in Puerto Rico.
    In September 2019, FEMA also published an updated version of the 
policy which implements Section 20601 of BBA through the Public 
Assistance Program (FEMA Recovery Policy FP-104-009-5 V2). The updated 
policy reflects changes to the law and allows BBA-eligible projects to 
be developed.
    Since the National Delivery Model was implemented in Puerto Rico in 
June 2019, FEMA and COR3 have worked together to improve grant 
development. This includes more consistent document requirements and 
other information needed to develop Public Assistance (PA) Grants, the 
use of the Grants Manager/Grants Portal to develop and track projects, 
and training for FEMA, COR3, and Applicants.
    FEMA, the Commonwealth, and Applicants are actively working to 
achieve mutually agreed upon quarterly milestones for project 
development (scope of work, cost estimate development and fixed cost 
estimate (FCE) agreement). Once FCE agreements are made, the 
Commonwealth and Applicants are fully responsible for implementing and 
executing the restoration and construction projects in accordance with 
the FEMA approved scope of work and project conditions.

    Question 2. Puerto Rico is using alternative procedures (also known 
as ``Section 428'') for all large, permanent work projects under the 
Public Assistance program. ``Alternative procedures'' requires FEMA and 
Puerto Rico to agree on a fixed-cost estimate for Public Assistance 
projects. If actual project costs exceed the fixed-cost estimate, 
Puerto Rico will need to pay the difference in costs. On the other 
hand, if costs are less than fixed-cost estimate, Puerto Rico can use 
the extra funds for allowable costs, such as cost-effective hazard 
mitigation.
    <bullet>  What steps is FEMA taking to work with Puerto Rico to 
develop realistic fixed-cost estimates?
    Answer. In September 2019, FEMA published a second version of the 
Public Assistance Alternative Procedures (PAAP) Section 428 Guide for 
Permanent Work for DR-4339-PR, which guides the development of fixed-
cost estimates. The guidance was updated to incorporate changes 
associated with the implementation of the National Public Assistance 
Delivery Model, reflected updated roles for collaboration among 
applicants, the Recipient and FEMA in project development, and 
specified that cost information provided by applicants may be 
considered in the development of fixed-cost estimates. The guide 
continues to require the third-party independent expert panel 
validation of any project over the $5 million (Federal cost share) and 
maintains the ability for the Recipient or applicants to request 
independent expert panel validation for any 428 project.
    The Public Assistance National Delivery Model framework provides 
for a genuinely collaborative effort, rooted in a foundation of 
professional partnerships in the field, the Consolidated Resource 
Center, and at the leadership level. Collaboration requires the 
personnel responsible for project formulation to work together in full 
transparency with Grants Manager and Grants Portal, leverage the 
technical specialty of each individual involved throughout project 
formulation, and make substantial effort to reach agreement on a fixed-
cost estimate.
    Pursuant to PAAP Section 428 for Puerto Rico, FEMA and COR3 
established the 4339DR-PR Center of Excellence to develop cost 
estimating methodologies and identify appropriate FEMA Cost Estimating 
Format (CEF) factors for construction work in Puerto Rico. In July 
2019, the Center of Excellence published its recommendations for cost 
adjustments specifically for DR-4339.
    The Center of Excellence recommended adjustments to baseline 
construction costs which FEMA considered when it authorized the 
development of a 3-Zone CCI and an FPF curve in July 2019. FEMA 
commissioned Gordian, which owns and updates RS Means, to develop the 
3-zone CCI to better reflect labor, equipment, and material unit costs 
in urban, rural, and island areas in Puerto Rico. FEMA commissioned 
RAND to develop the FPF curve to reflect cost escalation over time in 
Puerto Rico.
    While the CCI and FPF curve were being developed, FEMA-directed 
unit costs to be based on RS Means 2019 CCI for San Juan and authorized 
the use of specific cost multipliers for labor, equipment, and material 
for Puerto Rico as recommended by the Center of Excellence. In late 
September 2019, the 3-Zone CCI was finalized by Gordian. In October 
2019, RAND finalized FPF multipliers, which will be used until the FPF 
curve is developed. FEMA expects RAND to finalize the FPF curve in 
early 2020.
    In September 2019, FEMA approved several adjustments to the CEF as 
recommended by the Center of Excellence and the inclusion of sales, 
use, and municipal taxes once COR3 provided additional information on 
the application of those taxes. In December 2019, COR3 submitted the 
requested data and FEMA approved the inclusion of sales, use, and 
municipal taxes on all projects. FEMA continues to work with COR3 to 
identify additional costs not considered in the authorized cost 
adjustments.

    Q:  What risks, if any, does FEMA anticipate with rising costs due 
to shortages of labor and supplies in Puerto Rico?
    Q:  Given that Public Assistance projects take many years (2 to 10 
years, or longer) to complete, what steps is FEMA taking to account for 
escalating costs?
    Answer. Pursuant to PAAP Section 428 for Puerto Rico, FEMA and COR3 
established the 4339DR-PR Center of Excellence to develop cost 
estimating methodologies and identify appropriate FEMA CEF factors for 
construction work in Puerto Rico. In July 2019, the Center of 
Excellence published its recommendations for cost adjustments 
specifically for DR-4339.
    The Center of Excellence recommended adjustments to baseline 
construction costs which FEMA considered when it authorized the 
development of a 3-Zone CCI and an FPF curve in July 2019. FEMA 
commissioned Gordian, which owns and updates RS Means, to develop the 
3-zone CCI to better reflect labor, equipment, and material unit costs 
in urban, rural, and island areas in Puerto Rico. FEMA commissioned 
RAND to develop the FPF curve to reflect cost escalation over time in 
Puerto Rico.
    While the CCI and FPF curve were being developed, FEMA-directed 
unit costs to be based on RS Means 2019 CCI for San Juan and authorized 
the use of specific cost multipliers for labor, equipment, and material 
for Puerto Rico as recommended by the Center of Excellence.
    In late September 2019, the 3-Zone CCI was finalized by Gordian. In 
October 2019, RAND finalized FPF multipliers, which will be used until 
the FPF curve is developed. FEMA expects RAND to finalize the FPF curve 
in early 2020.

    Q:  Given that alternative procedures are being used for all large, 
permanent work projects in Puerto Rico, how is FEMA handling the volume 
of work required to agree on fixed-cost estimates for so many projects? 
Are there things that FEMA could do to expedite agreement on fixed-cost 
estimates?
    Answer. In June 2019, FEMA stood up the Consolidated Resource 
Center (CRC) Atlantic as a temporary resource to facilitate project and 
fixed cost estimate development. The Public Assistance National 
Delivery Model framework provides for a genuinely collaborative effort, 
rooted in a foundation of professional partnerships in the field, the 
CRC, and at the leadership level. It is critical to an efficient and 
effective project formulation operation. Collaboration requires the 
personnel responsible for project formulation to work together in full 
transparency within Grants Manager and Grants Portal to maintain open 
communication and leverage the technical specialty of each individual 
involved throughout project formulation and make substantial effort to 
reach agreement on a fixed-cost estimate.
    Additionally, the Commonwealth and Applicants have access to 
management cost funding which covers the cost of developing and 
administering PA grants.

    Q:  Per Sec. 428(e)(1)(F), applicants may have their own 
professionally licensed engineers--mutually approved by the 
Administrator--prepare cost estimates for consideration. During a 
recent staff visit to Puerto Rico, it was presented that FEMA was 
developing all cost estimates for 428-related work absent significant 
input or utilization of professionally licensed engineers in Puerto 
Rico. Can you please address why the Administrator has not approved use 
by the Commonwealth of these local professionally licensed engineers?
    Answer. FEMA published the Public Assistance Alternative Procedures 
(Section 428) Guide for Permanent Work, FEMA-4339-DR-PR, in April 2018 
with input from the Commonwealth of Puerto Rico. This guidance did not 
allow for Applicant-provided estimates. FEMA published Version 2 of the 
Public Assistance Alternative Procedures (Section 428) Guide for 
Permanent Work, FEMA-4339-DR-PR, on September 13, 2019, and added 
language to align with the Disaster Recovery Reform Act (DRRA) of 2018. 
This guidance update was necessary to make several changes to improve 
the process in Puerto Rico, including the incorporation of the 
Consolidated Resource Center and its role in streamlining project 
development. As part of the update, FEMA added the following language: 
``the CRC may consider cost information provided by Applicants in the 
development of cost estimates.'' This may include use of information 
that an Applicant provides that is prepared by a licensed engineer. 
Both Version 1 and 2 of this guidance emphasize that the project 
formulation process is highly collaborative between FEMA, the 
Recipient, and Subrecipients, and that FEMA will consider local 
engineering expertise to inform project formulation.

    Question 3. For the Public Assistance program in Puerto Rico and 
the U.S. Virgin Islands, the Bipartisan Budget Act of 2018 authorized 
FEMA to provide assistance to fund the replacement or restoration of 
disaster-damaged infrastructure that provides critical services--such 
as power, medical care and education--to industry standards without 
regard to pre-disaster condition. Puerto Rican officials have stated 
that FEMA's interpretation of the Act is too narrow, and noted that 
FEMA is not fully leveraging flexibilities to rebuild in a resilient 
way. FEMA officials in Puerto Rico have stated that flexibilities must 
comply with Public Assistance program requirements.
    <bullet>  What is your view regarding the right balance between 
leveraging flexibilities provided by the Act with requirements of the 
Public Assistance program? Are there additional flexibilities under the 
Act that FEMA could better leverage in order to protect federal 
recovery funds invested in Puerto Rico and the U.S. Virgin Islands?
    Answer. FEMA has implemented its authorities under the BBA in a 
manner intended to provide maximum flexibility to Puerto Rico and the 
U.S. Virgin Islands (USVI) while still maintaining compliance with 
other Stafford Act authorities. FEMA is leveraging authorities provided 
by section 20601 of the BBA as well as FEMA's other Stafford Act 
authorities, including alternative procedures and hazard mitigation 
funding provided under sections 404 and 406, to attain increased 
flexibility and resiliency for the repair and reconstruction of 
eligible facilities in Puerto Rico and the U.S. Virgin Islands.

    Q:  We also understand that there have been difficulties in 
obtaining clarification on exactly how ``industry standards'' should be 
implemented in the Puerto Rico and the U.S. Virgin Islands. Please 
describe how FEMA plans to implement such ``industry standards'' for 
relevant projects.
    Answer. All currently proposed industry standards for Puerto Rico 
and USVI have been approved.
    For eligible facilities that provide the specifically identified 
critical services (power, water, sewer, wastewater treatment, 
communications, education, emergency medical care, emergency services 
or an administrative or support building essential to the provision of 
the critical service--see Table 1 of the Public Assistance Program and 
Policy Guide), FEMA will provide assistance to restore a disaster-
damaged facility or system to a FEMA approved industry standard without 
regard to pre-disaster condition. Eligible work will also include the 
restoration of components not damaged by the disaster when the 
restoration is necessary to fully effectuate the restoration of a 
disaster-damaged component so it functions to the associated (and 
approved) industry standard.
    For example, if a lighting system within an educational facility is 
disaster-damaged and eligible for replacement, the scope of work will 
be developed to include occupancy sensor controls in accordance to the 
approved industry standard of 2018 IECC, Section C405.2 Lighting 
Controls (Mandatory) C405.2.1 Occupant Sensor Controls.

FEMA Management and Workforce Issues

    Question 4. GAO previously reported that low employee morale has 
been a longstanding issue at FEMA. Most recently, the best places to 
work in government survey ranked FEMA 316 out of 415 agency 
subcomponents across government.
    <bullet>  In your view, why is morale at FEMA low? Has the agency 
taken any action to identify the trends or root causes of this problem?
    <bullet>  What steps do you plan to take to address this issue?
    Answer. Employee morale, as measured through Federal Employee 
Viewpoint Survey (FEVS), continues a steady improvement trend over the 
last 5 years.
    FEMA's 2018-2022 Strategic Plan directly addresses Employee 
Engagement by making all three key FEVS index scores performance 
measures. The plan calls for 2 percentage point increases in each year 
for each index for a total of 10 percentage points over the life of the 
plan. FEMA is on target in the Global Satisfaction and New Intelligence 
Quotient indices. While we exceeded our 2019 Employee Engagement Index 
improvement (increased 2.4 percentage points), we are 1 percentage 
point behind expectation overall.
    FEMA established an Employee Engagement team within our Office of 
the Component Chief Human Capital Officer to assist leaders in 
analyzing FEVS results and developing and implementing organizational 
action plans. These are specialist staff with the technical expertise 
and background to help FEMA leaders get past the raw numbers of the 
FEVS results and identify root causes for more effective action 
planning. Under Office of Management and Budget Cross Agency Goal #3, 
our Employee Engagement team has partnered with numerous program 
offices to developing plans, actions, and measures of performance. Of 
the programs who worked with our Employee Engagement team, 92% saw 
improvements in their Employee Engagement Index scores in the 2019 
FEVS.

    Question 5. When the 2017 and 2018 disasters hit, FEMA was already 
grappling with personnel shortages in key areas and numerous past GAO 
reviews have identified longstanding challenges in FEMA's workforce 
assessment, management, and training. The 2017 and 2018 disasters 
stretched the existing workforce thin and FEMA staff were already 
responding to hundreds of other open federal disasters nationwide.
    <bullet>  In your view, what are the root causes of FEMA's 
workforce challenges? Are there key job types or areas of expertise 
that are particularly problematic for FEMA?
    Answer. Having a well-trained, motivated workforce that can deploy 
to disasters and work alongside state, local, tribal and territorial 
partners is key to improving our nation's ability to prepare for and 
recover from disasters. With record low unemployment and rising wages, 
it can be difficult to recruit and retain talented workers--
particularly in the leadership positions requiring technical, 
supervisory, and programmatic expertise--for intermittent positions 
needed for variable disaster activity. Additionally, FEMA's work can 
involve physically austere and operationally challenging conditions, 
but the Agency has been able to steadily hire in the last few years.
    The intermittent, variable, and austere nature of FEMA's disaster 
missions creates challenges in hiring and retaining talented staff, 
particularly in the technical, supervisory, and programmatic areas FEMA 
needs most: engineers, architects, IT personnel, and data analysts, as 
well as managers and specialists with expertise in the delivery of 
FEMA's full portfolio of Stafford Act Missions.

    Q:  What steps, if any, do you plan to take to address these 
challenges? Are there actions that Congress needs to take to help you 
address these challenges?
    Answer. FEMA has established an Agency Program Management Office 
that is leading enterprise improvements to all aspects of FEMA's human 
capital and training operations. FEMA is taking coordinated steps to 
strengthen every element of the human capital pipeline from expanding 
recruitment, reducing time to hire, cadre management, and ultimately 
retention. FEMA has established this Office in part to accelerate 
FEMA's progress in hiring and qualification to achieve FEMA's incident 
management (IM) force structure targets, needed to posture the Agency 
to manage the Nation's risk.
    FEMA is consistently assessing options to address its total force 
workforce challenges and will work with OMB and the Congress to 
identify appropriate resource needs for both Stafford Act employees and 
general service personnel.

    Q:  In the short term, how does FEMA plan to adequately staff 
additional catastrophic disasters, should they happen this year, while 
continuing to manage active recoveries in other disaster locations?
    Answer. FEMA is taking a data-driven approach to hiring with 
established hiring targets to meet our annual workforce strength 
requirements to achieve an end strength of 17,670 IM staff in 2024.
    Understanding that disasters happen at any time and that it will 
take several years to reach the 17,670 target, FEMA has designed its 
disaster workforce to scale to meet the needs of multiple incidents. In 
addition to FEMA's primary IM workforce, FEMA is postured to quickly 
mobilize additional staff from all its internal offices to an event as 
well as to initiate rapid onboarding of local hires from the impacted 
area, bringing survivors into temporary roles to support their 
communities directly. In the event of a catastrophic incident, FEMA 
would also work to make unavailable staff ready for deployments (by 
cancelling training, removing unavailability restrictions, etc.), to 
mobilize FEMA's additional internal surge workforce, and activate the 
DHS SCF to deploy in support of the IM workforce.
    In 2017, FEMA mobilized over 4,000 personnel from other DHS 
Components (e.g. the U.S. Transportation Security Administration, U.S. 
Customs and Border Protection, and U.S. Citizenship and Immigration 
Services) and Other Federal Agencies (e.g. the National Aeronautics and 
Space Administration, and U.S. Departments of Commerce and 
Transportation) to support survivors and communities in the delivery of 
Stafford Act assistance. FEMA currently has over 9,000 SCF personnel 
rostered in its Deployment Tracking System from these agencies, who can 
be called upon as needed. Given historic disaster activity over the 
past several years, FEMA has put the SCF on alert in both 2018 and 2019 
to ensure a ready posture should FEMA need to call upon them and has 
component points of contact working during steady state to identify 
potential volunteers and ready their Agencies' support if needed.
    FEMA can also continue to augment the current workforce through 
additional trainings, working with Emergency Support Function partners, 
and utilizing technical assistance contracts to provide additional 
capabilities to support disaster response and recovery operations. By 
utilizing additional short-term staffing capability while 
simultaneously working to grow the IM workforce over the long term to 
fill vacancies, FEMA can ensure a ready workforce that is able to help 
people before, during, and after disasters.

    Question 6. In 2012, the agency implemented the FEMA Qualification 
System (FQS) to track and measure the knowledge and skills of its 
disaster workforce. Specifically, FQS guidance states that the purpose 
of the system is to (1) ensure consistency in training, skill 
identification, and deployable assets for positions across the agency 
and (2) ensure that FEMA personnel are ready and able to fulfill their 
responsibilities immediately, competently, and professionally.
    <bullet>  How well has the system met these goals since its 
implementation?
    Answer. Attaining the proficiency of ``Qualified'' within the FEMA 
Qualification System (FQS) is based on completion of a set of cadre-
determined requirements for each incident management position. These 
requirements are contained in position task books (PTBs) that include 
formalized training and tasks that must be mastered and successfully 
performed for an evaluator. The system meets its original purpose every 
day by providing a clear set of requirements and a process each IM 
employee can follow to satisfy those requirements. Each IM employee 
knows what is expected and can use the PTB as a benchmark to steadily 
improve their individual capabilities.
    FQS strives to continually improve the system, hone the 
requirements, and improve its processes. FQS is currently engaged in a 
multi-year effort to revise all of the FQS Required Training courses to 
increase experiential learning opportunities, ensure all training 
objectives align to tasks in the PTB, improve and standardize on-the-
job training through the Coach and Evaluator program, and provide an 
objective recommendation for qualification through a Qualification 
Review Board for leadership positions to ensure rigor and accuracy of 
qualification across cadres.

    Q:  What are the key challenges FEMA has faced in implementing FQS 
and what actions could be taken to address them?
    Answer. The key challenges to the implementation of FQS are related 
to the time required to learn and master FEMA-specific disaster-field 
work and the Agency's ability to hire and retain IM employees.
    All PTBs contain tasks that can only be completed when a trainee is 
deployed to a disaster. This limits FEMA's ability to finalize an 
employee's qualification to times when the trainees are performing 
disaster work. During 2018, FQS revised all of the approximately 250 IM 
PTBs. This revision focused on clarifying tasks to be more specific and 
observable, reduced the repetitive and unnecessary tasks, and reduced 
the stringency of where the tasks can be evaluated. Our goal is to 
reduce the disaster dependency as much as possible by allowing task 
endorsement during experiential training environments, exercises, and 
even during equivalent steady state work. These improved PTBs will be 
easier to understand, quicker to complete, and less disaster dependent.
    A major impact on FEMA's incident workforce qualification rate is 
made by the Agency's hiring and retention challenges. All trainees will 
need time while deployed to master and demonstrate PTB tasks. FEMA's 
Office of Response and Recovery (ORR) leadership pointed to a nine-
month period where FEMA's IM force strength increased by 9.4% while the 
incident workforce qualification rate remained the same. The Agency is 
currently below its force structure goals, so the concern for the 
incident workforce qualification rate will continue for the foreseeable 
future as FEMA continues to engage in vigorous hiring efforts. 
Personnel who are new to FEMA's incident workforce will require time to 
master the processes and procedures involved in assisting disaster 
survivors.
    Over 50% of FEMA's IM workforce is made up of on-call Reservist 
employees who are paid only when deployed. The temporary and 
intermittent nature of this work contributes to retention problems and 
delays qualification since progress can only be made when deployed. 
ORR's Field Operations Directorate has recently undergone a 
comprehensive incident workforce review that resulted in a new 
recommended force structure for each IM position. The new force 
structure is specific to the different employee types. While the new 
force structure goals will have a positive impact on FEMA's ability to 
respond to disasters, it may impede qualification rates as new 
employees are brought on board. Actions and recent improvements 
(discussed above currently) underway are a collective and collaborative 
effort to meet FEMA's incident workforce qualification goals.

    Question 7. What initiatives does FEMA have in place or planned to 
hire and retain a skilled incident management workforce, particularly 
individuals with technical skills such as engineers and site 
inspectors?
    <bullet>  How, if at all, does the need to recruit and retain 
employees who work intermittently or are term-limited--such as 
reservists and COREs--present unique challenges?
    <bullet>  What actions could be taken to address these challenges?
    Answer. FEMA has launched the Harness Project, to develop and 
implement an integrated, streamlined human capital framework, and 
processes for FEMA to meet its critical workforce needs. The project 
focuses on expanding FEMA's ability to recruit and retain top talent. 
One of the Harness project focuses on recruitment. FEMA is implementing 
strategies to increase our recruitment and hiring efforts that will 
address needs and gaps in the incident management workforce. We are 
establishing partnerships with engineering schools and job corps, to 
create training and developmental programs that will connect and 
prepare trained, skilled, and qualified employees for incident 
management and technical positions at FEMA.
    One of the biggest challenges we face with managing an intermittent 
(Reservist) workforce is the uncertainty and unpredictability of 
disasters and deployments. Recruitment is challenging because we are 
not able to provide employees with traditional expectations regarding 
work--scheduling, steady income, and benefits. In these times of 
historic unemployment, recruitment into Reservist positions is even 
more challenging. For reservists that may only deploy a few times a 
year, many find themselves having to supplement their income with other 
full-time employment when they are not deployed. Our hiring authority 
does not offer USERRA-type job protections for deployed employees; as 
such, FEMA Reservists with outside employment have no job protections 
from their outside employer. If their full-time employer is unable to 
support an unknown, extended period of leave, employees are faced with 
quitting their full-time jobs to deploy, declining deployments, or 
resigning from FEMA.
    Enacting Federal job protections for FEMA's intermittent workforce 
would provide FEMA reservists with a higher level of job security, 
flexibility, and would increase FEMA's ability to recruit and retain a 
talented, diverse, and skilled employees.

Better Assisting Older and Disabled Disaster Survivor Populations

    Question 8. A May 2019 GAO report recommended that FEMA develop a 
training on incorporating the needs of individuals with disabilities 
into emergency planning. What is the status of the Agency's reaction 
this recommendation?
    Answer. FEMA concurred with this recommendation and is in the 
process of updating and enhancing an existing training course, E/L 
0197--Integrating Access and Functional Needs into Emergency Planning 
(E/L 0197), to better assist community partners to: (1) understand the 
needs of individuals with disabilities, and (2) incorporate strategies 
for whole community inclusiveness into emergency planning. The 
anticipated date of completion is August 2020 for delivery of the 
course at the Emergency Management Institute (EMI) and in the field.
    The new enhanced course is titled Integrating People with 
Disabilities into Emergency Planning. Working in coordination with the 
EMI, significant progress has been made in the development of E/L 0197 
by FEMA's Office of Disability Integration and Coordination. This 
progress includes a comprehensive market analysis, submission of the 
updated Uniform Training Needs Assessment and procurement of a contract 
vendor for course design.
    The new enhanced course is designed be delivered in a comprehensive 
multi-day, instructor led, exercise-based format to allow state, local, 
tribal, territorial, public and private sector partners to evaluate the 
inclusiveness and effectiveness of existing emergency operations plans 
in a no-fault environment. It is anticipated that the course will be 
deliverable in the field by FEMA's Regional Disability Integration 
Specialists for consistency and to expand existing outreach and 
leverage economies of scope and scale for cost-effectiveness.
    On June 17, 2019, FEMA provided documentation to the Government 
Accountability Office (GAO) in response to the recommendation. This 
recommendation has been closed as implemented by the GAO.

    Question 9. A February 19, 2019 report from the FEMA National 
Advisory Council titled ``Modernizing the Nation's Public Alert and 
Warning System'' outlined several short- and long-term recommendations 
to improving the Integrated Public Alert and Warning System (IPAWS). 
Recommendation 8 from that report identified the importance of 
standardization of visual symbols and pictograms, transcripts, and 
captioning so that diverse populations receive and can better 
understand alerts.
    What efforts has FEMA undertaken to advance this recommendation, 
and when will the system be fully capable to transmit messages for a 
more diverse audience?
    Answer. The issue around Geographic Information System (GIS) and 
symbology are very different than pictograms, captioning and 
transcripts. For people with disabilities and those who have other 
language needs, pictograms, captioning and video are a very different 
way of delivery, oftentimes, as an attachment to information being sent 
over traditional communication lines. This will entail leveraging 
resources within government and external stakeholders in the continued 
development of accessibility for people with disabilities and those 
with limited English proficiency. Identifying those resources and 
encouraging the development of accessibility will take time and 
expertise from SME's in the field.
    The Integrated Public Alert and Warning System (IPAWS) Stakeholder 
Engagement team worked with the National Alliance for Public Safety GIS 
Foundation to update and maintain a list of 49 symbols for alerts and 
warnings. The IPAWS Program Management Office strongly believes that 
all people, to include those without an understanding of the English 
language and those with access and functional needs, should be able to 
understand alerts and warnings. The IPAWS team has taken the lead on 
development of a comprehensive standard set of symbols, pictograms, 
transcripts, and captioning services to better communicate with diverse 
populations. The IPAWS system can support the transmission of symbols 
via links and attachments as well as through a coordinated and 
standardized symbology set. End devices can extract the symbol from a 
link, attachment, or use the standard set to present the appropriate 
symbol to the public. Ongoing coordination is required to ensure more 
end devices can process and present the symbols as well as to educate 
public safety practitioners on the symbol set and its use for relaying 
information quickly and across multiple languages.
    Recommendation 8 leverages this existing work, as we plan to 
actively engage Federal State Tribal Territorial Local regulatory 
agencies, jurisdictional entities, and standards making bodies to meet 
the needs of diverse populations. These milestones should be integrated 
into development of a multi-media campaign (Recommendation #13: 
Identifying and Adopting Current and Future Technologies) which 
includes guidance to Alert Origination Software providers, 
collaboration with standards development organizations, text to speech, 
and symbology.
    This recommendation paves the way for a FEMA led effort; however, 
lack of funding and staffing prevents full implementation. Coordinated 
development of a set of alert and warning symbols will require 
coordination across multiple government and non-government 
organizations (NGO), both nationally and internationally. Once 
developed, these symbols would be incorporated into national and 
international standards and specifications for consumer communications 
devices and networks, public education programs, emergency management 
training curriculums, and alert and warning plans, tests, training and 
exercises . This recommendation is a long term-goal as IPAWS Program 
does not currently have the resources to fulfill this recommendation.

    Question 10. Are there any statutory changes that would enhance 
FEMA's ability to respond to the specific needs of older adults or 
people with disabilities prior to, during, or following a disaster?
    Answer. No. At this time, we do not believe that additional 
statutory changes are required to respond to the specific needs of 
older adults or people with disabilities prior to, during, or following 
disasters.

Response

    Question 11. The 2017 and 2018 disasters showed that FEMA does not 
have the resources and capacity to respond to multiple catastrophic 
disasters simultaneously, particularly given that it is currently 
involved in over 600 open federal disasters. What steps are being taken 
now to ensure that FEMA and the federal government could respond to 
another year like 2017 or another catastrophic scenario with what 
remains of this hurricane season or in the next year or two?
    Answer. The 2017 and 2018 disasters certainly challenged FEMA and 
its Federal partners' capacity to support multiple concurrent disasters 
with limited resources. FEMA developed the concept of community 
lifelines as a means to better communicate across government and non-
governmental partners using a common, plain language vernacular focused 
on stabilizing the most critical services in a community to alleviate 
the immediate threats to life and property. Lifelines were designed, 
and have proven to be an effective means, to help inform challenging 
resource allocation decisions the Nation will face in a catastrophic 
scenario. The National Response Framework, 4th Edition was released in 
October, establishing the lifelines construct within national-level 
policy.
    The challenges faced in 2017-2018 strained our capacity but did not 
overwhelm it. FEMA continues to maintain and increase its response 
capabilities to improve its readiness for catastrophic incidents based 
on lessons learned and aims to improve the efficiency and effectiveness 
of the agency. For example, FEMA is updating and recapitalizing 
necessary equipment, improving its training and hiring capabilities, 
and reassessing its logistical needs, including its stockpiles and 
storage capabilities. Specifically, FEMA is replacing the aging 
equipment caches for its 28 Urban Search and Rescue Task Forces, 
increasing its fleet of Mobile Emergency Operations Vehicles, and 
recapitalizing aging land mobile radios. FEMA is also conducting a 
long-term nation-state planning effort, which looks at considerations 
beyond FEMA's traditional catastrophic planning scenarios to include 
more robust considerations of Homeland Security authorities and 
responsibilities related to direct domestic impacts upon US citizens or 
interests impacted by potential nation-state threats. These plans 
incorporate the critical mission areas of population protection, 
national mobilization, and consequence management, including 
authorities that have been largely dormant since the end of the Cold 
War and which can potentially be leveraged to increase the nation's 
readiness to respond to a truly catastrophic incident.
    FEMA recently completed its Incident Management Workforce Review to 
review the staffing force structure to ensure FEMA can deploy the right 
people with the right skills to the right place and at the right time 
to help survivors after a disaster. In addition to requirements 
generated over the last few hurricane seasons, FEMA reviewed the 
disaster workforce structure for potential future disaster activity the 
agency may face. To achieve FEMA's target force structure, FEMA has 
begun a multi-year recruitment and hiring process. While this process 
is ongoing, the agency will continue placing increased emphasis on 
training for existing employees to improve readiness and enhance the 
disaster survivor experience. Additionally, in accordance with the 
Post-Katrina Emergency Management Reform Act, FEMA has established and 
implemented the SCF, comprised of DHS component agencies and other 
federal agencies, to supplement disaster staffing requirements when 
responding to several concurrent incidents in the event they cause 
staffing shortfalls in critical mission areas.
    FEMA has increased its inventory of critical commodities (food, 
water, tarps, generators) in the Continental United States (CONUS) and 
outside of the Continental United States (OCONUS) to levels that exceed 
up to seven times our prior capacity in 2017 and 2018. FEMA has also 
expanded the number of Incident Support Base/Federal Staging Area Teams 
ready to quickly deploy and establish staging areas to receive life-
saving/life-sustaining commodities and supplies for disaster survivors. 
With the Defense Logistics Agency, FEMA developed 5-year contracts to 
provide emergency fuel and propane for all 50 states, the Caribbean, 
and Guam/Commonwealth of Northern Mariana Islands--a first for overseas 
coverage. FEMA awarded a contract for 352 new generators to replace 
high maintenance generators in the existing inventory to support CONUS 
and OCONUS disaster operations. Finally, FEMA replaced a small, 
constrained warehouse with a new, modern Distribution Center in Tracy, 
CA while increasing FEMA's storage capability four-fold over the 
previous facility.
    Preparedness for catastrophic scenarios requires more than just 
building more capability within FEMA. It involves balancing risk by 
recognizing that FEMA will never be staffed to support the full set of 
requirements levied by a catastrophic disaster event. However, FEMA 
must ensure its response teams and assets, as well as those of its 
Federal partners and from the whole community, remain ready and can be 
rapidly mobilized during multiple concurrent incidents or a 
catastrophic incident.
    Generally, response capabilities demobilize rapidly and are fully 
prepared to deploy to the next response requirement, and as such the 
referenced 600 open disasters do not impact the readiness of FEMA or 
interagency response assets. However, recovery capabilities remain 
actively engaged in all open disasters, and the open disasters reduce 
the number of available recovery personnel and resources available for 
future disasters.
    Following the 2017 and 2018 disasters, FEMA has worked diligently 
with Federal interagency and voluntary agency partners to improve the 
agency's capacity to support the recovery needs of a number of 
concurrent disasters. FEMA's support of Recovery is guided by the 
National Disaster Recovery Framework (NDRF). The NDRF is a guide that 
enables effective recovery support to disaster-impacted SLTT 
jurisdictions. FEMA uses the NDRF and its coordinating structures to 
engage necessary and available department and agency capabilities to 
provide enhanced coordination and support SLTT recovery efforts when 
necessary. It also focuses on how best to restore, redevelop, and 
revitalize the health, social, economic, natural, and environmental 
fabric of the community and build a more resilient Nation. This support 
is needed when one or more incidents occur that exceed the capacity of 
state, tribal, or territorial resources. As part of readiness planning, 
FEMA completed the 2019 Federal Interagency Recovery Readiness 
Assessment, which assessed the Federal government's capability and 
capacity to provide disaster recovery and includes findings and 
improvements resulting from the 2017 Hurricane season to include:

    <bullet>  Federal Departments/Agencies (D/A) reported a greater 
percentage of its support can be delivered with limited challenges--as 
opposed to having major challenges or unable to deliver at all.
    <bullet>  Federal D/A reported that 78% of recovery support can be 
mobilized within 5-15 days upon request, and that among this support, 
63% can be sustained for 180 days and 41% for 360 days or longer.
    <bullet>  The top constraint continues to be shortage of personnel. 
The major impact across the federal D/A is delay in delivering needed 
recovery support.

    For additional readiness for future incidents, FEMA and federal 
interagency partners listed in the NDRF have launched a working group 
to identify potential solutions to address this gap in capacity.
    FEMA has also worked diligently to increase its own capabilities. 
After the 2017 disasters, FEMA awarded the Individual Assistance 
Support Contract. Potential vendors proposed innovative solutions to 
Catastrophic Disaster Scenarios which allowed the agency to select the 
contractor with the greatest capabilities to support multiple 
scenarios. FEMA is currently working with the contractors and other 
partners to develop tools and implementation strategies that will 
ensure a more comprehensive and efficient response to future recovery 
needs.
    FEMA is also working to increase its capability to support states, 
tribes, territories, and local governments in mass care and sheltering 
operations. FEMA is co-leading a project with the American Red Cross to 
provide planning tools for states to coordinate mass care activities. 
This is scheduled to be a year-long project concluding in 2020 and 
involves a team of both FEMA, Red Cross, and State personnel who will 
provide guidance and tools to assist State Mass Care Coordinators in 
organizing the Mass Care Task Forces and other types of groups that are 
needed to address the Mass Care and Emergency Assistance issues that 
arise during catastrophic disasters.
    FEMA also has significant efforts underway to increase the capacity 
of the PA Program. In April 2019, the Agency completed a Coordinated 
Workforce Review that resulted in a more than doubling of the size of 
the Public Assistance Cadre from 1,911 to 4,279. Over the course of 
this year, FEMA has selected 1,290 positions to meet this new Force 
Structure for the PA Cadre. This includes providing training as new 
staff on-board. Additionally, FEMA has partnered with the USACE 
Reemployed Annuitant Cadre and Tennessee Valley Authority Bicentennial 
Volunteers Incorporated and is currently entering a formal partnership 
with the U.S. Department of Labor's Job Corps program to continue to 
augment PA field operations. To further supplement these field 
operations, FEMA employs contract resources when PA Cadre assets are 
insufficient to meet requirements. A modification to the standing 
Technical Assistance Contracts was completed in September 2019, more 
than doubling the number of resources that must be available at any 
given time from 1,200 to 2,796.
    Other activities aimed at enhancing PA field operations include a 
focus on mentoring and coaching for new staff including field 
leadership. Additional mentors are being hired and a formal 
professional development plan is being developed. The PA Program is 
also moving toward a risk-based approach to processing projects, 
devising innovative ways to save time on low risk projects and 
concentrating efforts on complex projects where skilled resources and 
use of flexible options will yield better results.

Hazard Mitigation and Disaster Resilience

    Question 12. The rising number of natural disasters and increasing 
reliance on federal assistance is a key source of federal fiscal 
exposure. Since 2005, federal funding for disaster assistance is 
approaching half a trillion dollars (about $450 billion), most recently 
for catastrophic hurricanes, flooding, wildfires, and other losses in 
2017 and 2018. Disaster costs are projected to increase as extreme 
weather events become more frequent and intense due to climate change--
as observed and projected by the U.S. Global Change Research Program 
and the National Academies of Sciences, Engineering, and Medicine.
    <bullet>  What steps can FEMA take to help states, local 
governments, and citizens prepare for more frequent and intense weather 
events resulting from climate change?
    <bullet>  What role do you think hazard mitigation will have in 
addressing extreme weather events resulting from climate change?
    Answer. For FEMA to continue to accomplish its mission of helping 
people before, during, and after disasters, the agency is taking steps 
to support communities in their adaptation efforts. Addressing future 
risks, such as those posed by extreme weather events regardless of 
their cause, is key to FEMA's mission. Wherever possible, FEMA brings 
data to bear and work in support of state, local and tribal needs and 
priorities. By addressing future risks, state, local, tribal and 
territorial governments are best prepared for future extreme weather 
events and are able to bounce back faster at the individual and 
community level. It is important to note that climate change is just 
one of many future risks FEMA plans for, but one that could 
significantly alter the types and magnitudes of hazards impacting 
communities and the emergency management professionals serving them. 
Accordingly, consistent with FEMA's focus on enabling disaster risk 
reduction, FEMA is supporting state, local, and tribal governments with 
efforts to prepare for the impacts of climate change through 
adaptation, which means planning for the changes that are occurring and 
expected to occur.
    The Stafford Act sets the statutory framework from which FEMA 
manages its supplemental role in mitigation and help states and local 
communities address future risk. The Stafford Act stipulates that post-
disaster mitigation activities must ``substantially reduce the risk of 
future damage.'' This law mandates that FEMA help address future risk 
and helps ensure federal taxpayer dollars are used responsibly given 
the possibility of changing conditions. Additionally, the Stafford Act 
requires actions by communities to address future risk by requiring 
state, local and tribal governments to develop plans for hazards, risks 
and vulnerabilities in their respective jurisdictions. State, local and 
tribal mitigation plans are required to include the ``probability of 
future hazard events'' occurring in a given jurisdiction. Also, the 
plans must contain a mitigation strategy that speaks to reducing or 
avoiding the long-term vulnerabilities the hazards pose. Without this 
future look, a community cannot adequately prepare to mitigate against 
future loss of life and property and reduce disaster suffering. The 
following outlines some of the ways in which FEMA drives resilience to 
disasters today and into the future:

    <bullet>  FEMA's three HMA grant programs: 1) PDM; 2) FMA; and 3) 
HMGP share a common mission of preventing loss of life and property 
damage from natural hazards and reducing the risks from future 
disasters. Two of the programs--PDM and FMA--are proactive programs 
aimed at building a community's resilience before disasters by reducing 
overall risk to the population and structures from future hazard 
events, while also reducing reliance on Federal funding in future 
disasters for response and recovery costs. The new pre-disaster 
mitigation program, BRIC, which will soon replace PDM, and is funded 
with a 6 percent set aside from major disaster funding, will provide a 
robust and vigorous means of mitigating the increased risk from natural 
hazards.
    <bullet>  Since 2013, FEMA's HMA grant programs allow for 
consideration of future risk in flood mitigation projects that include 
NOAA and USACE predicted sea level rise estimates regardless of the 
source of the sea level rise. The projected sea level rise may be added 
to the current flood elevations for the project area in addition to any 
required freeboard, which is a margin of safety built into flood 
mitigation projects.
    <bullet>  The HMA programs have provided over $86 million in 
funding for 230 applications for wildfire mitigation protecting more 
than 2,500 properties. The DRRA provisions, Sections 1204 and 1205, 
continue to focus on reducing risk from wildfire particularly in the 
Wildland Urban Interface (WUI), as higher temperatures and drier 
conditions render populations in the WUI vulnerable not only to 
increased risk from wildfire, but to post-fire effects like erosion and 
flooding. DRRA Section 1204 permanently established the HMGP Post Fire 
program (which allows for wildfire mitigation assistance derived from a 
Fire Management Assistance Grant (FMAG) rather than a major disaster 
declaration) and provides more access to mitigation funding in high 
fire risk areas with infrequent major disaster declarations. DRRA 
Section 1205 listed 14 activities for wildfire and wind mitigation to 
be allowed under the HMA programs. FEMA has implemented these 
provisions.
    <bullet>  FEMA released the State Mitigation Plan Review Guide 
(``Guide''). The Guide is FEMA's official policy on the natural hazard 
mitigation planning requirements from Title 44 Code of Federal 
Regulations Part 201, and federal regulations for state hazard 
mitigation plans, inclusive of the District of Columbia and five U.S. 
territories. The guide supports state, tribal, and local government 
mitigation planning to identify risks and vulnerabilities associated 
with natural disasters and establish a long-term strategy for 
protecting people and property in future hazards events. State 
mitigation plans are one of the conditions of eligibility for certain 
FEMA assistance, such as the Public Assistance Mitigation and Hazard 
Mitigation Grant Programs. States are required to update the state 
mitigation plan every five years.

        <bullet>  This guide asks states to consider the probability of 
future hazard events, including changing future conditions, development 
patterns, and population demographics. The Guide clarifies that the 
probability of future hazard events must include considerations of 
changing future conditions, including the effects of long-term changes 
in weather patterns and climate on the identified hazards. States must 
continue to provide an overview of all-natural hazards that can affect 
the state, using maps where appropriate.
            To better reduce risk and enhance resilience, the Guide 
encourages states to take a holistic approach and include not only 
emergency management, but also the sectors of economic development, 
land use and development, housing, health and social services, 
infrastructure, and natural and cultural resources in their planning 
process and mitigation program, where practicable.

    Q:  What steps would you take to decrease the federal government's 
future fiscal exposure by reducing or eliminating long-term risks to 
people and property from natural disasters?
    Answer. FEMA's partnership with SLTT Governments is priority when 
speaking in the realm of mitigation, resilience, and preparedness. 
Resilience is achieved through a variety of initiatives from across the 
public and private sectors and philanthropic entities that promote 
hazard mitigation. By making mitigation investments, communities help 
protect lives and property, and reduces risk and the costs of 
disasters. By working together, everyone can help keep the nation safe 
from harm and help it be resilient when struck by hazards, such as 
natural disasters, acts of terrorism, and pandemics.
    FEMA is concentrating on building resilience. Disaster resilience 
is the backbone of emergency management and the foundation for FEMA's 
mission: helping people before, during, and after a disaster. A good 
way for us to prepare the nation for catastrophic events and reduce the 
personal and financial costs of disasters is through mitigation. 
Mitigation begins at the local level. We must incorporate mitigation 
into all aspects of local infrastructure--to include utilities, parks, 
economic, zoning, building codes, and planning development to minimize 
disruption when a disaster does occur.
    FEMA continues efforts on its 2016 Building Codes Directive, which 
greatly increases the use and visibility of disaster-resistant building 
codes across the Agency. Communities that adopt and enforce today's 
disaster-resistant building codes will benefit from these policies, 
which affect PA, HMA, and many of FEMA's Federal Insurance and 
Mitigation Administration's programs.
    Building codes are a key component of a resilient Nation. The 
Natural Hazard Mitigation Saves 2018 Interim Report authored by the 
National Institute of Building Sciences, demonstrates the financial 
benefits that building codes bring to increasing mitigation. The 
Institute's project team looked at the benefits of designing buildings 
to meet the 2018 International Residential Code and 2018 International 
Building Code--the model building codes developed by the International 
Code Council--versus the prior generation of codes represented by 1990-
era design and National Flood Insurance Program requirements. The 
project team found a national benefit of $11 for every $1 invested.
    In addition, 23 years of federal mitigation grants provided by 
FEMA, Economic Development Administration, and HUD have resulted in a 
national benefit of $6 for every $1 invested by these agencies in up-
front mitigation cost https://cdn.ymaws.com/www.nibs.org/resource/
resmgr/docs/MS_FederalGrants.pdf
    FEMA has new tools now to incentivize mitigation projects and 
implementation of disaster-resistant codes. The DRRA Sections 1205, 
1206, 1234 and 1235, together, advance pre-disaster and post-disaster 
federal assistance that support mitigation and building codes.
    The National Mitigation Investment Strategy (Investment Strategy) 
proposes a single national strategy for the whole community to more 
effectively and efficiently advance the practice of mitigation 
investment in the United States--all to increase the nation's 
resilience to natural hazards and, ultimately, to build a culture of 
preparedness.
    The Investment Strategy frames the initial steps needed to more 
effectively and efficiently advance the practice of mitigation 
investment nationwide. Effective mitigation investments can save lives 
and money.
    The goals of the Investment Strategy are to:

      Goal 1: Demonstrate How Mitigation Investments Reduce Risk;
      Goal 2: Coordinate Mitigation Investments to Reduce Risk; and
      Goal 3: Make Mitigation Investment Standard Practice.

    FEMA is establishing new strategic public/private partnerships to 
help catalyze local mitigation investment, especially considering the 
known return on these investments.
    The Investment Strategy seeks to increase the effectiveness of 
existing federal mitigation programs and incentivize greater State, 
local, tribal, territorial, and private sector action and contributions 
to long-term risk reduction.

Wildfires

    Question 13. In recent years, California has experienced major 
catastrophic wildfires, which have received billions of dollars in 
federal assistance. According to the U.S. Global Change Research 
Program, warmer and drier conditions have led to a greater incidence of 
large forest fires, a trend which is expected to continue, while human 
settlement and expansion into wildland and forest areas continues.
    <bullet>  What specific challenges do fires pose when compared to 
other disasters and what steps is FEMA taking to address these 
challenges?
    Answer. WUI fires have a long-term negative effect on the 
landscape, watershed, community economics and quality of life. 
Wildfires and the WUI, in particular, pose time constrained incidents 
where decisions on evacuation and response do not allow deliberate 
planning in the same manner as preparation for a hurricane landfall. 
WUI and wildland fire management are related mostly by where they 
interface; the suburban/urban environment. Federal lands management 
agencies are a larger factor in addressing fire mitigation, prevention, 
and response in the wildland. Preparedness for WUI fires require 
carefully designed evacuations with staged initiations. This is 
intended to minimize the evacuation congestion and distributes that 
evacuation throughout a community (within the WUI) where frequently 
there are single roads for ingress and egress of developments.
    As with flooding, there are mitigation steps that can be undertaken 
to greatly reduce the hazard and extent of risks. These include 
vegetation management of the landscape to remove excess fuels, 
implementing fire adapted community standards that provide defensible 
space for residences and infrastructure, developing and enforcing 
current building and fire codes to minimize the impact of fire to 
structures, provide recognition of wildland fire within general plans 
and community planning documents, and finally optimizing response 
through enhanced training and equipment for responding in the WUI.
    Unlike more common disasters (i.e. hurricanes, flooding, etc.) that 
slowly develop, wildfires can have a sudden onset and under right 
conditions, become fast moving through the available fuels.
    FEMA commissioned a joint review with the DHS Science and 
Technology Directorate and USFA to assess operational requirements and 
conduct a capability analysis on recent wildland urban interface fires 
to leverage technology to assist in saving lives. The final report of 
findings was released July 2019 and identified various existing 
technologies, systems, and practices that minimize the impact of a WUI 
fire on a community. USFA is working to enhance outreach and 
coordination to the wildland fire community on data collection and 
accuracy through NFIRS. USFA will use its leadership role within 
Wildland Fire Leadership Council (WFLC) and National Wildfire 
Coordinating Group (NWCG) to encourage the Federal land trust agencies 
to report their wild fire responses in NFIRS creating a unified data 
set for all wild fire incidents in the United States.
    Land management jurisdictions might fall within federal, state, 
private, and tribal lands. All fires are managed by the appropriate 
department/agency that controls that jurisdiction; however, fire does 
not know the boundaries and crosses these boundaries without 
discrimination.
    Federal fires are managed by appropriate agency/department, such as 
the U.S. Departments of Interior and Agriculture and the U.S. Forest 
Service and these entities may enter into local and state agreements 
for assistance. FEMA is not a firefighting workforce and does not 
provide firefighting efforts. These efforts fall under the agency/
department authorities. USFA does manage the Reimbursement for Costs of 
Firefighting on Federal Property program, which provides the pathway 
for state, local, tribal, and territorial fire service organizations to 
be reimbursed by the federal entity requiring assistance.
    For non-federal fires or federal fires that cross over to state, 
private or tribal lands, FEMA stands ready to support through FMAG, 
Presidential Emergency Declarations, or Presidential Disaster 
Declarations for impacts occurring on non-federal lands (these are 
further described in second part of question).
    Land management agencies/departments will often use controlled or 
prescribed burning to maintain a healthy forest, rangeland, or 
grassland. At times, these agencies/departments will take an accidental 
fire and try to manage it for ecological purposes. If not properly 
conducted and managed, these can quickly spread from controlled to 
uncontrolled wildfires.
    FEMA-USFA maintains full time representation on the NWCG to provide 
input and guidance to the national practices governing controlled and/
or prescribed burns for all lands.

    Q:  What role do you see for FEMA in responding to fires and 
promoting hazard mitigation against wildfire damage in the coming 
years?
    Answer. USFA is leading a new America Burning study focused on the 
problem and solutions to the WUI. This important study is supported by 
Federal lands agencies, National Fire Service Organizations, and State, 
Tribal and local agencies. The study is modeled on the original America 
Burning Study commissioned by Congress that lead to the creation of 
USFA.
    Also, the USFA has oversight of the National Fire Academy (NFA). 
The NFA provides training and education for State, local, tribal, and 
territorial fire and emergency medical services in the area of incident 
management, fire prevention and mitigation, and community planning and 
risk reduction. An increased focus within the NFA will provide a 
national prospective of the WUI fire problem.
    FEMA's USFA has a heavy focus on mitigation (building codes, 
technology, etc.) and prevention (public education) focusing first and 
primarily on wildfire life safety and not just wildfire damage.
    The USFA specifically supports WUI fire prevention and preparedness 
through fire adaptive community education and prevention/mitigation 
resources, and:

    <bullet>  Fire Management Assistance Grants--these grants are 
provided to qualifying SLTT jurisdictions for fighting wildfires that 
could cause disaster level damage to a community/state. These grants 
cover expenses associated with fire suppression, emergency mitigation, 
and other expenses incurred by the jurisdiction.
        <bullet>  These are approved at the FEMA Regional Administrator 
level.

    <bullet>  Influence on Interagency Workgroups--the following are 
interagency workgroups that FEMA and USFA have permanent membership 
that is tasked with establishing the guidance and practices for safe 
fireground operations and mitigation to ensure the support to state, 
local, tribal and territorial fire and emergency services that have 
authority within WUI communities.
        <bullet>  NWCG: training and operations.
        <bullet>  National Multiagency Coordination: prioritizing 
resources.
        <bullet>  WFLC: implementing Cohesive Strategy
        <bullet>  Fire Executive Council: governance of NWCG
        <bullet>  Fire Management Board: governance of National Multi-
Agency Coordinating Group

    <bullet>  All Hazard Incident Management Team Development--USFA 
manages the Type 3 Incident Management Team development program for all 
hazard incidents, which includes wildfire.
        <bullet>  Technical assistance and program support are provided 
to SLTT jurisdictions at no charge.
        <bullet>  FEMA is using developed teams from this program to 
enhance the federal response capacity and capability.
        <bullet>  NWCG has adopted the development program for use in 
wildland specific Type 3 Incident Management Teams.

    The USFA continues to work on prevention, education and training, 
and collaborate with federal fire research groups to proactively 
address the WUI fire challenges. USFA is working to develop and deliver 
professional development curriculum to prepare the Fire/EMS services to 
better advise local land use planning on the application of National 
Cohesive Wildland Fire Management Strategy and its three elements: (1) 
Resilient Landscapes, (2) Fire Adapted Communities, and (3) Safe and 
Effective Wildfire Response. USFA will also provide curriculum for 
Fire/Emergency Medical Services on application of WUI Fire codes in 
their fire prevention operations. The USFA is also working to identify 
additional WUI prevention and mitigation gaps and direct resources to 
address those area of interest.
    FEMA will also use the authorities of Disaster Recovery Reform Act 
of 2018's Section 1234 (the ``Building Resilient Infrastructure and 
Communities'' program) to expand mitigation grants to assist 
communities in implementing the elements of the National Cohesive 
Wildland Fire Management Strategy.
    FEMA also provides support through:

    <bullet>  Emergency Declarations (Presidential)--this declaration 
would provide the affected state with federal resources and funds to 
minimize the impact of the event, with FEMA managing the resource 
coordination. These are cost-share funds as established by the 
President.
        <bullet>  Will include Regional and possible National Response 
Coordination.
        <bullet>  Provides access to federal rescue, medical, and 
logistics teams.

    <bullet>  Disaster Declarations (Presidential)--this declaration 
would provide the affected state with enhanced federal resources and 
funds to minimize the impact of the event, with FEMA managing the 
resource coordination. This may also be cost-share funding, and 
includes additional support:
        <bullet>  Will include National Response Coordination.
          <bullet>  USFA will support Emergency Support Function #4--
Firefighting and manages the Emergency Services Group Supervisor 
responsibilities.
        <bullet>  Provides access to pre-staged federal rescue, 
medical, firefighting, law enforcement, hazardous materials, and 
logistics teams/resources.
        <bullet>  May pay 75% of Emergency Management Assistance 
Compacts response costs to the state.
        <bullet>  May include non-governmental organizational response, 
such as Red Cross, Salvation Army, faith-based groups, etc.
        <bullet>  May include other federal agencies/departments to 
respond under their own authorities.

    <bullet>  Hazard Mitigation:
        <bullet>  USFA provides training and education addressing 
community risk and hazards through the NFA. These courses prepare 
community responders and their leadership to address the risk and 
hazards at a local level reducing the possibility that incidents will 
elevate to a state or national response level.
        <bullet>  FEMA and USFA outreach products share importance of 
mitigation, preparation, and evacuation practices through various 
materials/systems.
          <bullet>  Ready.Gov
          <bullet>  USFA Website and Social Media
          <bullet>  USFA WUI Toolkit
          <bullet>  Support of other non-governmental organizations 
mitigation efforts, through services, grants, and other funding, such 
as Ready-Set-Go from International Association of Fire Chiefs and 
Firewise from National Fire Protection Association.
          <bullet>  Wild Fire Leadership Council
          <bullet>  Western Governors Association
        <bullet>  FEMA Mitigation is expanding the scope of disaster 
preparedness and funding support to include wildfire to the all hazard 
classification.
          <bullet>  Wildland Mitigation community programs
          <bullet>  Curb-side chipping programs
          <bullet>  Post-fire mitigation program

Long Term Recovery

    Question 14. The Disaster Recovery Reform Act, which was enacted 
one year ago this month, makes federal assistance available to state 
and local governments for building code administration and enforcement. 
What steps has FEMA taken to implement this provision and what specific 
building code standards will be used?
    Answer. FEMA is currently developing a policy to define the 
framework and requirements necessary for the implementation of Section 
1206 of the DRRA through the PA Program.
    The policy will allow PA to provide assistance to state, 
territorial, tribal, and local governments to effectively administer 
and enforce their adopted building codes and floodplain management 
ordinances. FEMA intends to issue a draft policy in early 2020 for 
public review and comment.

FEMA Federal Disaster Declaration Process

    Question 15. FEMA is directed to appropriately weigh severe local 
impact when determining whether to recommend a major disaster 
declaration with the intention of ensuring a more level playing field 
for smaller communities when impacted by severe events. What is your 
view of the ``appropriate'' weight of severe local impact and how would 
you consider it when determining whether to recommend a major disaster 
declaration to the President?
    Answer. Section 1232 of the DRRA directs the FEMA Administrator to 
``give greater consideration'' to severe local impact and recent 
multiple disasters in making recommendations to the President regarding 
whether to declare a major disaster.
    FEMA has always considered localized impacts in any evaluation of a 
disaster's effect at the county and local government levels. We are 
sensitive of issues that revolve around the specific needs of different 
communities, including those with a small population or unique 
circumstances.
    In the provision of Individual Assistance, FEMA considers the 
following local dynamics: (1) the state's fiscal capacity and resource 
availability; (2) uninsured structural and personal property losses; 
(3) casualties; (4) disaster-related unemployment; (5) damage to public 
infrastructure (utilities, hospitals, schools); (6) number of insured 
individuals; and (7) impact on vulnerable populations.
    In addition to the impacts to a community's infrastructure, FEMA 
recognizes the cumulative effect of recent disasters may affect the 
availability of SLTTT government, NGO, and private sector disaster 
recovery resources. We encourage states to provide information 
regarding the disaster history within the last 24-month period, 
particularly those occurring within the current fiscal cycle, including 
both Presidential (Public and Individual Assistance) and gubernatorial 
disaster declarations.
    FEMA published revised Individual Assistance declarations factors 
on June 1, 2019. The revised factors and accompanying guidance 
specifically encourage states to provide information regarding these 
dynamics for FEMA's consideration.
    In addition to the revised declaration factors and guidance, the 
Associate Administrator for Response and Recovery issued a memorandum 
to the Regional Administrators on May 1, 2019. They were asked to 
consider the high concentrations of damages to individuals; severe 
impacts to critical infrastructure, industry or business that provides 
a primary source of employment for the community; or other factors 
illustrative of particularly severe impact at the local level.
    Additionally, the memorandum directed Regional Administrators to 
consider the cumulative effect of recent disasters, where such older 
disasters are probative of the local community's ability to respond to 
an event. The memorandum also directed Regional Administrators to 
provide sufficient detail on prior disasters to convey the degree to 
which those disasters are relevant when considering the recommendation 
of a major disaster declaration to the President.
    FEMA bases its recommendation for a Major Disaster declaration on 
Preliminary Damage Assessment findings of teams comprised of FEMA and 
SBA personnel and local and state representatives. As part of its 
evaluation of requests, FEMA also considers severe local impact and 
recent multiple disasters in making recommendations to the President 
regarding whether to declare a major disaster as is outlined above.

    Question 16. In 2012, GAO recommended that FEMA develop a 
methodology to better assess a jurisdiction's capability to respond to 
and recover from a disaster without federal assistance.\1\ GAO reported 
that FEMA's existing state per capita indicator is outdated. The 
recently passed DRRA also requires that FEMA reevaluate this.
---------------------------------------------------------------------------
    \1\ Federal Disaster Assistance: Improved Criteria Needed to Assess 
a Jurisdiction's Capability to Respond and Recover on Its Own, GA0-12-
838, Washington, D.C.: September 12. 2012.
---------------------------------------------------------------------------
    <bullet>  Please explain the process FEMA plans to update its 
current approach to assessing federal disaster declaration requests.
    <bullet>  What challenges do you see in changing the current 
approach?
    Answer. In response to the GAO's recommendation and the 
Congressional directives in Section 1239 of the DRRA of 2018, FEMA is 
currently reviewing the factors it considers when evaluating a request 
for a disaster declaration and has initiated the rulemaking process to 
update these factors.
    Rulemaking is an extensive process with a number of requirements, 
including notice and comment period, the consideration of alternatives, 
and thorough economic analysis. The entire process could take more than 
a year, depending on size and complexity of the rule. The DRRA 
provision also requires FEMA to engage in meaningful consultation with 
relevant representatives of State, regional, local, and Indian tribal 
government stakeholders. FEMA will engage in this consultation during 
the comment period.

      Questions from Hon. Sam Graves to Jeffrey Byard, Associate 
   Administrator, Office of Response and Recovery, Federal Emergency 
        Management Agency, U.S. Department of Homeland Security

    Question 1. Mr. Byard, DRRA included a provision directing FEMA to 
give greater consideration for localized impact and areas hit by 
multiple disasters. How has this been implemented and how are these 
considerations given greater weight? How were these considerations 
given greater weight in FEMA's declaration recommendations for 
individual assistance for the flooding in Missouri included in the 
incident period ending April 16, 2019 (DR-4435)?
    Answer. Section 1232 of the Disaster Recovery Reform Act directs 
the Federal Emergency Agency (FEMA) Administrator to ``give greater 
consideration'' to severe local impact and recent multiple disasters in 
making recommendations to the President regarding whether to declare a 
major disaster.
    FEMA has always considered localized impacts in any evaluation of a 
disaster's effect at the county and local government levels. We are 
sensitive of issues that revolve around the specific needs of different 
communities, including those with a small population or unique 
circumstances.
    In the provision of Individual Assistance, FEMA considers the 
following local dynamics: (1) the state's fiscal capacity and resource 
availability; (2) uninsured structural and personal property losses; 
(3) casualties; (4) disaster-related unemployment; (5) damage to public 
infrastructure (utilities, hospitals, schools); (6) number of insured 
individuals; and (7) impact on vulnerable populations.
    In addition to the impacts to a community's infrastructure, FEMA 
recognizes the cumulative effect of recent disasters may affect the 
availability of state, tribal, local government, non-governmental 
organizations, and private sector disaster recovery resources. We 
encourage states to provide information regarding the disaster history 
within the last 24-month period, particularly those occurring within 
the current fiscal cycle, including both Presidential (Public and 
Individual Assistance) and gubernatorial disaster declarations.
    FEMA published revised Individual Assistance declarations factors 
on June 1, 2019. The revised factors and accompanying guidance 
specifically encourage states to provide information regarding these 
dynamics for FEMA's consideration.
    In addition to the revised declaration factors and guidance, the 
Associate Administrator for Response and Recovery issued a memorandum 
to the Regional Administrators on May 1, 2019. They were asked to 
consider the high concentrations of damages to individuals; severe 
impacts to critical infrastructure, industry or business that provides 
a primary source of employment for the community; or other factors 
illustrative of particularly severe impact at the local level.
    Additionally, the memorandum directed Regional Administrators to 
consider the cumulative effect of recent disasters, where such older 
disasters are probative of the local community's ability to respond to 
an event. The memorandum also directed Regional Administrators to 
provide sufficient detail on prior disasters to convey the degree to 
which those disasters are relevant when considering the recommendation 
of a major disaster declaration to the President.
    FEMA bases its recommendation for a Major Disaster declaration on 
Preliminary Damage Assessment findings of teams comprised of FEMA and 
U.S. Small Business Administration personnel and local and state 
representatives. As part of its evaluation of requests, FEMA also 
considers severe local impact and recent multiple disasters in making 
recommendations to the President regarding whether to declare a major 
disaster as is outlined above.

     Questions from Hon. Mark Meadows to Jeffrey Byard, Associate 
   Administrator, Office of Response and Recovery, Federal Emergency 
        Management Agency, U.S. Department of Homeland Security

    Question 1. Mr. Byard, given the large number of open disasters, it 
is critical for FEMA to maximize the use of flexibilities given to FEMA 
in legislation like the Sandy Recovery Improvement Act and the Disaster 
Recovery Reform Act. You highlight the importance of innovation in your 
testimony--we can't keep doing the same things the same way and expect 
different results. What is FEMA doing to use innovation to speed up the 
recovery process?
    Answer. FEMA manages and coordinates government-wide disaster 
relief efforts and delivers assistance directly to disaster survivors 
and disaster damaged communities. FEMA strives to continuously improve 
on the methods used to deliver this disaster assistance. As such, FEMA 
is currently exploring the following innovative ways in which we may 
speed up the recovery process, including--

State-Administered Direct Housing
    The Disaster Recovery Reform Act of 2018 (DRRA) amended Section 
408(f) of the Robert T. Stafford Disaster Relief and Emergency 
Assistance Act (Stafford Act) to authorize FEMA to issue grants to 
states, tribes, and territories (STTs) to administer Direct Temporary 
Housing Assistance and Permanent Housing Construction. FEMA's authority 
to issue State-Administered Direct Housing Grants under a pilot program 
expires October 5, 2020. After the pilot program deadline, FEMA may 
only issue State-Administered Direct Housing Grants after issuing final 
regulations.
    In response to these new authorities, FEMA developed the State-
Administered Direct Housing Grant Guide (SADHGG), which is currently 
under interagency review, to provide guidance to STTs on the processes, 
roles, and responsibilities for implementation of direct housing 
through a grant, following a Presidentially-declared major disaster 
declaration. Once the review is complete, FEMA will finalize the SADHGG 
and begin directly supporting STTs with developing disaster housing 
strategies and administrative plans, which are required to qualify for 
a State-Administered Direct Housing Grant.

Holistic Delivery of Individual Assistance
    FEMA Mass Care is working with the American Red Cross on a new 
innovation called the Partner Hub. This online collaboration platform 
is set to be released in 2020 and will create a shared space for 
sheltering, feeding, and call center data. This platform will allow 
emergency managers and mass care specialists at multiple levels to see, 
map, analyze, and use data in ways not previously available.
    FEMA is also conducting a 360 Review of the Individuals and 
Households Program (IHP). The review is a multi-year effort focused on 
reducing the complexity of IHP and improving the consistency of program 
delivery to the field and applicants. This effort is expected to 
produce a holistic set of policy options for a more efficient, 
effective, and equitable program. This effort is scheduled to conclude 
in 2022 following a three-phase implementation effort.
    FEMA Community Services is also working with internal and external 
partners to speed up the recovery process by making services available 
earlier to survivors and ensuring the STTs are better prepared before, 
during, and after disasters to assess, apply for, and implement a 
federally-funded award program. Methods to accomplish this include 
increasing socialization and training with Regional and STT 
stakeholders; exploring flexibility and scalability in the 
implementation of programs; enhancing operational readiness; building 
out an evolving toolkit of resources (including templates, guidance, 
and other job aids); and developing new trainings to better assist our 
partners in leveraging federal resources to meet the needs of all 
survivor communities.
    In addition to internal efforts to support innovation, FEMA is 
partnering with academia to identify new and creative solutions to meet 
the post-disaster housing needs of disaster survivors. Notably, FEMA is 
working with Lincoln Labs and the Massachusetts Institute of Technology 
(MIT) to take a holistic view of the disaster housing process as well 
as explore cost effective and survivor-centric strategies. An example 
of work being conducted through this engagement includes on an 
initiative with the MIT Urban Risk Lab to develop the Shelter for 
Emergency and Expansion Design (SEED), a new model of temporary-to-
permanent housing that allows rapid deployment to locations outside the 
continental U.S. using intermodal shipping. The SEED unit is intended 
to provide durable shelter, thus allowing survivors to return to their 
property and transition into temporary housing sooner, which supports 
expedited whole-community recovery. The SEED design also supports long-
term permanent housing recovery with safe and durable expansion options 
customizable to the needs of each household.
    To guide many of these efforts, FEMA is standing up a permanent 
Strategy and Innovations organization within the Individual Assistance 
Division that will enable outstanding survivor experience through 
continuous innovative, creative, and strategic program and service-
delivery improvement.
    Lastly, FEMA established a working group in March of 2019 to 
develop a vision and implementation strategy for the holistic delivery 
of Individual Assistance post-disaster services. The working group 
developed ideas based on input from stakeholders across Recovery and 
the Regions. These ideas are the beginning of a conversation that will 
continue over the coming years as the Agency works collectively to 
implement this vision.
    These ideas are intended to re-orient FEMA's role in traditional 
recovery immediate relief functions while ensuring our Federal partners 
are also engaged in their housing and social service-related recovery 
roles. This multi-year effort will continue as part of FEMA's intent to 
continuously improve on the methods used to deliver disaster assistance 
to individuals and households.

Public Assistance Initiatives
    Within FEMA's Public Assistance (PA) Program, the Agency has 
designed continuous improvement into processes to meet programmatic 
goals of timeliness, accuracy, efficiency, accessibility, and 
simplicity. Recovery is complex, and innovation in large and small ways 
is key to improving these processes. Some key examples of innovation in 
the PA Program include:

    <bullet>  Guidance, tools, and technology for State-Led Public 
Assistance, enabling recipients to drive and manage some or all aspects 
of their own recoveries.
    <bullet>  Implementation of the Grants Manager/Grants Portal, a 
technology system that enables workflow management, scheduling, and 
radical transparency and accountability for applicants, recipients, and 
FEMA staff into the status of all PA projects.
    <bullet>  Designing Risk-Based Program Delivery, tailoring 
processes to the size and scale of projects, applicants, and disasters. 
Examples of this include:
        <bullet>  Small project self-certification, which allows 
applicants to certify that they have and will retain necessary 
information, rather than submitting it all and having FEMA do a 
complete validation. This process has been in place since Summer 2018 
and has been used for over 5,000 projects on over 60 disasters. This 
will become the basis for the ``PA-EZ'' Project Worksheet form to 
simplify procedures and enable applicants to submit documentation 
without heavy engagement from FEMA. The process has significantly 
reduced requirements for applicants to submit documentation to FEMA and 
has reduced FEMA's review time by more than half.
        <bullet>  Using sampling instead of validating every document 
or inspecting every site. This is now in effect in some stages of the 
PA process and the Agency is working to expand this further. Sampling 
reduces the amount of time and effort necessary to validate damages and 
documentation and, therefore, shortens the overall time for projects to 
be processed by FEMA.
        <bullet>  Pooling site inspectors at a central location and 
deploying them in time to complete scheduled work orders, which allows 
for sharing resources across disasters and reduces downtime.
        <bullet>  Future efforts include remote customer service, which 
could mean leveraging remote program support in place of deployed 
Program Delivery Managers.
    <bullet>  Continuously improving programs and processes. Examples 
of continuous improvement in action include:
        <bullet>  The Grants Manager/Grants Portal system is on an 
agile development cycle, meaning new functionality and improvements are 
pushed to the system monthly.
        <bullet>  Grants Manager/Grants Portal development, as well as 
our overall processes, are driven largely by submissions to the PA 
Change Control Tool, which allows FEMA, state, and applicants to submit 
modifications, improvements, and innovative ideas.

    Question 2. Mr. Byard, large, complicated projects may take time to 
work through in recovery; however, small, low-risk projects below the 
small projects threshold could be moved and completed faster, freeing 
up FEMA resources to focus on the large, complex projects. How is FEMA 
streamlining the small projects approval process?
    Answer. FEMA's goal is to design risk-based approaches into our 
processes for implementing the PA Program. Currently, our processes are 
the same whether developing a small repair project or a large complex 
restoration project.
    The goal is to identify where risks are lower with smaller 
projects, applicants, and disasters to enable FEMA, recipients, and 
subrecipients to spend time where PA will have the greatest impact. 
This includes simplifying processes for small, low-risk projects and 
applicants and designing scalable approaches to large projects, 
disasters, and applicants.
    FEMA is also developing a revised Information Collection package 
that will define the information FEMA collects for projects 
representing various levels of risk. This will allow us to better 
integrate risk assessments into our processes. The first step FEMA has 
taken is small project self-certification, which allows applicants to 
certify that they have and will retain necessary information, rather 
than submitting it to FEMA to do a complete validation. This process 
has been in place since Summer 2018 and has been used for over 5,000 
projects on over 60 disasters. The process has significantly reduced 
requirements for applicants to submit documentation to FEMA and has 
reduced FEMA's review time by more than half. This pilot will become 
the basis for the ``PA-EZ'' Project Worksheet form--akin to the ``1099-
EZ'' tax form--to simplify procedures and enable applicants to submit 
documentation without heavy engagement from FEMA. Future efforts may 
include remote Customer Service, which could mean leveraging 
centralized or remote program support in place of deployed FEMA staff.

    Question 3. Mr. Byard, FEMA has implemented a new Public Assistance 
Model intended to help address a number of issues including turnover in 
the field and clawbacks due to a lack of documentation, yet it seems 
FEMA may be applying the same process for all projects, including those 
under the small project threshold. Is that correct?
    Answer. The process for the development of small and large projects 
under FEMA's PA Program is the same up to the point of obligation. Upon 
obligation, FEMA applies the simplified procedures to small projects 
(Section 422 of the Stafford Act). Beginning in the summer of 2018, 
FEMA began implementing a small project self-certification process, 
which allows applicants to certify that they have and will retain 
necessary information, rather than having to submit it to FEMA to do a 
complete validation. This process has been used for over 5,000 projects 
in over 60 disasters. Currently, the self-certification process is 
optional, but FEMA's intent is that this pilot will become the basis 
for the ``PA-EZ'' Project Worksheet form--akin to the ``1099-EZ'' tax 
form--to further simplify procedures for all small projects. The PA-EZ 
Project Worksheet and other improvements to PA's information collection 
package is expected to be submitted to the Office of Management and 
Budget (OMB) for approval in the spring of 2020 and will become 
standard practice upon OMB's approval.

    Question 4. Mr. Byard, section 428 of the Stafford Act, enacted as 
part of the Sandy Recovery Improvement Act, was intended to provide 
States and territories significantly more flexibility in building back 
better and faster. Yet, 428 seems to be looking more like the paper-
intensive 406 process. How is FEMA ensuring 428 is being applied as 
intended?
    Answer. FEMA implemented Section 428 Alternative Procedures for 
permanent work shortly after the passage of the Sandy Recovery 
Improvement Act in 2013. The policy guidance developed for Section 428 
is based on accomplishing the goals of Alternative Procedures 
established in the law, including providing additional flexibility for 
Public Assistance Applicants in the recovery process and supporting 
rapid recovery after disasters.
    FEMA has updated the guidance for Section 428 several times based 
on lessons learned in implementing this new authority, most recently 
with the publication of version 4 of the 428 Alternative Procedures for 
Permanent Work on August 29, 2019. This version establishes Alternative 
Procedures as the first option considered for all large permanent work 
projects in order to ensure the ability of Applicants to drive their 
own recovery. It standardizes a single process for the development and 
consideration of fixed cost estimates for all permanent work projects. 
Applicants will be able to agree to a fixed cost estimate or choose to 
pursue funding under the standard actual cost procedures. This approach 
maximizes Applicant awareness of the opportunities and benefits 
provided by the Alternative Procedures, which include, but are not 
limited to:

    <bullet>  Flexibility in meeting post-disaster recovery needs, as 
opposed to being limited to rebuilding back to what existed prior to 
the disaster.
    <bullet>  Ability to share funds across all Alternative Procedures 
Permanent Work Projects.
    <bullet>  Ability to retain and use excess funds to reduce risk and 
improve future disaster operations (subject to timely closeout).
    <bullet>  Eligibility for cost-effective hazard mitigation on 
replacement projects.

    Question 5. Mr. Byard, as noted, the Department of Housing and 
Urban Development (HUD) was invited to the hearing but could not 
attend. Can you describe how FEMA works with HUD to ensure HUD's CDBG-
DR assistance is coordinated with you and other federal assistance? Are 
there any legislative solutions that would help improve that 
coordination?
    Answer. Community Development Block Grant Disaster Recovery (CDBG-
DR) further supplements state/local capability for permanent housing 
recovery and the non-federal cost share for public infrastructure 
recovery and hazard mitigation. Through the Recovery Support Functions 
under the National Disaster Recovery Framework (NDRF), FEMA's Public 
Assistance and Individual Assistance programs and other Federal 
agencies have been coordinating with CDBG-DR to maximize benefits and 
avoid duplications.
    As the coordinating agency of the Housing Recovery Support Function 
(RSF) under the NDRF, the U.S. Department of Housing and Urban 
Development (HUD) has the lead coordinating and facilitating the 
delivery of Federal resources to implement housing solutions that 
effectively support the needs of the whole community and contribute to 
its sustainability and resilience. Long-term recovery coordination 
between FEMA and HUD involves the use of CDBG-DR by state and local 
grantees for the non-federal cost share included in FEMA PA and Hazard 
Mitigation Grant Program (HMGP) grants. Recent CDBG-DR appropriations 
prevent HUD from prohibiting the use of CDBG-DR funds for ``payment of 
the non-Federal share required in connection with a Federal grant-in-
aid program undertaken as part of activities assisted'' as authorized 
by Section 105(a)(9) of the Housing and Community Development Act of 
1974. This means that grantees are authorized to use CDBG-DR funds to 
satisfy the FEMA cost-share requirements under PA and HMGP, so long as 
the use of the funds otherwise meets all of the requirements on the use 
of the CDBG-DR funds.
    As an example of coordination, HUD and FEMA recently developed a 
Memorandum of Understanding (MOU) on the flexible use of CDBG-DR funds 
for the non-federal cost share for PA and HMGP in Puerto Rico as a 
result of Hurricanes Irma and Maria. FEMA is currently working closely 
with HUD to implement this MOU.

    Question 6. Mr. Byard, do you have the authority and tools to 
ensure programs like those under HUD are coordinated? If not, please 
explain the hurdles. If so, please explain the authority and tools.
    Answer. HUD is an essential partner for FEMA under both the 
National Response Framework (NRF), where HUD supports sheltering and 
temporary housing under Emergency Support Function (ESF) #6; and NDRF, 
where HUD leads the Housing Recovery Support Function (RSF); and is a 
supporting agency for the Infrastructure Systems RSF, coordinated by 
the U.S. Army Corps of Engineers.
    HUD and FEMA coordinate continuously during disaster response and 
recovery under both the NRF through ESF #6, and the NDRF through the 
Housing and Infrastructure Systems RSFs. This coordination takes place 
both in Joint Field Offices/Joint Recovery Offices and at headquarters, 
where HUD is a critical partner in the Emergency Support Function 
Leadership Group and the Recovery Support Function Leadership Group, 
both chaired by FEMA, which coordinate national response and recovery 
policy and participation in national planning, preparedness and 
exercises.

    Question 7. Mr. Byard, the Disaster Recovery Reform Act further 
streamlined the process for assistance under 428 and removed the 
disincentive for alternative projects under 406. These changes are 
critical to building in more mitigation upfront. What is FEMA doing to 
make it easier for States and territories to take advantage of the 
alternative project flexibility?
    Answer. When an applicant determines the public welfare would not 
be best served by restoring a disaster damaged facility or its function 
and uses the funds toward a different facility (or facilities) that 
benefits the same community, it is called an alternate project under 
the authority of Section 406 of the Stafford Act. FEMA caps Federal 
funding for alternate projects based on the eligible restoration costs 
of the disaster damaged facility. Prior to the Disaster Recovery Reform 
Act (DRRA), FEMA reduced Federal funding on alternate projects by 10 
percent of the Federal share of the estimate to restore the original 
facility (25 percent for private nonprofit entities). Section 1207(a) 
of the DRRA amended Stafford Act Section 406(c), eliminating those 
reductions for alternate projects in major disasters and emergencies 
declared on or after August 1, 2017.
    Section 428 of the Stafford Act authorized Alternative Procedures, 
which FEMA implements to promote resiliency through inclusion of hazard 
mitigation and increases effectiveness of assistance through increased 
flexibility and expanded use of funds. Mitigation is incorporated into 
428 cost estimates via identification and incorporation of cost-
effective mitigation measures (Section 406 mitigation). If funds for 
406 hazard mitigation are included in a fixed cost subaward, the 
Subrecipient must complete the approved scope of work of the hazard 
mitigation in order to retain the mitigation funding. Section 428 also 
allows for retention of any realized excess funds to be applied to 
certain mitigation activities that reduce risk of future damage, 
including cost-effective hazard measures for undamaged facilities. The 
Applicant must submit a proposed scope of work for use of any excess 
funds, along with a project timeline to the Recipient. FEMA will 
evaluate the proposed use of excess funds for reasonableness to ensure 
prudent use of funds. FEMA will also evaluate the submitted project 
timeline and approve an appropriate deadline for project completion, 
not to exceed the overall disaster period of performance.

    Question 8. Mr. Byard, the Stafford Act itself is fairly broad and 
flexible. But red-tape can often be found in FEMA's regulations, 
policies and guidance. We have an extraordinary number of disasters--
what are you doing to proactively review your own policies and identify 
changes that will speed up recovery?
    Answer. As part of Goal III of FEMA's 2018-2022 Strategic Plan to 
``Reduce the Complexity of FEMA,'' the Agency is implementing a number 
of initiatives to help streamline recovery. For example, in FEMA's PA 
Program, we are piloting a small project self-certification, which 
allows applicants to certify that they have and will retain necessary 
information, rather than submitting it to FEMA to do a complete 
validation. This process has been in place since Summer 2018 and has 
been used for over 5,000 projects on over 60 disasters. This pilot will 
become the basis for the ``PA-EZ'' Project Worksheet form--akin to the 
``1099-EZ'' tax form--to simplify procedures and enable applicants to 
submit documentation without heavy engagement from FEMA. FEMA also 
released the State-Led Public Assistance Guide in February 2019 which 
allows recipients to have more control over disaster operations and use 
their existing relationships and knowledge of local conditions to 
provide better recovery outcomes and customer service to Applicants.
    For Individual Assistance, FEMA has made several changes to help 
streamline recovery. In an effort to simplify the delivery of recovery 
programs by minimizing programmatic administration requirements, on 
July 28, 2018, FEMA delegated certain Individuals and Households 
Program (IHP) and Community Services Programs policy approvals to the 
Regional Administrator and the Federal Coordinating Officer. These 
changes were later solidified via the publication of the Individual 
Assistance Program and Policy Guide, which was published in March 2019. 
FEMA has also created the Sheltering and Housing Field Team in response 
to Hurricanes Florence and Michael. These teams integrate state, local, 
non-profit, FEMA, and other Federal Agency efforts to ensure a unified 
approach to disaster housing and sheltering.

    Question 9. Mr. Byard, concerns have been raised that contractors 
that completed work for the emergency housing program--Sheltering and 
Temporary Essential Power (STEP)--in the US Virgin Islands have not yet 
been paid. This has impacted many small businesses unable to absorb the 
costs. Where is FEMA in resolving this issue?
    Answer. After Hurricanes Irma and Maria caused extensive damage to 
housing in the U.S. Virgin Islands (USVI), FEMA approved USVI's request 
to utilize FEMA's Sheltering and Temporary Essential Power (STEP) Pilot 
Program. USVI tasked the Virgin Islands Housing Finance Authority 
(VIHFA, Applicant) with managing the STEP program. VIHFA entered into 
contracts for construction repair work, and FEMA developed PW 100 to 
fund the actual STEP construction costs.
    <bullet>  FEMA has obligated $249 million to PW 100, of which VIHFA 
has drawn down $201 million.
    <bullet>  A draft Determination Memo (DM) was provided to USVI in a 
meeting held November 22, 2019, identifying $55.87 million of 
ineligible construction related costs. FEMA formally issued the DM on 
December 2, 2019. FEMA will reconcile the ineligible drawn costs with 
eligible construction costs yet to be submitted and will allow no 
additional draw downs on PW 100 until costs have been reconciled.
    <bullet>  On December 5, 2019, USVI submitted additional documents 
for FEMA review. FEMA's Validate As You Go and STEP teams are working 
jointly on the review to ensure work and costs are eligible and 
reasonable.
    <bullet>  As noted above, VIHFA entered into contracts for 
construction repair work. Therefore, VIHFA, not FEMA, is responsible 
for paying their contractors. FEMA makes funding available through a 
federal grant. The federal government is not a party to these contracts 
and all contractual and administrative issues that arise out of VIHFA's 
procurement are its sole responsibility. The federal regulations make 
this very clear in 2 C.F.R. Sec.  200.318(k).

    Question 10. Mr. Byard, there has been a number of reforms and 
changes to policies as a result of the Sandy Recovery Improvement Act 
and DRRA. As FEMA headquarters pushes out new guidance and memos to 
your regions and field staff, how are you ensuring those changes are 
actually being implemented as intended on the ground?
    Answer. The Public Assistance National Delivery Model framework 
provides for both consistency and continuous improvement as 
foundational elements of our program delivery processes. Successful 
implementation of Public Assistance requires partnership and 
collaboration between the recipient (state or territory), the 
applicant, and FEMA to work together in full transparency within the 
Grants Manager/Grants Portal technology system. It enables workflow 
management, scheduling, policy compliance, and full transparency and 
accountability for applicants, recipients, and FEMA staff into the 
status and formulation of all Public Assistance projects.
    Further, any changes to the PA Program dictated by legislation are 
integrated into existing course curriculum, training, and outreach 
activities. In 2019, over 5,000 FEMA staff received title specific 
training to perform their jobs; approximately 1,152 State, local, 
territorial and tribal participants across 18 states received a two-day 
training on Grants Manager/Grants Portal; and over 15,000 people took 
one of FEMA's 28 Independent Study courses that cover a variety of 
issues on the PA Program policies and processes.

    Question 11. Mr. Byard, as pointed out in testimony by other 
witnesses, the private insurance sector deploys modern technologies to 
develop more accurate and timely damage assessments. A small sampling 
of FEMA assessments following Hurricane Michael indicated that the 
private sector method was more accurate in assessing damage. Has FEMA 
explored testing new technologies to speed up the process, reduce 
staffing needs, and get more accurate assessments?
    Answer. FEMA has actively utilized geospatial imagery in various 
manners to deliver recovery assistance including within the Individuals 
and Households Program. There are still some regulatory compliance 
concerns that FEMA will continue to assess before we can more fully 
implement use of imagery across various Individuals and Households 
Program assistance categories. Partnering further with State and Tribal 
recovery managers is also needed before more broad use of that type of 
technology is realized. We have implemented some stronger technology 
controls that have reduced the ability of identity thieves to place on-
line applications; this should lead to reductions in the need for 
assessors to contact applicants when imagery is utilized. We continue 
to use technology to improve the speed of delivery for assessments, 
such as adopting data mechanisms to allow for proof of occupancy and 
ownership without always requiring the assessor to have the applicant 
provide that proof during the assessment.

  Questions from Hon. Stacey E. Plaskett to Jeffrey Byard, Associate 
   Administrator, Office of Response and Recovery, Federal Emergency 
        Management Agency, U.S. Department of Homeland Security

    Question 1. FEMA's Public Assistance Program in the Virgin Islands 
has required the territory to submit paid contractor invoices prior to 
being able to request reimbursement of federal funds. However, due to 
the territory's severe, disaster-related economic downturn, the 
resulting cash-flow deficiencies have made it extremely difficult for 
the local government to advance the funds to pay contractors. This has 
led to work delays and contractor dissatisfaction that has jeopardized 
the speed of recovery.
    According to the Cash Management Improvement Act, FEMA can 
currently pay local governments on the basis of invoices before locals 
have to pay vendors.
    Why isn't FEMA using this authority to advance funding for recovery 
projects in the Virgin Islands?
    Answer. Due to the devastating impacts of Hurricanes Irma and 
Maria, the USVI is on track to receive a significant level of federal 
disaster funding. The goal of this federal investment is to help the 
U.S. Virgin Islanders rebuild for a more resilient future. Throughout 
the ongoing recovery process, FEMA and the USVI have a shared 
responsibility to ensure strong stewardship of taxpayer dollars.
    In 2019, in the course of FEMA's routine oversight for improper 
payments, FEMA examined a statistical sample of Public Assistance grant 
disbursements in the USVI. FEMA found potential improper payments in 
89% of the dollars tested. This was primarily due to insufficient 
documentation to support the disbursements and for work that was not 
defined within the scope of work for the project. As a result of this 
finding, FEMA implemented manual drawdown restrictions for all Public 
Assistance and Hazard Mitigation Grant Program disbursements in the 
USVI as of October 1, 2019. For most states and territories, FEMA 
obligates the Federal share to the Recipient (state or territory) and 
the Recipient manages the drawdown process with its Subrecipients. 
Under the manual drawdown process, the USVI must submit requests for 
disbursement to FEMA along with documentation supporting the request.
    FEMA would like to clarify that we do not require the USVI 
government to provide paid invoices prior to release of funds. We 
require submittal of invoices, but they do not need to be accompanied 
by Proof of Payment. While FEMA has determined these additional 
financial controls are necessary and prudent, we also remain committed 
to working with the USVI to ensure long-term recovery efforts underway 
continue to progress forward.

    Question 2. How much funding is currently pending for the STEP 
program in the Virgin Islands, and what is the status of the Project 
Worksheets related to the STEP program in the Virgin Islands?
    Answer. After Hurricanes Irma and Maria caused extensive damage to 
housing in the USVI, FEMA approved USVI's request to utilize FEMA's 
STEP Pilot Program. The purpose of STEP is to enable disaster survivors 
to shelter in their own homes through limited, emergency repairs. USVI 
tasked the VIHFA (Applicant) with managing the STEP program and 
contracted with Witt O'Brien's (WOB) to manage both the USVI's 
(Recipient) and Applicant's (Sub-recipient) disaster recovery tasks and 
also for project management associated with the STEP program run by 
VIHFA.
    FEMA developed two project worksheets, PW 100 to fund the actual 
STEP repair construction costs, and PW 273 to fund costs associated 
with managing the STEP program.

PW 100
    <bullet>  The scope of work (SOW) for PW 100 is for construction 
labor and materials costs, including construction management and other 
construction-related soft costs, subject to a cost cap per house. FEMA 
has obligated $249 million, of which VIHFA has drawn down $201 million.
    <bullet>  A draft DM was provided to USVI in a meeting held 
November 22, 2019, identifying ineligible costs and amounts drawn down 
by VIHFA that would more appropriately be funded under PW 273. FEMA 
formally issued the DM on December 2, 2019. FEMA will reconcile the 
ineligible drawn costs with eligible construction costs yet to be 
submitted and will allow no additional draw downs on PW 100 until costs 
have been reconciled. FEMA will move the applicable drawn amounts from 
PW 100 to PW 273.
    <bullet>  USVI, WOB, the Applicant, and FEMA have had multiple 
meetings, conference calls and discussions on eligibility and process. 
There are $55.87 million of ineligible construction-related costs drawn 
under PW 100 that will need to be reconciled with outstanding invoices 
prior to drawing any additional funds. On December 5, 2019, USVI 
submitted additional documents for FEMA review. FEMA's Validate As You 
Go and STEP Teams are working jointly on the review to ensure work and 
costs are eligible and reasonable.

PW 273
    <bullet>  The SOW for PW 273 is for project management, call 
center, case management, and STEP inspection costs, not subject to the 
cost cap. FEMA has obligated $35.5 million, of which VIHFA has drawn 
down $16.1 million.
    <bullet>  VIHFA submitted an amendment request for additional SOW 
totaling $766.5 million. FEMA has written a version allowing $268.4 
million. This project has been awaiting Recipient Final Review in 
Grants Manager since November 8, 2019. USVI will review and provide 
comments to the project.
    <bullet>  Working meetings between USVI, the Applicant, and FEMA 
are scheduled to discuss documentation necessary to support PW 273 
expenditures and costs.

    Question 3. In part due to its experience in the Virgin Islands, 
FEMA has decided not to use the STEP Program during future disaster 
recovery efforts.
    How does FEMA plan to address emergency sheltering needs in the 
event of future major disasters in communities that face challenges and 
circumstances like those in the Virgin Islands after hurricanes Irma 
and Maria?
    Answer. FEMA still retains authority under Section 403 of the 
Stafford Act to provide an array of sheltering options to disaster 
survivors unable to return to their homes. These activities include:

    <bullet>  Support for state/local/tribal/territorial emergency 
sheltering efforts in short-term, congregate shelters.
    <bullet>  Activation of Transitional Sheltering Assistance by which 
survivors can be placed in non-congregate lodging options (e.g., 
hotels).
    <bullet>  Temporary home repairs offered via the U.S. Army Corps of 
Engineers ``Blue Roof'' program.

    FEMA is continuing to assess options under its Section 403 
authority to provide non-congregate, emergency sheltering assistance to 
survivors that allows them to safely return to those homes. Part of 
that assessment is to better leverage our whole community partners to 
include voluntary organizations, universities, charitable foundations, 
and other non-governmental resources to coordinate on service delivery, 
reduce duplication of efforts, and ensure holistic efforts are used to 
meet the full needs of disaster survivors.

    Question 4. The lack of resources and qualified manpower to 
complete all fixed cost estimates for alternative procedures projects 
in the Virgin Islands by FEMA's deadline of March 20, 2020 is of great 
concern.
    a.  Is FEMA willing to devote more resources and personnel to site 
visits and the more expeditious completion of the work it deems 
necessary in the Virgin Islands?
    b.  Would FEMA be open to an extension of the March 20, 2020 
deadline by at least 90 days?
    Answer. The 428 Guide establishes a March 20, 2020, deadline for 
FEMA, USVI, and Public Assistance Applicants to reach agreement on a 
fixed-cost estimate for each large permanent work project elected by an 
Applicant to be developed under Section 428. FEMA is diligently working 
with the Recipient and Applicants to develop and reach agreement on 
fixed-cost estimates for all Section 428 projects.
    If it is apparent that there will be a need for time extensions, 
FEMA and the Recipient will review time extension requests on a 
project-by-project basis, based on extenuating circumstances. Time 
extensions must be requested by the Applicant through the Recipient and 
approved by FEMA's Assistant Administrator for Recovery. Based on the 
428 Guide, FEMA will not consider a blanket time extension for all 
potential alternative procedures projects.
    Projects for which a fixed-cost agreement has not been signed by 
March 20, 2020, and for which a time extension has not been granted 
will be processed using standard procedures, and projects will be paid 
based on actual eligible costs.

    Question 5. It has been over two years since hurricanes Irma and 
Maria. Would you clarify FEMA's position as to whether it is an agency 
devoted to long-term disaster recovery?
    Answer. FEMA remains committed to Hurricane Irma and Maria disaster 
recovery efforts and continues to partner with federal, state, local, 
territorial, voluntary agency and private sector partners on housing 
solutions, infrastructure project development, and rebuilding in areas 
declared under a Presidentially-declared disaster declaration. The pace 
of long-term recovery is dependent on many factors, including, but not 
limited to, the scope and severity of damages, project complexity, pre-
disaster conditions, rebuilding and relocation decision-making and 
associated risks, as well as the application of building codes and 
standards.
    FEMA's support of long-term recovery is guided by the NDRF, which 
enables effective recovery support to disaster-impacted States, Local, 
Tribal, and Territorial (SLTT) jurisdictions. FEMA uses the NDRF and 
its coordinating structures to engage necessary and available 
department and agency capabilities to provide enhanced coordination and 
support SLTT recovery efforts when necessary. It also focuses on how 
best to restore, redevelop and revitalize the health, social, economic, 
natural and environmental fabric of the community and build a more 
resilient Nation. This support is needed when one or more incidents 
occur that exceed the capacity of state, tribal, or territorial 
resources.
    The Framework is consistent with the vision set forth in the 
Presidential Policy Directive (PPD)-8, National Preparedness, which 
directs FEMA to work with interagency partners to establish a recovery 
framework. The Recovery Support Function partners, including primary 
and supporting organizations, are represented in long-term recovery 
efforts for hurricanes Irma and Maria. This includes, but is not 
limited to, U.S. Departments of Health and Human Services, Small 
Business Administration, Agriculture, Energy, Commerce, Treasury, and 
HUD along with U.S. Army Corps of Engineers.

     Questions from Hon. David Rouzer to Jeffrey Byard, Associate 
   Administrator, Office of Response and Recovery, Federal Emergency 
        Management Agency, U.S. Department of Homeland Security

    Question 1. Mr. Byard, I recently saw that FEMA has decided to 
terminate the STEP Program. Many of my constituents used this program 
in the aftermath of Hurricane Florence to help them stay in their homes 
instead of relocating while emergency repairs were made to make the 
home safe and habitable. Can you speak to the reasons for 
discontinuation? What would be a better strategy to achieve the 
intended result of the STEP program?
    Answer. FEMA conducted an evaluation to determine if the STEP Pilot 
Program was meeting its stated objectives. The findings of this 
evaluation raised significant questions as to whether STEP was 
effectively and efficiently achieving its goals. In sum, the evaluation 
found that:

    <bullet>  Significant time to initiate and complete STEP repairs 
makes it difficult to determine the extent to which STEP saves lives, 
protects public health and safety, and protects property, as required 
by Section 403 of the Stafford Act;
    <bullet>  Time delays in completing repairs do not support 
minimization of disruption to communities by enabling sheltering in 
place;
    <bullet>  STEP has limited impact on congregate and other forms of 
non-congregate sheltering; and
    <bullet>  STEP involves significant costs for limited repairs as 
compared to other forms of FEMA assistance.

    Further, survivors who received assistance under STEP were either 
sheltering elsewhere (e.g., other forms of FEMA assistance for 
sheltering, staying with family or friends, etc.) or remaining in a 
disaster-damaged home waiting on emergency repairs under STEP for 
months at a time. In either case, STEP did not provide an alternative 
emergency sheltering option. The evaluation also determined that STEP 
had little to no impact on the need for other forms of emergency 
sheltering. Congregate shelters in every case were closed before 
emergency repairs under STEP were completed, and there was no 
discernible impact on other FEMA sheltering or housing programs.
    Based on these findings, FEMA determined that it cannot in good 
faith continue to deliver the STEP Pilot Program, particularly given 
the reality of the time and cost required, without the risk of 
exceeding the authority of Section 403. Consequently, FEMA discontinued 
the STEP Pilot Program as of October 16, 2019.
    In terms of a better strategy to meet the stated objectives, FEMA 
continually evaluates its disaster assistance programs to determine 
their effectiveness and identify areas in need of improvement. In the 
case of STEP, it was intended to meet certain objectives and 
implemented as a pilot to determine if such a program was capable of 
doing so. Once the pilot was delivered in a sufficient number of events 
to make such a determination, it proved incapable of meeting the 
objectives. Nevertheless, FEMA still retains authority under Section 
403 of the Stafford Act to provide an array of sheltering options to 
disaster survivors unable to return to their homes. These activities 
include:

    <bullet>  Support for state/local/tribal/territorial emergency 
sheltering efforts in short-term, congregate and in limited 
circumstances non-congregate shelters.
    <bullet>  Activation of the Transitional Sheltering Assistance 
program by which survivors can be placed in non-congregate lodging 
options (e.g. hotels).
    <bullet>  Temporary home repairs offered via the U.S. Army Corps of 
Engineers ``Blue Roof'' program.

    FEMA is continuing to assess options under its Section 403 
authority to provide non-congregate, emergency sheltering assistance to 
survivors that allows them to safely return to those homes. Part of 
that assessment is to better leverage our whole community partners to 
include voluntary organizations, universities, charitable foundations 
and other non-governmental resources to coordinate on service delivery, 
reduce duplication of efforts and ensure holistic efforts are used to 
meet the full needs of disaster survivors.

     Questions from Hon. Doug LaMalfa to Jeffrey Byard, Associate 
   Administrator, Office of Response and Recovery, Federal Emergency 
        Management Agency, U.S. Department of Homeland Security

    Question 1. In August 2019, my staff toured Whiskeytown National 
Recreation Area and found several private inholdings within the 
recreation area that had been cleared and cleaned of debris. However, 
nearby federal buildings (less than 100 yards away) had not been given 
the same treatment. This was nearly 13 months after the Carr Fire. Is 
there a regulation that currently prevents FEMA from contracting or 
coordinating the clearing and cleanup of federal buildings near private 
buildings? If not, do you have any understanding of why a National Park 
System building would be left in a rubbish and burned state, while a 
nearby private building site was cleared and prepared for rebuilding?
    Answer. Under the Stafford Act, FEMA does not have the authority to 
fund debris removal, or other restoration work, on lands or facilities 
owned and operated by other Federal agencies. FEMA would defer to the 
National Park Service and the U.S. Department of the Interior to 
respond to questions concerning disaster cleanup and repair work on 
National Park lands or facilities.

    Question 2. Does FEMA currently have an operating standard for the 
definition of orphaned roads? These roads are privately-owned, but used 
publicly. They do not have any tolls, or access restrictions of any 
kind. There has been some concern in Butte County, California, where 
the Camp Fire burned in November 2018 that debris (specifically the 
standing, burnt trees) along these roads would not be cleared because 
orphaned roads were not considered part of the public infrastructure 
system. Further, the damage caused to these orphaned roads during the 
disaster recovery, by the massive amounts of debris-laden trucks, may 
not be eligible for road repair reimbursement if they are not correctly 
categorized as public infrastructure.
    Answer. FEMA does not have a definition for orphaned roads; 
however, in our guidance we indicate private roads are not eligible for 
PA. The Public Assistance Program and Policy Guide (PAPPG), version 
3.1, April 2018, in VII. Permanent Work Eligibility, H. Eligibility 
Considerations by Facility, 1. Roads and Bridges (Category C) on page 
116, states ``Private roads, including homeowners' association roads, 
are not eligible'' for repair. The next version of the PAPPG, which 
will be published shortly, further clarifies: ``Private roads are those 
that are not owned or operated by or otherwise the legal responsibility 
of a local, Tribal, State, or Federal entity (including orphan roads, 
roads in gated communities, homeowners' association roads, etc.).''

    Question 3. Have GAO or FEMA completed any reports, 
recommendations, or provided any technical assistance for legislation 
relating to the use of disaster reimbursement to rebuild permanent 
structures, rather than temporary housing? Is either organization aware 
of any cost-benefit analyses on this subject?
    Answer. The Agency is happy to provide technical drafting 
assistance upon request, in accordance with OMB Circular A-19. FEMA has 
not conducted an in-depth cost-benefit analysis on the use of disaster 
reimbursement to rebuild permanent structures, rather than temporary 
housing.

     Question from Hon. Garret Graves to Jeffrey Byard, Associate 
   Administrator, Office of Response and Recovery, Federal Emergency 
        Management Agency, U.S. Department of Homeland Security

    Question 1. Prior to DRRA, the Stafford Act required that disaster 
assistance provided to an uninsured facility in a Special Flood Hazard 
Area must be reduced by either the value of the facility at the time of 
the disaster or the insurance proceeds that would have been payable 
under the NFIP. DRRA Section 1207(b) limited this penalty, which 
largely affected multi-structure campuses like schools and hospitals, 
by applying this reduction to one building on a multi-structure campus 
rather than to each building individually. However, FEMA has yet to 
issue guidance. Without this guidance, parish schools and other public 
buildings in my district and South Louisiana cannot realize the actual 
reduction in their costs.
    Can you comment on the status of implementation of Section 1207(b)?
    Answer. Section 1207(b) of the Disaster Recovery Reform Act of 2018 
(DRRA) amended Section 406(d)(1) of the Robert T. Stafford Disaster 
Relief and Emergency Assistance Act (Stafford Act) regarding the 
reduction of Federal assistance applicable to insurable facilities 
located in a Special Flood Hazard Area identified for more than one 
year.
    Amended Section 406(d)(1) states in relevant part: ``This section 
shall not apply to more than one building of a multi-structure 
educational, law enforcement, correctional, fire, or medical campus.'' 
It further states that this provision applies only to any major 
disaster or emergency declared on or after January 1, 2016, through 
December 31, 2018. This directs FEMA to make only one flood insurance 
reduction in accordance with Section 406(d) of the Stafford Act per 
applicable campus even though there is more than one facility on the 
campus.
    On August 27, 2019, the FEMA Assistant Administrator of Recovery 
issued a memorandum to the FEMA Regional Administrators providing 
guidance on the implementation of Section 1207(b) of the Disaster 
Recovery Reform Act of 2018. The memorandum is attached.

   Questions from Hon. Dina Titus to Dennis Alvord, Deputy Assistant 
  Secretary of Commerce for Economic Development and Chief Operating 
   Officer, Economic Development Administration, U.S. Department of 
                                Commerce

    Question 1. Administering disaster recovery funds clearly requires 
EDA staff who are not only familiar with the capabilities and 
limitations of these disaster resources, but who are also in the field 
and accessible for disaster-impacted communities.
    <bullet>  How many staff does EDA currently have out in the field 
to help applicants through the grant process for these tranches of 
appropriations?
    Answer. EDA has 36 permanent Economic Development Representatives 
(EDRs) positions spread across its six regional offices. Many EDRs are 
physically located in the state(s) they are assigned to. As of November 
2019, 33 of the 36 EDR positions are filled. These EDRs are accessible 
to the disaster-impacted communities.

    <bullet>  Is this enough capacity, or do your plans call for 
additional staff?
    Answer. EDA's disaster response plan identifies the need for 
additional temporary staff to increase its capacity to make grant 
awards and manage the additional disaster supplemental funding 
received. The plan calls for hiring an additional 65 temporary and term 
staff to provide this additional capacity. Included in the 65 
additional positions are four EDRs, one of which has been filled and 
three are in the process of being filled.

    <bullet>  [If plans call for additional capacity] What obstacles 
exist for fully staffing your disaster recovery team before EDA gets 
underway with making grants out of the most recent disaster 
supplemental?
    Answer. Like many federal agencies, EDA faces challenges in hiring 
additional staff. The U.S. Government Accountability Office testified 
in July 2019 (GAO-19-696T) that a range of problems and challenges with 
recruitment and hiring efforts exists in all federal agencies. The 
largest obstacle for EDA is timely on-boarding of temporary staff to 
assist with recovery coordination and grant-making. EDA will continue 
to work with the Department and its existing HR service providers to 
prioritize hiring for critically important disaster recovery positions.

    Question 2. We heard from our second panel about some of the 
challenges local officials experience during the recovery process 
working with Federal agencies. We haven't heard of similar challenges 
in working with EDA--can you explain how EDA fits into the National 
Disaster Response Framework?
    Answer. EDA, on behalf of the Department of Commerce, serves as the 
Coordinating Agency for the Economic Recovery Support Function 
(Economic RSF), which also includes assistance from primary and 
supporting agencies such as: U.S. Small Business Administration, U.S. 
Department of Agriculture, Federal Emergency Management Agency (FEMA), 
Department of Labor, Department of the Treasury, Environmental 
Protection Agency, Department of Housing and Urban Development (HUD), 
and other Department of Commerce bureaus. EDA's role in managing the 
Economic RSF is to facilitate coordination among these agencies who 
share a role in the provision of grants, loans, training, and other 
assistance to support economic recovery efforts in disaster-impacted 
communities, as well as to facilitate effective integration and 
alignment with concurrent recovery assistance provided by the other 
five RSFs: Housing, Infrastructure Systems, Health and Social Services, 
Natural and Cultural Resources, and Community Planning and Capacity 
Building.
    EDA meets regularly with FEMA's interagency RSF Leadership Group 
and has a dedicated headquarters-based National Disaster Recovery 
Framework (NDRF) Coordinator who collaborates with other RSF agency 
leads and FEMA to ensure a coordinated recovery effort. EDA also has an 
experienced and streamlined local presence through its Regional 
Offices, and staff from these offices can be deployed as Economic RSF 
Field Coordinators to provide on-the-ground recovery assistance at 
Joint Field Offices. In these disaster locations, whether under the 
NDRF, or acting pursuant to a supplemental disaster appropriation, EDA 
initiates conversations with federal agencies about issues of 
overlapping interest, including complementary funding streams and 
projects of mutual relevance. EDA invites other federal agencies to 
participate in EDA organized economic recovery workshops held in 
affected regions, helping communities navigate multiple federal 
resources more easily. EDA also helps ensure that interagency 
assistance reaches and aligns with state and local economic development 
priorities through early and active engagement with its established 
network of 392 Economic Development Districts (EDDs), 52 Tribal 
Partnership Planning organizations, 64 University Centers, institutions 
of higher education, and other partners. Drawing on its pre-existing 
relationships with regional and local economic development agencies and 
partners, we are often able to move rapidly to identify needs, 
priorities, and relevant resources that offer immediate and longer-term 
solutions to unanticipated economic disruption caused by natural 
disasters.

  Questions from Hon. Mark Meadows to Dennis Alvord, Deputy Assistant 
  Secretary of Commerce for Economic Development and Chief Operating 
   Officer, Economic Development Administration, U.S. Department of 
                                Commerce

    Question 1. Mr. Alvord, in the Disaster Recover Reform Act, 
Congress enacted language that clarified that EDA can take into account 
mitigation in evaluating projects. How has EDA incorporated this into 
its disaster grants?
    Answer. EDA is keenly aware that regional economic prosperity is 
linked to an area's ability to prevent, mitigate, withstand, and 
quickly recover from major disruptions to its economic base and has 
built this priority into its disaster granting. In April 2018, EDA 
announced availability of $587 million for grants to eligible entities 
to address the impacts of 2017 major disasters. Applicants for funding 
are required to demonstrate how the proposed project will meet disaster 
recovery and resilience goals related to 2017 federally declared 
disasters. This 2018 Disaster Supplemental Notice of Funding 
Opportunity (NOFO) defines resilience as the ability of a community or 
region to anticipate, withstand, and bounce back from various 
disruptions to its economic base. Examples of resilience are broadening 
the industrial base with economic diversification initiatives, 
enhancing business retention and expansion programs, developing and 
constructing high-performance infrastructure to mitigate future risk 
and vulnerability, and comprehensive planning efforts that involve 
engagement from the community to define and implement a collective 
vision for economic recovery and resilience. The same emphasis on 
resilience was included in EDA's subsequent NOFO for the 2019 Disaster 
Supplemental. By including a resilience requirement in its 2018 and 
2019 Disaster Supplemental NOFOs, EDA is encouraging regions and 
communities to consider ways to mitigate their vulnerabilities and 
risks and increase preparedness to future disasters.
    EDA grantees are also required to align their grant activities with 
a Comprehensive Economic Development Strategy (CEDS). Since 2015 EDA 
has required the CEDS to incorporate the concept of economic resilience 
(which includes mitigating against risk from natural and man-made 
disasters). EDA suggests regions implement specific actions to bolster 
their long-term economic durability (steady-state initiatives) and 
share information and convene stakeholders to collaborate on key 
challenges (responsive initiatives). The CEDS Guidelines can be found 
at www.eda.gov/ceds.

    Question 2. Mr. Alvord, how does EDA work with or coordinate with 
other federal partners such as FEMA and HUD?
    Answer. EDA works with other federal partners in several ways to 
coordinate resources for disaster recovery.
    First, as mentioned in response to Subcommittee Chair Titus, EDA, 
on behalf of the Department of Commerce, serves as the lead 
Coordinating Agency for federal interagency Economic RSF under the 
NDRF. In this capacity, EDA coordinates closely with FEMA in carrying 
out its economic recovery responsibilities and in aligning related 
federal recovery resources. EDA solicits the participation of FEMA, 
HUD, and other interagency partners in the numerous economic recovery 
workshops it holds with regional and local economic development 
partners. As a member of FEMA's RSF Leadership Group, EDA provides 
input on interagency recovery guidance to set national preparedness 
targets, assesses readiness, prepares field staff for deployments, and 
otherwise offers expertise on effective policies, tools, and data to 
assist with economic recovery efforts. Through its Economic RSF role, 
EDA also regularly meets with other RSF lead agencies, such as HUD, to 
share information and coordinate resources, including frequent 
consultation on opportunities for regional and local stakeholders to 
leverage EDA disaster supplemental funding with Community Development 
Block Grant disaster recovery funds to advance complementary community 
and economic development projects in Puerto Rico, USVI, and other 
disaster impacted areas.
    EDA has also worked closely with HUD and other federal agencies to 
promote federal resources for Opportunity Zones in disaster impacted 
areas and has partnered with HUD and other federal agencies to cross-
promote federal resources, encourage alignment of regional plans, and 
otherwise coordinate federal assistance for distressed areas through 
EDA's leadership in Economic Development Integration.
    Lastly, EDA has also worked closely with FEMA on a public facing 
website (https://recovery.fema.gov/) which tracks funding and outcomes 
from supplemental funding as a result of the 2017-2018 hurricane season 
and subsequent disasters.

    Question 3. Mr. Alvord, what are some of the major challenges you 
see in distressed communities impacted by disasters?
    Answer. As noted above, EDA's extensive network of 392 regional 
EDDs, 52 Tribal Partnership Planning organizations, 64 University 
Centers, institutions of higher education, and other partners greatly 
extends EDA's capacity to share information and facilitate coordination 
of interagency resources for economic recovery. While most of the 
country's distressed areas are served by these partners, some of the 
areas impacted by recent disasters, such as Puerto Rico, USVI, and 
parts of the western United States, do not have established EDDs or 
equivalent regional organizations with the capacity to drive long-term, 
strategic economic development plans and projects. In some cases, the 
organizations serving distressed communities have insufficient staff 
and organizational capacity to lead a robust, sustained recovery 
effort. They remain unfamiliar with existing federal resources or lack 
resources to plan, design or submit competitive applications and 
projects for consideration. These factors greatly delay or deter 
recovery and resiliency efforts in areas most in need of assistance.
    EDA has made disaster grants to help build capacity of such 
organizations by funding Disaster Recovery Coordinators, feasibility 
studies and expertise, and local universities to deliver training and 
other capacity building assistance to local organizations and 
municipalities. EDA, through its leadership role in the Economic RSF, 
has coordinated interagency resources to leverage such capacity 
building. For example, EDA helped facilitate a historic Memorandum of 
Understanding between the University of Puerto Rico and the University 
of USVI to increase collaboration and to help facilitate long-term 
economic recovery and resiliency.

    Question 4. Mr. Alvord, can you talk more about the benefits of how 
EDA is leveraging Opportunity Zones and, more specifically, in its 
disaster funding?
    Answer. Since January 2018, EDA has invested nearly $347 million in 
239 projects in or near Opportunity Zones across the United States, 
many of which have been awarded to Opportunity Zones that have also 
been stricken by natural disasters. In fact, in the same time period, 
EDA has invested over $184 million in 57 projects to support 
Opportunity Zones across the country that were eligible for and funded 
via the FY 2018 Disaster Supplemental appropriation. These included 
over $162 million in 44 projects located within an Opportunity Zone and 
over $21 million in 13 nearby or regional projects that are intended to 
benefit one or more Opportunity Zone.
    In July 2018, EDA issued a NOFO that made Opportunity Zones 
eligible for funding from EDA, through its special needs category. 
While the vast majority of Opportunity Zones qualify under EDA's 
distress criteria, this designation captured and made eligible the 
remaining zones allowing EDA consideration of additional investments 
that may catalyze regional development impacts by leveraging additional 
private capital investment to create jobs while strengthening and 
diversifying regional economies.
    In June of this year, EDA added Opportunity Zones as an Investment 
Priority, which increase the probability that we will fund more 
catalytic Opportunity Zone-related projects that will fuel greater 
public investment in these areas.
    These two policy changes mean that regardless of EDA's economic 
distress criteria, if a grantee applies for funds for a project in one 
of the nation's more than 8,700 Opportunity Zones, EDA will 
automatically consider the application. This does not mean the 
application will get approved. The project will, however, receive full 
consideration.
    Additionally, as part of the White House Opportunity and 
Revitalization Council (WHORC), Assistant Secretary of Commerce Dr. 
John Fleming is highlighting EDA's role in the initiative at 
Opportunity Zone roundtables, conferences, and other gatherings that 
bring together local elected officials, business leaders, community 
groups, and others across the country.

    Questions from Hon. Stacey E. Plaskett to Dennis Alvord, Deputy 
  Assistant Secretary of Commerce for Economic Development and Chief 
Operating Officer, Economic Development Administration, U.S. Department 
                              of Commerce

    Question 1. How much of the disaster supplemental appropriations to 
the Economic Development Administration (EDA) was allocated to its 
Philadelphia Region, which includes the Virgin Islands?
    Answer. EDA allocated $191.2 million in Disaster Supplemental 
funding to the Philadelphia Regional Office (PRO) for grants to 
facilitate Puerto Rico and USVI's recovery from Hurricanes Irma and 
Maria and to fund other FY 2017 Presidentially declared disasters in 
the mainland states covered by PRO.

    Question 2. How have those resources been used thus far for 
expenses related to the consequences of Hurricanes Irma and Maria in 
the Virgin Islands?
    Answer. A permanent locally based EDR was onboarded for Puerto Rico 
and USVI in October of 2017, a hire that pre-dated the hurricanes. PRO 
temporarily deployed an Area Director and Economic Development 
Specialist based in Philadelphia to serve as the initial EDA disaster 
recovery coordination team in the USVI immediately following Hurricanes 
Irma and Maria, since the magnitude of the impacts were so widespread. 
The temporary team provided Joint Recovery Office coverage from 
December 2017 through March 2018 and were followed by two additional 
volunteer staff from Department of Commerce and EDA Washington, D.C. 
headquarters offices. Another EDA staff member was added and assigned 
to serve as the field coordinator in the USVI at the end of 2018 
through the present. EDA staff was assisted by a local resident expert 
familiar with USVI agencies and partners who was onboarded through a 
contractual arrangement and is operating out of St Croix as a temporary 
disaster EDR for USVI this year. Disaster Supplemental salaries travel 
expenses helped to cover the costs of many of these staff positions and 
activities, not reimbursed by the FEMA mission assignments, to ensure 
around-the-clock, on-the-ground assistance to USVI for the last two 
years.
    In addition to the resources noted above, EDA regional office 
staff, both Philadelphia and field-based, have contributed to the grant 
work completed by the office in response to the disaster events.

    Question 3. How much of the overall total has been used for such 
expenses in the Virgin Islands?
    Answer. As of November 20, 2019, EDA has made $57,862,787 in grant 
awards to USVI stakeholders and/or stakeholders serving the Virgin 
Islands. This covers eight awards to the following entities: two awards 
to the VI Port Authority ($20 million and $7 million), two awards to 
the University of VI ($14.1 million and $14.2 million), one award to 
the VI Economic Development Authority (VIEDA) ($1,276,001), one award 
to the VI Bureau of Economic Research ($304,000), one award to the 
International Economic Development Council ($400,000), and one award to 
the Government of Virgin Islands ($282,786).
    In addition to the $191.2 million grant funding, EDA has allocated 
disaster supplemental Salaries & Expenses funding to PRO to pay the 
salaries and travel associated with providing services to impacted 
communities. This includes funding for an additional 10 temporary and 
term positions to increase PRO's capacity to award grants. As of 
November 2019, four of the ten positions have been filled and EDA is 
actively recruiting the other six positions. As of November 20, 2019, 
PRO has been allocated $842,152.00 dollars for salaries and expenses, 
of which $367,747.00 has been obligated.

    Question 4. How much of the EDA's disaster supplemental funding 
remains for the Philadelphia Region?
    Answer. As of November 20, 2019, $65,703,398 remain.

    Question 5. Will EDA be considering the Virgin Islands for 
additional economic development projects? Please elaborate.
    Answer. Yes, PRO will continue to consider proposals and 
applications from eligible applicants serving qualifying regional 
stakeholders, including in the USVI, until the funds are expended. 
EDA's selection process is competitive, and projects are considered on 
a rolling basis pursuant to the FY 2018 Disaster Supplemental NOFO.

  Questions from Hon. David Rouzer to Dennis Alvord, Deputy Assistant 
  Secretary of Commerce for Economic Development and Chief Operating 
   Officer, Economic Development Administration, U.S. Department of 
                                Commerce

    Question 1. Mr. Alvord, my home state of North Carolina has been 
battered by hurricanes these past few years. One town in particular, 
the town of Fair Bluff, suffered devastating flooding that has crippled 
the main street area there. It's my understanding that the town has 
applied for a grant through the Economic Adjustment Assistance Program 
to help them build a new business district on higher ground. Could you 
give an update on the application review process for the money 
allocated to EDA under the FY 19 Disaster Supplemental? When can Fair 
Bluff, NC, expect a decision on their application?
    Answer. The application review process is defined in detail in the 
NOFO for FY19 Disaster Supplemental assistance at https://
www.grants.gov/web/grants/view-opportunity.html?oppId=319126.
    Specific to the Town of Fair Bluff, EDA's Atlanta Regional Office 
(ATRO) is in receipt of the Town of Fair Bluff's application seeking 
federal financial assistance in the amount of $4.8 million, matched by 
$1.2 million, for the purpose of constructing the Fair Bluff Small 
Business Center as an initial step in relocating the town's Central 
Business District to an area that is more resilient to flooding. The 
application was received October 2 and is currently under review. 
ATRO's EDR serving North Carolina has been providing technical 
assistance to the Town of Fair Bluff and will continue to do so as its 
application progresses to the ATRO's Investment Review Committee (IRC). 
It is expected that the Town of Fair Bluff will have EDA's decision on 
whether or not the application merits further consideration by the end 
of this calendar year. Depending on the outcome of the IRC, approval of 
the Grants Officer, and timeliness of receipt of any information and 
documentation needed, and funding availability, approval of the 
application for the purpose of award would be expected in the first or 
second quarter of 2020.

  Questions from Hon. Peter A. DeFazio to Chris P. Currie, Director, 
  Homeland Security and Justice, U.S. Government Accountability Office

Housing Disaster Survivors

    Question 1. GAO previously reported on FEMA's efforts to coordinate 
mass care--which includes sheltering, feeding, and distributing 
emergency supplies. You found that some of these needs went unmet 
following the 2017 hurricanes as FEMA officials and mass care providers 
encountered challenges to providing care.
    What steps can FEMA and the federal government take to ensure 
necessary mass care can get to the survivors that need it following a 
disaster?
    Answer. In September 2019, we reported that the 2017 hurricane 
season presented unprecedented challenges for mass care service 
providers, and for survivors in Florida, Puerto Rico, Texas, and the 
U.S. Virgin Islands.\1\ For example, among other things, we found that 
unmet needs in sheltering, feeding, and supply distribution should spur 
FEMA to consider the sufficiency of agreements for providing mass care 
services, especially with state and local governments. We also found 
that more targeted guidance could help states and localities develop 
more specific written agreements with voluntary organizations providing 
mass care services. To address these challenges and help ensure that 
mass care can get to survivors who need it, we made several 
recommendations to DHS.
---------------------------------------------------------------------------
    \1\ GAO, Disaster Response: FEMA and the American Red Cross Need to 
Ensure Key Mass Care Organizations are Included in Coordination and 
Planning, GAO-19-526 (Washington, D.C.: September 19, 2019).
---------------------------------------------------------------------------
    For example, to better clarify what mass care services voluntary 
organizations can provide--especially for severe or overlapping 
hurricanes--we recommended that FEMA strengthen its guidance to state 
and local governments to emphasize the importance of clearly defining 
roles and responsibilities related to mass care when state and local 
governments develop written agreements with partner organizations. DHS 
concurred with this recommendation, stating that FEMA is establishing a 
working group that will help the agency strengthen such guidance.
    In addition, we recommended that FEMA develop mechanisms for the 
agency and its partners to leverage local community groups, such as 
conducting regular outreach to communicate and share aggregate 
information with these groups. DHS concurred with this recommendation 
and detailed several approaches they use to connect with local 
resources. However, our findings indicate there is more work to be done 
in terms of sharing critical information about mass care needs and 
resources and we continue to encourage FEMA to develop additional 
mechanisms to enhance outreach to organizations that may not be aware 
of existing approaches.
    Further, to ensure more accurate mass care capability assessments, 
we recommended that FEMA require grantees to solicit capabilities 
information from key mass care service-delivery providers in making 
capability estimates and identify these providers in their submissions. 
DHS did not concur with our proposed recommendation, stating that 
requiring grantees to include this information is not the most 
effective approach and would increase their burden. We modified our 
recommendation to address this concern and continue to believe that 
grantees should make an effort to include mass care providers in 
assessing capabilities.
    Additional information on our findings and recommendations to DHS 
and FEMA, as well as the American Red Cross, regarding coordinating 
mass care is available at GAO-19-526. We will continue to monitor these 
agencies' efforts to address our recommendations.

 Questions from Hon. Dina Titus to Chris P. Currie, Director, Homeland 
      Security and Justice, U.S. Government Accountability Office

FEMA's Public Assistance Program

    Question 1. Given the huge amount of Public Assistance funding that 
is and will be obligated for the recovery from the disasters of 2017 
and 2018, FEMA implemented its redesigned Public Assistance program--
also known as the National Delivery Model--in Texas, Florida and 
California.
    <bullet>  What experiences have shaped your views of the 
effectiveness of FEMA's Public Assistance program?
    <bullet>  To what extent do you think the national delivery model 
will address the longstanding challenges associated with Public 
Assistance? What, if any, additional changes are needed?
    Answer. FEMA's Public Assistance program is critical in providing 
state, territorial, local, and tribal governments with funding to help 
repair and rebuild disaster-damaged public infrastructure. In recent 
years, we've reported on the complex, multistep nature of this program 
and highlighted both progress and challenges with its implementation 
across disasters.
    First, in 2008, we reported that the Public Assistance program had 
a shortage of experienced and knowledgeable staff, relied on temporary 
rotating staff, and provided limited training to their workforce, which 
impaired program delivery and delayed recovery efforts after Hurricanes 
Katrina and Rita.\2\ Specifically, we found that staff turnover, 
coupled with information sharing challenges, delayed projects when 
applicants had to provide the same information each time FEMA assigned 
new staff and that poorly trained staff provided incomplete and 
inaccurate information during their initial meetings with applicants or 
made inaccurate eligibility determinations, which also caused 
processing delays. We recommended that FEMA strengthen continuity among 
staff involved in administering the Public Assistance program by 
developing protocols to improve information and document sharing among 
FEMA staff. Despite FEMA's efforts to implement our recommendations, 
the DHS-OIG found continuing challenges after Hurricane Sandy with 
workforce levels, skills, and performance of reservists, who make up 
the majority of the Public Assistance program's workforce.\3\ Regarding 
information sharing challenges, we also identified difficulties sharing 
documents among federal, state, and local participants in the Public 
Assistance program and difficulties tracking the status of projects. We 
recommended that FEMA improve information sharing by identifying and 
disseminating practices that facilitate more effective communication 
among federal, state, and local entities. In response, FEMA proceeded 
with the implementation of a grant tracking and management system. 
However, in subsequent years, we found weaknesses in how FEMA developed 
this system and the DHS-OIG found that information sharing problems 
similar to the ones identified in our 2008 report persisted.\4\
---------------------------------------------------------------------------
    \2\ GAO, Disaster Recovery: FEMA's Public Assistance Grant Program 
Experienced Challenges with Gulf Coast Rebuilding, GAO-09-129 
(Washington, D.C.: December 18, 2008).
    \3\ Department of Homeland Security, Office of Inspector General, 
FEMA Can Enhance Readiness with Management of Its Disaster Incident 
Workforce, OIG-16-127-D (Washington, D.C.: September 2, 2016).
    \4\ GAO, Information Technology: FEMA Needs to Address Management 
Weaknesses to Improve Its Systems, GAO-16-306 (Washington D.C.: April 
5, 2016); Department of Homeland Security, Office of Inspector General, 
FEMA's Process for Tracking Public Assistance Insurance Requirements, 
OIG-12-18 (Washington, D.C.: December 16, 2011); FEMA Faces Challenges 
in Managing Information Technology, OIG-16-10 (Washington, D.C.: 
November 20, 2015).
---------------------------------------------------------------------------
    Second, in November 2017, we reported that FEMA redesigned its 
delivery model for providing grants under the Public Assistance program 
to help address past challenges with program implementation.\5\ 
However, we found that FEMA had not fully assessed future workforce 
staffing needs and that opportunities existed to enhance the program's 
implementation and further promote opportunities for hazard mitigation. 
Among other things, we recommended that FEMA complete a workforce 
staffing assessment that identifies the appropriate number of staff 
needed at joint field offices, Consolidated Resource Centers, and its 
hazard mitigation cadre to implement the new delivery model 
nationwide.\6\ DHS concurred with this recommendation and has taken 
steps to implement it, including by developing preliminary modeling and 
estimates for Public Assistance program staffing levels. Further, we 
recommended that FEMA implement procedures to standardize planning for 
addressing Public Assistance hazard mitigation efforts--for example, by 
requiring FEMA and state officials to develop a memorandum of 
understanding outlining how they will prioritize and address hazard 
mitigation following a disaster. FEMA concurred with this 
recommendation and has taken some actions to address it, including 
standing up a new hazard mitigation branch. In October 2019, FEMA 
provided additional information regarding this recommendation and GAO 
is currently assessing this information to ensure that hazard 
mitigation efforts are standardized and thoroughly integrated into 
FEMA's disaster recovery process. Additional information on our 
findings and recommendations to FEMA regarding its redesigned delivery 
model is available at GAO-18-30.
---------------------------------------------------------------------------
    \5\ GAO, Disaster Assistance: Opportunities to Enhance 
Implementation of the Redesigned Public Assistance Grant Program, GAO-
18-30 (Washington, D.C.: November 8, 2017).
    \6\ Consolidated Resource Centers support field operations by 
supplementing the development, validation, and review of proposed 
Public Assistance project applications.
---------------------------------------------------------------------------
    Third, in September 2018, we reported challenges with the Public 
Assistance program stemming from FEMA's response to the 2017 
disasters.\7\ Specifically, we found that FEMA's workforce allocations 
and plans were overwhelmed by the 2017 disaster response needs and that 
long-standing workforce challenges we had previously identified were 
exacerbated by the need to provide a concurrent response to the 
disasters. FEMA officials told us that their experience responding to 
four near-simultaneous disasters made them realize that they will need 
to continue to improve their workforce planning to be prepared to 
simultaneously support multiple disasters. For example, according to a 
senior FEMA official, the agency had already deployed the majority of 
its workforce to support the hurricanes when the wildfires began and so 
there was some delay in initially deploying an adequate number of staff 
to support the wildfires response. While FEMA took several actions to 
address its staffing shortfall, FEMA officials told us that they did 
not have enough people primarily due to the unanticipated demand 
created by the concurrent response to four major disasters. In 
addition, we reported that FEMA recruited a large number of employees 
to meet this unprecedented demand, but FEMA officials reported this 
influx of new employees added to challenges with conducting timely, 
program-specific training.
---------------------------------------------------------------------------
    \7\ GAO, 2017 Hurricanes and Wildfires: Initial Observations on the 
Federal Response and Key Recovery Challenges, GAO-18-472 (Washington, 
D.C. September 4, 2018).
---------------------------------------------------------------------------
    Fourth, in recent testimony statements, we reported that FEMA faced 
challenges in implementing the Public Assistance program--and 
specifically the Public Assistance alternative procedures program--in 
Puerto Rico and the USVI.\8\ For example, we reported that FEMA 
officials in Puerto Rico and the USVI stated that the development of a 
``cost factor'' for use in developing fixed-cost estimates had slowed 
the pace of FEMA obligations for permanent work projects. These factors 
are intended to ensure that the costs associated with implementing 
projects in Puerto Rico and the USVI are sufficiently captured when 
developing the fixed-cost estimates for projects using the alternative 
procedures program. For example, FEMA officials in the USVI told us in 
May 2019 that obligations for permanent work projects in the territory 
had been mostly on hold since October 2018 while an independent 
contractor worked to develop the USVI-specific cost factor. In May 
2019, FEMA approved a USVI-specific cost factor for use on an interim 
basis pending further analyses. For Puerto Rico, in July 2019, FEMA 
approved the use of a cost factor designed to account for location-
specific construction costs to ensure that fixed-cost estimates are 
accurate. This cost factor consists of cost indices to apply to urban, 
rural, and insular (the islands of Vieques and Culebra) areas of Puerto 
Rico. According to FEMA officials, these cost indices will compile 
location-specific construction costs for each of these three areas. We 
are currently assessing FEMA's process for developing cost estimates 
for projects under both the standard and alternative procedures 
programs, and plan to report our results in early 2020.
---------------------------------------------------------------------------
    \8\ GAO, Emergency Management: FEMA Has Made Progress, but 
Challenges and Future Risks Highlight Imperative for Further 
Improvements, GAO-19-594T (Washington, D.C.: June 12, 2019). GAO, 
Emergency Management: FEMA Has Made Progress, but Challenges and Future 
Risks Highlight Imperative for Further Improvements, GAO-19-617T 
(Washington, D.C.: June 25, 2019). GAO, Emergency Management: FEMA's 
Disaster Recovery Efforts in Puerto Rico and the U.S. Virgin Islands, 
GAO-19-662T (Washington, D.C.: July 11, 2019). GAO, Disaster Recovery: 
Recent Disasters Highlight Progress and Challenges, GAO-20-183T 
(Washington, D.C.: October 22, 2019). The Sandy Recovery Improvement 
Act of 2013 amended the Stafford Act by adding Section 428, which 
authorized FEMA to approve Public Assistance program projects under the 
alternative procedures provided by that section for any presidentially-
declared major disaster or emergency. This section further authorized 
FEMA to carry out the alternative procedures as a pilot program until 
FEMA promulgates regulations to implement this section. Pub. L. No. 
113-2, div. B, Sec.  1102(2), 127 Stat. 39, amending Pub. L. No. 93-
288, tit. IV, Sec.  428 (codified at 42 U.S.C. Sec.  5189f).
---------------------------------------------------------------------------
    We will continue to monitor FEMA's implementation of the Public 
Assistance program in our ongoing and future work.

    Question 2. We understand that in June 2019, FEMA decided to 
implement the national delivery model for Public Assistance in Puerto 
Rico. Please explain FEMA's reasoning for doing this and how FEMA staff 
in Puerto Rico, as well as Puerto Rican officials working the recovery, 
will be trained to implement the new delivery model.
    Answer. According to FEMA, the agency decided to implement the 
national delivery model for Public Assistance in Puerto Rico, beginning 
in June 2019, with the goal of (1) implementing clear roles and 
processes, (2) consolidating the development and review process of 
permanent work projects, and (3) using Grants Manager and Grants Portal 
to capture project development information. As part of implementation, 
FEMA established a Consolidated Resource Center in Puerto Rico to 
process permanent work projects. FEMA stated that the agency changed 
staff roles from the old delivery model to the new model, such as 
project specialists (old role) to program delivery managers (new role). 
FEMA stated that it deployed a team of experienced personnel and Public 
Assistance mentors to help FEMA officials in Puerto Rico transition to 
the national delivery model. Finally, FEMA noted that it would provide 
information, training, and ongoing mentorship to Puerto Rico officials 
to help them implement the national delivery model. As part of our 
ongoing and future work, we will continue to evaluate the 
implementation of the Public Assistance national delivery model in 
Puerto Rico.

Response

    Question 3. GAO previously reported on FEMA's efforts to coordinate 
mass care--which includes sheltering, feeding, and distributing 
emergency supplies. We found that some of these needs went unmet 
following the 2017 hurricanes as FEMA officials and mass care providers 
encountered challenges to providing care. What steps can FEMA and the 
federal government take to ensure necessary mass care can get to the 
survivors that need it following a disaster?
    Answer. See response above regarding FEMA's coordination of mass 
care.

Hazard Mitigation and Disaster Resilience

    Question 4. GAO has reported that most federal funding to 
strengthen disaster resilience comes after a disaster. One of the 
effects of this approach is that communities and regions can spend 
money on smaller risk-reduction projects while ignoring larger-scale 
infrastructure risks, which may not change the risk profile of the 
communities and regions. FEMA's new strategic plan calls for new 
pathways to disaster risk reduction, which include increased pre-
disaster mitigation. The Disaster Recovery Reform Act included a 
provision (now called Building Resilient Infrastructure and Communities 
or BRIC, for short) that will create a sizable fund for pre-disaster 
hazard mitigation by setting aside 6 percent of the total of other 
types of assistance grants that come out of the Disaster Relief Fund.
    <bullet>  How can the federal government best encourage 
individuals, communities, and regions to engage in hazard mitigation 
before disaster strikes?
    <bullet>  What are your thoughts about how FEMA should implement 
the BRIC to help ensure that communities across the nation have an 
opportunity to reduce their disaster risk while also ensuring that the 
overall result is a demonstrable reduction in national risk?
    <bullet>  What challenges do you anticipate in implementing the 
BRIC and what actions are needed to address them?
    Answer. In 2015, we examined how states and localities were able to 
use select federal programs to help maximize resilience during their 
efforts to recover from Hurricane Sandy.\9\ In our discussions with 
officials from the 12 states plus DC that had major disaster 
declarations for Hurricane Sandy, a prevalent theme was the dynamic 
between pre-disaster and post-disaster hazard mitigation. We reported 
state officials' perspectives that the localities they work with were 
often more motivated to invest in hazard mitigation when the memory of 
the disaster was fresh, but at the same time there were some real 
challenges in the post-disaster environment with making the most 
rational decisions about where and how to invest.
---------------------------------------------------------------------------
    \9\ GAO, Hurricane Sandy: An Investment Strategy Could Help the 
Federal Government Enhance National Resilience for Future Disasters, 
GAO-15-515 (Washington, D.C.: July 30, 2015).
---------------------------------------------------------------------------
    We reported that the reactive and fragmented approach of funding 
resilience through multiple separate programs designed for different 
purposes and primarily in the wake of a disaster created obstacles to 
most effectively marshaling resources toward the goal of overall risk 
reduction. In those conditions, federal investment--for instance, in 
projects such as home acquisitions and elevations--benefited 
individuals and, often, communities, but may not have effectively 
reduced states' overall risk profiles. In light of these findings, we 
recommended a National Mitigation Investment Strategy that would, among 
other things, address the balance between pre- and post-disaster 
mitigation. The interagency group responsible for the nation's National 
Mitigation Framework issued the National Mitigation Investment Strategy 
in August 2019. Among other things, this strategy highlighted the 
importance of hazard mitigation throughout the disaster lifecycle and 
noted the opportunities the Building Resilient Infrastructure and 
Communities (BRIC) program presents for increasing pre-disaster hazard 
mitigation. By funding pre-disaster mitigation as a six percent set 
aside from declared disasters, BRIC offers the potential for a 
significant amount of funding to support risk reduction decisions under 
conditions where local and state leaders do not have to decide between 
restoring community lifelines quickly and restoring them in a manner 
that reduces their future risk.\10\ Regardless of the amount of 
funding, BRIC has the potential to significantly enhance pre-disaster 
mitigation. However, careful planning and implementation will be 
required at all levels of government in order to realize meaningful 
risk reduction across communities and regions.
---------------------------------------------------------------------------
    \10\ Enacted in October 2018, the DRRA includes many provisions 
designed to enhance disaster recovery. Among them is a provision that 
authorizes a pre-disaster hazard mitigation program to be funded from 
the Disaster Relief Fund as a six percent set aside of estimates of all 
disaster assistant grants. Pub. L. No. 115-254, Sec.  1234(a), 132 
Stat. at 3461. BRIC is funded through this set aside.
---------------------------------------------------------------------------
    In October 2019, we issued our Disaster Resilience Framework, which 
offers some instruction for thinking through key challenges and 
opportunities in the BRIC implementation.\11\ The framework consists of 
a set of broad, overlapping principles that describe how the federal 
government can best work across the whole-of-community to foster 
disaster resilience both inside and outside of traditional emergency 
management functions. It describes what federal and nonfederal decision 
makers--for example, local elected officials, private sector 
infrastructure operators, or state government officials--need to allow 
and encourage them to incorporate disaster resilience whenever their 
actions involve the built environment and natural ecosystems.
---------------------------------------------------------------------------
    \11\ GAO, Disaster Resilience Framework: Principles for Analyzing 
Federal Efforts to Facilitate and Promote Resilience to Natural 
Disasters, GAO-20-100SP (Washington, D.C. October 23, 2019).
---------------------------------------------------------------------------
    The first principle is information. Decision makers need 
authoritative and understandable information about their current and 
future risks. They need to be able to apply that information in a way 
that helps them determine what alternatives they have for addressing 
risk and to select among those options. In addition, they need 
methodologies and processes that will allow them to determine whether 
resilience actions they are taking have the desired result.
    The second principle is integration. The whole-of-community--both 
federal and nonfederal actors--need to be able to pursue coordinated 
and coherent resilience actions. In this vein, decision makers need to 
be able to understand the actions they take in the context of an 
overarching strategic national vision and goals. They need federal 
programs that work together with consistent and complementary policies, 
procedures, and timing, so that regions and localities can consider a 
whole systems approach to risk reduction. In addition, federal and 
nonfederal decision makers need to be able to understand interactions 
among different infrastructure sectors and components and between these 
and the natural ecosystems to help them recognize shared benefits, 
potential conflicts, and opportunities to combine solutions to a 
greater effect.
    The third principle is incentives. Because much of the nation's 
infrastructure is not owned or operated by the federal government, 
nonfederal decision makers may need incentives that can make long-term, 
forward-looking risk reduction investments more viable and attractive 
among competing priorities. Streamlining overly complex practices and 
reducing administrative burden where necessary and appropriate may also 
decrease disincentives for some nonfederal actors to participate in 
voluntary federal initiative to help increase disaster resilience.
    In line with these principles, there are a few key things to 
consider when determining how to make BRIC work in a way that leads to 
overall risk reduction across communities and regions. First, 
consistent with the information principle, selecting the right projects 
to pursue depends on the ability of decision makers at every level of 
government to combine the best available information about climate 
trends with community asset-level data in standard methodologies that 
produce comparable findings about loss avoidance and risk reduction. 
Another consideration for the program is how it will monitor progress 
and ensure that its implementation is having a meaningful risk-
reduction impact.
    Moreover, one of the challenges we identified in our 2015 report 
was the ability for state and local officials to work across the 
multiple federal programs and other nonfederal sources to leverage 
funding for large projects. Consistent with our framework's integration 
and incentives principles, to the extent that BRIC can achieve 
compatibility with or stimulate other potential funding sources--
especially nonfederal funding--its effects could be significantly 
enhanced. Similarly, projects that coordinate across jurisdictions to 
create whole systems solutions across interdependent systems and 
account for relationships across different infrastructure components 
and ecosystems may realize greater risk reduction than a more 
fragmented infrastructure component-by-component approach. In addition, 
the relative ease or difficulty with which nonfederal entities can 
navigate the programs administrative requirements may affect 
participation and innovative approaches to leveraging funding.
    Determining what projects to fund and in what order will be a 
significant factor as FEMA implements BRIC. Other resilience and 
preparedness grants each have different approaches for allocating 
funding across eligible applicants and priorities. For example, in 2017 
slightly less than half of funding available for the Predisaster 
Mitigation Grant was distributed as base funding across eligible states 
and territories or set aside for tribal applicants, with the remainder 
distributed on a competitive basis but with a per-applicant cap. In 
contrast, the Emergency Management Performance Grants are wholly 
allocated by base funding plus a standard population-based formula; 
while, the National Disaster Resilience Competition was awarded 
entirely based on competition with no base or formula-based funding 
available to applicants who were not selected. FEMA will have to 
determine how to balance the need to target large-scale infrastructure 
projects that might not otherwise be addressed with the desire to meet 
needs and foster greater participation nationwide. If the balance tips 
too far in the direction of base funding for all eligible applicants, 
the issue of reducing some individual- and community-level risks 
without reducing overall community, state, and regional-level risk 
profiles could remain.

Questions from Hon. Doug LaMalfa to Chris P. Currie, Director, Homeland 
      Security and Justice, U.S. Government Accountability Office

    Question 1. During your answer to one of Representative Garamendi's 
questions, you specified that FEMA has not yet fully implemented a 
piece of our disaster recovery law which allowed for rebuilding using 
updated standards, rather than replacing structures exactly as they 
were before. Does GAO have any estimation of when this implementation 
would be completed based on their current understanding of the 
implementation process for this specific provision? This provision is 
remarkably important for rebuilding burned houses with more wildfire 
resilience standards and technology.
    Answer. Although jurisdictions have long been able to use FEMA 
Public Assistance funding for cost effective hazard mitigation action 
when rebuilding infrastructure and have also been required to restore 
structures and infrastructure to comply with locally adopted building 
codes, there are two statutory provisions that enhance those abilities. 
First, Section 1235(b) of the Disaster Recovery Reform Act required 
FEMA Public Assistance projects to use the latest published editions of 
relevant consensus-based codes, specifications, and standards that 
incorporate the latest hazard-resistant design.\12\ In November 2019, 
FEMA published an interim policy to govern implementation of this 
provision.
---------------------------------------------------------------------------
    \12\ Pub. L. No. 115-254, Sec.  1235(b), 132 Stat. at 3463.
---------------------------------------------------------------------------
    This interim policy specifies relevant organizations and standards 
and codes they have established for the following types of structures 
and infrastructure: buildings, electric power, roads, bridges, potable 
water supply and wastewater. Therefore, instead of depending on the 
adoption and enforcement of local codes and standards to determine the 
extent to which these structures and infrastructure will be rebuilt to 
withstand future hazards, permanent work projects under the Public 
Assistance program will now be required to incorporate nationally 
accepted codes and standards in their planning, design, and execution. 
The interim policy also specifies that if local codes and standards are 
more stringent than the national codes and standards, projects may use 
the more stringent local codes.
    Second, the Bipartisan Budget Act of 2018 allows FEMA, Puerto Rico, 
and the USVI--when using the Public Assistance alternative procedures 
program--to repair and rebuild critical services infrastructure (e.g., 
medical and education facilities) so it meets industry standards 
without regard to pre-disaster condition.\13\ In October 2019, we 
reported on challenges with implementing flexibilities provided by the 
Bipartisan Budget Act of 2018.\14\ Specifically, officials from Puerto 
Rico's central government stated that they disagreed with FEMA's 
interpretation of the types of damages covered by the Act. In response, 
FEMA officials in Puerto Rico stated they held several briefings with 
Puerto Rico's central recovery office to explain FEMA's interpretation 
of the section. Further, FEMA officials in the USVI told us that 
initially, they had difficulty obtaining clarification from FEMA 
headquarters regarding how to implement key components of the Act. In 
June 2019, the Additional Supplemental Appropriations for Disaster 
Relief Act of 2019 was signed into law and provides additional 
direction to FEMA regarding the implementation of section 20601.\15\ 
Among other things, this legislation includes a provision directing 
FEMA to change its process for determining whether a disaster-damaged 
facility is eligible for repair or replacement. FEMA evaluated this and 
other provisions of the Act and, in September 2019, issued an updated 
policy to provide clear guidance moving forward, according to agency 
officials.
---------------------------------------------------------------------------
    \13\ Section 20601 of the Bipartisan Budget Act of 2018 allows FEMA 
to provide grant funding to restore certain disaster-damaged systems 
and infrastructure without regard to the condition it was in prior to 
the 2017 hurricanes. Pub. L. No.115-123, Sec.  20601(1), 132 Stat. 64 
(2018). Critical services include public infrastructure in the 
following sectors: power, water, sewer, wastewater treatment, 
communications, education, and emergency medical care. See 42 U.S.C. 
Sec.  5172(a)(3)(B). The Act applies only to assistance provided 
through the Public Assistance alternative procedures program. 
Therefore, the USVI may not use the flexibilities provided by the Act 
for permanent work projects using the standard Public Assistance 
program.
    \14\ GAO, Disaster Recovery: Recent Disasters Highlight Progress 
and Challenges, GAO-20-183T (Washington, D.C.: October 22, 2019).
    \15\ See Pub. L. No. 116-20, tit. VI, Sec.  601, 133 Stat. 871, 882 
(2019).
---------------------------------------------------------------------------
    As described above, FEMA has taken action to implement policies to 
address recent statutory provisions. We will continue to monitor FEMA's 
implementation of these policies and the extent to which they have 
affected FEMA's ability to deliver the Public Assistance program to 
disaster-damaged communities.

    Question 2. Have GAO or FEMA completed any reports, 
recommendations, or provided any technical assistance for legislation 
relating to the use of disaster reimbursement to rebuild permanent 
structures, rather than temporary housing? Is either organization aware 
of any cost-benefit analyses on this subject?
    Answer. GAO has not completed any reports, made any 
recommendations, or provided technical assistance for legislation 
related to FEMA's use of disaster reimbursement to rebuild permanent 
structures. In addition, GAO is not aware of any cost-benefit analysis 
on this subject.
    As Congressman LaMalfa is likely aware, FEMA and the Department of 
Housing and Urban Development (HUD) provide federal funds to 
communities for housing assistance following a disaster. FEMA can 
provide financial assistance or direct assistance to individuals and 
households for permanent or semi-permanent housing construction (PHC) 
in insular areas outside the continental United States or in other 
locations where no alternative housing resources are available and 
where temporary housing assistance is unavailable, infeasible, or not 
cost-effective.\16\ Before authorizing PHC, according to FEMA's 
Individuals and Households Program (IHP) guidance, FEMA will conduct an 
assessment to demonstrate that other forms of temporary housing 
assistance are unavailable, insufficient, or infeasible.\17\ Once this 
assessment is completed, FEMA may authorize PHC for pre-disaster 
homeowners with real property verified loss of at least $17,000, and 
will require the affected state, territorial, or tribal government to 
execute an amendment to their FEMA-State/Territorial/Tribal Government 
Agreement.\18\ According to the IHP guidance, repairs under PHC are 
limited to repairs that would be eligible under FEMA Housing 
Assistance, such as heating, ventilation, and air conditioning systems, 
walls, floors, and ceilings, but is not intended to restore the home to 
the pre-disaster condition.
---------------------------------------------------------------------------
    \16\ See 42 U.S.C. Sec.  5174(c)(4).
    \17\ See FEMA, Individual Assistance Program and Policy Guide 
(IAPPG), FP 104-009-03 (Washington, D.C. 2019).
    \18\ After every declaration, FEMA and the state, territorial, or 
tribal government enter into a government agreement documenting the 
understanding, commitments, and conditions under which FEMA will 
provide assistance.
---------------------------------------------------------------------------
    In the case of HUD, the agency administers the Community 
Development Block Grant Disaster Recovery (CDBG-DR) program to help 
communities recover from disasters. Communities are allowed to use 
their CDBG-DR grants to address a wide range of unmet recovery needs--
losses not met with insurance or other forms of assistance, including 
federal disaster assistance--related to housing, infrastructure and 
economic revitalization. In March 2019, we reported that in response to 
the 2017 disasters, HUD had awarded approximately $32.9 billion in 
CDBG-DR funds to four grantees as of February 2019--$19.9 billion to 
Puerto Rico, $9.8 billion to Texas, $1.9 billion to the USVI, and $1.3 
billion to Florida.\19\ As of September 2019, much of these awarded 
funds had been allocated to the grantees via Federal Register notices 
with the exception of Puerto Rico.\20\ HUD had not allocated the 
remaining $10.2 billion it awarded to Puerto Rico as of September 10, 
2019, due to recent concerns about the territory's governance and 
financial management challenges.\21\
---------------------------------------------------------------------------
    \19\ GAO, Disaster Recovery: Better Monitoring of Block Grant Funds 
Is Needed, GAO-19-232 (Washington, D.C.: March 25, 2019). The $32.9 
billion excludes approximately $2.5 billion awarded to states affected 
by 2017 disasters other than Hurricanes Harvey, Irma, and Maria or 
prior disasters. As of February 2019, HUD had allocated via Federal 
Register notices $17.2 billion of the $32.9 billion awarded to Puerto 
Rico, Texas, the USVI, and Florida. See Allocations, Common 
Application, Waivers, and Alternative Requirements for 2017 Disaster 
Community Development Block Grant Disaster Recovery Grantees, 83 Fed. 
Reg. 5844 (February 9, 2018) and Allocations, Common Application, 
Waivers, and Alternative Requirements for Community Development Block 
Grant Disaster Recovery Grantees, 83 Fed. Reg. 40314 (August 14, 2018).
    \20\ In 2019, HUD allocated CDBG-DR funds via Federal Register 
notices for activities to mitigate disaster risks and reduce future 
losses. Specifically, in August 2019, HUD allocated approximately $633 
million to Florida and approximately $4.3 billion to Texas. See 
Allocations, Common Application, Waivers, and Alternative Requirements 
for Community Development Block Grant Mitigation Grantees, 84 Fed. Reg. 
45838 (August 30, 2019). In September 2019, HUD allocated approximately 
$774 million to the USVI. See Allocations, Common Application, Waivers, 
and Alternative Requirements for Community Development Block Grant 
Mitigation Grantees; U.S. Virgin Islands Allocation, 84 Fed. Reg. 47528 
(September 10, 2019).
    \21\ See 84 Fed. Reg. 45838.
---------------------------------------------------------------------------
    Providing housing to survivors following disasters continues to 
present a challenge for the federal government and we will continue to 
examine this issue as part of our ongoing work.

 Questions from Hon. Dina Titus to Michael Sprayberry, Director, North 
  Carolina Emergency Management, testifying on behalf of the National 
                    Emergency Management Association

Navigating Multiple Federal Disaster Recovery Programs

    Question 1. Mr. Sprayberry, your State has been impacted multiple 
times during the last several years by natural disasters warranting 
Presidential-declarations and Federal assistance.
    What has been your experience with FEMA coordinating the various 
Federal assistance and recovery programs for which the State has 
qualified?
    [If FEMA assistance has been helpful] Has your primary FEMA 
official assisting the state been your various Federal Coordinating 
Officers, or a Federal Disaster Recovery Coordinator?
    Answer. We have worked closely with our Federal Disaster Recovery 
Coordinator through this process. We did experience a challenge, 
however, when our original Federal Disaster Recovery Coordinator was 
transferred from working with us in North Carolina to work in Puerto 
Rico. This interrupted our rhythm of recovery and we did not receive a 
satisfactory answer as to why this transfer occurred. We believe this 
to be related to the limited staffing capacity FEMA currently faces. 
The issue of FEMA staffing (both in numbers and proper training) 
negatively impacts many of my colleagues as well.

    Question 2. You are responsible for not only helping your State 
navigate through FEMA's recovery programs, but also with the recent 
allocations of HUD CDBG-DR funding. Has this been a seamless process to 
leverage both programs? If they do not currently work hand in hand, 
what changes must be made in order for them to be more complimentary?
    Answer. Both programs serve critical functions in our state. 
Unfortunately, disaster survivors must apply separately to FEMA 
programs and Community Development Block Grant-Disaster Recovery (CDBG-
DR). These separate applications prevent a seamless process for 
individuals and states to leverage both programs. A reform to this 
process would be developing a ``universal application,'' which would 
allow survivors to complete one application that would then be used by 
FEMA, the Department of Housing and Urban Development (HUD), and the 
Small Business Administration. Additionally, a standardized duplication 
of benefit review for all agencies would mitigate issues that arise 
between the programs. These changes would streamline the process for 
survivors and demonstrate our commitment at all levels of government to 
supporting our residents as they work to recover from a disaster.
    Furthermore, the timelines for FEMA grant completion and an active 
CDBG-DR program are not integrated. Ensuring that these funding 
programs do not leave survivors without resources will improve the 
quality of customer service we are able to provide our residents. Ways 
to achieve this include permanently authorizing CDBG-DR and ensuring 
FEMA accomplishes their statutory mission of acting as coordinator of 
federal resources.

FEMA's Public Assistance Program

    Question 3. What has been your State's experience with FEMA's 
National Delivery Model for its Public Assistance program? With your 
tenure working for the State before and after rollout of the new PA 
delivery model, do you feel that the new model will help cut through 
the red tape of Federal disaster recovery?
    Answer. The implementation of any new delivery model is not a 
seamless process, but in North Carolina's experience with the new model 
been generally positive and the initial challenges of implementation 
have been largely resolved. For smaller disasters, we would like the 
opportunity to develop projects on site rather than forwarding to the 
Consolidated Resource Center (CRC).

    Question 4. Following Sandy, this Committee was successful in 
passing a significant package of Stafford Act updates that included the 
then new Section 428, also known as ``Alternative Procedures for Public 
Assistance.''
    428 was used extensively in the wake of Sandy and large projects 
that States opted to use it for seemed to move much faster than 
standard Public Assistance projects completed under the traditional 
Section 406 program.
    We've now seen that where 428 is being used for all recovery 
projects--in Puerto Rico--that the process is no longer expedited. It 
appears that FEMA has created new red tape in its administration of 
428. Has that been your State's experience?
    Answer. It does appear that FEMA is requiring more from the 
applicant than originally anticipated for Section 428 projects. FEMA is 
conducting business through the Public Assistance delivery model to 
create a more efficient, timely, accurate, and successful process to 
recovery efforts. All projects are to go through the delivery model and 
grants portal to make the process more efficient and more transparent. 
As previously noted, new processes take time to implement and the 
initial challenges have largely been resolved although more training 
and experience is needed for working with Alternative Procedures at the 
Federal, State and Local level.

Questions from Hon. Mark Meadows to Michael Sprayberry, Director, North 
  Carolina Emergency Management, testifying on behalf of the National 
                    Emergency Management Association

    Question 1. Mr. Sprayberry, you highlight what you call the 
``cacophony'' of federal grants programs and the fact they can be 
confusing. Do you believe that there needs to be better coordination 
and consistency across the various federal agencies that provide 
disaster assistance?
    Answer. Yes. According to the GAO more than $400 billion was 
obligated to disaster assistance over 17 federal departments and 
agencies during fiscal years 2005 to 2017. This amalgam of programs 
requires dedicated efforts to coordinate and strengthen consistency to 
ensure disaster survivors can access the programs most applicable to 
their situations and the state utilizes taxpayer dollars in the most 
efficient manner possible. FEMA is responsible for coordinating 
government-wide relief efforts and must continue to work across the 
federal interagency and with Congress to further improve these 
processes.

    Question 2. Mr. Sprayberry, you recommend anticipating future 
conditions by broadening allowable project types. Can you provide some 
examples of the types of projects that should be considered?
    Answer. The goal of FEMA, the states, and localities in the BRIC 
process is to produce innovative projects stemming from science-based 
studies which will improve buildings beyond minimum codes and 
strengthen infrastructure that can last for generations. It is 
essential we look beyond the conventional projects that stave off 
disaster for a year or two and consider how our work will impact 
resilience. These include mitigation for manmade and technological 
hazards. We look forward to applying a risk-management approach as we 
consider projects such as the hardening of interstate highways, our 
power generation and transmission infrastructure, our water supply and 
waster water management facilities, as well as floodproofing our 
communities to name but a few. The relentless onslaught of hurricanes 
and storms have severely affected our aging infrastructure and BRIC 
will be critical making progress towards a more resilient state and 
nation.

    Question 3. Mr. Sprayberry, you recommend Congress provide the 
authority to grantees to blend mitigation projects from funding sources 
across government. Can you elaborate?
    Answer. Through the Disaster Recovery Reform Act (DRRA), states are 
being encouraged to develop and implement large-scale, complex 
infrastructure projects. These projects are multi-faceted and require 
skills, capacity, and flexibility beyond the current suite of 
mitigation programs. Congress providing authority to blend mitigation 
projects from funding sources across government would allow grantees to 
appropriately scope projects to accomplish tangible ends that focus 
more on the transformative power of mitigation than a fixed number on a 
project worksheet.

Questions from Hon. Dina Titus to Hon. Fernando Gil-Ensenat, Secretary 
       of the Department of Housing, Commonwealth of Puerto Rico

FEMA's Public Assistance Program

    Question 1. We have heard about significant challenges in 
administering Stafford Act Section 428 for the infrastructure work 
associated with Puerto Rico's recovery.
    While Puerto Rico initially signed an agreement with FEMA to 
undertake all recovery projects using ``Alternative Procedures for 
Public Assistance,'' it appears to have only further complicated the 
recovery.
    Are there any challenges in the Commonwealth utilizing its own 
licensed engineers to prepare initial cost estimates for infrastructure 
projects?
    Answer. With regard to projects obligate under Section 428--
Alternate Procedures, the current Revised 428 Guide for Permanent 
Projects--FEMA 4339 DR-PR, as well as the previous version, does not 
accept cost estimates prepared by the Applicant or Subrecipients, 
whether or not they are prepared by licensed engineers. However, 
through recent discussions between COR3 and FEMA, FEMA has agreed to 
consider all assessments made by local licensed engineers after 
validation.

    Question 2. What has been the Commonwealth's experience with FEMA's 
National Delivery Model since it was communicated to Puerto Rico 
earlier this year that it was going to be transitioning to the new 
model?
    Have recent changes in FEMA leadership at the Joint Recovery Office 
led to any challenges in moving to the new delivery model or eased the 
transition?
    Answer:
    National Delivery Model--On May 13, 2019, FEMA announced that it 
would be transitioning the Puerto Rico location to the National 
Delivery Model. The implementation was commence on June 3, 2019. The 
National Model includes the following, among others: (1) use of the 
Consolidated Resources Center (CRC) to process and review subgrants; 
(2) the mandatory use of FEMA's project formulation system, Grants 
Manager and Grants Portal; (3) a transition in Grants Manager from 
custom-built workflows initially implemented in Puerto Rico to the 
Standard Lane work flows in use nationally; (4) a transition from old 
delivery model roles, including project specialists and Public 
Assistance Crew Leaders, to National Delivery Model roles, including 
program delivery managers and site inspectors. Even though we are 
hopeful that this new model will streamline the process, all these new 
and additional changes caused and continue to cause delay in the 
process.
    Changes in FEMA leadership--Changes in FEMA's leadership in the 
past have definitively impacted the recovery as it has interrupted 
continuity. However, the most recent change in FCO with Alex Amparo has 
been extremely positive for PR. Amparo's willingness to understand and 
sympathize with the island of PR and its people have opened a line of 
communication that the GPR had not seen in the past with other FCO's. 
So, it is safe to say that the recent change has been encouraging.

Navigating Multiple Federal Disaster Recovery Programs

    Question 3. What has been Puerto Rico's experience with FEMA 
coordinating the various Federal assistance and recovery programs for 
which the State has qualified?
    [If FEMA assistance has been helpful] Has your primary FEMA 
official assisting the state been the Federal Coordinating Officer, or 
a Federal Disaster Recovery Coordinator?
    Answer:
    Experience with FEMA--Hurricane Maria caused unprecedented damages 
to Puerto Rico. As such, FEMA's assistance during this recovery process 
has and will continue to be essential. The magnitude of recovery that 
must be accomplished requires constant collaboration between COR3 and 
FEMA. Although the process has been continuously changing and hence 
challenging, presently COR3 and FEMA, understand that we are on the 
right path to advancing Puerto Rico's recovery.
    Primary FEMA Official--Since the aftermath of Hurricane Maria, the 
primary FEMA official assisting Puerto Rico has been a Federal 
Coordinating Officer.

    Question 4. In your role as the Governor's Alternative Authorized 
Representative, you have worked closely throughout the recovery to Irma 
and Maria with the Central Office of Recovery, Reconstruction and 
Resiliency to navigate through FEMA's recovery programs, and also with 
HUD's CDBG-DR program.
    Has this been a seamless process to leverage both programs? If they 
do not currently work hand in hand, what changes must be made in order 
for them to be more complimentary?
    Answer. As the agency in charge of identifying, procuring, and 
administering all state, federal, and/or private resources for 
recovery, COR3 has strived to implement reconstruction efforts with 
efficiency and transparency and capitalize on opportunities to build 
back in a manner that makes Puerto Rico better, stronger, and more 
resilient. As such, in addition to working closely with FEMA to manage 
FEMA's recovery programs, COR3 has worked and continues to work hand in 
hand with Puerto Rico's Department of Housing, who is the grantee of 
the CDBG-DR funds allocated for Puerto Rico, in the management of HUD's 
CDBG-DR program.

Outstanding Reimbursements for Response and Recovery Work

    Question 5. We have heard multiple reports regarding challenges 
some of the Commonwealth's vendors have encountered being paid for work 
already performed, including one source asserting that the government 
of Puerto Rico may owe over $155 million. We also understand from FEMA 
that it has provided over $100 million to the Commonwealth to pay 
vendors. Can you explain what is causing this delay?
    Answer. To date, COR3's (Recipient) vendors have been paid all of 
the submitted and validated invoices. It is important to note, that 
just like any subrecipient's requests for reimbursements, the invoices 
submitted by COR3's vendors have to be validated in accordance to 
FEMA's requirements prior to the payment of the same. The validation 
process required by FEMA and COR3 as grantee of the federal funds, 
involves conducting a 100% completeness and compliance review of all 
invoices prior to payment. This process might take from 90-120 days. 
However, as matter of continuous improvement we are revising the 
process in order to make the process more efficient.
    It is important to note, that since COR3's inception, vendors have 
been paid or have invoices waiting to be paid of over $400 million. As 
such, it is not only a matter of having the necessary funds available, 
but also conducting the necessary review of over 1000 page invoices.

    Question 6. If any of the Commonwealth's vendors supporting the 
recovery cease work due to non-payment, what is the Commonwealth's plan 
to ensure the recovery continues without interruption?
    Answer. Let us be very clear, there has not been an impact or 
interruption to the recovery process at any point. The Government of 
Puerto Rico has over 300 employees supporting the island's recovery and 
although contractors support this process, they do not drive or control 
the process. Furthermore, during the past 2 years, COR3 has increased 
its personnel capacity and plans to continue augmenting its staff 3 
times the current base in order to be able to manage the recovery 
process without solely depending on its vendors. Moreover, all invoices 
submitted prior to January 2019 have been paid.
    Please note, that Puerto Rico's fiscal year runs from July 2019 to 
June 2020. It is important to note however that there is a difference 
between an invoice's date and an invoice's submission date. For 
example, we have invoices from February 2019 being submitted in July 
2019. Also, considering the above-mentioned process of completeness and 
compliance, there is a lead time to process all invoices in accordance 
to federal regulation. Moving forward, we have advised vendors to 
submit their invoices no later than 30 days from the previous month and 
with the staff augmentation that will occur during the next calendar 
COR3 will be able to considerably reduce the lead time that the process 
currently entails. Finally, more than welcome to share all invoices and 
accompanying documentation.

    Question 7. We understand some of the Commonwealth's vendors still 
have unpaid invoices from last calendar year? Can you please explain 
how this is possible?
    Answer. All of the invoices submitted prior to January 2019 have 
been paid.

Damage Assessments

    Question 8. In the wake of the 2017 hurricanes, can you please 
discuss the Commonwealth's experience with preliminary damage 
assessments, as well as home by home assessments to help FEMA make 
determinations regarding its Individuals and Households Program.
    Answer. Preliminary damage assessments pertaining to Individual and 
Household Programs were managed by FEMA and Emergency Management, not 
by COR3.

  Questions from Hon. Dina Titus to Reese C. May, Chief Strategy and 
                Innovation Officer, St. Bernard Project

Disaster Assistance for Individuals and Households

    Question 1. In your testimony, you say that in order for a disaster 
survivor to move forward with FEMA's Individual Assistance program, 
they must first be rejected. Can you please explain?
    Do you have examples of people who, having been rejected by FEMA do 
not go on to apply to SBA for a loan?
    Do you have a sense of a percentage of people who would qualify but 
either a) give up and don't complete applications after being rejected 
or b) settle for an amount less than what they would receive if they 
appealed their initial aid determination?
    Answer. In my written testimony I included a flowchart of the FEMA 
assistance process. I will include it with these responses as well. The 
process is confusing for most and simply unnavigable for others. SBP's 
clients are hardworking America families, many of whom are hesitant to 
ask for help in the first place, and who often take an initial 
rejection as a final answer, crippling recovery efforts before they've 
even begun. Some of our clients were afraid to take on a Small Business 
loan for fear they'd be rejected again, or because they doubt their 
ability to repay even if they qualify. Most do not know that, in order 
to receive ``Other needs assistance'' from FEMA, part of the process 
requires a denial from SBA and a referral back to FEMA for this 
category of assistance. Until recently SBA loans for which survivors 
qualified but opted not to take could count against clients as a 
duplication of benefits, preventing survivors from receiving Other 
Needs Assistance grants and potentially counting against the value of 
future long term rebuilding assistance grants they might receive 
through HUD funded CDBG-DR programs operating at the state or local 
level. Many SBP clients appealed FEMA decisions but were not sure how 
to mount the strongest appeal or how to advocate for themselves 
throughout the process. SBP has helped hundreds of families in this 
position, and many of whom became our clients precisely because they 
were improperly denied, settled for an amount less than what they 
needed, or they simply couldn't take any more delay.
    For this reason our team has created information campaigns and 
training tools to help more people access all the assistance they need 
and are eligible for after disasters. We'd be happy to work with 
members of this committee to spread those messages more widely before, 
during, and after future disasters.
    SBP would also recommend a simplification of the application, 
review, and award determination process. A single application for FEMA 
Individual Assistance and SBA, that collects sufficient information to 
qualify an applicant for all eligible assistance from each source could 
be an interesting pilot opportunity in 2020. Many state and local 
governments would be willing partners in testing a simple, innovative 
solution like this.

    Question 2. Your testimony noted a damage assessment analysis SBP 
conducted in Florida following Hurricane Michael. Can you talk about 
how that worked and what you found?
    Answer. After Hurricane Michael made landfall in Florida, SBP began 
rebuilding quickly with our local partners. To ensure we were serving 
those who needed help the most signed a routine data sharing agreement 
with FEMA such that we could access individual assistance award amounts 
(and denials) along with the addresses of those impacted properties. 
From there, SBP formed a partnership with the National Insurance Crime 
Bureau who allowed SBP access to its extensive library of post-event 
flyover imagery of several communities in the Florida panhandle after 
Hurricane Michael. SBP detailed a team of three of its own employee as 
analysts who compared individual award amounts to images of roughly 
2400 properties in a matter of days. We used what damage we could see 
in the aerial imagery versus the award amount. in order to determine 
whether an appeal may be worthwhile. We believe as many as 200 of the 
2400 properties we inspected were potentially under-compensated. We 
presented this to leaders at FEMA headquarters and Region IV with state 
leaders. We later shared the information with local leaders who were 
able to get seven properties reinspected--five of which yielded a 
higher award ($3,000+ in each case) amount for the survivor. Imagine 
the impact this analysis could have at scale.
    SBP has assembled a group of technology and insurance industry 
partners who are eager to help design and test tools for this kind of 
analysis in partnership with FEMA and with state and local governments. 
We would appreciate this committee's support in asking FEMA to pilot 
and test these methods of information collection and analysis in 
select, partner communities in 2020. Modern tools and techniques can 
help disaster survivors receive the assistance they need in a more 
prompt and predictable manner.

    Question 3. SBP has a history in working in disaster-impacted 
communities that have qualified for CDBG-DR funding. In your 
experience, how long does it typically take for HUD CDBG-DR funds to 
directly impact survivors? How long does it typically take these 
programs to serve all eligible applicants?
    Answer. It routinely takes two years or longer for congressionally 
appropriated funds to reach the first eligible citizens in an affected 
community. Some programs four to five years to achieve scale where 
programs are able to serve hundreds or thousands of applicants 
simultaneously. CDBG-DR programs routinely take six or more years to 
serve all eligible applicants and most programs fail to achieve this 
outcome on any timeline. This occurs for two primary reasons: One, 
there often aren't enough resources to serve all eligible applicants. 
Second is that some eligible applicants will abandon the program due to 
inefficiency and delay. These funds are intended specifically for our 
most vulnerable friends and neighbors--those who can least afford 
delay--but the funds take years to arrive, and no predictability 
whatsoever around what or when assistance may be available.

    Question 4. Mr. May, you mentioned a public-private partnership 
model to possibly accelerate disaster recovery efforts, can you explain 
how that would work? Is there anything preventing it from working now?
    Answer. The biggest problem with long term recovery is the amount 
of time it takes (two years or more) for usable recovery funds to 
actually reach communities. The delay has real, lasting, sometimes 
irreversible effects on survivors and their communities. The longer 
assistance is delayed the more costly recovery becomes for survivors 
and, ultimately, for taxpayers as well. This need not be the case. 
Social impact capital can bridge the gap by investing in low to 
moderate income home repairs, and be reimbursed by CDBG-DR funds when 
the arrive years later.
    Once HUD announces an allocation for a grantee state or community, 
SBP would like to work with the impacted community to attract recovery 
investment and usable dollars to more quickly serve vulnerable 
populations. The fund will oversee or contract home repair services in 
bulk, making critical repairs early and reducing the total costs of 
repairs (early repairs are less expensive because they prevent homes 
falling into more extensive and expensive states of disrepair). The 
fund will then be reimbursed reasonable costs for eligible repairs when 
CDBG-DR funds become available to local government. This approach could 
remove the human toll of delayed recovery, transforming human suffering 
into a modest investment vehicle awaiting repayment. The Recovery 
Acceleration Fund can assist families and individuals who cannot wait 
years on government assistance to reach them, quickly stabilizing 
neighborhoods and attracting new and additional economic activity and 
investment.
    SBP and its partners will use private donations and social impact 
capital to make and contract home repairs on behalf of low and moderate 
income families immediately after disasters. Earlier intervention and 
bulk-bid negotiating power can quick, long term repairs less expensive 
in total compared to traditional rebuilding programs. Quicker 
rebuilding restores hope in the community and makes increases the 
likelihood that others will rebuild helping to stabilize impacted 
communities and neighborhoods. Finally, and most importantly, faster 
rebuilding prevents unnecessary suffering and delay in the recovery of 
low to moderate income families. We are testing this in the city of 
Houston a small scale now and we expect it to be successful. Our 
activities are compliant with current regulation. However, greater 
clarity from HUD about the acceptability and value of such an approach 
would allow us to more easily identify and partner with state and local 
leaders, and would allow us to more quickly attract investment at 
scale.
    SBP will implement the Recovery Acceleration Fund in partnership 
with one to three communities in 2020. Support from members of this 
committee may help us identify and discuss with the right leaders at 
HUD. This simple financial innovation that could provide tens of 
millions of workable dollars to communities reducing the costs of the 
assistance itself and radically outpacing the speed of traditional 
government assistance.

 Questions from Hon. Mark Meadows to Reese C. May, Chief Strategy and 
                Innovation Officer, St. Bernard Project

    Question 1. Mr. May, in in the Disaster Recover Reform Act, we 
enacted language to make clear a loan is not a duplication of benefits 
and made other changes to ensure the restrictions on duplication of 
benefits are more common-sense. Can you talk more about how such 
restrictions impact the work of organizations like yours to help more 
people?
    Answer. The more this committee can do to simplify access to and 
delivery of assistance, the better off disaster-impacted Americans will 
be. Simple, common sense reforms like the duplication of benefits issue 
is a welcome relief and we are thankful for members of this committee 
and the progress made through the passing of Disaster Recovery Reform 
Act. The exclusion of loans as duplicative within the benefits review 
will unlock hundreds of millions of dollars in assistance for survivors 
around the country and will aid in the restoration of devastated 
communities, repairing the homes and lives of American families.
    Still more can be done to simplify and we believe that a single 
application for SBA and FEMA assistance is a reasonable, achievable 
project that will simplify the process for millions of Americans 
affected by disasters each year.

    Question 2. Mr. May, you highlight challenges with FEMA's damage 
assessment process. Can you talk more about the sampling done using the 
imagery provided by the National Insurance Crime Bureau and what it may 
say about the current process for assessments? Would moving to the 
insurance model of using technology potentially be more accurate and 
reduce the amount of staff needed for the assessments?
    Answer. After Hurricane Michael made landfall, SBP began rebuilding 
quickly with local partners. To ensure we were serving those who needed 
help the most we signed a routine data sharing agreement with FEMA that 
allowed SBP to better understand the distribution of individual 
assistance awards (and denials) with specific impacted property 
addresses. From there, SBP was able to form a partnership with the 
National Insurance Crime Bureau who allowed SBP access to its extensive 
library of post-event flyover imagery of several communities in the 
Florida panhandle after Hurricane Michael. SBP detailed a team of 3 
analysts who compared individual awards to images of roughly 2400 
properties in a matter of days. We used what damage we could see in the 
aerial imagery versus the award amount. in order to determine whether 
an appeal may be worthwhile. We believe as many as 200 of the 24000 
properties we inspected were potentially under-compensated. We 
presented this to leaders at FEMA HQ, in the region, and with state 
leaders. We later shared the information with local leaders who were 
able to get seven properties reinspected--five of which yielded a 
higher award ($3,000+ in each case) amount for the survivor. Imagine 
the impact this analysis could have at scale.
    Presently, FEMA's primary method for assessing damage to homes 
after disasters is to have an individual inspector visit homes in 
person, one at a time, with paper and pen or a tablet device to assess 
damage. This method is slow, inconsistent, inaccurate and subject to 
potential error and bias. We believe that SBP's approach after 
Hurricane Michael--using similar technology and method of analysis 
offers a potential tool for immediate use at FEMA. This could allow 
FEMA to more quickly determine maximum grant awards (where homes are 
totally destroyed). I also provides a method to audit and monitor the 
consistency and accuracy of inspection outcomes across inspectors/
neighborhoods. In the near term, use of these tools can help FEMA 
provide quicker, more accurate, and more transparent assistance to 
communities while also improving recovery outcomes for survivors. In 
the long term, a wider implementation of powerful technology could 
reduce FEMA's staffing needs, allowing the agency to collect more and 
better information more quickly using technology instead of individual 
inspectors.
    SBP has assembled a group of technology and insurance industry 
partners who are eager to help design and test tools for this kind of 
analysis in partnership with FEMA and with state and local governments. 
Modern tools and techniques can help disaster survivors receive the 
assistance they need in a more prompt and predictable manner. We would 
appreciate this committee's support and participation in asking FEMA to 
pilot and test these methods of information collection and analysis in 
select, partner communities in 2020.

 Questions from Hon. Peter A. DeFazio to David Woll, Principal Deputy 
Assistant Secretary for Community Planning and Development, Department 
                    of Housing and Urban Development

    Question 1. When does the Department of Housing and Urban 
Development (HUD) plan to allocate the Community Development Block 
Grant Disaster Recovery (CDBG-DR) mitigation funds previously awarded 
to Puerto Rico?
    Answer. On April 10, 2018, HUD published allocations for all 
grantees receiving CDBG-DR mitigation funding (CDBG-MIT). Further, 
mitigation grant requirements have been issued for all 16 CDBG-MIT 
grantees. The first CDBG-MIT Action Plans are due from a portion of 
these grantees on February 3, 2020.

    Question 2. To what extent do the 2017 CDBG-DR grantees have grant 
agreements in place that allow them to access their funds for unmet 
needs?
    Answer. Grant agreements have been executed for all grantees that 
received funds for 2017 disasters. Florida, Puerto Rico, Texas, and the 
U.S. Virgin Islands (USVI) all have executed grant agreements for their 
2017 allocation under Public Law 115-56. All of the grantees that 
received funds for unmet needs for disasters that occurred in 2017 
under Public Law 115-123--California, Florida, Georgia, Missouri, 
Texas, Puerto Rico and the USVI--have executed grant agreements or have 
received grant agreements from HUD for execution.

    Question 3. What steps has HUD taken to monitor the 2017 CDBG-DR 
grants awarded to Puerto Rico, Texas, the U.S. Virgin Islands, and 
Florida?
    Answer. In FY19, HUD completed 35 monitoring visits and 24 
technical assistance engagements with its CDBG-DR grantees. Texas, 
Florida, Puerto Rico, and USVI were each monitored onsite at least 
twice, and HUD completed several other onsite and remote reviews in FY 
2019. HUD has also appointed a Federal Financial Monitor (FFM) to 
enhance its oversight of HUD funding for recovery by Puerto Rico and 
the U.S. Virgin Islands, and is building staff to support the work of 
the FFM. Additionally, the Office of Community Planning and Development 
(CPD), which administers CDBG-DR funds, is coordinating with HUD's 
Departmental Enforcement Center (DEC) to establish a new process for 
ongoing monitoring of voucher draws for the Department's highest risk 
2017 grantees. CPD and the DEC are finalizing the protocols for this 
process and CDP has recently provided DEC staff with training in 
voucher reviews through its Disaster Recovery Grant Reporting system.

    Question 4. What steps has HUD taken to conduct workforce planning 
for the division that manages CDBG-DR to ensure that it has sufficient 
staff to manage a growing portfolio of grants?
    Answer. CPD conducted a workload analysis of the Disaster Recovery 
and Special Issues Division, which included incoming grants for CDBG-
MIT, 2018 disasters, and 2019 disasters. In FY2018, the Disaster 
Recovery and Special Issues Division was comprised of 22 staff. Over 
the course of FY2019 and 2020 the Division has added an additional 25 
staff, more than doubling the Division's staffing capacity. HUD has 
also outstationed an increasing portion of the staff from HUD 
Headquarters to our Field Offices, building regional grants management 
teams in New York, Atlanta, Fort Worth and San Francisco, in order to 
provide our grantees with more ready access to HUD resources and 
expertise. Additionally, CPD developed and implemented a robust 
training series for division staff to ensure the division not only has 
sufficient staff, but that the staff are trained to manage the disaster 
and mitigation grants.

Questions from Hon. Dina Titus, on behalf of Hon. Steve Cohen, to David 
 Woll, Principal Deputy Assistant Secretary for Community Planning and 
        Development, Department of Housing and Urban Development

The West Junction/Walker Homes Coalition in Memphis has raised concerns 
regarding the release of HUD National Disaster Resiliency Grant funds 
(B-13-US-470002) for the South Cypress Creek Watershed and West 
Junction Neighborhood Redevelopment project. The following questions 
are based on those concerns:

    Question 1. When were impacted residents informed of your findings 
of no significant impact?
    Answer. The recipient, not HUD, makes findings related to 
environmental review. A combined public notice fora Request for Release 
of Funds (RROF) and Finding of No Significant Impact (FONSI) were 
advertised onSeptember 19, 2019, in the Tri-State Defender, Memphis 
Flyer; on September 20, 2019, in the DailyNews; and in LaPrensa Latina 
on September 22, 2019. The advertisement ran for 22 days in 
localpublications.

    Question 2. When were impacted residents notified about the 
completion of the environmental review results?
    Answer. See answer above on date of the RROF and FONSI notices.

    Question 3. What will the money allocated for South Cypress Creek 
watershed be used for?
    Answer. It will be used for watershed restoration within South 
Cypress Creek Basin and redevelopment in the West Junction 
Neighborhood. The project will expand storm water capacity by removing 
obstructions, stabilizing the stream banks, and installing stormwater 
management facilities. These treatments will provide storage and 
detention of peak flows to reduce the flood stage and adjacent 
properties risk of flooding. Neighborhood Redevelopment Activities will 
include a property acquisition program to purchase existing at-risk 
properties located below an elevation of 231.00 feet above sea level, 
within the floodplain in the West Junction neighborhood. The 
redevelopment effort also includes the development of strategies for 
community redevelopment projects such as allowing residents the 
opportunity to expand their existing properties by acquiring adjacent 
vacant lots as well as reclaiming vacant lots to introduce uses like 
food production, community park space, stormwater retention, and 
expansion of natural areas.

    Question 4. Please provide a copy of the environmental review 
results.
    Answer. Due to the size of the file, access is provided through 
this hyperlink. https://www.dropbox.com/sh/4ce16es7lxa314h/
AACfia9mNuNPzIu7ywWu4KMja?dl=0

    Question 5. Why was an environmental impact study not conducted?
    Answer. An environmental impact study was not required due to the 
FONSI determination based on the Environmental Assessment.

    Question 6. This Southwest Memphis low-income community is very 
vulnerable to flooding from both high water levels in South Cypress 
Creek and localized flooding from severe rain events in addition to 
vacancy and blight.
    a.  What steps are being taken to assure the community is not at a 
high-risk of flooding in the future and how are un-met needs being 
taken care of?
    Answer. The redevelopment effort also includes the development of 
strategies for community redevelopment projects such as allowing 
residents the opportunity to expand their existing properties by 
acquiring adjacent vacant lots as well as reclaiming vacant lots to 
introduce uses like stormwater retention, and expansion of natural 
areas that can help with flood risk reduction, as well as meeting other 
community needs such as food production and community park space.

    Question 7. Would HUD representatives be willing to meet with the 
West Junction/Walker Homes residents to provide an explanation and 
address their concerns?
    Answer. Yes, HUD staff can be available for a teleconference.

   Question from Hon. Garret Graves to David Woll, Principal Deputy 
Assistant Secretary for Community Planning and Development, Department 
                    of Housing and Urban Development

    Question 1. A major priority of this committee was fixing 
Duplication of Benefits conflicts within the Stafford Act in DRRA. 
However, when HUD published guidance in the Federal Register, they 
created a new eligibility requirement for assistance.
    Can you comment on this new 120% AMI requirement for individuals to 
be eligible for duplication of benefits relief, when the law states 
very clearly that loans are not to be duplicative of a grant for 
anyone?
    Answer. Section 1210 of the Disaster Recovery Reform Act (DRRA) 
prohibits treatment of a loan as a duplication of benefit under Section 
312 of the Stafford Act for certain disasters. However, the DRRA is 
silent with respect to whether or not agencies should make available 
Federal grant funds for the purpose of paying down a Federal loan 
provided for disaster losses. Per FEMA's implementation guidance, 
``whether particular grant funds are available for the purpose of 
paying down a loan provided for disaster losses is a determination 
reserved for the grant awarding agency, pursuant to its statutory 
program authorities and appropriations.'' (https://www.fema.gov/media-
library-data/1551126628749-68761acce84dda93f590eb
91676ce63e/Section_1210_FactSheet_Final_Draft_2019.pdf)
    CDBG-DR funds are provided for long-term disaster recovery to 
assist activities under Title I of the Housing and Community 
Development Act of 1974. The primary objective of Title I is the 
development of viable communities by the provision of decent housing 
and a suitable living environment and expanding economic opportunities, 
principally for persons of low and moderate income. In authorizing the 
use of CDBG-DR funds for the reimbursement of costs paid with 
subsidized loans, the Department must ensure that a grantee's CDBG-DR 
resources will remain available principally to benefit low- and 
moderate-income persons. The Department notes that many CDBG-DR 
grantees face challenges in meeting this requirement. The Department 
recognizes, however, that CDBG-DR funds are provided as a federal block 
grant to States and local governments with an understanding that these 
grantees are best positioned to address the long-term disaster recovery 
needs of their communities by working within the requirements of the 
CDBG program, including the overall low- and moderate-income benefit 
requirement and the requirement that the use of all funds meet a 
national objective.
    As such, HUD's policy is consistent within the parameters of the 
DRRA, Title I of the Housing and Community Development Act, and various 
CDBG-DR appropriations, as enacted.

Questions from Hon. Stacey E. Plaskett to David Woll, Principal Deputy 
Assistant Secretary for Community Planning and Development, Department 
                    of Housing and Urban Development

    Question 1. It has been over eight months since HUD approved the 
Virgin Islands' action plan for the 2nd tranche of CDBG-DR, covering 
unmet needs, on March 1, 2019. However, HUD has still not yet entered 
into a grant agreement with the government of the Virgin Islands to 
allow for disbursement of those funds to the territory. The 1st tranche 
of CDBG-DR funds, covering unmet needs, took 72 days from action plan 
approval to execution of grant agreement.
    Numerous key projects rely on funds that span both tranches. In 
addition, over $100 million in matching funds required for FEMA Public 
Assistance projects already underway are in the second tranche.
    Question 1a. When will HUD be entering into a grant agreement with 
the government of Virgin Islands to make the second tranche of unmet 
needs funding available for the recovery of the territory?
    Answer. HUD has provided the grant agreement to the U.S. Virgin 
Islands (USVI) for the second allocation and once returned by the USVI, 
will act quickly to make these funds available. It is important to note 
that the USVI has full access to its initial allocation of $242,684,000 
and, as of December 31, 2019, had expended $1,137,255 of that funding. 
HUD has also provided the USVI with a grant agreement for that will 
allow it to access its $779,217,000 second allocation.

    Question 1b. Why has it taken HUD over eight months to put a grant 
agreement with the territory in place for tranche 2 if it took only 72 
days from action plan approval to execution of grant agreement for 
tranche 1?
    Answer. HUD has made a number of revisions to its CDBG-DR grant 
agreement in order to incorporate all of the appropriate grant 
conditions to address the unmitigated high risks identified for each 
grantee, including the USVI.

    Question 1c. Since HUD has not yet made tranche 2 available to the 
Virgin Islands more than two years after hurricanes Irma and Maria, and 
more than one year after execution of the tranche 1 grant agreement on 
September 20, 2018, will HUD be open to extending the deadline for 
expenditure of tranche 2 funds beyond 6 years from September 20, 2018?
    Answer. The expenditure deadline for each tranche is established in 
the applicable Federal Register notice. The deadline is administrative, 
not statutory, and HUD will review deadlines as needed.

    Question 2. When HUD issued its Federal Register Notice for the 3rd 
tranche of CDBG-DR for the Virgin Islands, covering mitigation 
activities, on September 4, 2019, it excluded projects related to the 
electric grid until after HUD publishes its Federal Register Notice for 
tranche 4, the additional CDBG-DR funding set aside for electric system 
improvements in Hurricane Maria areas.
    When will HUD release the Federal Register Notice for tranche 4 so 
that the Virgin Islands action plan for the mitigation funding may 
include projects related to the electric grid?
    Answer. A federal investment of this magnitude requires a 
comprehensive plan for each jurisdiction's electrical power systems. 
HUD's expertise is not in energy delivery and the Department has been 
working closely with FEMA and the Department of Energy to better 
understand the future energy needs of both Puerto Rico and the USVI. 
HUD also acknowledges the financial and capacity concerns surrounding 
each grantee's current energy provider which also must be addressed.

    Question 3. Of the $2 billion in CDBG-DR funds set aside for 
electric system improvements in Hurricane Maria areas (tranche 4), HUD 
allocated only $67.6 million for the Virgin Islands. $67.6 million out 
of the $2 billion total amounts to less than 4% of the funds. 
Meanwhile, power generation capacity in the Virgin Islands is such that 
residential rates run as high as 47 cents per kilowatt-hour.
    Question 3a. Why was so little allocated for electric system 
improvements in the Virgin Islands? Is there anything HUD can do to 
remedy this imbalance?
    Answer. An April 10, 2018, memo drafted by HUD's Office of Policy 
Development and Research outlines the calculations for allocations of 
CDBG-DR funding to address unmet needs, mitigation, and electrical 
power systems. The $2 billion in electrical power systems funding was 
directed only to areas impacted by Hurricane Maria and was allocated 
between the U.S. Virgin Islands and Puerto Rico based on their relative 
share of the FEMA Public Assistance estimates for Category F--Utilities 
as of March 30, 2018. HUD made the allocation using a methodology 
consistent with past practice on how to allocate funding for 
infrastructure need, depending on FEMA cost estimates. HUD does not 
agree that this method created an imbalance. Both the U.S. Virgin 
Islands and Puerto Rico had severe damage to their electrical grids. On 
a per capita basis the U.S. Virgin Islands receives a larger allocation 
for the electric grid funding, $631 per person for the U.S. Virgin 
Islands versus $605 per person for Puerto Rico. When looking at the 
full amount allocated to the U.S. Virgin Islands for unmet needs and 
mitigation allocated to date, $1.917 billion, their per capita amount 
is $17,874, which is nearly three times the $6,330 per capita allocated 
for Puerto Rico.

    Question 3b. If any of the $2 billion total goes unspent by other 
grantees, will HUD re-allocate the remaining unspent funds to the 
Virgin Islands, which needs additional funds to enhance and improve its 
electric systems?
    Answer. It is too premature to discuss unspent balances. The U.S. 
Virgin Islands has been allocated $1.9 billion for recovery and 
mitigation, and of the $242,684,000 already available to them has only 
expended $1,137,255 as of December 31, 2019. HUD has also provided the 
USVI with a grant agreement for that will allow it to access the full 
amount of its $779,217,000 second allocation.

    Question 4. After Hurricanes Irma and Maria in the Virgin Islands, 
some people who had insurance did not have enough to cover all costs. 
Some of them took out a Small Business Administration (SBA) loan to 
begin recovery and work on their homes right away. Some of those who 
took out SBA loans to help cover the gap are still saddled with those 
loans, and many of these individuals had completely destroyed homes.
    Under Section 1210 of the Disaster Recovery Reform Act of 2018, 
governors have the ability to request a waiver of Stafford Act 
prohibitions regarding duplication of federal benefits, if it is in the 
public interest and will not result in waste, fraud, and abuse. In 
carrying out this authority, the Act clarifies that a loan cannot be 
determined to be a duplication of assistance.
    With this new provision in federal law, will those who took out an 
SBA loan right after a major disaster be able to use any Community 
Development Block Grant funds that they receive to repay their SBA 
loan?
    Answer. Section 1210 of the Disaster Recovery Reform Act (DRRA) 
prohibits treatment of a loan as a duplication of benefit under Section 
312 of the Stafford Act for certain disasters. However, the DRRA is 
silent with respect to whether or not agencies should make available 
Federal grant funds for the purpose of paying down a Federal loan 
provided for disaster losses. Per FEMA's implementation guidance, 
``whether particular grant funds are available for the purpose of 
paying down a loan provided for disaster losses is a determination 
reserved for the grant awarding agency, pursuant to its statutory 
program authorities and appropriations.'' (https://www.fema.gov/media-
library-data/1551126628749-68761acce84dda93f590eb
91676ce63e/Section_1210_FactSheet_Final_Draft_2019.pdf)
    CDBG-DR funds are provided for long-term disaster recovery to 
assist activities under Title I of the Housing and Community 
Development Act of 1974. The primary objective of Title I is the 
development of viable communities by the provision of decent housing 
and a suitable living environment and expanding economic opportunities, 
principally for persons of low and moderate income. In authorizing the 
use of CDBG-DR funds for the reimbursement of costs paid with 
subsidized loans, the Department must ensure that a grantee's CDBG-DR 
resources will remain available principally to benefit low- and 
moderate-income persons. The Department notes that many CDBG-DR 
grantees face challenges in meeting this requirement. The Department 
recognizes, however, that CDBG-DR funds are provided as a federal block 
grant to States and local governments with an understanding that these 
grantees are best positioned to address the long-term disaster recovery 
needs of their communities by working within the requirements of the 
CDBG program, including the overall low- and moderate-income benefit 
requirement and the requirement that the use of all funds meet a 
national objective.
    As such, HUD's policy is consistent within the parameters of the 
DRRA, Title I of the Housing and Community Development Act, and various 
CDBG-DR appropriations, as enacted.

                                    
</pre></body></html>
